<html>
<title> - CONFIRMATION HEARING ON THE NOMINATION OF HON. JEFF SESSIONS TO BE ATTORNEY GENERAL OF THE UNITED STATES</title>
<body><pre>[Senate Hearing 115-207]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-207

                      CONFIRMATION HEARING ON THE
                    NOMINATION OF HON. JEFF SESSIONS
                         TO BE ATTORNEY GENERAL
                          OF THE UNITED STATES

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                        JANUARY 10 and 11, 2017

                               ----------                              

                           Serial No. J-115-1

                               ----------                              

         Printed for the use of the Committee on the Judiciary
         
         
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        
         
         
      Available via the World Wide Web: http://www.fdsys.gov
                    
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
28-637 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7d1a0d123d1e080e091518110d531e121053">[email&#160;protected]</a> 
                   


                       COMMITTEE ON THE JUDICIARY

                  CHARLES E. GRASSLEY, Iowa, Chairman
ORRIN G. HATCH, Utah                 DIANNE FEINSTEIN, California,     
LINDSEY O. GRAHAM, South Carolina        Ranking Member
JOHN CORNYN, Texas                   PATRICK J. LEAHY, Vermont
MICHAEL S. LEE, Utah                 RICHARD J. DURBIN, Illinois
TED CRUZ, Texas                      SHELDON WHITEHOUSE, Rhode Island
BEN SASSE, Nebraska                  AMY KLOBUCHAR, Minnesota
JEFF FLAKE, Arizona                  AL FRANKEN, Minnesota
MIKE CRAPO, Idaho                    CHRISTOPHER A. COONS, Delaware
THOM TILLIS, North Carolina          RICHARD BLUMENTHAL, Connecticut
JOHN KENNEDY, Louisiana              MAZIE K. HIRONO, Hawaii
            Kolan L. Davis, Chief Counsel and Staff Director
       Jennifer Duck, Democratic Chief Counsel and Staff Director
                            
                            C O N T E N T S

                              ----------                              

      JANUARY 10, 2017, 9:30 A.M., and JANUARY 11, 2017, 9:35 A.M.

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page
Feinstein, Hon. Dianne, a U.S. Senator from the State of 
  California:
    January 10, 2017, opening statement..........................     5
Grassley, Hon. Charles E., a U.S. Senator from the State of Iowa:
    January 10, 2017, opening statement..........................     2
    January 10, 2017, prepared statement.........................   370
    January 11, 2017, opening statement..........................   153
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont:
    January 10, 2017, opening statement..........................     1
    January 10, 2017, prepared statement.........................   374
Whitehouse, Hon. Sheldon, a U.S. Senator from the State of Rhode 
  Island:
    January 11, 2017, opening statement..........................   154

                               PRESENTERS

Collins, Hon. Susan M., a U.S. Senator from the State of Maine 
  presenting Hon. Jeff Sessions, a U.S. Senator from the State of 
  Alabama and Nominee to be Attorney General of the United States     9
Shelby, Hon. Richard, a U.S. Senator from the State of Alabama 
  presenting Hon. Jeff Sessions, a U.S. Senator from the State of 
  Alabama and Nominee to be Attorney General of the United States     8

                        STATEMENT OF THE NOMINEE

Witness List.....................................................   219
Sessions, Hon. Jeff, a U.S. Senator from the State of Alabama and 
  Nominee to be Attorney General of the United States............    10
    prepared statement...........................................   261
    questionnaire and biographical information...................   221
    attachment I.................................................   254
    attachment II................................................   256
    attachment III...............................................   258

                      STATEMENTS OF THE WITNESSES

Booker, Hon. Cory A., a U.S. Senator from the State of New Jersey   207
    prepared statement...........................................   334
Brooks, Cornell William, President and Chief Executive Officer, 
  National Association for the Advancement of Colored People, 
  Baltimore, Maryland............................................   165
    prepared statement...........................................   290
Canterbury, Chuck, National President, Grand Lodge, Fraternal 
  Order of Police, Washington, DC................................   167
    prepared statement...........................................   309
Cole, David, National Legal Director, American Civil Liberties 
  Union, Washington, DC..........................................   169
    prepared statement...........................................   316
Huntley, Willie J., Jr., former Assistant U.S. Attorney, Southern 
  District of Alabama, Mobile, Alabama...........................   209
    prepared statement...........................................   337
Kirsanow, Peter, Commissioner, U.S. Commission on Civil Rights, 
  Cleveland, Ohio................................................   160
    prepared statement...........................................   278
Lewis, Hon. John, a Representative in Congress from the State of 
  Georgia........................................................   210
    prepared statement...........................................   342
Mukasey, Hon. Michael B., former Attorney General, U.S. 
  Department of Justice, Washington, DC..........................   157
    prepared statement...........................................   268
Richmond, Hon. Cedric L., a Representative in Congress from the 
  State of Louisiana, and Chair, Congressional Black Caucus......   213
    prepared statement...........................................   349
Sepich, Jayann, Co-Founder, DNA Saves, Carlsbad, New Mexico......   163
    prepared statement...........................................   284
Seroyer, Hon. Jesse, Jr., former U.S. Marshal, Middle District of 
  Alabama, Montgomery, Alabama...................................   212
    prepared statement...........................................   347
Smith, William, former Chief Counsel, Administrative Oversight 
  and the Courts Subcommittee, U.S. Senate Committee on the 
  Judiciary, Washington, DC......................................   216
    prepared statement...........................................   365
Swadhin, Amita, Founder, Mirror Memoirs, Los Angeles, California.   161
    prepared statement...........................................   281
Thompson, Hon. Larry, former Deputy Attorney General, U.S. 
  Department of Justice, Washington, DC..........................   170
    prepared statement...........................................   331
Vazquez, Oscar, former DREAMer, U.S. Army veteran, Fort Worth, 
  Texas..........................................................   158
    prepared statement...........................................   273

                               QUESTIONS

Questions submitted to Hon. Jeff Sessions by:
    Senator Blumenthal...........................................   375
    Follow-up questions submitted by Senator Blumenthal..........   385
    Senator Coons................................................   388
    Follow-up questions submitted by Senator Coons...............   394
    Senator Durbin...............................................   399
    Senator Feinstein............................................   417
    Follow-up questions submitted by Senator Feinstein...........   440
    Additional follow-up questions submitted by Senator Feinstein   447
    Senator Flake................................................   451
    Senator Franken..............................................   452
    Follow-up questions submitted by Senator Franken.............   473
    Senator Graham...............................................   487
    Senator Grassley.............................................   488
    Senator Hirono...............................................   494
    Follow-up questions submitted by Senator Hirono..............   496
    Senator Klobuchar............................................   498
    Senator Leahy................................................   501
    Follow-up questions submitted by Senator Leahy...............   522
    Senator Tillis...............................................   605
    Senator Whitehouse...........................................   606

                                ANSWERS

Responses of Hon. Jeff Sessions to questions submitted by:
    Senator Blumenthal...........................................   615
    Follow-up questions submitted by Senator Blumenthal..........   637
    Senator Coons................................................   641
    Follow-up questions submitted by Senator Coons...............   652
    Senator Durbin...............................................   659
    Senator Feinstein............................................   688
    Follow-up questions submitted by Senator Feinstein...........   725
    Additional follow-up questions submitted by Senator Feinstein   738
    Senator Flake................................................   743
    Senator Franken..............................................   744
    Follow-up questions submitted by Senator Franken.............   760
    Senator Graham...............................................   779
    Senator Grassley.............................................   780
    Senator Hirono...............................................   789
    Follow-up questions submitted by Senator Hirono..............   792
    Senator Klobuchar............................................   796
    Senator Leahy................................................   801
    Follow-up questions submitted by Senator Leahy...............   839
    Senator Tillis...............................................   851
    Senator Whitehouse...........................................   852

LETTERS RECEIVED WITH REGARD TO THE NOMINATION OF HON. JEFF SESSIONS TO 
                BE ATTORNEY GENERAL OF THE UNITED STATES

Access Now et al., January 9, 2017...............................  1243
Acosta, Hon. R. Alexander, former Assistant Attorney General, 
  Civil Rights Division, U.S. Department of Justice, et al., 
  December 12, 2016..............................................   999
Acosta, Hon. R. Alexander, former U.S. Attorney, Southern 
  District of Florida, U.S. Department of Justice, et al., 
  December 16, 2016..............................................  1017
Adams, Christian, President, Public Interest Legal Foundation 
  (PILF), Plainfield, Indiana, January 5, 2017...................   867
Advocates for Youth, Washington, DC, January 13, 2017............   872
Affinity Bar Associations, Washington, DC, January 9, 2017.......   877
African American Ministers In Action (AAMIA), Washington, DC, 
  January 9, 2017................................................   880
Alliance for Justice, Washington, DC, January 9, 2017............   886
Alliance for Justice et al., January 9, 2017.....................  1240
Amazon Watch et al., January 9, 2017.............................  1060
American Association for Access, Equity and Diversity (AAAED), 
  Washington, DC, January 9, 2017................................   889
American Association of People with Disabilities, Washington, DC, 
  et al., January 10, 2017.......................................   970
American Center for Law and Justice (ACLJ), Washington, DC, 
  December 19, 2016..............................................   893
American Federation of Labor and Congress of Industrial 
  Organizations (AFL-CIO), Washington, DC, January 13, 2017......   879
American Federation of State, County and Municipal Employees, 
  AFL-CIO (AFSCME), Washington, DC, January 13, 2017.............   884
American Gaming Association (AGA), Washington, DC, January 9, 
  2017...........................................................   895
Americans United for Separation of Church and State, Washington, 
  DC, January 9, 2017, letter....................................   897
Anderson, Kimberly K., former Legislative Counsel to Hon. Jeff 
  Sessions, a U.S. Senator from the State of Alabama, U.S. Senate 
  Committee on the Judiciary, et al., January 6, 2017............  1006
Anti-Defamation League (ADL), New York, New York, January 9, 2017   900
Armenian Assembly of America, Washington, DC, January 9, 2017....   915
Ashcroft, Hon. John D., former Attorney General, U.S. Department 
  of Justice, et al., December 5, 2016...........................  1002
Association of Federal Narcotics Agents (AFNA), Ashburn, 
  Virginia, January 16, 2017.....................................   917
Bader, Cheryl, Associate Clinical Professor of Law, Fordham 
  University School of Law, New York, New York, et al., January 
  9, 2017........................................................  1104
Bennett, Hon. William J., former Director, National Drug Control 
  Policy, et al., December 5, 2016...............................  1004
Bill of Rights Defense Committee and Defending Dissent 
  Foundation,
  Washington, DC, January 9, 2016................................   918
Bouchard, Michael J., Sheriff, Oakland County, Pontiac, MI, and 
  Vice President, Major County Sheriffs' Association (MCSA), 
  November 18, 2016..............................................   923
Boys and Girls Clubs of America, Washington, DC, January 6, 2017.   924
Bus Federation, The, Portland, Oregon, January 9, 2017...........  1220
California Down Syndrome Advocacy Coalition (CDAC), January 2, 
  2017...........................................................   925
California State Sheriffs' Association (CSSA), Sacramento, 
  California, December 20, 2016..................................   927
Citizens Against Legalizing Marijuana (CALM), Carmichael, 
  California,
  December 9, 2016...............................................   928
City of Seattle, Washington, Hon. Edward B. Murray, Mayor, et 
  al., January 10, 2017..........................................  1116
City of West Hollywood, California, Hon. Lauren Meister, Mayor, 
  January 9, 2017................................................   929
Coalition on Human Needs, Washington, DC, January 10, 2017.......   936
Cobb, Hon. Sue Bell, former Alabama Supreme Court Chief Justice, 
  Pike Road, Alabama.............................................  1045
Communications Workers of America (CWA), Washington, DC, January 
  9, 2017........................................................   939
Community Anti-Drug Coalitions of America (CADCA), Alexandria, 
  Virginia, December 21, 2016....................................   941
Concerned Women for America Legislative Action Committee, Penny 
  Young Nance, Chief Executive Officer and President, et al., 
  January 5, 2017................................................   931
Congressional Tri-Caucus: the Congressional Black Caucus, the 
  Congressional Asian Pacific American Caucus, and the 
  Congressional Hispanic Caucus; Washington, DC, January 9, 2017.   942
Constitutional Accountability Center, Washington, DC, January 6, 
  2017...........................................................   947
Council for Citizens Against Government Waste (CCAGW), 
  Washington, DC, January 9, 2017................................   959
Council of Parent Attorneys and Advocates (COPAA), Towson, 
  Maryland, January 5, 2017......................................   960
Demos, Newton Center, Massachusetts, January 9, 2017.............   963
Drug Policy Alliance, Washington, DC, January 9, 2017............   973
Edington, Pat, Mobile, Alabama, January 6, 2017..................   975
Electronic Privacy Information Center (EPIC), Washington, DC, 
  January 9, 2017................................................   976
Family Research Council (FRC), Washington, DC, January 10, 2017..   981
Federal Law Enforcement Officers Association (FLEOA), Washington, 
  DC, November 28, 2016..........................................   982
Federation for American Immigration Reform (FAIR), Washington, 
  DC, January 5, 2017............................................   983
Feminist Majority Foundation, Beverly Hills, California, and 
  Arlington,
  Virginia, January 6, 2017......................................   985
Fishback, Ian, Major, U.S. Army, Retired, January 10, 2017, 
  statement regarding September 2005 letter......................   993
FORCE 100 and Memory of Victims Everywhere (MOVE), San Juan 
  Capistrano, California, December 9, 2016.......................   997
Freeh, Hon. Louis J., former Judge and former Director, Federal
  Bureau of Investigation, December 20, 2016.....................  1043
Friends Committee on National Legislation (FCNL), Washington, DC, 
  January 6, 2017................................................  1027
Fuentes, Jose A., former Attorney General, Government of Puerto 
  Rico, Washington, DC, January 10, 2017.........................  1031
Gillers, Stephen, Professor of Law, New York University School of 
  Law, New York, New York, January 6, 2017.......................  1033
Guinier, Lani, Author and Professor of Law, Harvard Law School, 
  Cambridge, Massachusetts, January 11, 2017.....................  1036
Horowitz, Michael, McLean, Virginia..............................  1047
Houston, J. Gorman, Jr., Birmingham, Alabama, December 13, 2016..  1064
Human Rights Campaign, Washington, DC, January 9, 2017...........  1051
Hutchinson, Darlene, Montgomery, Alabama, January 8, 2017........  1054
Innocence Project, Inc., New York, New York, January 17, 2017....  1056
International Association of Chiefs of Police (IACP), Alexandria, 
  Virginia, December 29, 2016....................................  1058
International Union of Police Associations, AFL-CIO, Sarasota, 
  Florida, November 21, 2016.....................................  1063
Kephart, Janice L., former Counsel, 9/11 Commission, former 
  Special Counsel to Hon. Jeff Sessions, a U.S. Senator from the 
  State of Alabama, U.S. Senate Committee on the Judiciary, and 
  former Counsel to Hon. Jon Kyl, a former U.S. Senator from the 
  State of Arizona, U.S. Senate Committee on the Judiciary, 
  November 20, 2016..............................................  1067
Khan, Khizr M., Charlottesville, Virginia, January 9, 2017.......  1069
Know Your IX and National Alliance to End Sexual Violence, 
  Washington, DC, January 6, 2016................................  1071
Lawyers' Committee for Civil Rights Under Law, John Nonna, Co-
  Chair, and James P. Joseph, Co-Chair, et al., January 9, 2017..  1077
Lawyers' Committee for Civil Rights Under Law, Kristen M. Clarke, 
  President and Executive Director, et al., January 9, 2017......  1087
Lawyers for Good Government (L4GG), January 9, 2017..............  1083
Leadership Conference on Civil and Human Rights, The, Washington, 
  DC, December 1, 2016...........................................  1094
Legal Aid At Work, San Francisco, California, January 5, 2017....  1102
Lieberman, Hon. Joseph I., a former U.S. Senator from the State 
  of Connecticut, January 6, 2017................................  1041
Liebman, James S., Professor of Law, Columbia Law School, New 
  York, New York, January 9, 2017................................  1110
Major Cities Chiefs Association, J. Thomas Manger, President, and 
  Chief of Police, Montgomery County Police Department, Maryland, 
  November 22, 2016..............................................  1114
Major County Sheriffs' Association (MCSA), Pontiac, Michigan, 
  January 6, 2017................................................  1115
Marquez, Denisse Rojas, New York, New York, January 9, 2017......   968
Michigan Sheriffs' Association, Terrence L. Jungel, Chief 
  Executive Officer and Executive Director, Lansing, Michigan, 
  December 20, 2016..............................................  1118
Minor, Hon. Richard J., District Attorney, Thirtieth Judicial 
  Circuit, Pell City, Alabama, December 10, 2016.................  1120
Nadler, Hon. Jerrold ``Jerry,'' a Representative in Congress from 
  the State of New York, January 6, 2017.........................   944
National Association for the Advancement of Colored People Legal 
  Defense and Educational Fund, Inc. (LDF), New York, New York, 
  and Washington, DC, January 9, 2017............................  1122
National Association of Assistant U.S. Attorneys (NAAUSA), 
  Woodbridge, Virginia, January 9, 2017..........................  1124
National Association of Latino Elected and Appointed Officials 
  (NALEO) and NALEO Educational Fund, Los Angeles, California, 
  January 11, 2017...............................................  1125
National Association of Police Organizations (NAPO), Alexandria, 
  Virginia, December 22, 2016....................................  1129
National Association of State Directors of Special Education 
  (NASDSE), Alexandria, Virginia, January 9, 2017................  1130
National Association of Women Lawyers (NAWL), Chicago, Illinois, 
  January 10, 2017...............................................  1131
National Bar Association (NBA), Washington, DC, January 10, 2017.  1132
National Center for Learning Disabilities (NCLD), New York, New 
  York, January 9, 2016..........................................  1137
National Center for Lesbian Rights (NCLR), Washington, DC, 
  January 17, 2017...............................................  1139
National Center for Missing and Exploited Children (NCMEC), 
  Alexandria, Virginia, December 15, 2016, letter to Hon. Jeff 
  Sessions.......................................................  1143
National Center for Missing and Exploited Children (NCMEC), 
  Alexandria, Virginia, December 22, 2016........................  1144
National Center for Transgender Equality, Washington, DC, January 
  9, 2016........................................................  1145
National Conference of Black Lawyers (NCBL), Washington, DC, 
  January 16, 2017...............................................  1147
National Education Association (NEA), Washington, DC, January 9, 
  2017...........................................................  1150
National Immigration Forum, Washington, DC, January 9, 2017......  1152
National Narcotic Officers' Associations' Coalition (NNOAC), 
  Washington, DC, letter to President-elect Donald J. Trump, 
  November 20, 2016..............................................  1153
National Religious Broadcasters (NRB), Washington, DC, January 9, 
  2017...........................................................  1155
National Shooting Sports Foundation (NSSF), Newtown, Connecticut, 
  January 9, 2017................................................  1156
National Task Force to End Sexual and Domestic Violence (NTF), 
  Seattle, Washington............................................  1157
National Urban League, New York, New York, January 9, 2017.......  1163
National Women's Law Center, Washington, DC, January 9, 2017.....  1166
New York City Bar Association, New York, New York, January 6, 
  2017...........................................................  1171
Olson, Theodore B., Washington, DC, January 4, 2017..............  1176
Pai, Ajit V., Washington, DC, January 11, 2017...................  1178
Patrick, Deval L., Boston, Massachusetts, January 3, 2017........  1179
People For the American Way (PFAW), Washington, DC, January 5, 
  2017...........................................................  1182
Reynolds, Gerald A., Louisville, Kentucky, November 28, 2016.....  1191
Ricci, Frank, Wallingford, Connecticut, January 7, 2017..........  1192
Rice, Hon. Condoleezza, former U.S. Secretary of State, Stanford, 
  California, January 9, 2017....................................  1038
Rotunda, Ronald D., and W. William Hodes, Esq., Orange, 
  California, January 6, 2017....................................  1194
Saltzburg, Stephen A., Attorney at Law, Washington, DC, et al., 
  January 7, 2017................................................  1199
Sanders, Hon. Hank, Alabama State Senate, Montgomery, Alabama, 
  January 6, 2017................................................  1204
Saxon, John D., P.C., Birmingham, Alabama, January 9, 2017.......  1207
Searcy, Steve M., Pike Road, Alabama, January 8, 2017............  1213
Sergeants Benevolent Association of the New York City Police 
  Department, New York, New York, January 5, 2017................  1214
Service Employees International Union (SEIU), Local 32BJ, January 
  6, 2017........................................................   991
Sikh Coalition, New York, New York, January 9, 2017..............  1215
Strange, Hon. Luther, Attorney General, State of Alabama, 
  Montgomery, Alabama, et al., December 16, 2016.................  1217
30 for 30 Campaign, National Black Leadership Commission on AIDS 
  (NBLCA), New York, New York, et al., January 6, 2017...........  1186
Thompson and Horton, LLP, Founding Members, Houston, Texas, 
  December 2, 2016...............................................  1222
Toure, Faya Rose, Civil Rights Attorney, Selma, Alabama, January 
  6, 2017........................................................  1229
Turner, Evelyn Hatch, Marion, Alabama, January 4, 2017...........  1234
Turner, Hon. Albert F., Perry County Commissioner, Marion, 
  Alabama........................................................  1232
UltraViolet, Nita Chaudhary and Shaunna Thomas, Co-Directors.....  1236
Valukas, Anton R., Chicago, Illinois, December 12, 2016..........  1238
Victims and Friends United, Phoenix, Arizona, December 8, 2016...  1249
Victims of Crime and Leniency of Alabama (VOCAL), Montgomery, 
  Alabama, December 5, 2016......................................  1251
Wainstein, Kenneth L., January 9, 2017...........................  1253
Wolf, Hon. Frank R., a former Representative in Congress from the 
  State of Virginia, January 9, 2017.............................  1040
Wyatt, Verna, Tennessee Voices for Victims, December 2, 2016.....  1255
Young Women's Christian Association of the United States of 
  America (YWCA USA), Washington, DC, January 10, 2017...........  1256

                MISCELLANEOUS SUBMISSIONS FOR THE RECORD

Alabama Ethics Commission, Montgomery, Alabama, July 10, 1996, 
  meeting minutes................................................  1258
Alabama State Bar Disciplinary Commission, Montgomery, Alabama, 
  February 16, 2000, final determination.........................  1261
Alabama State Bar Disciplinary Commission, Robert E. Lusk, Jr., 
  Assistant General Counsel, letter to Hon. Jeff Sessions, 
  Montgomery, Alabama, April 16, 1998............................  1340
American-Arab Anti-Discrimination Committee (ADC), Washington, 
  DC, statement..................................................  1277
American Immigration Lawyers Association (AILA), Washington, DC, 
  statement......................................................  1272
Asian Americans Advancing Justice, Washington, DC, statement.....  1282
Brazilian Worker Center, Inc., Allston, Massachusetts, statement.  1286
Brimmer, Esther, NAFSA: Association of International Educators, 
  Washington, DC, statement......................................  1300
Brnovich, Mark, ``Sessions a distinguished public servant who 
  will uphold the law,'' The Hill, January 9, 2017, article......  1287
Burkhart, Julie A., Trust Women Foundation, Wichita, Kansas, 
  statement......................................................  1289
Cason, Mike, ``Democratic leader in Alabama Senate praises Jeff 
  Sessions,'' AL.com, December 7, 2016, article..................  1293
Cassell, Paul G., and Steven J. Twist, ``Why Jeff Sessions, a 
  conservative attorney general, would be best for crime 
  victims,'' FoxNews.com, December 14, 2016, article.............  1295
Church World Service (CWS), New York, New York, statement........  1296
Council of Parent Attorneys and Advocates (COPAA), Towson, 
  Maryland, statement............................................  1297
Ford, Hon. Craig, Alabama State House of Representatives, 
  statement......................................................  1303
Haynes, Rev. Dr. Frederick Douglass, III, statement..............  1360
Hebert, J. Gerald, Joseph D. Rich, and William Yeomans, ``Jeff 
  Sessions says he handled these civil rights cases. He barely 
  touched them.'' The Washington Post, January 3, 2017, op-ed 
  article........................................................  1304
Hebert, J. Gerald, Washington, DC, supplemental statement........  1310
King, Coretta Scott, Martin Luther King, Jr., Center for 
  Nonviolent Social Change, Inc., Atlanta, Georgia, March 19, 
  1986, letter...................................................  1313
Krauss, Michael I., ``The Law Professors' Scandalous Statement 
  Against Jeff Sessions,'' Forbes, January 5, 2017, article......  1323
Lawyers' Committee for Civil Rights Under Law, Washington, DC, 
  statement......................................................  1328
Leadership Conference on Civil and Human Rights, The, Washington, 
  DC, statement..................................................  1306
Major Cities Chiefs Association, Washington, DC, statement.......  1345
Nance, Penny, ``Sessions will fight for women: Column,'' USA 
  Today, December 28, 2016, article..............................  1351
National Association for the Advancement of Colored People 
  (NAACP), Federal Legislative Civil Rights Report Card, 
  Washington, DC, January 17, 2017, addendum.....................  1346
National Association for the Advancement of Colored People Legal 
  Defense and Educational Fund, Inc. (LDF), New York, New York, 
  and Washington, DC, January 10, 2017, supplement...............  1349
National Association of Assistant U.S. Attorneys (NAAUSA), 
  Woodbridge, Virginia, statement................................  1353
National Domestic Workers Alliance (NDWA), New York, New York, 
  statement......................................................  1354
National Fraternal Order of Police, Washington, DC, statement....  1356
Parker, Willie, M.D., Board Chair, Physicians for Reproductive 
  Health, New York, New York, January 10, 2017, statement........  1357
Rich, Joseph D., Lawyers' Committee for Civil Rights Under Law, 
  Washington, DC, statement......................................  1363
Ross, Hon. Quinton T., Jr., Alabama State Senate Minority Leader, 
  statement......................................................  1366
Saporta, Vicki, National Abortion Federation, Washington, DC, 
  statement......................................................  1367
Schumer, Hon. Chuck, a U.S. Senator from the State of New York, 
  February 12, 2009, letter......................................  1372
Severino, Carrie, `` `Unreliable and Misleading' Charges against 
  Sessions,'' National Review online, December 22, 2016, article.  1373
Shelton, Cleophus, Perry County, Alabama, September 4, 1984, 
  official absentee ballot.......................................  1376
Shelton, Eddie, Perry County, Alabama, September 4, 1984, 
  official absentee ballot.......................................  1377
Shelton, Fannie, Perry County, Alabama, September 4, 1984, 
  official absentee ballot.......................................  1378
Shelton, Loretta, Perry County, Alabama, September 4, 1984, 
  official absentee ballot.......................................  1379
Shelton, Mary, Perry County, Alabama, September 4, 1984, official 
  absentee ballot................................................  1380
Shelton, Mattie, Perry County, Alabama, September 4, 1984, 
  official absentee ballot.......................................  1381
Shelton, Mims, Perry County, Alabama, September 4, 1984, official 
  absentee ballot................................................  1382
Shepard, Judy, Matthew Shepard Foundation, statement.............  1383
Sierra Club, Michael Brune, Executive Director, et al., statement  1337
Thompson, Larry, ``Jeff Sessions deserves to be the next U.S. 
  attorney general,'' The Washington Post, January 9, 2017, op-ed 
  article........................................................  1387
We Belong Together, online campaign, statement...................  1390
Woodson, Robert L., Sr., Woodson Center, Washington, DC, 
  statement......................................................  1392

                 ADDITIONAL SUBMISSIONS FOR THE RECORD

Submissions for the record not printed due to voluminous nature, 
  previously printed by an agency of the Federal Government, or 
  other criteria
  determined by the Committee, list..............................  1395

Aaron, Marjorie Corman, Professor, University of Cincinnati 
  College of Law, et al., 1,424 faculty members from 180 law 
  schools in 49 states, January 9, 2017, letter:
    https://www.judiciary.senate.gov/imo/media/doc/
      2017.01.09%20Law% 
      20Professor%20Statement%20re%20Sessions%20Nomination.pdf...  1395

Butler, Jennifer, Reverend, Faith in Public Life, Washington, DC, 
  et al., more than 2,500 faith leaders, statement:
     https://www.judiciary.senate.gov/download/01/10/2017/faith-
      leaders- 
      opposition-to-trump-cabinet................................  1395

Duncan, A. Cameron, University of Virginia School of Law, et al., 
  open letter from 1,060 Law Students to President-elect Donald 
  J. Trump, December 22, 2016:
    https://www.judiciary.senate.gov/download/open-letter-from-
      1060- 
      law-students...............................................  1395

Executive Office for United States Attorneys, United States 
  Attorney's Office, Southern District of Alabama, January 27-31, 
  1992, final evaluation report:
    www.judiciary.senate.gov/imo/media/doc/
      Executive%20Office%20of%20 
      U.S.%20Attorneys%20final%20report,%20Sessions.pdf..........  1395

Gershman, Bennett L., Professor of Law, Pace University, White 
  Plains, New York, January 6, 2017, letter:
    https://www.judiciary.senate.gov/imo/media/doc/
      01.09.17%20Prof%20 
      Ben%20Gershman1.pdf........................................  1395

Guinier, Lani, Lift Every Voice: Turning a Civil Rights Setback 
  into a New Vision of Social Justice, New York: Simon and 
  Schuster, 1998, chap. 7, ``Selma, Alabama, June 1985: Building 
  Bridges from the Bottom Up,'' pages 183-219, excerpt:
    https://www.judiciary.senate.gov/imo/media/doc/
      LaniGuinierLiftEvery 
      VoiceCh7.pdf...............................................  1395

Hebert, J. Gerald, former Acting Chief, Civil Rights Division, 
  U.S. Department of Justice, Washington, DC, January 9, 2016, 
  statement:
    https://www.judiciary.senate.gov/imo/media/doc/J.%20Gerald%20 

      Hebert%20-%20Statement%20-%20Opposition.pdf................  1395

Leadership Conference on Civil and Human Rights, The, Washington, 
  DC, December 1, 2016, letter:
    https://www.judiciary.senate.gov/imo/media/doc/Sessions%20 
      Nomination%2012%201%2016.pdf...............................  1395

Liebman, James S., Associate Professor of Law, Columbia 
  University School of Law, appendix to January 9, 2017, letter:
    https://www.judiciary.senate.gov/imo/media/doc/Appendix 
      %201%20to%20Liebman%20Letter%20re%20Sessions%20 
      Nomination%20010917.pdf....................................  1395

National Association for the Advancement of Colored People 
  (NAACP), ``NAACP Federal Legislative Report Card, 113th 
  Congress, January 3, 2013, through December 16, 2014,'' 
  Washington, DC, report:
    https://www.judiciary.senate.gov/download/naacp_-report-on-
      sessions...................................................  1395

National Association for the Advancement of Colored People Legal 
  Defense and Educational Fund, Inc. (LDF), ``Report in 
  Opposition to the Nomination of Jefferson Beauregard Sessions 
  III to be Attorney General of the United States,'' New York, 
  New York, and Washington, DC, January 9, 2017, report:
    https://www.judiciary.senate.gov/imo/media/doc/2017-01-09%20 
      NAACP%20LDF%20Report%20in%20Opposition%20to%20Sessions.pdf.  1395

Patrick, Deval L., Assistant Attorney General, Civil Rights 
  Division, U.S. Department of Justice, ``Notice of Findings from 
  Investigation of Easterling Correctional Facility,'' March 27, 
  1995, letter and report:
    https://www.judiciary.senate.gov/imo/media/doc/
      Hitching%20Post%20 
      Report%20-%20Easterling1.pdf...............................  1396

Patrick, Deval L., Assistant Attorney General, Civil Rights 
  Division, U.S. Department of Justice, ``Notice of Findings from 
  Investigation of Julia Tutwiler Prison for Women,'' March 27, 
  1995, letter and report:
    https://www.judiciary.senate.gov/download/01/10/2017/
      hitching-post- 
      report_-tutwiler...........................................  1396

UltraViolet, Nita Chaudhary and Shaunna Thomas, Co-Founders, 
  petition:
    https://act.weareultraviolet.org/constituents/
      ?tcid=767.tc7597.HKXtdS....................................  1396

United States Steel LLC v. TIECO Inc., U.S. Court of Appeals, 
  Eleventh Circuit, August 17, 2001, decision:
    http://caselaw.findlaw.com/us-11th-circuit/1481550.html......  1396

 
                      CONFIRMATION HEARING ON THE
                    NOMINATION OF HON. JEFF SESSIONS
                         TO BE ATTORNEY GENERAL
                          OF THE UNITED STATES

                              ----------                              


                       TUESDAY, JANUARY 10, 2017

                              United States Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:30 a.m., in 
Room SR-325, Russell Senate Office Building, Hon. Charles E. 
Grassley, Chairman of the Committee, presiding.

    Present: Senators Grassley, Hatch, Graham, Cornyn, Lee, 
Cruz, Flake, Feinstein, Leahy, Durbin, Whitehouse, Klobuchar, 
Franken, Coons, Blumenthal, and Hirono.

    Chairman Grassley. Before we actually start the hearing, I 
am going to give a point of personal privilege to former 
Chairman and my friend, Senator Leahy, to speak for a few 
seconds that he asked to do, and I think it is very appropriate 
that you do what you said you were going to do.

            OPENING STATEMENT OF HON. PATRICK LEAHY,
            A U.S. SENATOR FROM THE STATE OF VERMONT

    Senator Leahy. Well, thank you, Mr. Chairman, and I 
appreciate the courtesy. The Senate Judiciary Committee 
convenes for the first time in the 115th Congress, a historic 
moment in the Committee's 200-year history. Last week, Senator 
Dianne Feinstein was named the Committee's Ranking Member, the 
first time in American history when a woman has served in this 
capacity. And having been either Chairman or Ranking Member for 
the past 20 years, I cannot think of anybody better.
    It is striking that 352 Members have served on the 
Committee, and only six of those, who happen to be Democrats, 
have been women. Three of those six women are proudly serving 
on this important Committee today: Senator Feinstein, Senator 
Klobuchar, and Senator Hirono.
    So after these 20 years, I welcome Senator Feinstein. When 
we grapple with some of the most pressing issues facing our 
country, we Americans can be proud that she is here, and I 
applaud you for this.
    [The prepared statement of Senator Leahy appears as a 
submission for the record.]
    Senator Feinstein. Thank you.
    Chairman Grassley. Thank you, Senator Leahy.
    Good morning. I welcome everyone to this very important 
hearing to consider the nomination of our colleague Senator 
Sessions to serve as the 84th Attorney General of the United 
States.
    First, I want to set out a couple of ground rules. I want 
to handle this hearing the same way that I handled the hearing 
for Attorney General Lynch's nomination. And it is also the 
same way that Chairman Leahy handled previous hearings. I want 
everyone to be able to watch the hearing without obstruction. 
If people stand up and block the views of those behind them or 
speak out of turn, it is simply not fair, it is simply not 
considerate to others, so officers will immediately remove 
those individuals.
    Now, before my opening statement, let me explain how we 
will proceed.
    Senator Feinstein and I will give our opening remarks. Then 
Senators Shelby and Collins will introduce the nominee. 
Following Senator Sessions' opening remarks, we will begin our 
first round of questions. Each Senator will have an initial 10-
minute round for questions. After the first round, we are going 
to do 8-minute rounds of questions. I want everyone to know 
that I am prepared to stay here as long as Members have 
questions that they would like to ask. Again, that is the way I 
handled Attorney General Lynch's nomination. I think that is 
the most fair way to proceed for both Members as well as our 
distinguished nominee.
    I welcome our new Members to this Committee. I look forward 
to working with all of the new Members as well as the ones that 
are repeating serving on this Committee. I would also like to 
recognize and welcome a number of important audience members: 
former Attorneys General Meese and Mukasey, and also our former 
colleague Senator Kyl, a former Member of this Committee; and I 
see the Attorney General for Ohio is here as well, a former 
colleague of ours.
    Finally, before my opening remarks, I congratulate Senator 
Feinstein on your appointment and the decision to take over the 
Ranking Membership. We have always had a good working 
relationship through several things we have done, both 
legislatively and as leaders of the Drug Caucus, and I 
appreciate very much the opportunity to work with you.
    Senator Feinstein. Thank you.
    Chairman Grassley. Thank you. With that I will now start my 
opening comments.

         OPENING STATEMENT OF HON. CHARLES E. GRASSLEY,
             A U.S. SENATOR FROM THE STATE OF IOWA

    Our hearing today hardly introduces Senator Sessions to the 
Committee. No; we are here today to review the character and 
the qualifications of a colleague who has served alongside us 
in the Senate for 20 years. That includes his time as a Ranking 
Member of this Committee. We know him well. We know the policy 
positions he has taken as a legislator. I have been on both 
sides of debates with the distinguished Senator Sessions. 
Having served with him for so long, we pretty well know whether 
he supports your policy positions or opposes them. He tells us 
so with his usual thoughtfulness, humility, and, more 
importantly, respect. As a former Chairman of this Committee 
has put it, Senator Sessions is ``wonderful to work with.'' We 
know him to be, as another senior Democrat on this Committee 
described him, ``a man of his word.'' As a third senior 
colleague put it, a Democrat as well: ``He is always a 
gentleman. He is straightforward and fair.''
    Most of all, the Members of this Committee know him to be a 
leader who has served the people of Alabama--and all 
Americans--with integrity, with dedication, and with courage. 
That describes how I know the nominee for the 20 years that I 
have served with him.
    As former Chairman Leahy observed the last time a new 
President took office, it is ``important that the Justice 
Department have a senior leadership in place without delay . . 
. . We need the Justice Department to be at its best.''
    Perhaps my good friend Senator Schumer said it best when he 
observed that we should ``move to a vote, hopefully sooner 
rather than later.'' And when we do, as he said, we ``won't be 
voting for or against the President's policies.'' In summary, 
Senator Schumer said we will be voting for a colleague with a 
first-rate legal mind whose record proves his commitment to 
just law enforcement and eminently qualified to lead the 
Department of Justice.
    I have been encouraged by the initial support many of our 
colleagues on both sides of the aisle have expressed for 
Senator Sessions' nomination. So I look forward to hearing from 
Senator Sessions and moving to his appointment without delay.
    Senator Sessions' record is a life of public service. And 
so we know his story. He was raised in the small town of 
Hybart, Alabama, where his father owned and ran a small country 
store. He then studied at Huntingdon College and the University 
of Alabama before practicing law in Russellville and Mobile. 
Senator Sessions has always been an active member of his 
community. He taught school before attending law school and 
taught Sunday School at Ashland Place United Methodist Church. 
He served our Nation in the Army Reserve, attaining the rank of 
Captain.
    After his time in private practice, Senator Sessions served 
as an Assistant U.S. Attorney in the Southern District of 
Alabama. He then headed that office after the Senate confirmed 
him as U.S. Attorney, a post he held for a dozen years. So all 
told, this Senator, colleague of ours, has served 15 years as a 
Federal prosecutor in the Department that he will soon head.
    It was during that time that he oversaw the investigation 
of Klansman Francis Hays for the brutal abduction and murder of 
a Black teenager, Michael Donald. He made sure that case was 
brought to State court where the defendant was eligible for and 
received the punishment that he justly deserved--the death 
penalty. His office then successfully prosecuted that 
murderer's accomplice in Federal court.
    Based on his prosecutorial record, the people of Alabama 
elected him their Attorney General and then their Senator. He 
has served with us since 1997. And as our former Chairman 
observed, this Committee has relied on him for his 
prosecutorial experience during the course of his Senate 
service.
    Throughout his public service, both within the Department 
and outside of the Department, he has raised his hand and 
served when called upon. He has done his duty, enforced the law 
fairly, and let the chips fall where they may.
    Reflecting on this record of service, it is no surprise 
then that Senator Sessions was also an Eagle Scout. Other 
Members of this Committee know, as I do, that the Scouts' 
motto, ``Be Prepared,'' sits on his desk in his Senate office.
    Senator Sessions' entire life of dedicated public service 
has prepared him for this day. If he is confirmed--and I expect 
that he will be--Senator Sessions will shed his role as a 
legislator who writes law and he will take on the task of 
enforcing the laws Congress has written. He has made this 
transition before, when the people of Alabama elected him their 
Senator based on his record of service as U.S. Attorney and 
Alabama Attorney General.
    As one Member of this Committee observed about a lawyer's 
transition into the role of a judge: ``There are turning points 
in a person's life when they put away things of the past and 
move into new responsibilities.'' Serving as our Nation's 
Attorney General will mark another such turning point in 
Senator Sessions' distinguished career. And every Member of 
this Committee knows from experience that, in his new role, 
Senator Sessions will be a leader for law and order 
administered without regard to person.
    Leadership to that end is exactly what the Department now 
needs. It should go without saying that the Department is 
tasked with the responsibility of enforcing our laws--all of 
our laws--in a dispassionate and evenhanded way.
    We write the laws. The Executive enforces them, faithfully. 
This is a simple but very foundational principle.
    Unfortunately, for the last several years, the Department 
has simply declined to enforce some laws the executive branch 
found obnoxious. The Department's failure to enforce the law 
has run the gamut of issues from criminal law to our Nation's 
duly enacted immigration laws.
    It is true that each branch of Government has an 
independent duty to assess the constitutionality of the laws it 
writes, it administers, and it adjudicates. But it is equally 
true that the Executive has a constitutional responsibility to, 
as we all know, ``take care that the laws be faithfully 
executed.'' I know our colleague, this Senator Sessions, 
respects the legislative process and the prerogative of 
Congress to write the law. As he explained during the 
confirmation hearing that we held for John Ashcroft's 
nomination to serve as Attorney General, ``The Attorney General 
is a law enforcer. There is a big difference between a 
politician and a Senator where we vote on policy and executing 
that policy.''
    I look forward to hearing from Senator Sessions on how he 
will transition from voting on policy matters to enforcing the 
laws he has labored so long to improve and to sustain.
    Just as he respects Congress' duly enacted laws, Senator 
Sessions knows and respects the importance of an independent 
Attorney General at the Department's helm. When he has 
questioned other candidates for the Office of Attorney General, 
he has made plain the priorities of an Attorney General's 
independence. He sought assurances on this account during the 
confirmation hearing for Attorney General Eric Holder--a 
nominee that, it happens, Senator Sessions and I both supported 
despite policy disagreements with Eric Holder. Senator Sessions 
asked at that time: ``You are not threatening and not 
guaranteeing you are going to prosecute people until you fairly 
evaluate all the facts and the evidence and the law they 
thought they were dealing with at the time?''
    During this Committee's hearing on the confirmation of 
another Attorney General, Senator Sessions reflected on the 
obligations of the people as he knew them from his service in 
Alabama: ``You speak for the legal interests of the State.'' As 
a result, he said, ``there are times when the Attorney General 
represents the State, he has an obligation and a duty 
regardless of what the parties to a litigation may say''--
including when one of those parties is the Government--``to 
ensure that it is fair for all the people of the State.''
    This firm grasp on the separation of powers equips Senator 
Sessions to provide the Department with independent leadership 
of the highest priority. He knows the Department's obligations 
well--not only because he knows the Department but because he 
has seen those obligations observed in the breach from his seat 
beside us in the Senate.
    To this legislator, the Department's failure in the just 
enforcement of our laws is not just a policy disappointment on 
a particular issue. It is an affront to the very separation of 
powers that defines our role and the voice of the people that 
warrants our votes. I imagine Senator Sessions may have 
thoughts on that question as well, and I hope to hear those 
points.
    On this Committee, we do not always agree on the right way 
to handle the complex policy issues we consider. And when you 
have served in the Senate as long as Senator Sessions and I 
have, you are bound to find at least a few points of 
disagreement with even the most like-minded colleagues.
    But Senator Sessions' two decades of service beside me 
testify without question to this: He is a man of honor and 
integrity, dedicated to the faithful and fair enforcement of 
the law, who knows well and deeply respects the Department of 
Justice and its constitutional role. I look forward to hearing 
from him about this vision and plans for the Department.
    [The prepared statement of Chairman Grassley appears as a 
submission for the record.]
    And now it is Senator Feinstein's turn for her words.

          OPENING STATEMENT OF HON. DIANNE FEINSTEIN,
          A U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Feinstein. Thank you very much, Mr. Chairman, and I 
would like to thank Senator Leahy also for his words.
    If I may, I would like to begin by just quickly introducing 
some Californians in the audience: Congresswoman Maxine Waters 
from Los Angeles, Congresswoman Barbara Lee from the Bay Area, 
also Denise Rojas, who is a DREAMer who has been enormously 
successful, I had the privilege of writing an article about 
her, and also the Reverend Dr. Amos Brown, whom I have known 
for 40 years, and the Reverend Dr. Frederick Haynes. They are 
part of the ministerial delegation here today.
    The Senator before us this morning is someone that many of 
us on this Committee have worked with for some 20 years, and 
that makes this very difficult for me. I committed to Senator 
Sessions in our private meeting, and I will say it again here: 
The process is going to be fair and thorough.
    But, today, we are not being asked to evaluate him as a 
Senator. We are being asked to evaluate him for the Attorney 
General of the United States, the chief law enforcement for the 
largest and best democracy in the world.
    As Attorney General, his job will not be to advocate for 
his beliefs; rather, the job of the Attorney General is to 
enforce Federal law, even if he voted against the law, even if 
he spoke against it before it passed, even if he disagrees with 
the precedent saying that the law is constitutional. Most 
importantly, his job will be to enforce Federal law equally--
equally--for all Americans. And this job requires service to 
the people and the law, not to the President.
    The President-elect said to his opponent during a debate, 
``If I win, I am going to instruct my Attorney General to get a 
special prosecutor to look at your situation.''
    Mr. Chairman, that is not what an Attorney General does. An 
Attorney General does not investigate or prosecute at the 
direction of the President. Nor do Attorneys General wear two 
hats--one as the President's lawyer and one as the people's 
lawyer. That model has failed. Rather, the Attorney General 
must put aside loyalty to the President. He must ensure that 
the law and the Constitution come first and foremost, period.
    President Lincoln's Attorney General, Edward Bates, I think 
said it best when he said this: ``The office I hold is not 
properly political, but strictly legal; and it is my duty, 
above all other ministers of state, to uphold the law and to 
resist all encroachments, from whatever quarter.'' That is the 
job of the Attorney General.
    If confirmed, Senator Sessions will be the top official 
charged with faithfully and impartially enforcing all Federal 
law and protecting our fundamental right to vote from all 
incursions, whether they be foreign or domestic. His duty will 
be to enforce and protect our civil rights and constitutional 
freedoms, including a woman's right to choose. He will run the 
Department that ensures those who commit hate crimes are held 
accountable. And he will be charged with protecting consumers 
and taxpayers from fraud and making sure that corrupt public 
officials are held accountable. He will prosecute polluters 
based on Federal law. And it is the Attorney General who must 
ensure that this Government follows the law, does not ever 
torture again. This is an awesome responsibility and an 
enormous job.
    What we must do now in these hearings is determine what 
type of Attorney General Senator Sessions will be, if 
confirmed. And let me express a deep concern. There is so much 
fear in this country. I see it, I hear it, particularly in the 
African-American community, from preachers, from politicians, 
from everyday Americans.
    As Mrs. Evelyn Turner of the Marion Three said in her 
passionate letter to this Committee: ``I am very troubled by 
his stance against civil rights in the more recent past. As a 
U.S. Senator, he supported no laws or causes which suggest that 
he has changed.''
    Throughout his Senate career, Senator Sessions has 
advocated an extremely conservative agenda. For example, he 
voted ``no'' and spoke for nearly 30 minutes in this Committee 
against a Leahy amendment 2 years ago that expressed the sense 
of the Senate that the United States would not bar people from 
entering this country based on their religion. He voted against 
each of three bipartisan comprehensive immigration bills--in 
2006, 2007, and 2013.
    Twice he voted against the DREAM Act, the bill for 
undocumented youth, known as ``DREAMers,'' who were brought 
here as children through no choice of their own, calling it a 
``reckless proposal for mass amnesty.''
    He voted against efforts to prohibit the use of 
waterboarding and other so-called enhanced interrogation 
techniques, calling them lawful and praising Attorney General 
Mukasey in 2008 for refusing to rule out the use of 
waterboarding in the future. These interrogation techniques 
are, and were at the time, illegal. And thanks to a provision 
Senator McCain placed in the Defense Authorization Bill this 
past year, they are now prohibited from use.
    In addition, Senator Sessions voted against the Matthew 
Shepard and James Byrd, Jr. Hate Crimes Prevention Act, which, 
among other things, expanded the hate crimes law to cover 
sexual orientation and gender identity. Arguing against the 
hate crimes law in 2009, he said this: ``Today I am not sure 
women or people with different sexual orientations face that 
kind of discrimination. I just do not see it.''
    Well, this Senator, regretfully, sees it. Hate crimes are 
happening. The Department of Justice must see it, must 
investigate it, and prosecute it appropriately. Those are votes 
that are deeply concerning. They are recent, they are 
important, and they clearly show this Senator's point of view.
    Now, for all these reasons, this hearing must determine 
clearly whether this Senator will enforce laws he voted 
against. We, the American people, want to know how he intends 
to use this awesome power of the Attorney General if he is 
confirmed. Will he use it fairly? Will he use it in a way that 
respects law and the Constitution? Will he use it in a way that 
eases tensions among our communities and our law enforcement 
officers? Will he be independent of the White House? Will he 
tell the President ``no'' when necessary, and faithfully 
enforce ethics laws and constitutional restrictions?
    So we will ask questions, and we will press for answers. 
Ultimately, we must determine whether Senator Sessions can be 
the Attorney General for all of our people.
    Mr. Chairman, I would like to conclude with one final 
point. We cannot ignore that there are deep concerns and 
anxieties throughout America. There is a deep fear about what a 
Trump administration will bring in many places, and this is the 
context in which we must consider Senator Sessions' record and 
nomination to become the chief law enforcement officer of 
America. Communities across this country are concerned about 
whether they will be able to rely on the Department of Justice 
to protect their rights and freedoms. These freedoms are so 
cherished. They are what make us unique among nations.
    There have been sit-ins, protests, and write-ins, and the 
Committee has received letters of opposition from 400 different 
civil rights organizations, 1,400 law professors, 1,000 law 
students, a broad task force of organizations that oppose 
domestic violence, 70 reproductive health organizations, and 
many, many others. All these letters express deep anxiety about 
the direction of this country and whether this nominee will 
enforce the law fairly, evenly, without personal bias.
    So I hope today's questions are probing and the answers are 
fulsome. Ladies and gentlemen, this is the only way we have to 
know whether this man can detach himself from the President and 
from his record and vote in full accordance with the laws of 
the United States of America.
    Thank you very much, Mr. Chairman.
    Chairman Grassley. And thank you, Senator Feinstein.
    Before I turn to Senators Shelby and Collins for their 
opening statement, I would note that the Committee received a 
letter from former Secretary of State Condoleezza Rice 
indicating that she had hoped to join our colleagues in 
introducing Senator Sessions. She strongly supports his 
nomination. It is a powerful letter, and I hope my colleagues 
will take time to read it, and I would like to have it entered 
in the record at this point.
    [The letter appears as a submission for the record.]
    Chairman Grassley. Now to Senator Shelby and Senator 
Collins, in that order. Proceed.

  PRESENTATION OF HON. JEFF SESSIONS, A U.S. SENATOR FROM THE 
               STATE OF ALABAMA AND NOMINEE TO BE
           ATTORNEY GENERAL OF THE UNITED STATES, BY
       HON. RICHARD SHELBY, A U.S. SENATOR FROM THE STATE
                           OF ALABAMA

    Senator Shelby. Chairman Grassley, Ranking Member 
Feinstein, thank you for allowing me to be a part of this 
historic hearing today.
    Although my friend and colleague Jeff Sessions is well 
known to the Members of this Committee, it is my distinct 
privilege to introduce him as President-elect Donald Trump's 
nominee to serve as our next United States Attorney General.
    Before joining the Senate, Jeff Sessions began his 
distinguished career as a practicing attorney and then served 
as the United States Attorney for Alabama's Southern District 
before ultimately becoming the Attorney General of the State of 
Alabama.
    During the past 20 years here in the U.S. Senate that I 
have served with Jeff Sessions, I have had the opportunity to 
know him well, not just as a skilled attorney with an 
accomplished record as a prosecutor and as a legislator, but as 
a man of extraordinary character. I have the highest regard not 
only for his intellect but for his integrity.
    Unfortunately, since the announcement of his nomination, 
Jeff's political opponents have attacked his character with 
baseless and tired allegations. But, in reality, Jeff Sessions' 
extensive record of treating all Americans equally under the 
law is clear and well documented.
    Throughout his decades of public service, including his 
impressive tenure on this Committee, Jeff's commitment to 
upholding the rule of law I believe is unparalleled. The 
integrity, humility, and gravity with which Jeff Sessions will 
approach the office of Attorney General of the United States is 
unquestionable.
    I have no doubt, Mr. Chairman, that he will apply the law 
with the impartiality that is required of the job. I am also 
confident that this Committee will report favorably and 
expeditiously Jeff Sessions' nomination to be the next Attorney 
General of the United States.
    Chairman Grassley. Thank you, Senator Shelby.
    Now, Senator Collins.

  PRESENTATION OF HON. JEFF SESSIONS, A U.S. SENATOR FROM THE 
               STATE OF ALABAMA AND NOMINEE TO BE
           ATTORNEY GENERAL OF THE UNITED STATES, BY
       HON. SUSAN COLLINS, A U.S. SENATOR FROM THE STATE
                            OF MAINE

    Senator Collins. Thank you, Mr. Chairman.
    Mr. Chairman, Senator Feinstein, Members of this 
distinguished Committee, I am pleased to join Senator Shelby in 
presenting my friend and colleague, Senator Jeff Sessions, and 
to offer my support for his nomination to be our next Attorney 
General.
    [Outburst in audience.]
    Senator Collins. Jeff Sessions and I were first sworn in to 
the United States Senate on the very same day. In the 20 years 
since, we have worked closely on some issues and on opposite 
sides on others. In fact, it would be fair to say that we have 
had our share of vigorous debates and policy disagreements.
    Through these experiences, I have come to know Senator 
Sessions professionally as a trusted colleague and personally 
as a good friend. I can vouch confidently for the fact that 
Jeff Sessions is a person of integrity, a principled leader, 
and a dedicated public servant.
    As a Senator, Jeff Sessions has worked across the aisle to 
lead important legislative reforms. He has worked with Senator 
Dick Durbin to pass the Fair Sentencing Act, a law that 
addressed the unfair racial disparity in crack cocaine 
sentencing. He worked with Senator Ted Kennedy to pass the 
Prison Rape Elimination Act and with Senator Chris Coons on the 
reauthorization of the Victims of Child Abuse Act.
    An area where Senator Sessions and I have worked together 
is in opposing unfair trade agreements and practices that hurt 
American workers.
    What I want this Committee and the American people to know 
is that Jeff Sessions is the same genuine, fair-minded person 
in unguarded private moments as he is in the halls of the 
Senate.
    We first came to know each other during dinners with other 
Members of our Senate class where we discussed everything from 
our politics to our families. I have never witnessed anything 
to suggest that Senator Sessions is anyone other than a 
dedicated public servant and a decent man.
    In 1980, long before he ran for the Senate, or even dreamed 
of being Attorney General, Jeff Sessions sponsored the first 
African-American member of the Mobile Lions Club. As U.S. 
Attorney, he provided leadership in the successful convictions 
of two Klan members who had murdered an African-American 
teenager. As Ranking Member of the Senate Judiciary Committee 
in 2009, he appointed the first African American to serve as 
Chief Counsel to the Republican Members. My friends, these are 
not the actions of an individual who is motivated by racial 
animus.
    In spite of this strong record, Senator Sessions' 
nomination has generated controversy. He has had to withstand 
some very painful attacks on his character, both years ago and 
again today, with little or no acknowledgment of his 
accomplishments and actions or the responses he has made to the 
accusations levied against him.
    As this Committee debates this nomination, I would draw 
your attention to an important epilogue to Jeff Sessions' 
nomination 31 years ago to be a Federal judge. The late Senator 
Arlen Specter of Pennsylvania was a Member of the Judiciary 
Committee when the Sessions nomination was considered in 1986. 
Senator Specter, then a Republican, voted against Jeff 
Sessions. Years later, in 2009, Senator Specter had switched 
parties. He was asked by a reporter if he regretted any of the 
more than 10,000 votes he had cast. Out of all of those votes, 
then-Democratic Senator Specter cited just one. It was his vote 
against confirming Jeff Sessions as a Federal judge.
    When asked why, Senator Specter replied, ``Because I have 
since found that Senator Sessions is egalitarian.'' In other 
words, once Senator Specter served with Jeff Sessions and had 
the opportunity to get to know him, he changed his mind.
    I hope that you will keep Arlen Specter's reflections in 
mind as this Committee evaluates Senator Sessions' public 
service, his character, and his fidelity to the rule of law. 
The Members of this Committee have an advantage that Senator 
Specter did not. The vast majority of you have already served 
with Senator Sessions, and you know him well. If this Committee 
places its trust in him, I have every confidence that Jeff 
Sessions will execute the office of Attorney General honestly, 
faithfully, and fully in the pursuit of justice.
    Thank you, Mr. Chairman. Thank you, Ranking Member 
Feinstein and Members of this Committee.
    Chairman Grassley. And I thank both of our colleagues for 
your powerful statements. I appreciate it very much. And you 
are free to go, and we will call the nominee at this point.
    [Pause.]
    Chairman Grassley. Senator Sessions, before you are seated, 
I would like to administer the oath. Would you raise your hand, 
please, and answer this question? Do you swear that the 
testimony you are about to give before this Committee will be 
the truth, the whole truth, and nothing but the truth, so help 
you God?
    Senator Sessions. I do.
    Chairman Grassley. Thank you, and please be seated.
    Senator Sessions, it is our normal process, if you desire, 
to introduce people that are with you, including your family I 
am sure you are very proud of. You are free to do that, and 
then go immediately to your opening statement.

STATEMENT OF HON. JEFF SESSIONS, A U.S. SENATOR FROM THE STATE 
  OF ALABAMA AND NOMINEE TO BE ATTORNEY GENERAL OF THE UNITED 
                             STATES

    Senator Sessions. Thank you, Mr. Chairman. I believe we 
have been joined by my grandchildren. It is an honor for me to 
be here and to have my family with me.
    First, my wife, Mary, my best friend, of 47 years. Without 
her love and support, none of this would have been possible for 
me.
    And we are so proud of our three children who are here 
today. Mary Abigail Reinhardt, our oldest, is married to a 
naval officer, Commander Paul Reinhardt of the USS Alabama. 
They are now stationed in the Pacific Coast. They have two 
children, Jane Ritchie and Jim Beau, and they wish me well this 
morning.
    My daughter Ruth Walk--Ruth, would you stand up?--and her 
husband, John Walk. John is an attorney with the Department of 
Homeland Security, and they have four children, as you see 
before you today: Gracie and Hannah, and Joanna and Phoebe. 
Phoebe and Joanna are twins, and we are so proud of them.
    My son, Sam, is a graduate of Auburn and Alabama Law 
School. Sorry, Sam, about the game last night.
    [Laughter.]
    Senator Sessions. Lindsey, congratulations, wherever he is.
    Sam is an attorney in Birmingham, and he is married to 
Angela Stratas. They have four children: Alexa, Sophia, Lewis, 
and Nicholas.
    Ten grandchildren, the oldest is 9, and you can imagine the 
week we had at the beach this summer in Alabama.
    Finally, I want to express how humbled I am to have 
received such overwhelming support and encouragement from our 
Nation's law enforcement community. Many are here today.
    Mr. Chairman, with your permission, I would like to ask 
those present please to stand and be recognized, the law 
enforcement members that are here today. Would you please 
stand? Every major law enforcement organization in America has 
endorsed my candidacy. I feel the weight of the confidence they 
have placed in me, and, gentlemen and ladies, I will do my best 
to be worthy of that. And if I may, Mr. Chairman, yesterday was 
Law Enforcement Officer Appreciation Day. Sadly, on that day we 
lost two of our brave officers.
    Orlando Police Department Master Sergeant Debra Clayton, 
one of the first officers to respond to the Orlando night club 
shooting in June, was shot and killed while confronting a 
subject wanted for murder. Sergeant Clayton, a 17-year veteran 
of the force, was married with two children.
    While assisting in the search for that assailant, Orange 
County Deputy First Class Sheriff Norman Lewis was killed in a 
traffic accident on his motorcycle. He was an 11-year veteran 
of the sheriff's office. These honorable individuals have 
dedicated their lives to keeping their communities safe, and we 
should remember their service and keep them and their families 
in our prayers.
    Chairman Grassley, Ranking Member Feinstein, distinguished 
Members of the Committee, I am honored to appear before you 
today. I thank you for the opportunity to respond to your 
questions as you discharge your duty in the appointment process 
as prescribed by our Constitution.
    [Outburst in audience.]
    Senator Sessions. Mr. Chairman, if I might, I want to thank 
my dear friends and colleagues, Senator Richard Shelby and 
Senator Susan Collins, for their kind and generous 
introductions. It was very touching. It is hard to believe, 
really, that the three of us have served together in this body 
for almost 20 years.
    When I arrived in the Senate in 1997, I probably would not 
have anticipated becoming so close with a colleague from 
Maine--two people from the northern-most and southern-most 
parts of our country.
    [Outburst in audience.]
    Senator Sessions. It took us a while to understand each 
other's accents, but once we did, we became fast friends. Of 
course, Richard Shelby and I never had that problem. He has 
been a steadfast friend, and I think we have been a pretty good 
team representing the interests of Alabama and the United 
States.
    I want to thank President-elect Donald Trump for the 
confidence and trust he has shown in me by nominating me to 
serve as the Attorney General of the United States. I feel the 
weight of an honor greater than I have aspired to. If I am 
confirmed, I will commit to you and to the American people to 
be worthy of the office and the special trust that comes with 
it.
    So I come before you today as a colleague who has worked 
with you for years and some of you 20 years. You know who I am. 
You know what I believe in. You know that I am a man of my word 
and can be trusted to do what I say I will do. You know that I 
revere the Constitution, that I am committed to the rule of 
law; and you know that I believe in fairness and impartiality 
and equal justice under law.
    Over the years, you have heard me say many times that I 
love the Department of Justice. The Office of Attorney General 
of the United States is not a normal political office, and 
anyone who holds it must have total fidelity to the laws and 
the Constitution of the United States. He or she must be 
committed to following the law. He or she must be willing to 
tell the President or other top official ``no'' if he or she 
overreaches. He or she cannot be a mere rubberstamp. He or she 
must set the example for the employees of the Department to do 
the right thing and ensure that, when they do the right thing, 
they know the Attorney General will back them up, no matter 
what politician might call or what powerful special interest, 
influential contributor, or friend might try to intervene. The 
message must be clear: Everyone is expected to do their duty.
    That is the way I was expected to perform as an Assistant 
United States Attorney working for Attorney General Meese in 
part of my career. And that is the way I trained my assistants 
when I became United States Attorney. And, if confirmed, that 
is the way I will lead the Department of Justice.
    In my over 14 years in the Department of Justice, I tried 
cases personally of every kind: drug trafficking, very large 
international smuggling cases, many firearms cases, other 
violent crimes, a series of public corruption cases of great 
significance, financial wrongdoing, and environmental 
violations. Our office supported historic civil rights cases 
and major civil cases. Protecting the people of this country 
from crime, and especially from violent crime, is a high 
calling of the men and women of the Department of Justice. 
Today, I am afraid, it has become more important than ever.
    Since the early 1980s, good policing and prosecutions over 
a period of years have been a strong force in reducing crime, 
making our communities safer. Drug use and murders are half 
what they were in 1980 when I became a United States Attorney. 
I am very concerned that the recent jump in the violent crime 
and murder rates are not anomalies, but the beginning of a 
dangerous trend that could reverse those hard-won gains that 
have made America a safer and more prosperous place. The latest 
FBI statistics show that all crime increased nearly 4 percent 
from 2014 to 2015--the largest increase since 1991--with 
murders increasing nearly 11 percent--the single largest 
increase since 1971.
    In 2016, there were 4,368 shooting victims in Chicago. In 
Baltimore, homicides reached the second highest per capita rate 
ever. The country is also in the throes of a heroin epidemic, 
with overdose deaths more than tripling between 2010 and 2014. 
Tripling. Nearly 50,000 people a year die from drug overdose. 
Meanwhile, illegal drugs flood across our southern border and 
into every city and town in the country, bringing violence, 
addiction, and misery.
    We must not lose perspective when discussing these 
statistics. We must always remember that these crimes are being 
committed against real people, real victims. It is important 
that they are kept in the forefront of our minds in these 
conversations and to ensure that their rights are protected.
    These trends cannot continue. It is a fundamental civil 
right to be safe in your home and your community. If I am 
confirmed, we will systematically prosecute criminals who use 
guns in committing crimes. As United States Attorney, my office 
was a national leader in gun prosecutions nearly every year. We 
will partner with State and local law enforcement to take down 
these major drug-trafficking cartels and dismantle criminal 
gangs. We will prosecute those who repeatedly violate our 
borders. It will be my priority to confront these crimes 
vigorously, effectively, and immediately.
    Approximately 90 percent of all law enforcement officers 
are not Federal, but they are State and local. They are the 
ones on the front lines. They are better educated, trained, and 
equipped than ever before. They are the ones who we rely on to 
keep our neighborhoods and playgrounds and schools safe. But in 
the last several years, law enforcement as a whole has been 
unfairly maligned and blamed for the unacceptable actions of a 
few of their bad actors. They believe the political leadership 
in the country has abandoned them. They felt they had become 
targets. Morale has suffered. And last year, while under 
intense public criticism, the number of police officers killed 
in the line of duty increased by 10 percent over 2015; and 
firearms deaths of police officers are up 68 percent. So this 
is a wake-up call, colleagues. It cannot continue.
    If we are to be more effective in dealing with rising 
crime, we will have to rely on and work more effectively with 
local law enforcement, asking them to lead the way. To do that, 
they must know they are supported. And if I am so fortunate as 
to be confirmed as Attorney General, they can be assured they 
will have my support in their lawful duties.
    As I discussed with many of you in our meetings prior to 
this hearing, the Federal Government has an important role to 
play in this area also. We must use the research and the 
expertise and the training that has been developed by the 
Department of Justice to help these agencies in developing the 
most effective and lawful law enforcement methods to reduce 
crime. We must re-establish and strengthen the partnership 
between Federal and local officers to enhance a common and 
unified effort to reverse the rising crime trends. I did this 
as United States Attorney. I worked directly and continuously 
with local and State law enforcement officials. If confirmed, 
this will be one of my priority objectives.
    There are also many things the Department can do to assist 
the State and local officers to strengthen relationships with 
their own communities where policies like community-based 
policing have absolutely been proven to work. I am committed to 
this effort and to ensuring that the Department of Justice is a 
unifying force for improving relations between the police in 
this country and the communities they serve. This is 
particularly important in our minority communities. Make no 
mistake, positive relations and great communication between the 
people and their police are essential for any good police 
department. And when police fail in their duties, they must be 
held accountable. I have done these things as United States 
Attorney. I have worked to advance these kind of policies.
    In recent years, our law enforcement officers have been 
called upon to protect our country from the rising threat of 
terrorism that has reached our shores. If I am confirmed, 
protecting the American people from the scourge of radical 
Islamic terrorism will continue to be a top priority. We will 
work diligently to respond to threats, using all lawful means 
to keep my country safe. Partnerships will also be vital to 
achieving much more effective enforcement against cyber 
threats, and the Department of Justice clearly has a lead role 
to play in that essential effort.
    We must honestly assess our vulnerabilities and have a 
clear plan for defense, as well as offense, when it comes to 
cybersecurity. The Department of Justice must never falter in 
its obligation to protect the civil rights of every American, 
particularly those who are most vulnerable.
    A special priority for me in this regard will be aggressive 
enforcement of our laws to ensure access to the ballot for 
every eligible voter, without hindrance or discrimination, and 
to ensure the integrity of the electoral process, which has 
been a great heritage of the Department of Justice.
    Further, this Government must improve its ability to 
protect the United States Treasury from fraud, waste, and 
abuse. This is a Federal responsibility. We cannot afford to 
lose a single dollar to corruption and you can be sure, if I am 
confirmed, I will make it a high priority of the Department of 
Justice to root out and prosecute fraud in Federal programs and 
to recover moneys lost due to fraud and false claims, as well 
as contracting fraud and issues of that kind.
    The Justice Department must remain ever faithful to the 
Constitution's promise that our Government is one of laws, and 
not of men. It will be my unyielding commitment to you, if 
confirmed, to see that the laws are enforced faithfully, 
effectively, and impartially. The Attorney General must hold 
everyone, no matter how powerful, accountable. No one is above 
the law, and no American will be beneath its protection. No 
powerful special interest will cower this Department.
    I want to address personally the fabulous men and women 
that work in the Department of Justice. That includes personnel 
in Main Justice, here in Washington, but also the much larger 
number that faithfully fulfill their responsibilities every day 
throughout the Nation. As a United States Attorney, I worked 
with them constantly. I know them and the culture of their 
agencies. The Federal investigative agencies represent the 
finest collection of law officers in the world. I know their 
integrity and professionalism and I pledge to them a unity of 
effort that is unmatched. Together we can and will reach the 
highest standards and the highest results. It would be the 
greatest honor for me to lead these fine public servants.
    To my colleagues, I appreciate the time that each of you 
have taken to meet me one-on-one. As Senators, we do not always 
have enough opportunity to sit down and discuss matters face-
to-face. I had some great visits. I understand and respect the 
conviction that you bring to your duties. Even though we may 
not always be in agreement, you have always been understanding 
and respectful of my positions, and I of yours.
    In our meetings over the past weeks you have had the 
opportunity to share with me, and relating to the Department, 
from unprosecuted crimes on Tribal lands, a matter that is 
greater than I had understood: to the scourge of human 
trafficking and child exploitation, to concerns about cuts in 
grant programs, to the protection of American civil liberties, 
and the surge of heroin overdose deaths, to just name a few 
things.
    I learned a lot during those meetings, and particularly in 
my meeting with Senator Whitehouse, where we discussed cyber 
security. He has a great deal of knowledge there. I am glad, 
Senator Whitehouse, that you and Senator Graham have taken a 
lead on this important issue, and I think we can work together 
and make some progress.
    Senator Graham, congratulations on your football victory 
last night.
    Senator Graham. How about that last one?
    Senator Sessions. So I want to assure all of my colleagues 
that I have given your concerns earnest reflection and will 
bear them in mind as I move forward. I will sincerely endeavor 
to keep these lines of communications open and hope that we can 
continue our collegiality and friendships.
    In that regard, if I am confirmed, I commit to all of you 
that the Department of Justice will be responsive, Mr. 
Chairman, to Congress, and will work with you on your 
priorities, all of you, and provide you with guidance and views 
where appropriate. The Department will respect your 
constitutional duties, your oversight role, and the critically 
important separation of powers between the executive and 
legislative branches.
    Let me address another issue straight on. I was accused in 
1986 of failing to protect the voting rights of African 
Americans by presenting the Perry County case, the voter-fraud 
case. And of condemning civil rights advocates and 
organizations and even harboring, amazingly, sympathies for the 
KKK. These are damnably false charges.
    The voter-fraud case my office prosecuted was in response 
from pleas from African-American incumbent elected officials 
who claimed that the absentee ballot process involved a 
situation in which ballots cast for them were stolen, altered, 
and cast for their opponents. The prosecution sought to protect 
the integrity of the ballot, not to block voting. It was a 
voting rights case.
    As to the KKK, I invited Civil Rights attorneys from 
Washington, DC, to help us solve a very difficult investigation 
into the unconscionable, horrendous death of a young African-
American man, Michael Donald, coming home from the 7-Eleven 
store at night, simply because he was Black. We actively backed 
the attorneys throughout the case and they broke that case. 
That effort led to a guilty plea and a life sentence in court 
for one defendant and his testimony against the other 
defendant. There was no Federal death penalty at the time. I 
felt the death penalty was appropriate in this case and I 
pushed to have it tried in State court, which was done. That 
defendant was indeed convicted and sentenced to death and 10 
years later, ironically as Alabama's Attorney General, my staff 
participated in the defense of that verdict and sentence and a 
few months after I became a United States Senator, that 
murdering Klansman was indeed executed.
    I abhor the Klan and what it represents and its hateful 
ideology. I assisted Morris Dees, of the Southern Poverty Law 
Center, in his lawsuit that led to the successful collapse of 
the Klan, at least in Alabama, and the seizure of their 
building at least for that period of time.
    As Civil Rights Division attorneys have testified before 
the Committee, I supported fully the historic cases that the 
Justice Department filed to advance civil rights--including 
cases to desegregate schools, abolish at-large elections for 
cities, county commissions, and school boards. These at-large 
elections were a mechanism used to block African-American 
candidates from being able to be elected to boards and 
commissions. It was a deliberate part of a systemic plan to 
reduce the ability of African Americans to have influence in 
the election and governing process.
    I never declared the NAACP was un-American or that a Civil 
Rights attorney was a disgrace to his race.
    There is nothing I am more proud of than my 14 years of 
service in the Department of Justice. I love and venerate that 
great institution. I hold dear its highest ideals. As God gives 
me the ability, I will work every day to be worthy of the 
demands of this august office.
    You can be absolutely sure that I understand the immense 
responsibility I would have. I am not naive. I know the threat 
that our rising crime and addiction rates pose to the health 
and safety of our country. I know the threat of terrorism. I 
deeply understand the history of civil rights in our country, 
and the horrendous impact that relentless and systemic 
discrimination and the denial of voting rights has had on our 
African-American brothers and sisters. I have witnessed it. We 
must continue to move forward and never back.
    I understand the demands for justice and fairness made by 
our LGBT community. I will ensure that the statutes protecting 
their civil rights and their safety are fully enforced.
    I understand the lifelong scars born by women who are 
victims of assault and abuse. And if I am so fortunate as to be 
confirmed as your Attorney General, you can know that I 
understand the absolute necessity that all my actions must fall 
within the bounds of the Constitution and the laws of the 
United States.
    While all humans must recognize the limits of their 
abilities, and I certainly do, I am ready for this job. We will 
do it right. Your input will be valued. Local law enforcement 
will be our partners. Many friends in Federal Government that I 
have had in law enforcement will be respected.
    I have always loved the law. It is the very foundation of 
this country. It is the exceptional foundation of America. I 
have an abiding commitment to pursuing and achieving justice, 
and a record of doing that. If confirmed, I will give all my 
efforts to this goal. I only ask that you do your duty as God 
gives you the ability to see that duty as you are charged by 
the Constitution.
    Thank you for your courtesies. I look forward to the 
hearing. Thank you, Mr. Chairman.
    Chairman Grassley. Before I ask questions, I want to thank 
you, Senator Sessions, for your service in the Senate but more 
importantly, for taking on this responsibility you have been 
nominated for and to thank you for your opening statement. I am 
glad that you were able to mention the names of a lot of your 
family that are with you and there are a lot of other people 
that we may not have their names and I would ask the staff to 
put in the record the names of all the other people who are 
accompanying you today as well, if they are willing to give us 
that name. And it is a proud day for you, your wife, son, and 
daughters, and their families. I welcome all of you very much.
    Now to the questioning. I will take 10 minutes and Senator 
Feinstein, we will go back and forth as we usually do.
    The Attorney General of the United States is, of course, 
the Nation's chief law enforcement officer. He or she is not 
the President's lawyer, nor is he the President's wingman as 
Attorney General Holder described himself. Rather, he or she 
has an independent obligation to the Constitution and to the 
American people. Now I know you care deeply about this 
foundational principle. So I am going to ask you a question I 
have heard you ask other nominees for Attorney General.
    Occasionally you will be called upon to offer an opinion to 
the President who appointed you. You will have to tell him 
``yes'' or ``no.'' And sometimes Presidents do not like to be 
told ``no.'' So I would like to know, will you be able to stand 
up and say ``no'' to the President of the United States if in 
your judgment the law and your duty demands it? And the reason 
I ask that is because I know you worked very hard for the 
President-elect.
    Senator Sessions. Mr. Chairman, I understand the importance 
of your question, I understand the responsibility of the 
Attorney General and I will do so. You simply have to help the 
President do things that he might desire in a lawful way and 
have to be able to say ``no'' both for the country, for the 
legal system, and for the President to avoid situations that 
are not acceptable. I understand that duty, I have observed it 
through my years here, and I will fulfill that responsibility.
    Chairman Grassley. Just so my colleagues do not think I am 
taking advantage of time, somebody did not start the clock. 
Well, the light is not working, I am sorry. I can read it now.
    So, I heard what you said, but just to emphasize, let me 
follow up.
    Well if you disagree with the President's chosen course of 
action and you told him so and he intends to pursue that course 
of action anyway, what are your options at that point?
    Senator Sessions. Mr. Chairman, I think an Attorney General 
should first work with the President, hopefully that Attorney 
General would have the confidence of the President, and avoid a 
situation that would be unacceptable. I do believe that if an 
Attorney General is asked to do something that is plainly 
unlawful, he cannot participate in that. He or she would have 
to resign, ultimately, before agreeing to execute a policy that 
the Attorney General believes would be unlawful or 
unconstitutional.
    I would say, Mr. Chairman, that there are areas that are 
clear and right, there are areas that may be gray, and there 
are areas that are unacceptable. And a good Attorney General 
needs to know where those lines are to help the President, 
where possible, and to resist improper, unacceptable actions.
    Chairman Grassley. You served in this Department for 14 or 
15 years, you served as your State's Attorney General, and, of 
course, you have served on this Committee for a long time. And 
we have oversight over the Department that you might head. And 
you have done that all for 20 years.
    I have had my share of disagreements with the Department's 
leadership over the last few years. Some of those were purely 
policy disagreements, but some issues were especially troubling 
to me in that the Department failed to perform fundamental 
functions to enforce the law.
    As Attorney General day in and day out, you will be faced 
with difficult and sometimes thorny legal problems. What will 
your approach be to ensuring that the Department enforces the 
law and, more broadly, what is your vision for the Department?
    Senator Sessions. Mr. Chairman, the ultimate responsibility 
of the Attorney General in the Department of Justice is to 
execute the laws passed by this Congress and to follow the 
Constitution in that process and carry its principles out. So 
you can be sure I understand that. We may have had 
disagreements here about whether a law should be passed, but 
once passed I will do my dead level best to ensure it is 
properly and fairly enforced.
    I do believe that we have a crime problem. I will not 
perhaps go into now, unless you want me to, what we can do to 
address that. And there are other challenges this country 
faces. I would be pleased to recognize the influence of the 
legislative branch and to welcome the insights that you might 
have.
    Chairman Grassley. Since that is a very important issue 
with me and I suppose every colleague here, let me emphasize by 
saying, is it fair to say then that regardless of what your 
position may have been as a legislator, your approach as 
Attorney General will be to enforce the law regardless of 
policy differences?
    Senator Sessions. Absolutely, Mr. Chairman. I do not have 
any hesitation or any lack of ability to separate the roles 
that I have had. To go from the legislative branch to the 
executive branch is a transfer, not only of position, but of 
the way you approach issues. I would serve an executive 
function, an enforcement function of the laws this great 
legislative body might pass.
    Chairman Grassley. During the course of the Presidential 
campaign, you made a number of statements about the 
investigation of former Secretary of State Hillary Clinton 
relating to her handling of sensitive emails and regarding 
certain actions of the Clinton Foundation. You were not alone 
in that criticism. I was certainly critical in the same way as 
were millions of Americans on those matters. But now you have 
been nominated to serve as Attorney General. In light of those 
comments that you made, some have expressed concern about 
whether you can approach the Clinton matter impartially in both 
fact and appearance. How do you plan to address those concerns?
    Senator Sessions. Mr. Chairman, it was a highly contentious 
campaign. I, like a lot of people, made comments about the 
issues in that campaign. With regard to Secretary Clinton and 
some of the comments I made, I do believe that that could place 
my objectivity in question. I have given that thought. I 
believe the proper thing for me to do would be to recuse myself 
from any questions involving those kinds of investigations that 
involve Secretary Clinton and that were raised during the 
campaign or could be otherwise connected to it.
    Chairman Grassley. Okay. Let me emphasize then with a 
follow-up question. To be very clear, you intend to recuse 
yourself from both the Clinton email investigation and any 
matters involving the Clinton Foundation if there are any?
    Senator Sessions. Yes.
    Chairman Grassley. Let me follow up again because it is 
important. When you say you will recuse, you mean that you will 
actually recuse and the decision will therefore fall to, I 
assume, a Deputy Attorney General?
    I ask because after Attorney General Lynch met with 
President Clinton in Phoenix, she said she would ``defer'' to 
the FBI, but she never officially recused.
    Senator Sessions. No, she did not officially recuse. And 
there is a procedure for that which I would follow. And I 
believe that would be the best approach for the country because 
we can never have a political dispute turn into a criminal 
dispute. This cannot be handled in any way that would suggest 
anything other than absolute objectivity. This country does not 
punish its political enemies, but this country ensures that no 
one is above the law.
    Chairman Grassley. You touched on something that is very 
dear to me and that is working with having executive branch 
people work with Members of the Congress. And you also 
mentioned working with us on oversight. But since that is very 
important to me, let me say that the executive branch has 
always been one of my top priorities regardless of who occupies 
the White House. I have often said I am an equal opportunity 
overseer.
    Now, over the years, I have asked quite a few executive 
nominees, but Republican and Democrat, to make commitments to 
respond to oversight. You said you would, but in my experience 
nominees are usually pretty receptive to oversight requests 
during these type of hearings, but after they have been 
confirmed, oversight does not seem to be a high priority for 
them.
    As I told you when we met privately in my office, sometimes 
I think nominees should go ahead and be a little more 
straightforward during their hearings. And instead of saying 
yes to everything we ask about oversight, it would be more 
honest to say ``maybe'' when asked if they would respond to our 
questions.
    Now, because you have served on this Committee and 
understand the importance of oversight, I am hoping you will be 
different than your predecessors in response to oversight 
questions.
    And so I have with me, that I will give to one of your 
staff, a whole bunch of letters that have not been answered 
yet, one of them even you have signed with me to the Department 
of Justice. And I hope that you would go to great lengths to 
see that these get answered so that next May or June if I am 
contacting you that they have not been answered then, you know, 
the Trump administration might be blamed for it and these are 
all a result of not getting answers from the last 
administration. So I hope you will help me get answers to 
these, at least the one you helped me to write.
    [Laughter.]
    Senator Sessions. Mr. Chairman, you are correct that this 
Committee has oversight, but it goes beyond that. This 
Committee and the Congress funds the various departments of the 
executive branch, and you have every right before you fund our 
agencies and departments to get responsive answers to questions 
that are proper. Sometimes Congress has asked for answers on 
issues that maybe there is legitimate reason to object to. But 
they should object and state why.
    Mr. Chairman, I will be responsive to your requests and I 
understand your history, perhaps more than anyone in this 
Congress, to advance the idea that the executive branch needs 
to be held accountable. And I salute you for it.
    Chairman Grassley. And if Senator Feinstein contacts you, 
do not use this excuse, as so many people use, that if you are 
not Chairman of a Committee you do not have to answer the 
question. I want her questions answered just like you would 
answer mine.
    Senator Sessions. I understand that.
    Chairman Grassley. Senator Feinstein.
    Senator Feinstein. Thank you. Thank you.
    [Laughter.]
    Senator Feinstein. Thank you. That was above and beyond the 
call. Thank you, Mr. Chairman.
    I would like to begin with the second-largest criminal 
industry in this country, which is now, believe it or not, by 
revenues produced, human sex trafficking.
    And trafficking victims are among the most vulnerable in 
our society. The average age is 12 to 14. They are beaten, 
raped, abused, at times handcuffed at night so they cannot 
escape, and often moved from place to place, forced to have sex 
with multiple men each night.
    The Justice for Victims of Trafficking Act, signed into law 
in 2015, created a Domestic Trafficking Victims' Fund for 
victim services, to be administered by the Department of 
Justice. Part of that fund contains up to $30 million for 
health care or medical items or services to trafficking 
victims.
    These funds are subject to the Hyde amendment which says no 
appropriated funding can be used to pay for abortion. However, 
the Hyde amendment does not apply in cases of rape.
    On the Senate floor, Senator Cornyn discussed the Hyde 
language and said, ``Everyone knows the Hyde amendment language 
contains an exception for rape and health of the mother. So 
under this act, these limitations on spending would not have 
anything to do with the services available to help those 
victims of human trafficking.'' In short, Senator Cornyn 
asserted that the Hyde amendment, which contains an exception 
for rape, would not affect the availability of services for 
these victims.
    The Domestic Trafficking Victims' Fund will be under the 
jurisdiction of the Department of Justice. Here is the 
question: Will you ensure that these grant funds are not denied 
to service providers who will assist victims of human 
trafficking in obtaining comprehensive services they need, 
including abortion, if that is what is required for a young 
girl impregnated during this horrific abuse?
    Senator Sessions. Senator Feinstein, I appreciate that 
question. And I do appreciate the fact that our country has 
been talking and, I believe, taking action for a number of 
years to deal with sex trafficking more effectively. I do not 
know that we have reached the level of actual effectiveness we 
need to, but Congress and you and others have been very, very 
outspoken about this. And there are all kinds of great citizens 
groups that have focused on it. It is a very important issue.
    I was not aware of how the language for this grant program 
has been established. I do appreciate your concerns on it. It 
is a matter that I have not thought through. But, ultimately, 
it is a matter for this U.S. Congress, not so much a matter for 
the Attorney General.
    We need to put our money out to assist in this activity 
according to the rules established by the Congress.
    Senator Feinstein. Well, I am delighted that Senator Cornyn 
is here. I quoted him directly from the floor that the Hyde 
amendment would not prevent the distribution of these funds. 
And so I hope you would agree to that. And that is certainly 
most important to me because Congress has spoken and the bill 
is law.
    Senator Sessions. I understand that. And we would follow 
the law.
    Senator Feinstein. Okay. As you know, the Constitution also 
protects a woman's right to have access to health care and 
determine whether to terminate her pregnancy in consultation 
with her family and her doctor.
    I am old enough to remember what it was like before, when I 
was a student at Stanford and thereafter. In the early 1960s, I 
actually sentenced women in California, convicted of felony 
abortion, to State prison for maximum sentences of up to 10 
years, and they still went back to it because the need was so 
great--so was the morbidity and so was the mortality.
    This right, passed now by the Constitution, as recognized 
in Roe, Planned Parenthood v. Casey, and the Supreme Court's 
recent decision in Whole Woman's Health v. Hellerstedt--in 
fact, the Court recently struck down onerous regulations 
imposed by Texas on women's health clinics.
    You have referred to Roe v. Wade as ``one of the worst 
colossally erroneous Supreme Court decisions of all time.'' Is 
that still your view?
    Senator Sessions. It is. I believe it violated the 
Constitution and really attempted to set policy and not follow 
law. It is the law of the land. It has been so established and 
settled for quite a long time and it deserves respect. And I 
would respect it and follow it.
    Senator Feinstein. On November 14th, 2016, appearing on the 
TV show, ``60 Minutes,'' the President-elect said that the 
issue of same-sex marriage was ``already settled, it's law, it 
was settled in the Supreme Court, it's done and I am fine with 
that.''
    Do you agree that the issue of same-sex marriage is settled 
law?
    Senator Sessions. The Supreme Court has ruled on that. The 
dissenters dissented vigorously, but it was 5-4 and five 
justices on the Supreme Court, a majority of the court, has 
established the definition of marriage for the entire United 
States of America and I will follow that decision.
    Senator Feinstein. Here is another question: If you believe 
same-sex marriage is settled law, but a woman's right to choose 
is not, what is the difference?
    Senator Sessions. Well, I have not said that the woman's 
right to choose or that Roe v. Wade and its progeny is not the 
law of the land or not clear today, so I would follow that law.
    Senator Feinstein. Thank you. I would like to ask one 
question based on the letter that we received from 1,400 law 
professors. They are from 49 States, only Alaska is left out. I 
inquired why and they said because Alaska does not have a law 
school. So it is a pretty comprehensive list representing law 
professors in every State that has a law school.
    What they said, and this is what I want you to respond to, 
is, ``Nothing in Senator Sessions' public life since 1986 has 
convinced us that he is a different man than the 39-year-old 
attorney who was deemed too racially insensitive to be a 
Federal district court judge. . . . All of us believe it is 
unacceptable for someone with Senator Sessions' record to lead 
the Department of Justice.''
    So I want your response to this and answer to the question, 
how do you intend to put behind you what are strongly felt 
personal views, take off the political hat, and be an Attorney 
General who fairly enforces the law and the Constitution for 
all?
    Senator Sessions. Well, Senator Feinstein, I would direct 
their attention to, first, to the remarks of Senator Specter 
who, in his entire career, said he made one vote that he would 
regret and that was the vote against me. He indicated he 
thought that I was an egalitarian, a person who treated people 
equally and respected people equally.
    This caricature of me in 1986 was not correct. I have 
become a United States Attorney. I supported, as the Civil 
Rights attorney said, major civil rights cases in my district 
that integrated schools, that prosecuted the Klan, that ended 
single-member districts that denied African Americans the right 
to hold office. I did everything I was required to do.
    And the complaints about the voter fraud case and the 
complaints about the Klan case that I vigorously prosecuted and 
supported are false. And I do hope this hearing today will show 
that I conducted myself honorably and properly at that time and 
that I am the same person, perhaps wiser and maybe a little 
better, I hope so, today than I was then. But I did not harbor 
the kind of animosities and race-based discrimination ideals 
that I was accused of. I did not.
    Senator Feinstein. Thank you.
    Thank you, Mr. Chairman.
    Chairman Grassley. Okay. Senator Hatch and then Senator 
Leahy.
    Senator Hatch. Well, thank you, Mr. Chairman.
    Chairman Grassley. Before your time starts, I would like to 
mention that the Committee received a letter in support of 
Senator Sessions' nomination from Attorneys General Ashcroft, 
Barr, Gonzales, Meese, and Mukasey, as well as a number of 
former Deputy Attorneys General.
    They wrote, in part, as follows, a sentence from that 
letter, ``Based on our collective and extensive experience, we 
also know him to be a person of unwavering dedication to the 
mission of the department to assure that our country is 
governed by a fair and evenhanded rule of law.''
    I ask consent to put that letter in the record.
    [The letter appears as a submission for the record.]
    Chairman Grassley. Senator Hatch.
    Senator Hatch. Well, thank you, Mr. Chairman. I first want 
to thank you for your fair approach to this, our first hearing 
of the 115th Congress. You have scheduled and you have 
structured this hearing in line with this Committee's 
precedence. In fact, you are including more witnesses in this 
hearing than the past average for Attorney General nominees.
    Senator Sessions has provided this Committee with more than 
150,000 pages of material relevant to his nomination. That is 
100 times what Attorney General Lynch produced and almost 30 
times what Attorney General Holder provided.
    This material comes from someone we know, someone many of 
us have served with in the Senate and on this very Committee, 
yet some on the far left will stop at nothing to defeat this 
nomination.
    They oppose this nomination precisely because Senator 
Sessions will not politicize the Justice Department or use its 
resources to further a political agenda. They make up one thing 
after another to create a caricature that bears no resemblance 
to the nominee, who is actually before us here today.
    Now, I have been on this Committee for a long time and I 
have seen these dirty tactics used before. And they are not 
going to work this time.
    Senator Sessions, it sounds a little strange to say this, 
but welcome to the Senate.
    [Laughter.]
    Senator Sessions. Thank you.
    Senator Hatch. The Senate Judiciary Committee. I am sure 
there will be some need to address false claims and fabricated 
charges during this hearing. Believe it or not, however, I 
actually have some questions about issues and policies that you 
will be addressing when you become Attorney General.
    The first is one I have raised with every incoming Attorney 
General nominee for nearly 25 years and it concerns enforcement 
of Federal laws prohibiting obscenity.
    In the 108th Congress, you introduced Senate Concurrent 
Resolution 77, expressing the sense of the Congress that 
Federal obscenity laws should be vigorously enforced throughout 
the United States. It pleased the Senate, or excuse me, it 
passed the Senate unanimously; it pleased it, too. In fact, it 
is the only resolution on this subject ever passed by either 
the Senate or the House.
    Now, Senator Sessions, with your permission, I want to 
share with you that resolution adopted last year by the Utah 
legislature outlining why pornography should be viewed as a 
public health problem, as well as some of the latest research 
into the harms of obscenity.
    Is it still your view that Federal laws prohibiting adult 
obscenity should be vigorously enhanced?
    Senator Sessions. Mr. Chairman, those laws are clear and 
they are being prosecuted today and should continue to be 
effectively and vigorously prosecuted in the cases that are 
appropriate.
    Senator Hatch. In making this a priority for the Justice 
Department, would you consider re-establishing a specific unit 
dedicated to prosecuting this category of crime?
    Senator Sessions. So that unit has been disbanded? I am not 
sure I knew that, but it was a part of the Department of 
Justice for a long time, and I would consider that.
    Senator Hatch. Okay. For several years now, Senator Chris 
Coons and Representatives Tom Marino and Suzan DelBene, and I, 
have raised the importance of safeguarding data privacy on an 
international scale from unauthorized Government access. So 
that is why we continue to push forward the International 
Communications Privacy Act, which establishes a legal standard 
for accessing extraterritorial communications.
    The need for a legislative solution was reinforced in July 
when the U.S. Court of Appeals for the 2nd Circuit held in 
Microsoft v. United States that current law does not authorize 
U.S. law enforcement officials to access electronic 
communications stored outside the United States.
    If confirmed, will you and your staff work with us to 
strike the needed balance to strengthen privacy and promote 
trust in the United States technologies worldwide while 
enabling law enforcement to fulfill its important public safety 
mission?
    Senator Sessions. That would be a high responsibility, 
Senator. I know you have worked hard on that for a number of 
years, as have others, Members of this Committee, Senator 
Coons, and others. So working that out, understanding the new 
technology, but the great principles of the right to privacy, 
the ability of individuals to protect data that they believe is 
private and should be protected, all of those are great issues 
in this new technological world we are in. And I would be 
pleased to work with you on that. And I do not have firm and 
fast opinions on the subject.
    Senator Hatch. Well, thank you so much. And I would like to 
turn now to rapid DNA technology that will allow law 
enforcement officials to speedily process DNA samples in 90 
minutes or less. FBI Director Comey told this Committee that 
rapid DNA would help law enforcement ``change the world in a 
very, very exciting way.'' Legislation authorizing law 
enforcement to use this technology, which you cosponsored, 
passed the Senate last year. I was disappointed, however, that 
it got tied up with criminal justice reform efforts in the 
House.
    And I have two questions. First, do you agree with FBI 
Director Comey and with law enforcement leaders across the 
country that rapid DNA legislation is important and will help 
law enforcement to do their jobs better and faster?
    And second, do you agree with me that we should work to 
pass this legislation sooner rather than later and should avoid 
tying it to efforts on other legislative issues whose path 
forward is unclear?
    Senator Sessions. Mr. Chairman, rapid DNA analysis is a 
hugely important issue for the whole American criminal justice 
system. It presents tremendous opportunities to solve crimes in 
an effective way and can produce justice because it is the kind 
of thing that you cannot fake or mislead. So I am very strongly 
in favor of that.
    In my personal view, after many years in the law 
enforcement community, is that one of the biggest bottlenecks, 
colleagues, of all of our laws involving prosecutions of 
criminal activity is the bottleneck of the scientific analysis, 
is the forensic sciences, where we fail sometimes to get DNA 
back, fail to get back fingerprint analysis, fail to get back 
drug analysis, chemical analysis. And all of this slows down 
and stops cases that should long since have been brought 
forward and disposed of.
    Senator Hatch. Okay. Now, I have read that some Democratic 
Senators accuse you of opposing the Violence Against Women Act. 
That caught my attention because, like I did, you actually 
voted to reauthorize it.
    As I recall, in 2013 there were not one, but two bills to 
reauthorize VAWA, the Violence Against Women Act. One had 
controversial provisions that had never been received in a 
hearing, the other did not.
    Am I right that you supported reauthorizing the Violence 
Against Women Act?
    Senator Sessions. Absolutely. I supported it in 2000 when 
it passed. I supported it in 2005 when both of those bills I 
supported became law. And then in this cycle, Senator Grassley 
had a bill that I thought was preferable. And I supported his 
bill that actually had tougher penalties than the other bill.
    And it is kind of frustrating to be accused of opposing 
VAWA, the Violence Against Women Act, when I have voted for it 
in the past. There was some specific add-on revision in the 
bill that caused my concern and I think other people's concern.
    Senator Hatch. And Mr. Chairman, I ask consent to place in 
the record an op-ed published in USA Today on this subject by 
Penny Nance, president of Concerned Women for America, the 
Nation's largest public policy and women's organization, if you 
can.
    Chairman Grassley. Without objection, it will be included.
    [The op-ed article appears as a submission for the record.]
    Senator Hatch. Now, I have a question about the Justice 
Department's Civil Rights Division. The division enforces the 
Religious Land Use and Institutionalized Persons Act which 
protects the right of prison inmates to worship, and protects 
churches and religious institutions from burdensome zoning and 
other restrictions.
    So I introduced this legislation in 2000. It passed without 
objection in both the Senate and the House. I would note for 
the record that next Monday, January 16th, is Religious Freedom 
Day. I hope that you will make the religious freedom of all 
Americans a priority under your leadership.
    The Civil Rights Division also has a unit dedicated to 
combating human trafficking. It was created in 2007, and one of 
my former Judiciary Committee counsels, Grace Chung Becker, was 
its first head.
    Perhaps you could comment on the significance of issues 
such as religious freedom and human trafficking and why it is 
important to include them within the civil rights agenda of the 
Department.
    Senator Sessions. Mr. Chairman, religious freedom is our 
great heritage in America. We respect people's religion. We 
encourage them to express themselves and to develop their 
relationships with the higher power, as they choose. We respect 
that. It is mandated in the Constitution.
    But there are situations in which I believe we can reach 
accommodations that would allow the religious beliefs of 
persons to be honored in some fashion as opposed to just 
dictating everything under a single provision or policy.
    So I believe you are correct. We should recognize religious 
freedom. It would be a very high priority of mine.
    Senator Hatch. Well, that means a lot to me.
    Now, Mr. Chairman, let me close by asking consent to place 
in the record letters from the National Center for Missing and 
Exploited Children and the Boys and Girls Clubs of America. 
They attest to Senator Sessions' work on behalf of the 
vulnerable children and young people.
    And I also ask consent to place in the record a letter 
supporting this nomination from nearly two dozen men and women 
who have served as Assistant Attorneys General in 10 different 
offices and divisions that says that, as both U.S. Senator and 
U.S. Attorney, ``Senator Sessions has demonstrated a commitment 
to the rule of law and to the evenhanded administration of 
justice.'' I cannot agree more.
    Senator Sessions. Thank you.
    Chairman Grassley. Without objection, those will be 
included.
    [The letters appear as submissions for the record.]
    Senator Hatch. Thank you.
    Chairman Grassley. Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman.
    And welcome, Senator Sessions and Mrs. Sessions.
    Senator Sessions. Thank you.
    Senator Leahy. Let me just follow up. You were just asked 
about the Violence Against Women Act and your support. Let us 
deal with the facts. Let us deal with what was actually voted 
on. Let us deal with the Violence Against Women Act that you 
voted against.
    You strongly opposed the Violence Against Women 
Reauthorization Act of 2013, spoke against it; you voted 
against it. That law expanded protections for some of the most 
vulnerable groups of domestic violence and sexual assault 
survivors--students, immigrants, LGBTQ victims, and those on 
Tribal lands.
    Now, the Justice Department, by all accounts, has done an 
excellent job implementing and enforcing it over the last three 
years.
    I believe--we are both prosecutors. I went to a lot of 
domestic violence scenes, crime scenes, as a young prosecutor. 
I believe that all victims of domestic and sexual violence 
deserve protection.
    Why did you vote against expanding protections for LGBT 
victims, students, immigrants and Tribal victims of domestic 
violence and sexual assault? Why did you vote ``no''?
    Senator Sessions. Mr. Chairman, I did indeed support the 
bill in 2000 and in----
    Senator Leahy. I am talking about the bill that is the law 
today.
    Senator Sessions. I understand what you are saying.
    Senator Leahy. The law today, that was passed in 2013 by an 
overwhelming margin in the Senate and by an overwhelming margin 
in the Republican-controlled House, signed into law by 
President Obama. I am asking about that. Why did you oppose it?
    Senator Sessions. Mr. Chairman, a number of people opposed 
some of the provisions in that bill, not the entire bill.
    Senator Leahy. I am just asking about you.
    Senator Sessions. I am trying to answer.
    Senator Leahy. Go ahead.
    Senator Sessions. So when we voted in the Committee, eight 
of the nine Republicans voted against the bill. One of the more 
concerning provisions was one that gave Tribal courts 
jurisdiction to try persons who were not Tribal members--I 
believe, the only time that has ever happened. That was the big 
concern that I raised, I believe, primarily, on the 
legislation.
    So I voted with the Chairman and the legislation he had, 
that I thought did the job for protecting women, to reauthorize 
the Violence Against Women Act but at the same time did not 
have other things attached to it that I thought were 
concerning.
    Senator Leahy. Well, on the Tribal courts, those have now 
been prosecuted very carefully. Defendants receive due process 
rights; they have to. None of the non-Indian defendants that 
have been prosecuted have appealed to Federal courts.
    Many feel it has made victims on Tribal lands safer. Do you 
agree with that? Do you agree with the way the Justice 
Department has handled such cases?
    Senator Sessions. Mr. Chairman, I do believe that the law 
has been passed by Congress. I am interested to see how it 
plays out in the real world, and I will do my best to make my 
judgment about how to enforce that as Attorney General.
    Senator Leahy. Well, we----
    Senator Sessions. Certainly, the law itself has many 
powerful provisions that I am glad were passed and that are in 
law, and that provide protections to women victims of violence.
    Senator Leahy. On the Tribal lands, it has been used and 
prosecuted for 3 years. Do you feel it has been handled 
correctly?
    Senator Sessions. Mr. Chairman, I have no understanding of 
that, but I am interested in the results of it so far. First 
time I have heard it commented on.
    Let me say this to you directly. In meeting with Senators 
prior to this hearing, quite a number of you raised this issue 
and I learned a lot about it. I learned a lot about the fact 
that non-Indians have been going onto Tribal lands and 
committing crimes, including rape, yet have not been 
effectively prosecuted.
    Now, under current law and historically, they would be 
prosecuted in the Federal Government by the United States 
Attorneys, and that has not been happening sufficiently, I am 
now convinced. So I do think the FBI, particularly maybe the 
Bureau of Indian Affairs investigators, should be beefed up, 
and the U.S. Attorneys need to do probably a better job of 
prosecuting cases that need to be prosecuted in Federal court.
    Senator Leahy. Those were facts that came out pretty 
clearly in the hearings before you voted against that 
provision. That is why Senator Crapo and I and others included 
it in the bill.
    There have not been any tests of that. Nobody has appealed 
this; nobody has objected to it. If somebody does, would you be 
able to defend it in court?
    Senator Sessions. I would defend the statute, if it is 
reasonably defensible, yes. It is passed by Congress; it would 
be the duty of the Attorney General, whether they voted for it 
or support it, to defend it.
    Senator Leahy. Now----
    Senator Sessions. Did I call you ``Mr. Chairman'' a while 
ago? I think I did. You have been my Chairman many years now.
    Senator Leahy. Well, that is okay. It has been 20 years 
back and forth, and I am delighted to turn it over to Senator 
Feinstein and Senator Grassley.
    Senator Sessions. Well, you will be handling all the money 
of the United States, I understand, in your new position.
    [Laughter.]
    Senator Leahy. In 2009, I offered the Matthew Shepard and 
James Byrd, Jr. Hate Crimes Prevention Act as an amendment to 
the Defense bill. It extended hate crimes protections to LGBT 
individuals, women, and individuals with disabilities. It 
passed the Senate overwhelmingly. You opposed it. You stated at 
a hearing that you are not sure women or people of different 
sexual orientations face that kind of discrimination. And then 
you said, ``I just do not see it.''
    Do you still believe that women and LGBT individuals do not 
face the kind of discrimination that the hate crimes 
legislation was passed to prevent?
    Senator Sessions. Senator Leahy, having discussed that 
issue at some length, that does not sound like something I said 
or intended to say. What I did intend----
    Senator Leahy. Well, you did say it.
    Senator Sessions. Well, I understand, but I have seen 
things taken out of context and not give an accurate picture. 
My concern is and was that it appeared these cases were being 
prosecuted effectively in State courts, where they would 
normally be expected to be prosecuted.
    I asked Attorney General Holder to list cases that he had 
that indicated they were not being properly prosecuted. I noted 
that Mr. Byrd's assailant was given the death penalty in Texas 
for his offense, and Mr. Shepard's had two life sentences 
imposed as a result of the situation in his State.
    So the question simply was, do we have a problem that 
requires an expansion of Federal law into an area that the 
Federal Government has not been historically involved? Senator 
Hatch had a proposal that we do a study to see the extent of 
the problem, and that we should have evidence that indicates a 
shortage of prosecutions and a lack of willingness to prosecute 
before adding this law.
    Senator Leahy. As far as the study, last year the FBI said 
that LGBT individuals were more likely to be targeted for hate 
crimes than any other minority group in the country. I mean, we 
can study this forever, but that is a pretty strong fact.
    Senator Sessions. Well, I will tell you, Senator----
    Senator Leahy. And in 2010, you stated that expanding hate 
crime protections to LGBT individuals was unwarranted, possibly 
unconstitutional. You said the bill has been said to cheapen 
the civil rights movement.
    Especially considering what the FBI has found, do you still 
feel that way?
    Senator Sessions. Mr. Chairman, the law has been passed. 
The Congress has spoken. You can be sure I will enforce it.
    Senator Leahy. Thank you.
    I do not want to go as much over time as Senator Hatch did, 
but I will ask you one question.
    The President-elect has repeatedly asserted his intention 
to institute a ban on Muslim immigrants to the United States.
    In December 2015, you voted against a resolution that I 
offered in this Committee that expressed the sense of the 
Senate that the United States must not bar individuals from 
entering into the United States based on their religion. All 
Democrats and most Republicans, including the Chairman, were in 
support of my resolution. Do you agree with the President-elect 
that the United States can or should deny entry to members of a 
particular religion? Based on their religion? We do background 
checks for terrorism, but based on their religion, do you agree 
with the President-elect that the United States can or should 
deny entry to all members of a particular religion?
    Senator Sessions. Senator Leahy, I believe the President-
elect has, subsequent to that statement, made clear that he 
believes the focus should be on individuals coming from 
countries that have a history of terrorism, and he has also 
indicated that his policy and what he suggests is strong 
vetting of people from those countries before they are admitted 
to the United States.
    Senator Leahy. Then why did you vote against the 
resolution?
    Senator Sessions. Mr.--I almost called you Mr. Chairman 
again. Senator Leahy, my view and concern was that the 
resolution was suggesting that you could not seriously consider 
a person's religious views. Sometimes, though not in the 
majority of cases, people do have religious views that are 
inimical to the public safety of the United States.
    I did not want to have a resolution that suggested that 
that could not be a factor in the vetting process before 
someone is admitted. But I have no belief and do not support 
the idea that Muslims as a religious group should be denied 
admission to the United States. We have great Muslim citizens 
who have contributed in so many different ways in America--as I 
said in my remarks at the occasion that we discussed it in 
Committee. I am a great believer in religious freedom and the 
right of people to exercise their religious beliefs.
    Chairman Grassley. Before I turn to----
    Senator Leahy. May I ask consent to put some items in the 
record?
    Chairman Grassley. Yes. So without objection, your inserts 
will be included.
    [The information referred to appears as submissions for the 
record.]
    Chairman Grassley. I have a letter from Solicitor General 
Ted Olson in support of Senator Sessions, quoting in part, with 
respect to civil rights, he says, ``As a lawyer who has devoted 
years of effort to litigating and vindicating the civil rights 
of our fellow gay, lesbian, and transgender citizens, I 
recognize that people of good faith can disagree on legal 
issues. Such honest disagreement should not disqualify them 
from holding public office. In particular, I have no 
reservations about Senator Sessions' ability to handle these 
issues fairly, in accordance with law and to protect the civil 
rights of these and all of our citizens.''
    I would like to include that in the record, without 
objection.
    [The letter appears as a submission for the record.]
    Chairman Grassley. Senator Graham.
    Senator Graham. Thank you, Mr. Chairman. We are about to 
get an answer to the age-old question: Can you be confirmed 
Attorney General of the United States over the objection of 
1,400 law professors?
    [Laughter.]
    Senator Graham. I do not know what the betting line in 
Vegas is, but I like your chances.
    Speaking of football----
    [Laughter.]
    Senator Graham [continuing]. I want to congratulate the 
University of Alabama for one heck of a streak. One of the most 
dominant football teams in the history of college football. And 
I want to acknowledge the Clemson Tigers, where I live five 
miles from the stadium, that that was the finest college 
football game I think I have ever seen.
    Dabo Swinney and the Tigers represent everything good about 
college athletics. And while we were on different teams early 
this morning, I want to let the good people of Alabama know 
that in terms of their Senator, Jeff Sessions, he is a fine 
man, an outstanding fellow who I often disagree with, I have 
traveled the world with. I have gotten to know him and his 
family, and I will enthusiastically support you for the next 
Attorney General of the United States.
    Now, let us talk about issues. Some people believe that the 
only way you can get justice in this world is for the Federal 
Government to administer it. Have you heard such thoughts?
    Senator Sessions. Well, I have.
    Senator Graham. Yes.
    Senator Sessions. I think I know what you are talking 
about.
    Senator Graham. Yes, I think I do too. I think the whole 
point is, for the Federal Government to take over an area of 
the law, there should be a good reason. Do you agree with that?
    Senator Sessions. Yes.
    Senator Graham. If a State is not prosecuting crimes 
against people based on their sex, their race, whatever reason, 
then it is proper for the Federal Government to come in and 
provide justice. Do you agree with that?
    Senator Sessions. I do.
    Senator Graham. When the State is doing its job, the 
Federal Government should let the States do their job.
    Senator Sessions. That is correct. That is the general 
principle and there is not a general Federal crime, Federal 
statute, that federalizes all crime in America. There has never 
been one.
    Senator Graham. Because people are listening. That is just 
the way we think. You may not agree with that, but we think 
that way. And I think we have really got a good reason to think 
that way. I think that is the way they set up the whole system.
    Muslims. As you know, me and the President-elect have had 
our differences about religious tests. Would you support a law 
that says you cannot come to America because you are a Muslim?
    Senator Sessions. No.
    Senator Graham. Would you support a law that says that if 
you are a Muslim, and you say you are a Muslim, and when we ask 
you what does that mean to you, well, that means I have got to 
kill everybody that is different from me, it is okay to say 
they cannot come?
    Senator Sessions. I think that would be a prudent decision.
    Senator Graham. I hope we can keep people out of the 
country who want to kill everybody because of their religion. I 
hope we are smart enough to know that is not what most people 
in the Muslim faith believe. So----
    Senator Sessions. It can be the religion of that person.
    Senator Graham. That is right. That is the point we are 
trying to make here.
    About the Wire Act, what is your view of the Obama 
administration's interpretation of the Wire Act to allow online 
video poker, or poker gambling?
    Senator Sessions. Senator Graham, I was shocked at the 
enforcement memorandum that the Department of Justice issued 
with regard to the Wire Act, and I criticized it. Apparently, 
there is some justification or argument that can be made to 
support the Department of Justice's position, but I did oppose 
it when it happened and it seemed to me to be an unusual----
    Senator Graham. Would you revisit it?
    Senator Sessions. I would revisit it and I would make a 
decision about it based on careful study. At this time, I have 
not reviewed it so far as to give you an opinion today.
    Senator Graham. Immigration. You have said that the 
Executive order of President Obama you believe is 
unconstitutional, the DACA law. Do you still have that 
position?
    Senator Sessions. I did, for a number of reasons.
    Senator Graham. But I am not--I mean, I agree with you.
    Senator Sessions. Right.
    Senator Graham. Now we have got 800,000 people have come 
out of the shadows, that have been signed up. Will you advise 
the next President, President Trump, to repeal that Executive 
order?
    Senator Sessions. That will be a decision that needs to be 
studied and that he would need to agree to. But it is an 
Executive order--really, a memorandum of the Department of 
Homeland Security.
    It would certainly be constitutional, I believe, to end 
that order, and our Department of Justice, I think, could have 
no objection to a decision to abandon that order. Because it is 
very questionable, in my opinion, constitutionally.
    Senator Graham. Once we repeal it--and I agree that I 
believe it is an overreach--what do we do with the 800,000 kids 
who have come out of the shadows?
    Senator Sessions. Senator Graham, fundamentally we need to 
fix this immigration system. Colleagues, it has not been 
working right. We have more and more millions of people 
entering illegally into the country. Each one of them produces 
some sort of humanitarian concern, but it is particularly true 
for children.
    So we have been placed in a bad situation. I really would 
urge us all to work together. I would try to be supportive to 
end the illegality and put us in a position where we can 
wrestle with how to handle these difficult, compassionate 
decisions.
    Senator Graham. Right. And the best way to do it is for 
Congress and the administration to work together and pass a 
law, not an Executive order.
    Senator Sessions. Exactly.
    Senator Graham. Okay. When it comes to the law of war, do 
you believe that people who join al-Qaeda or affiliated groups 
are subject to being captured or killed under the law of war?
    Senator Sessions. I do, Senator. I just do not see how we 
could see it otherwise. And it is the responsibility of the 
military to protect the United States from people who attack 
us.
    Senator Graham. Do you believe the threats to the homeland 
are growing or lessening?
    Senator Sessions. I believe they are growing and we are 
seeing that now in Europe and we are also seeing it right here 
in America.
    Senator Graham. Do you support the continuation of Gitmo as 
a confinement facility for foreign terrorists?
    Senator Sessions. Senator Graham, I think it is designed 
for that purpose. It fits that purpose marvelously well. It is 
a safe place to keep prisoners. We have invested a lot of money 
in that, and I believe it should be utilized in that fashion so 
I have opposed the closing of it.
    But as Attorney General----
    [Protestors interrupting.]
    Senator Graham. I just wanted to see if they were still 
listening. I think they are on the fence about Gitmo, but I am 
not sure.
    [Laughter.]
    Senator Graham. Let me tell you. I support this 
administration's effort to make sure we prosecute terrorism as 
a military action, not a law enforcement action. They are not 
trying to steal our cars or rob your bank account. They are 
trying to destroy our way of life, and I hope you will go after 
them without apology, apply the law. And the law is the law of 
war, not domestic criminal law. And you will have a friend in 
Senator Graham if you intend to do that.
    Cyber attacks. Do you think the Russians were behind 
hacking into our election?
    Senator Sessions. I have done no research into that. I know 
just what the media says about it.
    Senator Graham. Do you think you could get briefed anytime 
soon?
    Senator Sessions. Well, I will need to.
    Senator Graham. Well, I think you do, too.
    You like the FBI?
    Senator Sessions. Do I like them?
    Senator Graham. Yes.
    Senator Sessions. Some of my best friends are FBI.
    Senator Graham. Do you generally trust them?
    Senator Sessions. Yes.
    Senator Graham. Are you aware of the fact that the FBI has 
concluded that it was the Russian intelligence services who 
hacked into the DNC and Podesta's emails?
    Senator Sessions. I do understand that.
    Senator Graham. From your point of----
    Senator Sessions. At least that is what has been reported, 
and I have not been briefed by them on the subject.
    Senator Graham. Right. From your point of view, there is no 
reason for us to be suspicious of them?
    Senator Sessions. Of their decision?
    Senator Graham. Yes.
    Senator Sessions. I am sure it was honorably reached.
    Senator Graham. How do you feel about a foreign entity 
trying to interfere in our election? I am not saying they 
changed the outcome, but it is pretty clear to me they did. How 
do you feel about it and what should we do?
    Senator Sessions. Senator Graham, I think it is a 
significant event. We had penetration, apparently, throughout 
our Government by foreign entities. We know the Chinese have 
revealed background information on millions of people in the 
United States, and I suppose this is ultimately part of 
international big-power politics.
    But when a nation uses their improperly gained or 
intelligence-gained information to take policy positions that 
impact another nation's democracy or their approach to any 
issue, then that raises real serious matters.
    It really, I suppose, goes in many ways to the State 
Department, the Defense Department, and how we as a Nation have 
to react to that, which would include developing some protocols 
where when people breach our systems, that a price is paid even 
if we cannot prove the exact person who did it.
    Senator Graham. I agree. I have got 20 seconds left.
    I have known you for, I guess, 15 years now, and we have 
had a lot of contests on the floor and sometimes we agree, 
sometimes we do not.
    I am from South Carolina, so I know what it is like 
sometimes to be accused of being a conservative from the South. 
That means something other than you are a conservative from the 
South, in your case. People have fairly promptly tried to label 
you as a racist or a bigot or whatever you want to say.
    How does that make you feel? And this is your chance to say 
something to those people.
    Senator Sessions. Well, that does not feel good.
    [Protestor interruption.]
    Senator Graham. If nothing else, I am clearing the room for 
you.
    [Laughter.]
    Senator Graham. And I would suggest that the freedom of 
speech also has some courtesy to listen.
    So what is your answer?
    Senator Sessions. Senator Graham, I appreciate the 
question. When you have a Southern name, you come from South 
Alabama, that sounds worse to some people. South Alabama. And 
when I came up as a United States Attorney, I had no real 
support group. I did not prepare myself well in 1986, and there 
was an organized effort to caricature me as something that was 
not true. It was very painful. I did not know how to respond 
and did not respond very well.
    I hope my tenure in this body has shown you that the 
caricature that was created of me was not accurate. It was not 
accurate then and it is not accurate now. And I just want you 
to know that as a Southerner who actually saw discrimination 
and have no doubt it existed in a systematic and powerful and 
negative way to the people, great millions of people in the 
South, particularly, of our country, I know that was wrong. And 
I know we need to do better.
    We can never go back. I am totally committed to maintaining 
the freedom and equality that this country has to provide to 
every citizen, and I assure you that that is how I will 
approach it.
    Chairman Grassley. Senator Durbin.
    Senator Durbin. Thank you, Mr. Chairman.
    Senator Sessions, let me first say it is--I am glad that 
you brought your family with you today. It is a beautiful 
family, with your wife and your son and daughters and those 
four beautiful little granddaughters. You have kept as quiet as 
you could for as long as you could, so thank you so much for 
being here today. I am sure it was great moral support and part 
of your effort here today.
    When you came by my office last week, I talked to you about 
a man named Alton Mills. And with the permission of the chair, 
I would like to--he is my guest today--ask Mr. Mills if he 
would please stand up. Alton, thank you for being here today.
    I would like to tell you a story so you can understand my 
question a little better.
    When Alton Mills was 22 years old, unemployed, he made a 
bad decision. He started selling crack cocaine on the streets 
of Chicago. He was arrested twice for possession of small 
amounts of crack cocaine.
    The third time that he was arrested, the kingpins who had 
employed him turned on him and, as a consequence, he ended up 
being prosecuted under the three-strikes-and-you're-out law. At 
the age of 24, he was sentenced to life without parole.
    He had never been in prison before and, as I mentioned, 
there were no allegations made against him other than 
possession and sale. No violence, no guns, nothing of that 
nature.
    Alton Mills ended up--despite the sentencing judge's 
admonition that he believed this was fundamentally unfair and 
his hands were tied, Alton Mills ended up spending 22 years in 
Federal prison, until December 2015 when President Obama 
commuted his sentence. He was finally able to go home to his 
family.
    Senator Sessions, 7 years ago you and I co-sponsored a bill 
known as the Fair Sentencing Act, which Senator Collins 
referenced earlier, and that reduced the brutal sentencing 
disparity for crack cocaine crimes over powder cocaine.
    It was originally 100-to-1. We agreed--in the Senate gym, I 
might add--to bring that down to 18-to-1. Inmates, 
overwhelmingly African-American, were spared thousands of 
prison years because of our joint effort in this injustice.
    Yet when I asked you to join me in appealing to the 
Sentencing Commission to follow our law, and when I asked you 
to join Senator Grassley and me in permitting the almost 5,000 
still serving under this unfair 100-to-1 standard to petition 
individually for leniency, you refused.
    And you said of President Obama's pardoning of people like 
Alton Mills, ``President Obama continues to abuse Executive 
power in an unprecedented, reckless manner to systematically 
release high-level drug traffickers and firearms felons.'' 
``So-called low-level, non-violent offenders simply do not 
exist in the Federal system,'' you said.
    Senator Sessions, Alton Mills and many more just like him 
do exist. So if you refuse to even acknowledge the fundamental 
injustice of many of our sentencing laws, why should you be 
entrusted with the most important criminal prosecution office 
in America?
    Senator Sessions. Senator Durbin, I think that is rather 
unfair, based on our relationship and how we work together. In 
2001, I introduced legislation very similar to the bill that 
you and I successfully made law. It would have reduced it to 
20-to-1. Our bill went to 18-to-1, a little better, but 
fundamentally that.
    I was criticized by the Bush Department of Justice. My 
legislation was opposed by them. It was 7 years later or so or 
longer before our bill ever passed. So I stepped out against my 
own Republican administration and said openly on the floor of 
the Senate that I believed these crack cocaine laws were too 
harsh and particularly it was disadvantageous to the African-
American community, where most of the punishments were falling. 
And it was not fair and we ought to fix it.
    I just want to say I took a strong stand on that. You and I 
did not agree on the retroactivity because a lot of these were 
plea-bargain cases and may not have been totally driven by the 
mandatory minimums. So I thought the Court had basically now 
agreed that it is retroactive. I do not know what group is not 
being covered by it, but a large group was covered by a Court 
decision. We sort of left it open, as I remember it.
    Senator Durbin. We did.
    Senator Sessions. You and I discussed it.
    Senator Durbin. Let me say on the issue of fairness, I will 
acknowledge you stepped out on this issue. And you and I both 
recognized the brutal injustice of a 100-to-1, and we agreed on 
18-to-1. That is how laws are made. And now we have 5,000 
prisoners sitting in Federal prison, still there under this 
brutal, unjust 100-to-1. And all I have asked and all Senator 
Grassley has asked, allow them as individuals to petition to 
the judge, to the prosecutor, to the Department of Justice so 
that their sentences could be considered. That is something you 
have opposed.
    So in fairness, tell me why you still oppose that.
    Senator Sessions. Well, first, I will tell you with 
absolute certainty that it is a decision of this body. It is 
not the Attorney General's decision about when and where a 
mandatory minimum is imposed and whether it can be 
retroactively altered.
    I will follow any law that you pass, number one. Number 
two, I understood the sincere belief you had on that issue, and 
it was a difficult call, and that is why we really never worked 
it out.
    So I understand what you are saying, but I did believe that 
you are upsetting finality in the justice system, that you are 
suggesting that these kind of factors were not considered when 
the plea bargaining went down. So it is an honorable debate to 
have, and I respect your position on it.
    Senator Durbin. Senator, you have been outspoken on another 
issue, and I would like to address it, if I could. I have 
invited here today Sergeant Oscar Vazquez, if he would be kind 
enough to stand up and be recognized. Sergeant, thank you for 
being here.
    I will tell you his incredible story in a short form. 
Brought to the United States as a child, in high school he and 
three other DREAMers started a Robotics Club and won a college-
level robotics competition. They made a movie out of this 
story. He graduated from Arizona State University with an 
engineering degree. The Obama administration granted him a 
waiver and allowed him to become a citizen and enlist in the 
United States Army, where he served in combat in Afghanistan.
    Senator Sessions, since joining the Senate in 1997, you 
have voted against every immigration bill that included a path 
to citizenship for the undocumented. You described the DREAM 
Act, which I introduced 15 years ago to spare children who are 
undocumented through no fault of their own, as ``a reckless 
proposal for mass amnesty.'' You opposed the bipartisan 
comprehensive immigration reform bill which passed the Senate 4 
years ago. You have objected to immigrants' volunteering to 
serve in our armed forces, saying, ``In terms of who is going 
most likely to be a spy: somebody from Cullman, Alabama, or 
somebody from Kenya?''
    When I asked what you would do to address the almost 
800,000 DREAMers, like Oscar Vazquez, who would be subject to 
deportation if President Obama's Executive order was repealed, 
you said, ``I believe in following the law. There is too much 
focus on people who are here illegally and not enough on the 
law.''
    Senator Sessions, there is not a spot of evidence in your 
public career to suggest that as Attorney General you would use 
the authority of that office to resolve the challenges of our 
broken immigration system in a fair and humane manner. Tell me 
I am wrong.
    Senator Sessions. Well, you are wrong, Senator Durbin. I am 
going to follow the laws passed by Congress. As a matter of 
policy, we disagreed on some of those issues. I do believe that 
if you continually go through a cycle of amnesty that you 
undermine the respect for the law and encourage more illegal 
immigration into America. I believe the American people spoke 
clearly in this election. I believe they agreed with my basic 
view. And I think it is a good view, a decent view, a solid 
legal view for the United States of America that we create a 
lawful system of immigration that allows people to apply to 
this country, and if they are accepted, they get in; if they 
are not accepted, they do not get in. And I believe that is 
right and just, and the American people are right to ask for 
it. We have not delivered that for them.
    Senator Durbin. Senator Graham asked this question, and I 
listened to your answer when he asked you what would happen to 
those 800,000 currently protected by President Obama's 
Executive order known as DACA, who cannot be deported for 2 
years--it is renewable--and can work for 2 years, and you said, 
``Let Congress pass a comprehensive immigration reform bill.''
    You opposed the only bipartisan effort that we have had on 
the Senate floor in modern memory. And what is going to happen 
to those 800,000 if you revoke that order and they are subject 
to deportation tomorrow? What is going to happen to them? What 
is the humane legal answer to that?
    Senator Sessions. Well, the first thing I would say is that 
my response to Senator Graham dealt with whose responsibility 
this is. I had a responsibility as a Member of this body to 
express my view and vote as I believed was correct on dealing 
with issues of immigration. That is not the Attorney General's 
role. The Attorney General's role is to enforce the law. And as 
you know, Senator Durbin, we are not able financially or any 
other way to seek out and remove everybody that is in the 
country illegally.
    President Trump has indicated that criminal aliens, like 
President Obama indicated, certainly are the top group of 
people and so I would think that the best thing for us to do--
and I would urge my colleagues to understand this. Let us fix 
this system. And then we can work together after this 
lawlessness has been ended, and then we can ask the American 
people and enter into a dialogue about how to compassionately 
treat people who have been here a long time.
    Senator Durbin. That does not answer the question about the 
800,000 who would be left in the lurch, whose lives would be 
ruined while you are waiting on Congress for a bill that you 
opposed.
    Senator Sessions. Well, I thought it did answer it pretty 
closely, what you asked, and I understand your concerns.
    Chairman Grassley. Senator Cornyn.
    Senator Cornyn. Senator Sessions, congratulations to you 
and your family on this once-in-a-lifetime honor to serve as 
the head of the Department of Justice.
    You know, sitting here listening to the questions and some 
of the comments that have been made, both by the protesters and 
others, it strikes me that many people have been surprised to 
learn more about your record, your outstanding record as a 
prosecutor, as somebody who treated that responsibility to 
uphold and enforce the law and the Constitution without fear or 
favor. I think some people here listening today have been 
somewhat surprised by your record in complete context.
    Those of us who have served with you in this Senate, some 
as many as 20 years, like Senator Shelby and Senator Collins, 
testified to your character. But I like to think that those of 
us who served with you most closely in the Senate, particularly 
here on the Judiciary Committee, know more about you than just 
your record and your character. We know your heart. We know 
what kind of person you are. You are a good and decent and 
honorable man. You have got an outstanding record that you 
should be proud of, and I know you are. And you should be.
    For example, when somebody says that you unfairly 
prosecuted some African Americans for voter fraud in Alabama, 
it strikes me as ``incomplete,'' is the most charitable thing I 
can say, when they leave out the fact that the very 
complainants in that case were also African Americans. In other 
words, the people you prosecuted were African Americans, but 
the people whose voting rights you were trying to vindicate 
were African Americans. Is that not correct?
    Senator Sessions. That is correct.
    Senator Cornyn. Does that strike you as a fair 
characterization of your approach toward enforcing the law that 
people would leave that important factor out?
    Senator Sessions. It is not, Senator Cornyn, and it has 
been out there for a long time. If you ask people who casually 
follow the news, they probably saw it otherwise. These were 
good people who asked me to get involved in this case. In 1983, 
a majority African-American grand jury with an African-American 
foreman asked the Federal Government to investigate the 1982 
election. I declined. I hoped that that investigation would 
have stopped the problem. But 2 years later, the same thing was 
happening again. We had African-American incumbent officials 
pleading with us to take some action. We approached the 
Department of Justice in Washington, the Public Integrity 
Voting Section. They approved an investigation, and it 
developed into a legitimate case involving charges of vote 
fraud, taking absentee ballots from voters, opening them up, 
and changing their vote and casting them for somebody they did 
not intend the vote to be cast for. It was a voting rights 
case, and I just feel like we tried to conduct ourselves in the 
right way. I never got in the argument of race or other 
matters. I just tried to defend myself as best I could.
    I would note, colleagues, that just in the last few days, 
the son of Albert Turner has written a letter and said I was 
just doing my job, and he understood the reason and the 
justification for the prosecution and that I would be a good 
Attorney General. So that was gratifying to me, and that is the 
real truth of the matter.
    Senator Cornyn. Senator Sessions, I know the nature of 
these confirmation hearings is that people pick out issues that 
they are concerned about or where there may be some good faith 
disagreement on policy, and that is what they focus on. But let 
me just ask you--maybe it is not a great analogy, but let me 
try anyway. You have been married to your wife, Mary, almost 50 
years, right?
    Senator Sessions. Well, it has not gotten to 50 yet. Forty-
seven, soon to be 48.
    Senator Cornyn. Forty-seven, okay. Well, that is a good 
run. Let me just ask you, are there----
    Senator Sessions. Let it continue. I have been blessed.
    Senator Cornyn. Are there occasions when you and your wife 
disagree?
    Senator Sessions. No, Senator.
    [Laughter.]
    Chairman Grassley. You are under oath.
    Senator Sessions. Wait a minute. I am under oath. On 
occasion we do, yes.
    Senator Cornyn. Do you think it would be fair to 
characterize the nature of your relationship with your wife 
based upon those handful of disagreements that you have had 
with her over time?
    Senator Sessions. That is a good point. Thank you for 
making it. No, I do not.
    Senator Cornyn. Well, and to your original point, your wife 
is always right.
    Senator Sessions. That is correct.
    Senator Cornyn. You are under oath.
    [Laughter.]
    Senator Cornyn. Well, so this is the nature of these 
confirmation hearings. People are identifying specific issues 
where there are policy differences, but my point is that does 
not characterize your entire record of 20 years in the United 
States Senate or how you have conducted yourself as a 
prosecutor representing the United States Government in our 
Article III courts.
    Let me get to a specific issue, to a couple, in the time I 
have remaining. I was really pleased to hear you say in your 
opening statement that many in law enforcement feel that our 
political leaders have on occasion abandoned them. You said 
police ought to be held accountable. But do you believe that it 
is ever under any circumstances appropriate for somebody to 
assault a police officer, for example?
    Senator Sessions. There is virtually no defense for that 
kind of action, and I do believe that we are failing to 
appreciate police officers who place their lives at risk. This 
sergeant, who was just killed yesterday, was trying to deal 
with a violent criminal and vindicate the law when she was 
killed. That is the kind of thing that too often happens. We 
need to be sure that when we criticize law officers, it is 
narrowly focused on the right basis for criticism. And to smear 
whole departments places those officers at greater risk, and we 
are seeing an increase in murder of police officers. It was up 
10 percent last year.
    I could feel in my bones how it was going to play out in 
the real world when we had what I thought oftentimes was 
legitimate criticism of perhaps wrongdoing by an officer, but 
spilling over to a condemnation of our entire police force. And 
morale has been affected, and it has impacted the crime rates 
in Baltimore and crime rates in Chicago. I do not think there 
is any doubt about it. I regret that is happening. I think it 
can be restored, but we need to understand the requirement that 
the police work with the community and be respectful of their 
community, but we as a Nation need to respect our law officers, 
too.
    Senator Cornyn. Well, I for one appreciate your comments, 
because we ought to hold our police and law enforcement 
officers up in the high regard to which they deserve based on 
their service to the communities. And your comments remind me 
to some extent of Chief David Brown's comments, the Dallas 
police chief, following the tragic killing of five Dallas 
police officers recently, where he said that police ought to be 
held accountable, but under no circumstances could any assault 
against a police officer be justified based on what somebody 
else did somewhere at some time. So I for one appreciate that 
very much.
    You mentioned Baltimore and Chicago, and we have seen an 
incredible number of people, frequently in minority 
communities, who have been killed as results of crimes related 
to felons who perhaps are in possession of guns that they have 
no legal right to be in possession of. Earlier, you talked 
about prosecuting gun crimes, and I am glad to hear you say 
that. Project Exile, which originated I think in Richmond, 
Virginia, which targeted felons and other people who cannot 
legally own or possess firearms, was enormously effective. And 
when I look at the record of the last 5 and 10 years at the 
Justice Department, prosecution of those kinds of crimes down 
15.5 percent in the last 5 years, down 34.8 percent in the last 
10 years.
    Can you assure us that you will make prosecuting those 
people who cannot legally possess or use firearms a priority 
again in the Department of Justice and help break the back of 
this crime wave that is affecting so many people in our local 
communities like Chicago or Baltimore, and particularly 
minority communities?
    Senator Sessions. I can, Senator Cornyn. I am familiar with 
how that plays out in the real world. My best judgment, 
colleagues, is that, properly enforced, the Federal gun laws 
can reduce crime and violence in our cities and communities. It 
was highlighted in Richmond in Project Exile. But I have to 
tell you, I have always believed that. When I was United States 
Attorney in the 1980s and into the early 1990s, we produced a 
newsletter that went out to all local law enforcement called 
``Project Triggerlock,'' with the Federal law enforcement, too, 
and it highlighted the progress that was being made by 
prosecuting criminals who use guns to carry out their crimes.
    Drug-dealing criminals are most likely the kind of people 
who will shoot somebody when they go about their business. And 
if those people are not carrying guns because they believe they 
might go to Federal court, be sent to a Federal jail for 5 
years, perhaps, they will stop carrying those guns during their 
drug dealing and their other activities that are criminal. 
Fewer people will get killed.
    So I truly believe that we need to step that up. It is a 
compassionate thing. If one of these individuals carrying a gun 
shoots somebody, not only is there a victim; they end up with 
hammering and a sentence in jail for interminable periods. The 
culture, the communities are safer with fewer guns in the hands 
of criminals.
    Senator Cornyn. Thank you.
    Chairman Grassley. Before we go to Senator Whitehouse, 
Members have asked me about our break, and if it is okay with 
Senator Sessions, it would work out about 1 o'clock if we have 
three on this side and three on this side for 1 hour, because 
it is noon right now. Is that okay with you, Senator Sessions?
    Senator Sessions. Mr. Chairman, I am at your disposal.
    Chairman Grassley. This will give my colleagues an 
opportunity, if they want, to go to the respective political 
party caucuses. And we would take a recess of about 30 to 40 
minutes.
    Senator Leahy. That is very fair.
    Chairman Grassley. Okay. Thank you, Senator.
    Now, Senator Whitehouse.
    Senator Whitehouse. Senator Sessions, hello.
    Senator Sessions. Thank you, Senator Whitehouse.
    Senator Whitehouse. When we met, I told you that I was 
going to ask you a particular question, so I am going to lead 
off with that particular question.
    Following the Gonzales scandals at the Department of 
Justice, the Department adopted procedures governing 
communications between the White House and the Department of 
Justice consistent with constraints that were outlined years 
ago in correspondence between Senator Hatch and the Reno 
Justice Department limiting contacts between a very small 
number of officials at the White House and a very small number 
of officials at the Department of Justice. Will you honor and 
maintain those procedures at the Department of Justice?
    Senator Sessions. I will, Senator Whitehouse.
    You as an honorable and effective United States Attorney 
yourself know how that works and why it is important. Attorney 
General Mukasey issued a firm and----
    Senator Whitehouse. And very clear about supporting that 
policy, yes.
    Senator Sessions. Maybe still pending, and I would say to 
you--well, that is the appropriate way to do it. After you and 
I talked, I read the Reno memorandum, the Gorelick memorandum, 
and I think I would maintain those rules.
    Senator Whitehouse. On the subject of honorable 
prosecutions, when is it appropriate for a prosecutor to 
disclose derogatory investigative information about a subject 
who was not charged?
    Senator Sessions. That is a very dangerous thing, and it is 
a pretty broad question, as you ask it. But you need to be very 
careful about that, and there are certain rules, like grand 
jury rules, that are very significant.
    Senator Whitehouse. And is it not also true that it is 
customary practice because of the concern about the improper 
release of derogatory investigative information that the 
Department customarily limits its factual assertions even after 
an individual has been charged to the facts that were charged 
in the information or the indictment?
    Senator Sessions. I believe that is correct, yes. That is a 
standard operating policy in most offices. There may be some 
exceptions, but I think that is standard operating procedure in 
the United States Attorneys' Offices like you and I had.
    Senator Whitehouse. As a question of law, does 
waterboarding constitute torture?
    Senator Sessions. Well, there was a dispute about that when 
we had the torture definition in our law. The Department of 
Justice memorandum concluded it did not necessarily prohibit 
that. But Congress has taken an action now that makes it 
absolutely improper and illegal to use waterboarding or any 
other form of torture in the United States by our military and 
by all our other departments and agencies.
    Senator Whitehouse. Consistent with the wishes of the 
United States military.
    Senator Sessions. They have been supportive of that. And, 
in fact, I would just take a moment to defend the military. The 
military----
    Senator Whitehouse. You do not need to defend them from me. 
I am all for our military.
    Senator Sessions. I know. But I just--so many people, I 
truly believe, think that the military conducted waterboarding. 
They never conducted any waterboarding. That was by 
intelligence agencies. And their rules were maintained. I used 
to teach the Geneva Conventions and the Rules of Warfare as an 
Army Reservist to my personnel, and the military did not do 
that.
    Senator Whitehouse. And General Petraeus sent a military-
wide letter disavowing the value of torture, as we both know.
    Another question, another question as a matter of law: Is 
fraudulent speech protected by the First Amendment?
    Senator Sessions. Well, fraudulent speech, if it amounts to 
an attempt to obtain a thing of value for the person the 
fraudulent speech is directed----
    Senator Whitehouse. Which is an element of fraud.
    Senator Sessions [continuing]. Is absolutely fraud and can 
be prosecuted, and I think we see too much of that. We see 
these phone calls at night to elderly people. We see mailings 
go out that seem to me to be awfully far from truth and 
seducing people to probably make unwise decisions.
    Senator Whitehouse. So fraudulent corporate speech would 
also not be protected by the First Amendment.
    Senator Sessions. That is correct, and it is subject to 
civil and/or criminal complaint.
    Senator Whitehouse. And speaking of civil complaints, was 
the Department of Justice wrong when it brought and won the 
civil RICO action against the tobacco industry?
    Senator Sessions. Well, Senator, they won those cases. They 
took them to court and eventually won a monumental victory. 
That is correct. And it is part of the law and firmly 
established.
    Senator Whitehouse. Hard to say they were wrong if they 
won, right?
    Senator Sessions. That is correct.
    Senator Whitehouse. As you know, the United States has 
retaliated against Russia for its interference with the 2016 
elections. In Europe, Baltic States, Germany, and Italy have 
raised concerns of Russia meddling in their countries' 
elections. I know this has been touched on before, but I want 
to make sure it is clear. Will the Department of Justice and 
the FBI under your administration be allowed to continue to 
investigate the Russian connection even if it leads to the 
Trump campaign and Trump interests and associates? And can you 
assure us that in any conflict between the political interests 
of the President and the interests of justice, you will follow 
the interests of justice even if your duties require the 
investigation and even prosecution of the President, his 
family, and associates?
    Senator Sessions. Well, Senator, if there are laws violated 
and they can be prosecuted, then, of course, you will have to 
handle that in an appropriate way. I would say that the problem 
may turn out to be, as in the Chinese hacking of hundreds of 
thousands, maybe millions of records, it has to be handled at a 
political level. And I do think it is appropriate for a nation 
who feels that they have been hacked and that information has 
been improperly used to retaliate against those actions. It is 
just----
    Senator Whitehouse. And I know we share a common interest 
in advancing the cybersecurity of this Nation, and I look 
forward to continuing to work with you on that.
    Let me ask you a factual question. During the course of 
this boisterous political campaign, did you ever chant, ``Lock 
her up''?
    Senator Sessions. No, I did not. I do not think. I heard it 
in rallies and so forth, sometimes I think humorously done. But 
it was a matter on which I have said a few things. A special 
prosecutor, I favored that. I think that probably is one of the 
reasons I believe that I should not make any decision about any 
such case.
    Senator Whitehouse. And you understand that the good guy 
lawman in the movies is the one who sits on the jailhouse porch 
and does not let the mob in.
    Senator Sessions. Exactly. Exactly.
    Senator Whitehouse. So I am from Rhode Island, as you know, 
Senator. We have NAACP and ACLU members who have heard you call 
their organizations--who have heard that you called their 
organizations ``un-American.'' We have a vibrant Dominican 
community who look at ``Big Papi,'' David Ortiz, swinging his 
bat for the Red Sox, and wonder why you said, ``Almost no one 
coming from the Dominican Republic to the United States is 
coming here because they have a provable skill that would 
benefit us.'' I represent a lot of Latinos who worry about 
modern-day Palmer raids breaking up parents from their kids and 
Muslims who worry about so-called patrols of Muslim homes and 
neighborhoods. And I have heard from police chiefs who worry 
that you as Attorney General will disrupt law enforcement 
priorities that they have set out and disrupt the community 
relations that they have worked hard over years of community 
engagement to achieve.
    Time is short, but I noticed that in your prepared remarks 
these are no unforeseeable concerns, and your prepared remarks 
did very little to allay the concerns of those people. Is there 
anything you would like to add now in our closing minute?
    Senator Sessions. Well, thank you. My comment about the 
NAACP arose from a discussion that I had where I expressed 
concern about their statements that were favoring, as I saw it, 
Sandinista efforts and Communist guerrilla efforts in Central 
America. And so I said they could be perceived as un-American 
and weaken their moral authority to achieve the great things 
they had been accomplishing in integration and moving forward 
for reconciliation throughout the country. And I believe that, 
clearly, and I never said--and accused them of that.
    Number two, with regard----
    Senator Whitehouse. So what would you tell the 
representative of the NAACP in Rhode Island right now? He is 
the head of the NAACP----
    Senator Sessions. Well, I would say please look at what I 
have said about that and how that came about, and it was not in 
that context. It was not correct. I said in 1986 that NAACP 
represents one of the greatest forces for reconciliation and 
racial advancement of any entity in the country, probably 
number one. That is what I said then. I believed it, and I 
believe it now. And it is an organization that has done 
tremendous good for us.
    With regard to the Dominican Republic, I had gone on a 
codel with Senator Specter. We came through the Dominican 
Republic. We visited public service housing projects that 
seemed to be working and did other things of that nature, and I 
went and spent some time with the consular official there, just 
asking about things. And what I learned was that there is a 
good bit of fraud in it, and he was somewhat discouraged in his 
ability, he felt, to do his job. And we also understood and 
discussed that the immigration flow is not on a basis of 
skills. The immigration flow from almost all of our countries, 
frankly, is based on family connection and other visas rather 
than a skill-based program more like Canada has today. And that 
is all I intended to be saying there.
    Tell anybody who heard that statement, please do not see 
that as a diminishment or a criticism of the people of the 
Dominican Republic. It was designed to just discuss in my 
remarks the reality of our immigration system today. I would 
like to see it more skill-based, and I think that would be 
helpful.
    Senator Whitehouse. Mr. Chairman, my time has expired. 
Thank you for your patience.
    Chairman Grassley. Thank you, Senator Whitehouse.
    Before I go to Senator Lee, there is an evaluation of the 
work of Senator Sessions during his time as U.S. Attorney that 
I think speaks to his outstanding record. I am made aware of 
this because Senator Feinstein requested an evaluation of 
Senator Sessions' office from the Department of Justice, and I 
would note just a few points from their evaluation back in 
1992, a couple of short sentences: ``All members of the 
judiciary praise the U.S. Attorney for his advocacy skills, 
integrity, leadership of the office, and accessibility.''
    And the second quote: ``The USAO for the Southern District 
of Alabama is an excellent office with outstanding leadership, 
personnel, and morale. The district is representing the United 
States in a most capable and professional manner.''
    Without objection, I will put that in the record.
    [The information referred to appears as a submission for 
the record.]
    Senator Whitehouse. Mr. Chairman?
    Chairman Grassley. Yes?
    Senator Whitehouse. While we are putting things into the 
record, could I join?
    Chairman Grassley. Yes, please do that.
    Senator Whitehouse. In a unanimous consent that a December 
5, 2016, letter from leaders of the U.S. environmental movement 
and a January 5, 2017, letter from the National Task Force to 
End Sexual Violence and Domestic Violence Against Women be 
added to the record?
    Chairman Grassley. Yes, and those will be included, without 
objection.
    [The letters appear as submissions for the record.]
    Chairman Grassley. Senator Lee.
    Senator Lee. Hello, Senator Sessions.
    Senator Sessions. Hello.
    Senator Lee. I have enjoyed working with you over the last 
6 years and always found you to be someone who treats 
colleagues, regardless of differing viewpoints, with dignity 
and respect. You have taught me a great deal in the 6 years I 
have been here, and I have appreciated the opportunity to work 
with you.
    I think a lot of this has to do with the fact that we are 
both lawyers, although being a lawyer around here, certainly 
having a law degree is not unusual. One of the things that sets 
you apart and makes you different, I get the sense from you 
that you think of yourself not so much as a Senator who used to 
be a lawyer, but as a lawyer who is currently serving as a 
Senator. And I think that is an important thing, especially for 
someone who has been named to be the next Attorney General of 
the United States.
    Even though you and I have never had the opportunity to 
discuss the intricacies of the Rule Against Perpetuities or the 
difference between the Doctrine of Worthier Title and the Rule 
in Shelley's Case, I get the sense that you would eagerly 
engage in such banter when occasion arises. So maybe in a 
subsequent round, we will have the opportunity to do that.
    But this does raise a discussion that I would like to have 
with you about the role of the lawyer. As you know, a lawyer 
understands who his or her client is. Anytime you are acting as 
a lawyer, you have got a client. This is a simple thing if you 
are representing an individual because in almost every 
instance, unless the client is incapacitated, you know who the 
client is. The client has one mouthpiece, one voice, and you 
know what the interests of that client are, and you can 
evaluate those based on the interests expressed by the client.
    It gets a little more complicated when you are representing 
a corporate entity. Typically, you will interact either with a 
general counsel or the chief executive, of course. The bigger 
an entity gets, the more complex it gets. There might be some 
ripples in this relationship between the lawyer and the client.
    In the case of the U.S. Government and the Attorney 
General's representation of that client, this is a particularly 
big and powerful client, and that client has many interests. In 
a sense, the client is, of course, the United States of 
America, but at the same time, the Attorney General is there 
put in place by the President of the United States and serves 
at the pleasure of the President of the United States. And so 
in that respect, the Attorney General has several interests to 
balance and must at once regard him- or herself as a member of 
the President's Cabinet, remembering how the Attorney General 
got there and can be removed at any moment by the President; 
and at the same time the Attorney General has the obligation to 
be independent, to provide an independent source of analysis 
for the President and for the President's team and Cabinet.
    How do you understand these things as a former U.S. 
Attorney, as a former line prosecutor, and as a Senator who 
served on the Judiciary Committee? You have had a lot of 
opportunities to observe this process. How do you see the 
proper balancing between all these interests from the 
standpoint of the Attorney General?
    Senator Sessions. That is a very insightful or probing 
question, and it touches on a lot of the important issues that 
I, as Attorney General, would need to deal with. There are even 
some times that these Government agencies act like foreign 
countries, they negotiate memorandums of understanding that are 
akin to a treaty, actually. They cannot seem to work together 
oftentimes in an effective way and so the Attorney General is 
required to provide opinions on that. The Attorney General 
ultimately owes his loyalty to the integrity of the American 
people and to the fidelity to the Constitution and the 
legitimate laws of the country. That is what he is ultimately 
required to do. However, every Attorney General has been 
appointed by a President, or they would not become Attorney 
General, and they have been confirmed by the Senate or they 
would not have been made Attorney General. They do understand, 
I think, that if a President wants to accomplish a goal that he 
or she believes in deeply, then you should help them do it in a 
lawful way, but make clear and object if it is an unlawful 
action.
    That helps the President avoid difficulty. It is the 
ultimate loyalty to him, and you hope that a President, and I 
hope President-elect Trump has confidence in me so that if I 
give him advice that something can be done, or cannot be done, 
that he would respect that. That is an important relationship, 
too, but ultimately you are bound by the laws of the country.
    Senator Lee. Some of that, I assume, could come into play 
when you are dealing with a politically sensitive case--with a 
case that is politically sensitive because it relates to a 
member of the administration, or to the interplay between the 
executive branch and the legislative branch, for example.
    In some of those instances there could be calls for a 
special prosecutor. On the one hand this is a way of taking the 
Attorney General out of the equation so that it could be 
handled in a manner that reflects a degree of separation 
between the administration and the case. On the other hand, 
there are Constitutional questions that are sometimes raised, 
and sometimes people argue that this poses too much of a 
presumption that the special prosecutor will seek an indictment 
in order to justify the expense and the time put into 
appointing a special prosecutor.
    For reasons that relate to the complexity of these 
considerations, there are, of course, guidelines in place that 
can help guide the determination to be made by the Attorney 
General as to when, whether, how, to put in place a special 
prosecutor. But even within these guidelines, there is a lot of 
flexibility, a lot of discretion in the hands of the Attorney 
General in deciding how to do that. Do you have anything that 
you would follow? What can you tell us about what 
considerations you would consider in deciding whether or not to 
appoint a special prosecutor?
    Senator Sessions. Well, it is not a little matter. It is a 
matter that has created controversy over the years. I do not 
think it is appropriate for the Attorney General just to willy-
nilly create special prosecutors. History has not shown that 
has always been a smart thing to do. But there are times when 
objectivity is required and the absolute appearance of 
objectivity is required. And now perhaps a special prosecutor 
is appropriate. Attorney General Lynch, for example, did not 
appoint a special prosecutor on the Clinton matter. I did 
criticize that. I was a politician, we had a campaign on. I did 
not research the law in depth, just the reaction as a Senator 
of a concern. But great care should be taken in deciding how to 
make the appointment or if an appointment of a special 
prosecutor is required.
    At the Department of Justice you are not required to be a 
judge to be a prosecutor. One judge said, ``There's nothing 
wrong with a prosecutor who likes his work and doesn't think 
laws should be violated.'' Is that a bias? I do not think so. I 
think that is a strength. So I just would say that is the best 
I could give you at this point, Senator Lee.
    Senator Lee. Thank you, that is helpful. Another 
challenging issue that relates to this duty of independence 
that Attorneys General have relates to the Office of Legal 
Counsel. You know, it is, of course, the job of the Office of 
Legal Counsel, or OLC, as it is sometimes known, to issue 
opinions, within the executive branch on a wide array of 
subjects. Some are subjects that a lot of people would find 
interesting; others are subjects that only a lawyer could love. 
And sometimes only a lawyer specializing in something esoteric 
or specific.
    There is one recent OLC opinion entitled, ``Competitive 
Bidding Requirements Under the Federal Highway Aid Program.'' 
There are not, perhaps, that many people who would find that 
interesting, but there are a lot of others that would capture 
immediately the public's interest.
    What is significant about all of these, though, no matter 
how broad or narrow the topic, no matter how politically sexy 
or dull the topic might be, they, in many instances, almost 
conclusively resolve a legal question within the executive 
branch of Government. And in many instances they are doing so 
on the basis of constitutional determinations that may or may 
not ever be litigated, such that the broaching of a 
constitutional topic might be opened, studied, and resolved 
entirely within the executive branch, largely as a result of 
how the lawyers within the Office of Legal Counsel decide to do 
their jobs.
    What can you tell me about what you would do, if confirmed, 
to ensure that the Office of Legal Counsel maintains a degree 
of professionalism and independence, requisite for this task?
    Senator Sessions. Senator Lee, that office is important. It 
does adjudicate, or actually opine, on important issues related 
to conflicts or disputes within the great executive branch of 
the American Government. Like you said, what kind of 
competition is required before you get a highway grant? There 
may be a disagreement about that and OLC is asked to review it 
and stay to one position, that the Government of the United 
States is one. It is not a multiple government. These 
departments are not independent agencies and so that office is 
so exceedingly important as you indicate, because many times 
those opinions hold. And they set policy and they affect 
things.
    Sometimes it also has the power, and I am sure you would be 
sensitive to, to expand or constrict the bureaucracies in their 
ability to execute under statutes. In other words, is this 
within their power, or is it not within their power? So there 
are some of the things like that that could impact the American 
people over time in a significant way.
    Senator Lee. Thank you.
    Chairman Grassley. Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Mr. Chairman.
    Good to see you, Senator Sessions. You and I have worked 
together on a number of bills, including leading the 
International Adoption Simplification Act, which I believe made 
a big difference to a lot of families in keeping their siblings 
together when they were adopted. Senator Cornyn and I led the 
Sex Trafficking Bill, that passed last year, and you had some 
important provisions in that. And then we worked together on 
law enforcement issues and I appreciate your respect and the 
support that you have from that community and I also thank you 
for your work on drug courts, something we both share as former 
prosecutors and I believe in the purpose of those courts.
    I wanted to lead first with another part of the Justice 
Department's jobs, and that is protecting civil rights and the 
right to vote. My State had the highest voter turnout in the 
last election, of any State. We are pretty proud of that. And 
as county attorney for 8 years for Minnesota's biggest county, 
I played a major role in making sure that the election laws 
were enforced and that people who were able to vote could vote 
and that people who should not vote, did not vote.
    Since the Voting Rights Act became law more than 50 years 
ago, we have made progress, but I have been very concerned 
about some of the movements by States to restrict access to 
voting. In recent years we have not been able to pass the 
Bipartisan Voting Rights Advancement Act forward last Congress. 
I just think it is an area that is going to be ripe for a lot 
of work going forward.
    You and I talked about how at one point you previously 
called the Voting Rights Act an ``intrusive piece of 
legislation'' and I wondered if you could explain that, as well 
as talk about how you will actively enforce the remaining 
pieces of the Act; that would be Section 2 which prohibits 
voting practices or procedures that discriminate on the basis 
of race; and this Section 3 bail-in provision, through which 
more States can be subject to preclearance. And you do not have 
to go into great detail on those two sections, you could do it 
later, but if you could just explain your views of the Voting 
Rights Act moving forward and what would happen in terms of 
enforcement if you were Attorney General.
    Senator Sessions. The Voting Rights Act passed in 1965 was 
one of the most important Acts to deal with----
    [Audience interruption.]
    Senator Sessions [continuing]. Racial difficulties that we 
face. And it changed the whole course of history, particularly 
in the South. There was a clear finding that there were 
discriminatory activities----
    [Audience interruption.]
    Senator Sessions [continuing]. In the South, that a number 
of States were----
    [Audience interruption.]
    Senator Sessions [continuing]. Were systematically denying 
individuals the right to vote. And if you go back into the 
history you can see it plainly, actions and rules and 
procedures were adopted in a number of States with the specific 
purpose of blocking African Americans from voting. And it was 
just wrong. And the Voting Rights Act confronted that, and it, 
in effect, targeted certain States and required even the most 
minor changes in voting procedure----
    Senator Klobuchar. Right.
    Senator Sessions [continuing]. Like moving a precinct 
across the----
    Senator Klobuchar. So how would you approach this going 
forward? For instance, the Fifth Circuit's decision that the 
Texas voter ID law discriminates against minority voters that 
was written by a Bush appointee. Do you agree with that 
decision? How would you handle this moving forward?
    Senator Sessions. Well I have not studied that. There is 
going to be a debate about it, courts are ruling on it now--
that is, voter ID and whether or not it is an improper 
restriction on voting that adversely impacts disproportionately 
minority citizens. So that is a matter that has got to be 
decided. On the surface of it, it does not appear to me to be 
that. I have publicly said I think voter ID laws properly 
drafted are okay, but as Attorney General it will be my duty to 
study the facts in more depth, to analyze the law. But 
fundamentally that can be decided by Congress and the courts as 
they interpret the existing law.
    I did vote to extend this Voting Rights Act several years 
ago. It included Section 5, but later Section 5 was eliminated 
by the Supreme Court, on the basis that----
    Senator Klobuchar. And how about the commit----
    Senator Sessions [continuing]. Progress had been made and 
on an intrusive question, let me answer that.
    Senator Klobuchar. Yes.
    Senator Sessions. It is intrusive, the Supreme Court on 
more than one occasion has described it legally as an intrusive 
act, because it only focused on a certain number of States, and 
normally when Congress passes a law, it applies to the whole 
country. So it is a very unusual thing for a law to be passed 
that targets only a few States. But they had a factual basis. 
They were able to show that it was justified in this fashion. 
So that is the foundation for it and that is why I supported 
it, its renewal.
    Senator Klobuchar. And I think you will understand as you 
look at this issue that there are many voters, people who are 
trying to vote that some of these rules that are put in place 
are intrusive for them, because it makes it harder for them to 
vote and I think that is the balance that you are going to 
need.
    Senator Sessions. I hear----
    Senator Klobuchar. And I just hope, coming from a State 
that has such high voter turnout, that has same-day 
registration, a very good turnout in Iowa as well, right below 
us, States that have put in place some really expansive voter 
laws and it does not mean Democrats always get elected. We have 
had Republican governors in Minnesota, they have a Republican 
governor in Iowa, and I just point out that I think the more we 
could do to encourage people to vote, the better democracy we 
have.
    And I want to turn to another quick question on a 
democratic issue, as in a democracy issue that was raised by 
Senator Graham and Senator Whitehouse. I just returned with 
Senators McCain and Graham from a trip to Ukraine, Baltics, 
Georgia, and learned there about how these intrusive cyber 
attacks are not just unique to our country, not just unique to 
one party, not just unique to one election, and they have seen 
that movie before in those countries. And do you have any 
reason to doubt the accuracy of the conclusion reached by our 
17 intelligence agencies that, in fact, Russia used cyber 
attacks to attempt to influence this last election? I am not 
asking if you believe that it influenced it, just if you 
believe the report of our intelligence agencies.
    Senator Sessions. I have no reason to doubt that and have 
no evidence that would indicate otherwise.
    Senator Klobuchar. Thank you. Violence Against Women Act. 
Senator Leahy asked some of those questions really important to 
me. You and I discussed it. I just have one question there. If 
confirmed, will you continue to support the life-saving work 
being done by the Office on Violence Against Women?
    Senator Sessions. Yes.
    Senator Klobuchar. Okay. Thank you. Immigration. You and I 
have some different views on this, and I often focus on the 
economic benefits of immigration--the fact that we have 70 of 
our Fortune 500 companies headed by immigrants. At one point 
200 of our Fortune 500 companies were either formed by 
immigrants or kids of immigrants. Roughly 25 percent of all 
U.S. Nobel laureates were foreign-born. And just to understand 
in a State like mine where we have entry-level workers in 
dairies who are immigrants, major doctors at the Mayo Clinic, 
police officers who are Somali, if you see that economic 
benefit of immigrants in our society?
    Senator Sessions. Well, immigration has been a high 
priority for the United States. We have been the leading 
country in the world in accepting immigration. I do not think 
American people want to end immigration. I do think that if you 
bring in a larger flow of labor than we have jobs for, it does 
impact adversely the wage prospects and the job prospects of 
American citizens. I think as a nation we should evaluate 
immigration on whether or not it serves and advances the 
national interest, not the corporate interest. It has to be the 
people's interest first, and I do think too often Congress has 
been complacent in supporting legislation that might make 
businesses happy, but it also may have had the impact of 
pulling wages down.
    Doctor Borjas at Harvard has written about that. I think he 
is the world's, perhaps most effective and knowledgeable 
scholar, and he says that does happen. Wages can be diminished, 
and one of the big cultural problems we have today is middle 
and lower economic classes of Americans have not had the wage 
increases that we would like to see them have. In fact, wages 
are still down from what they were in 2000.
    Senator Klobuchar. Yes. I just see that we can do a mix of 
making sure that we have jobs for people here and then 
understanding that we are a country of immigrants.
    Senator Sessions. On that subject, for me with Canada----
    [Audience interruption.]
    Senator Klobuchar. Mr. Chairman, if I could just have 
another 30 seconds here, I had one last question.
    Senator Sessions. It may be 45 seconds, Mr. Chair. I would 
just say that you are close to the Canadian system. And I think 
it may be some of those policies ought to be considered by the 
United States.
    Senator Klobuchar. My last question, Mr. Chairman, is on 
the reporters issue. Free press, I believe, is essential to our 
democracy. And I have always fought to ensure that those rights 
are not compromised. My dad was a reporter, a newspaper 
reporter for years. And I am especially sensitive to the role 
of the press as a watchdog.
    You have raised concerns in the past about protecting 
journalists from revealing their sources. You did not support 
the Free Flow of Information Act.
    In 2015, the Attorney General revised the Justice 
Department rules for when Federal prosecutors can subpoena 
journalists or their records. And he also committed to 
releasing an annual report on any subpoenas issued or charges 
made against journalists and committed not to put reporters in 
jail for doing their job.
    If confirmed, will you commit to following the standards 
already in place at the Justice Department? And will you make 
that commitment not to put reporters in jail for doing their 
jobs?
    Senator Sessions. Senator Klobuchar, I am not sure, I have 
not studied those regulations. I would note that when I was a 
United States Attorney, we knew, everybody knew that you could 
not subpoena a witness or push them to be interviewed if they 
were a member of the media without approval at high levels of 
the Department of Justice. That was in the 1980s.
    And so I do believe the Department of Justice does have 
sensitivity to this issue. There have been a few examples of 
where the press and the Department of Justice have not agreed 
on these issues. But for the most part, there is a broadly 
recognized and proper deference to the news media.
    But you could have a situation in which a member of the 
media is really not part of the unbiased media we see today. 
And they could be a mechanism through which unlawful 
intelligence is obtained. There are other dangers that could 
happen with regard to the Federal Government that normally does 
not happen to the media covering murder cases in the States.
    Senator Klobuchar. All right. Well, thank you. And I will 
follow up with that in a written question when you have a 
chance to look at that.
    Senator Sessions. If you would, I would be----
    Senator Klobuchar. Thank you. Thank you.
    Chairman Grassley. I call for the first time on a new 
Member of the Committee, Senator Sasse from Nebraska.
    Senator Sasse. Mr. Chairman, thank you, and thank you for 
having me.
    Before I get started, I would like to enter into the record 
a letter of support from 25 current State Attorneys General, 
including Doug Peterson, the Attorney General from my State of 
Nebraska. The letter reads in part, ``No one is more qualified 
to fill this role than Senator Sessions.'' This is obviously 
important testimony from the top law enforcement officers of 25 
States.
    I ask unanimous consent, Mr. Chairman, to include this in 
the record.
    Chairman Grassley. Without objection, it will be included.
    [The letter appears as a submission for the record.]
    Chairman Grassley. Proceed, Senator Sasse.
    Senator Sasse. Thank you. Senator Sessions, when you were 
introducing your grandkids, and I am amazed that they stayed 
around as long as they did, mine would have been more 
disruptive earlier, I was thinking about all the time I spend 
in schools.
    We have a crisis in this country of civic ignorance. Our 
kids do not know basic civics. And we have a crisis of public 
trust in this country in that many Americans presume that 
people in this city are overwhelmingly motivated by partisan 
perspectives rather than the public good.
    Tragically, our current President multiple times over the 
last 3 or 4 years has exacerbated this political polarization 
by saying that he did not have legal authority to do things and 
then subsequently doing exactly those things, quite apart from 
people's policy perspectives on these matters.
    This is a crisis when kids do not understand the 
distinction between the legislative and the executive branches 
and when American voters do not think that people who serve in 
these offices take their oaths seriously. So it is not always 
as simple as ``Schoolhouse Rock'' jingles on Saturday morning.
    But could you at least start by telling us what you think 
the place for Executive orders and Executive actions are?
    Senator Sessions. That is a good question and a good 
premise that we should think about. People are taught 
``Schoolhouse Rock'' is not a bad basic lesson in how the 
Government is supposed to work. Legislators pass laws, the 
President executes laws, as does the entire administration, as 
passed by Congress, or it follows the Constitution, and the 
judicial branch decides disputes as a neutral umpire, an 
unbiased participant, any sides of the controversy and does it 
objectively, so I think every day that we get away from that is 
really dangerous.
    It is true that if a President says, ``I do not have this 
authority,'' and other people say the President does not have 
certain authority and then it is done by the President, it 
confuses people.
    I think, colleagues, we too little appreciate something 
that is corrosive happening out in our country. There is a 
feeling that judges just vote when they get a big case before 
them on what their political agenda is and not what the 
Constitution actually requires. The judges can redefine the 
meaning of words to advance an agenda that they have that may 
not be the agenda of the American people. And that inevitably 
is corrosive to respect the law.
    Senator Sasse. Thank you. But take it one step further, 
because there are going to be many cases, there will be many 
instances where the administration in which you are likely 
going to end up serving will want to do things and they will 
want to know what the limits of their Executive discretion is. 
Some pieces of legislation that have been passed around here in 
recent years sometimes are, you know, well over a thousand 
pages with all sorts of clauses ``the Secretary shall--dot, 
dot, dot'' fill in the law. So this Congress has regularly 
underreached and invited executive overreach. This Congress has 
regularly failed to finish writing laws and then invited the 
executive branch to do it.
    What are some of the markers that you would use to help 
understand the limits where the executive branch cannot go?
    Senator Sessions. We really need to re-establish that. 
Professor Turley, Jonathan Turley, has written about this. It 
is just powerful. He is certainly an objective voice in 
American jurisprudence. And he says that Congress has just 
fallen down on its job.
    Now, of course, there are two ways. One of them is that it 
writes laws that are too broad. And I would urge all of you to 
be sure that when we pass a law or you pass a law, if I am 
confirmed, that that law is clear and sets limits. When it does 
not set limits, then you can have the secretary of this agency 
or that agency claiming they have certain authorities and we 
end up with a very muddled litigation maybe resulting from it. 
So re-establishing the proper separation of powers and fidelity 
to law and to limits is an important issue. And I think, 
hopefully, I think that is what you are suggesting.
    Senator Sasse. Could you tell me under what circumstances, 
if any, you think the Department of Justice can fail to enforce 
a law?
    Senator Sessions. Well, it can fail to enforce it by 
setting prosecutorial policies with regard to declining to 
prosecute whole chunks of cases and, in effect, eliminate a 
statute. If a new tax is passed and the Department of Justice 
says it cannot be collected, then the law is not followed.
    You also have circumstances that can redefine the statute 
or alter it. If we are talking about improper actions, it could 
expand the meaning of the words of the statute far beyond what 
Congress ever intended. And that is abuse, too.
    Senator Sasse. And not to interrupt you too soon, the 
improper, but also, what is proper? Because this administration 
has made the case regularly that they need to exercise 
prosecutorial discretion because of limited resources. And 
obviously, there are not infinite resources in the world, so 
what are some proper instances, in your view, when an 
administration might not enforce a law?
    Senator Sessions. Well, critics of the immigration 
enforcement, the DAPA and the DACA laws, said that the 
prosecutorial discretion argument went too far. It basically 
just eliminated the laws from the books.
    Second with regard to that, the President's--well, the 
order came from Homeland Security, not from the Department of 
Justice, but Homeland Security's order not only said we are not 
going to enforce the law with regard to certain large 
classifications of people, but those people who had not been 
given legal status under the laws of the United States were 
given photo IDs, work authorization and Social Security numbers 
and the right to participate in these Government programs; that 
would appear to be contrary to existing law. So that would, to 
me, suggest an overreach.
    Senator Sasse. And in parallel before the courts, what 
instances would it be legitimate, if any, for the Solicitor 
General to not defend a law in court?
    Senator Sessions. That is a very good question, and 
sometimes it becomes a real matter. In general, the Solicitor 
General, as part of the Department of Justice and the executive 
branch, states the position of the Department of Justice. And 
it has a duty, the Department of Justice does, to defend the 
laws passed by this body, by Congress. And they should be 
defended vigorously whether or not the Solicitor General agrees 
with them or not, unless it cannot be reasonably defended.
    Sometimes you reach a disagreement about whether it is 
reasonably defensible or not, but that is the fundamental 
question. And the Department of Justice should defend laws that 
Congress passed unless they are unable to do so in a reasonable 
way.
    Senator Sasse. What is the place of independent agencies in 
a unified executive branch? And do you envision that you will 
be making any recommendations to the President to reign in 
independent agencies in an effort to preserve the 
constitutional distinction between the powers of the Congress 
and the administrative responsibilities of an executive branch?
    Senator Sessions. Senator, that is a good question, kind of 
a historic question at this point in time because it does 
appear to me that agencies oftentimes see themselves as 
independent fiefdoms. And sometimes you even hear the President 
complain about things clearly under his control.
    I remember President Clinton complaining about the death 
penalty processes of the department of the Federal Government 
when he appointed the Attorney General who had just appointed a 
committee to make sure the death penalty was properly carried 
out. So whose responsibility is this? You are in charge, you 
can remove the Attorney General if you are not happy. Those 
kind of things do continue out there that we need to be careful 
about. And I thank you for raising it.
    Senator Sasse. I have less than a minute left, so last 
question. But going back to something that Senator Lee was 
asking about, could you just give a topline summary of what you 
view the responsibilities of the OLC to be and what the 
relationship would be between the OLC, the Office of the 
Attorney General, and the White House?
    Senator Sessions. Well, OLC has statutory duties to make 
opinions. The OLC team reports to the Attorney General who 
could reverse, I suppose, or remove the OLC head, the Deputy 
Attorney General, if he thought that department was not 
following the law. But essentially, they are given the power. 
As Attorney General, I had an opinions section in Alabama and 
they rendered opinions on a whole host of matters when called 
upon from school boards and highway departments and that sort 
of thing.
    This OLC does represent a key position in the Department of 
Justice. They must have extraordinary legal skill. They have to 
be terrific lawyers. They have to understand the constitutional 
order of which we are a part. And they should render objective 
decisions day after day, week after week. It is ultimately the 
responsibility of the President and the Attorney General to 
ensure that we have that kind of quality at OLC.
    Senator Sasse. Thank you.
    Chairman Grassley. Senator Franken.
    Senator Franken. Thank you, Mr. Chairman.
    Senator, congratulations on your nomination.
    Senator Sessions. Thank you.
    Senator Franken. In 2009 when you became the Ranking 
Republican on this Committee, you were interviewed about how 
you would approach the Committee's work and nominations 
specifically. You said that Democrats should expect you to be 
fair because you had been through this process yourself back in 
1986 and you felt that back then the Committee had distorted 
your record. You said that moving forward, ``We are not going 
to misrepresent any nominee's record and we're not going to lie 
about it.'' And we certainly do not want to do that to our 
colleague.
    But I also think it is fair to expect that sitting before 
us today that you are not going to misrepresent your own 
record. That is fair to say, right?
    Senator Sessions. That is fair.
    Senator Franken. Good. Now, in that same interview, you 
said, ``I filed 20 or 30 civil rights cases to desegregate 
schools and political organizations and county commissions when 
I was United States Attorney.'' So 20 or 30 desegregation 
cases. Did I misread that quote?
    Senator Sessions. I believe that is what I have been quoted 
as saying, and I suspect I said that.
    Senator Franken. Okay. Okay, now that was 2009. But in 
November of this year, your office said, ``When Senator 
Sessions was U.S. Attorney, he filed a number of desegregation 
lawsuits in Alabama''; not 20 or 30 this time, but ``a 
number.''
    So tell me, did you file 20 or 30 desegregation cases or is 
it some other number?
    Senator Sessions. Well, thank you, Senator Franken. It is 
important for us to be accurate. The records do not show that 
there were 20 or 30 cases actually filed. Some of the cases 
involved multiple defendants and multiple parties, like to a 
school board and a county commission being sued for racial 
discrimination, things of that nature. But the number would be 
less than that as we have looked at. So I----
    Senator Franken. What do you think would have caused you to 
say that you filed 20 or 30 desegregation cases?
    Senator Sessions. I do not know. I thought--well, we had 
cases going throughout my district, and some of them were 
started before I came and continued after I left. Some of them 
were brought and then settled promptly. And so it was 
extraordinarily difficult and actually I was surprised to get a 
record by checking the docket sheets to find out exactly how 
many cases were involved.
    Senator Franken. Okay.
    Senator Sessions. I heard one lawyer from the Department of 
Justice, I believe, with that large number.
    Senator Franken. Let me move on. Right.
    Senator Sessions. But I do not--the record does not justify 
it.
    Senator Franken. The questionnaire you have submitted for 
today asks you to list and describe the ``10 most significant 
litigated matters you personally handled.'' Personally handled. 
And among the cases that you listed that you personally handled 
are three voting rights cases and a desegregation case.
    Last week, I should note, three attorneys who worked at DOJ 
and who actually brought three of the four cases wrote an op-ed 
piece in which they say, ``We can state categorically that 
Sessions had no substantive involvement in any of them.'' Now, 
you originally said that you personally handled three of these 
cases, but these lawyers say that you had no substantive 
involvement.
    Chairman Grassley, I would ask that that op-ed from last 
Tuesday's Washington Post be entered into the record.
    Chairman Grassley. Without objection, it will be entered.
    [The op-ed article appears as a submission for the record.]
    Senator Franken. Are they distorting your record here?
    Senator Sessions. Yes. In fact, one of the writers there, 
Mr. Hebert, spent a good bit of time in my office. He said I 
supported him in all the cases he brought, that I was more 
supportive than almost any other U.S. Attorney and that I 
provided office space, I signed the complaints that he brought. 
And as you may know, Senator Franken, when a lawyer signs a 
complaint, he is required to affirm that he believes in that 
complaint and supports that complaint and supports that legal 
action, which I did.
    We sued----
    Senator Franken. So that is your personal involvement was 
that your name was on it?
    Senator Sessions. Well, look, you can dispute the impact or 
the import of the questionnaire. Another attorney, Paul 
Hancock, who brought cases in our district said, well, Attorney 
General claims credit for the cases in the Department of 
Justice, he saw nothing wrong with my claiming that this was a 
case that I had handled.
    Senator Franken. Okay. Two of the----
    Senator Sessions. So you can disagree with that, but those 
cases----
    Senator Franken. Okay. I want to get through this and I do 
not want any----
    Senator Sessions. Those cases have my signature on the 
docket sheet.
    Senator Franken. I want to get through this.
    Senator Sessions. My name is listed number one as the 
attorney for the case.
    Senator Franken. Okay, look, I am not a lawyer. I am one of 
the few Members of this Committee who did not go to law school, 
and usually I get by just fine. But it seems to me that a 
lawyer, if a lawyer has his name added to a document here or 
filing there, that lawyer would be misrepresenting his record 
if he said he had personally handled these cases.
    Two of the lawyers who wrote the op-ed have also submitted 
testimony for today's hearing, Mr. Gerry Hebert and Mr. Joe 
Rich. Mr. Hebert says he ``litigated personally two of the four 
cases'' you listed. He said, ``I can state with absolute 
certainty that Mr. Sessions did not participate personally in 
either.'' Mr. Rich worked on one of the four cases you listed. 
He said, ``I never met him at that time nor any other time and 
he had no input to the case.'' These represent three of the 
four cases that you claimed that were among the top 10 cases 
that you personally handled.
    Now, in your 1986 questionnaire, you used phrases like, ``I 
prepared and tried the case as sole counsel'' and ``I was the 
lead prosecutor on this case'' assisted by so-and-so. Why did 
you not use the same level of detail in your 2016 
questionnaire?
    Senator Sessions. In looking at this questionnaire, we 
decided that that was an appropriate response since these were 
major historic cases in my office. Let me just reply, Senator 
Franken, in this fashion. Mr. Hebert in 1986, when he testified 
at my hearing, said, ``We have had difficulty with several U.S. 
Attorneys in cases we have wanted to bring. We have not 
experienced that difficulty in the cases I have handled with 
Mr. Sessions. In fact, quite the contrary.'' He goes on to say, 
``I have had occasion numerous times to ask for his assistance 
and guidance. I have been able to go to him and he has had an 
open-door policy and I have taken advantage of that and found 
him cooperative.'' And that is an accurate statement.
    I do not know Mr. Rich. Perhaps he handled a case that I 
never worked with. He goes on to say, ``The''----
    Senator Franken. Well, one of the cases----
    Senator Sessions. No, I want to--you raised this question, 
Senator Franken.
    Senator Franken. One of the cases that you listed was a 
case that Mr. Rich handled. So if you do not know him, it is 
hard for me to believe that you personally handled it.
    Senator Sessions. Well, when I found these cases, I had 
been supportive of them.
    Senator Franken. You filed them.
    Senator Sessions. I am sure I was--Mr. Hebert says, ``And 
yet, I have needed Mr. Sessions' help in those cases and he has 
provided that help every step of the way. In fact, I would say 
that my experience with Mr. Sessions has led me to believe that 
I have received more cooperation from him, more active 
involvement from him because I have called upon him.'' Quote, 
``I have worked side by side with him on some cases in the 
sense that I have had to go to him for some advice.''
    Senator Franken. In some cases, not necessarily the ones 
you listed.
    Senator Sessions. Well, look, this is 30 years ago. And my 
memory was of this nature and my memory was my support for 
those cases.
    Senator Franken. Your memory. Okay. Look, I am not--I am 
one of the few Members of this Committee who is not a lawyer. 
The Chairman, the Ranking are not. But when I hear ``I filed a 
case,'' you know, I do not know some of the parlance, if it 
might have a special meaning in legal parlance. But to me as a 
layman, it sounds to me like ``filed'' means ``I led the case'' 
or ``I supervised the case.'' It does not mean that my name was 
on it.
    And it seems to me, look, I will close, Mr. Chairman, 
setting aside any political or ideological differences that you 
or I may have, DOJ is facing real challenges, whether it is 
protecting civil rights or defending national security, and our 
country needs an Attorney General who does not misrepresent or 
inflate their level of involvement on any given issue.
    Senator Sessions. I hear you.
    Senator Franken. So I consider this serious stuff as I know 
that you would if you were in my position.
    Senator Sessions. Well, you are correct, Senator Franken. 
We need to be accurate in what we say. When this issue was 
raised, I did do a supplemental that I ``provided assistance 
and guidance to Civil Rights Division attorneys, had an open-
door policy with them, and cooperated with them on these 
cases.''
    I signed them, I supported cases and attempted to be as 
effective as I could be in helping them be successful in these 
historic cases. I did feel that they were the kind of cases 
that were national in scope and deserved to be listed on the 
form. If I am in error, I apologize to you. I do not think I 
was.
    Senator Franken. Well, you could not find 20 or 30 
desegregation cases that you stated you had participated in and 
it does not sound like you personally handled cases that you 
said you personally handled.
    Thank you.
    Senator Sessions. Well, I was on a radio interview without 
any records and that was my memory at the time.
    Chairman Grassley. I think you answered the question.
    Senator Franken. Thank you.
    Chairman Grassley. Senator Flake. Now, it is 12:59, so at 
1:09 we will adjourn for lunch. I will be back here then at 
1:39 and whoever is present will start then. But I hope 
everybody can be back here at least by 1:45. Go ahead, Senator 
Flake.
    Senator Flake. Well, thank you. It is always nice to be the 
last one standing between lunch.
    [Laughter.]
    Chairman Grassley. Let us have order for Senator Flake.
    Senator Flake. Hey, I just want to say at the outset how 
much I have enjoyed working with you and being your colleague. 
I appreciate having you as a friend.
    It is no secret we have had our difference of opinion on 
immigration legislation that we put forward. You have had 
different ideas. But I have no doubt that as Attorney General 
you will faithfully execute the office. And I appreciate the 
answers that you have given today.
    Let me ask unanimous consent to submit a column written by 
our own Attorney General in Arizona, Mark Brnovich, for The 
Hill newspaper this week, supporting your nomination.
    Chairman Grassley. Without objection, it will be included.
    [The newspaper column appears as a submission for the 
record.]
    Senator Flake. Let me talk to you about an aspect of 
immigration that is important in Arizona. As you know, we have 
a large border with Mexico. We have a program called Operation 
Streamline that has, over the years, been tremendously 
effective in cutting down recidivism in terms of border 
crossers. What it is, basically, it is intended to reduce 
border crossing by expeditiously prosecuting those who enter 
the country illegally under a no-tolerance or zero-tolerance 
policy. It is credited with being instrumental in achieving 
better border security, specifically in the Yuma Sector along 
the western side of Arizona's border with Mexico.
    Nevertheless, in recent years, the U.S. Attorney's Office 
for the District of Arizona adopted a policy that ended 
prosecutions for those who cross but for--well, without a 
criminal history other than simply crossing the border. I have 
asked Attorney General Holder and Attorney General Lynch as 
well as Secretary Johnson at Homeland Security on what is being 
done here and I have not gotten a straight answer, no matter 
how many times I ask the question. So I am looking forward to a 
little more candor here.
    As Attorney General, if you are confirmed, what steps will 
you take to restore Operation Streamline to a zero-tolerance 
approach that has been so successful in Arizona, in a portion 
of Arizona's border?
    Senator Sessions. Thank you, Senator Flake. I have enjoyed 
working with you. And I know the integrity with which you bring 
your views on the immigration system. Like you, I believe that 
Streamline was very effective. And it was really a surprise 
that it has been undermined significantly.
    The reports I got initially, some years ago, maybe a decade 
or more ago, was that it was dramatically effective, and so I 
would absolutely review that. And my inclination would be, at 
least at this stage, to think it should be restored and even 
refined and made sure it is lawful and effective. But I think 
it has great positive potential to improve legality at the 
border.
    Senator Flake. All right. Well, thank you. It has been 
effective in Yuma, and I can tell you there is concern there 
among the Sheriff's Office, Sherriff Wilmot and others, 
concerned that we are seeing an increase in border crossings 
simply because the cartels understand very well where there is 
a zero-tolerance policy and where there is not. Word spreads. 
And we could quickly get to a situation where we have a problem 
in the Yuma Sector, like we do in the Tucson Sector.
    Is there any reason why we have not expanded this program 
to the Tucson Sector if it has been successful elsewhere?
    Senator Sessions. I do not know what reason that might be. 
It seems to me that we should examine the successes and if they 
cannot be replicated throughout the border.
    Senator Flake. All right. Well, thank you. I look forward 
to working with you on that.
    Senator Sessions. I appreciate that opportunity to work 
with you on that because I have long felt it is the right 
direction for us to go.
    Senator Flake. All right, thank you. When we have a 
successful program, it is difficult to see it scrapped and to 
see the progress that has been made in certain parts of the 
border done away with.
    Let me get to another subject here: victims' rights. This 
is an area of the law that you have shown particular interest 
in over your time as a Senator. I have with me letters of 
support for your nomination from various victims' groups and 
advocates, the Victims of Crime and Leniency, Verna Wyatt, 
Victims and Friends United, op-ed by Professors Paul Cassell 
and Steve Twist, all in support of your nomination. I would ask 
that these documents be placed as part of the record.
    Chairman Grassley. Without objection, they will be placed 
in the record.
    [The letters appear as submissions for the record.]
    Senator Flake. As Attorney General, what steps will you 
take to ensure that victims' rights are protected?
    Senator Sessions. We cannot forget victims' rights. We have 
victim witness legislation that creates within each United 
States Attorney's Office a victim-witness coordinator. And the 
job of that person is to make sure the concerns of the victims 
are heard. If they have to come to court, to help them get 
there, to make sure that they do not feel threatened and are 
protected. That is a direct responsibility of the Department of 
Justice and the criminal justice system as directed by 
Congress. So I really think that is one step and that is the 
fundamental mechanism.
    I think Senator Kyl was a strong advocate for that. And it 
helped really improve the treatment of victims in Federal 
criminal cases. There is just no doubt about it.
    Senator Flake. Well, thank you. I was going to note the 
presence of former Senator Kyl, my predecessor in this office, 
who did so much work in this area, partnering with you. So 
thank you for that answer.
    Senator Sessions. I am honored that he is giving of his 
time to assist me in this effort, honored very greatly.
    Senator Flake. Thank you. Let us talk about the Prison Rape 
Elimination Act. It was mentioned previously, I think, by 
Senator Collins. As Attorney General, you will lead not only 
the department of prosecutors and law enforcement officials, 
but also the Bureau of Prisons. You will be responsible for 
190,000 Federal inmates currently in custody. This is an often 
overlooked part of the Attorney General's role, but it is an 
important part of the position that you are being nominated 
for.
    I believe one of the highlights in your record in the 
Senate is your leadership in passing the Prison Rape 
Elimination Act of 2003, or PREA, which passed both Chambers 
without objection and was signed into law by George W. Bush. 
This was a bipartisan bill. You worked across the aisle with 
the late Senator Kennedy as well as with Republican 
Representative Frank Wolf, Democrat Representative Bobby Scott 
in the House, and I have letters of support from anti-prison-
rape activists that I would also like to put as part of the 
record, without objection, if I could.
    Chairman Grassley. Without objection.
    [The letters appear as submissions for the record.]
    Senator Flake. Thank you. With the law approaching its 15th 
anniversary, 11 States have certified that they are in 
compliance with the national standards, another 41 States and 
territories have provided assurances that they are working 
toward compliance. Only four States and territories have chosen 
not to participate.
    Is PREA meeting the expectations you had for it when you 
introduced the bill in 2003?
    Senator Sessions. I do not think there is any doubt that it 
has improved the situation. As to whether it has reached its 
full potential, I do not think I am able to tell you with 
certainty, but I certainly think it has made a positive 
difference.
    You know, it was a special time for me. Senator Kennedy was 
a strong critic of me in 1986. And he said, you know, as we 
were working on this, he said I have wanted to work with you on 
legislation like this. And I think it was sort of a 
reconciliation moment. We also worked on another major piece of 
legislation for several years. It would have been rather 
historic, but it was private savings accounts for lower-wage 
workers in America that I guess the financial crisis of '07 or 
some things happened that ended that prospect.
    But I believe that it is important for the American people 
to know that when an individual is sentenced to prison they are 
not subjected to cruel and inhuman punishment under the 
Constitution at a minimum.
    And the idea that was so widely spread that there is 
routine sexual abuse and assaults in prisons and other kind of 
unacceptable activities was widespread in our media and 
widespread among the American people. One of our goals was to 
establish just how big it was, to require reporting, and to 
create circumstances that helped ensure that a person who 
should be prosecuted for violence in the prison actually does 
get prosecuted--that was a real step forward. We do not need to 
subject prisoners to any more punishment than the law requires.
    Senator Flake. Thank you. And in just the remaining seconds 
I have, let me just say there is another area that we have 
worked on and hopefully we can continue to work on and that is 
the area of duplicative DOJ grants. As you know, the department 
awarded approximately $17 billion in grants over the years. OIG 
reports, GAO reports have all shown that there is duplication 
and waste, sometimes fraud and abuse.
    Will you continue to commit to work to root out this kind 
of duplicative action there?
    Senator Sessions. Well, I know you have had a history of 
being a staunch defender of the Treasury against those who 
would abuse it. And I believe the same way, it is the 
taxpayers' money. Every dollar that is extracted from an 
American citizen that goes into the Government needs to get to 
productive, valuable activities. And any of it that is 
delivered for political and insufficient reasons is a cause of 
great concern.
    I will make it a priority of mine to make sure that the 
dollars we have are actually getting to the purposes they are 
supposed to go for. It is one thing to say I did a great thing, 
I got more money for this good purpose. But did it really 
efficiently and effectively go there? Did it really make a 
positive difference? So I think the Department of Justice can 
utilize those grant programs to help valuable activities, and 
it needs to guard against improper activities.
    Senator Flake. Thank you, Senator Sessions.
    Thank you, Mr. Chairman.
    Chairman Grassley. We will break for about 30 minutes. We 
will reconvene at 1:40, and Senator Coons would be next up, and 
he has indicated he will be here on time. So recess for now.
    [Whereupon, at 1:10 p.m., the Committee was recessed.]
    [Whereupon, at 1:49 p.m., the Committee reconvened.]
    Chairman Grassley. Before I call on Senator Coons, I want 
to explain why one of the Members on my side of the aisle 
cannot be here. Senator Tillis is unable to attend Senator 
Sessions' confirmation hearing today because his brother is 
being sworn in to the Tennessee General Assembly.
    He also--Senator Sessions, he also wants me to know that he 
will submit questions for you to answer in writing.
    Senator Coons, as we announced before, will be the first 
one this afternoon. Proceed. And Senator Sessions, if there is 
any--I will not know unless you tell me--if there is any sort 
of 15-minute break or anything you need, let me know.
    Senator Sessions. Thank you, Mr. Chairman.
    Chairman Grassley. We will do that at the end of some 
person asking questions.
    Senator Coons.
    Senator Coons. Thank you, Chairman Grassley.
    Welcome, Senator Sessions. Congratulations to you and Mary 
and your whole family on your nomination.
    The position of Attorney General of the United States is 
one of the most important positions on which this Committee 
will ever hold hearings. And the next Attorney General of the 
United States will assume leadership of the Justice Department, 
on the heels of an election in which there were many issues 
thrown about in the course of the campaign, some of which have 
been asked about previously--calls for a Muslim ban or patrols, 
issues of a potential Russian cyberattack affecting our 
democracy, calls for mass deportations and chants at some 
rallies to ``lock her up'' for one of the candidates. And given 
the divisiveness of this election, I think it is critical that 
the next Attorney General be well suited for this position and 
this time. And as such, I think a successful nominee has to be 
able to persuade this Committee that he will act fairly and 
impartially administer justice, and advance justice for all 
Americans.
    Senator Sessions, we have served on this Committee together 
for 6 years, and we have worked well together on a few issues--
on State and local law enforcement issues, on the 
reauthorization of the Victims of Child Abuse Act and on the 
restoration of funding for Federal public defenders. And I 
appreciate that partnership. But there has also been many 
issues on which we disagreed. Issues from immigration to civil 
liberties to civil rights to criminal justice, voting rights, 
and torture. And I am concerned about your views on a number of 
these issues, as we discussed when we met last week. So I am 
grateful to the Chairman and to you that we are going to have a 
full and fair hearing on all of these issues today.
    Let me start with some questions about your time when you 
were Alabama Attorney General and how you understood some 
direction you received from the U.S. Department of Justice. At 
that point, Alabama was the only State in the country that 
handcuffed prisoners to hitching posts. And we talked about 
this when we met before, and I said I would ask you about this 
in this hearing.
    A hitching post was used as a punishment for prisoners 
perceived as being unwilling to work or participate in the 
daily lives of prison, whether serving on a chain gang or 
participating in work, and they would be cuffed by both wrists 
to a pole at chest height, sometimes for 7, 8, or 9 hours, 
unprotected from sun, heat, or rain, without access, in some 
cases, to water or even a bathroom. And as the Attorney 
General, you and the Governor received letters from the U.S. 
Department of Justice telling you that Alabama's use of the 
hitching post in both men and women's prisons was 
unconstitutional and unjustified. But as I understand it, the 
use of the hitching post continued throughout your term, and 
you did not act to stop it.
    During this same period, the State of Alabama was sued not 
just about hitching posts, but also about chain gangs. Prison 
policies in Alabama said a man could be put on a chain gang if 
he failed to shave or keep his bed clean, if he disrespected a 
member of the staff, and would end up doing hard labor breaking 
rocks while being chained together in groups of five, shackled 
with eight feet of chain between men. And these practices, the 
case that was brought demonstrated, were disproportionately 
affecting African Americans.
    In later litigation, the practice of using the hitching 
post was called by an Alabama judge the most painful and 
torturous punishment in Alabama, short of electrocution. And in 
2002, the U.S. Supreme Court said using the hitching post was 
clearly unconstitutional when it was used in Alabama.
    Can you please, Senator, tell me your view today of the use 
of the hitching post and chain gang in Alabama corrections, and 
what your view is of what action you would take today if these 
practices were restored?
    Senator Sessions. Thank you very much, Senator. That was an 
issue by the Governor, who campaigned and promised that 
prisoners should work and he was determined to make that 
happen. I believe the litigation occurred after my time as 
Attorney General, according to my records, but we could be 
wrong. I will supplement the records for you. Certainly the 
decision by the Supreme Court and the Federal courts were after 
I left office, I believe. So, working of prisoners is an issue 
that we have dealt with in the Congress of the United States 
and by State legislatures. I think a good employment of a 
prisoner is a healthy thing.
    I do not favor personally this kind of work. I think it 
should be more productive work, work to kind of help the 
individual develop a discipline that they could use when they 
go on to private life after they leave prison. After the 
Supreme Court ruling, I think it is crystal clear what the law 
is. That was disapproved and disallowed and found to be 
unconstitutional, and I would absolutely follow that as 
Attorney General.
    Senator Coons. In your view, did it take a ruling by the 
U.S. Supreme Court to clarify that this constituted torture, 
that it was not just bad corrections policy; it was actually 
substantively torture of prisoners?
    Senator Sessions. Senator Coons, I do not recall ever 
personally being engaged in the studying of the constitutional 
issues at stake. It is perfectly legitimate for prisoners to 
work, but in decent conditions, and I think it should be the 
kind of work that is productive and could actually lead to 
developing good habits. I have heard some evidence on that 
subject.
    So I do not have a legal opinion about the case, have not 
studied the details of it.
    Senator Coons. Just to be clear, what I was pressing you on 
there was the use of the hitching post, which is a disciplinary 
measure that had been abandoned by all States but Alabama. It 
is really reminiscent more of the stocks, the stockade that was 
used centuries ago and, to me, somewhat troubling that it 
continued without challenge.
    Let me ask you more broadly, as you know, both Republicans 
and Democrats on this Committee have worked together to address 
ways in which our criminal justice system is broken and to 
address the disparate racial impact of over-incarceration that 
has resulted the last 30 years.
    Senator Tillis and I just yesterday published an op-ed that 
we wrote jointly about the importance of responsible, balanced 
criminal justice reform. And Senators Grassley and Cornyn, Lee 
and Graham, and Flake--all your fellow Republicans--have 
supported meaningful reforms to address excessive mandatory 
sentences and incarceration. And in my experience here, in 6 
years with you, you have steadfastly opposed all of these 
efforts at bipartisan sentencing reform.
    Help me understand why you have blocked efforts at reducing 
mandatory minimum sentences, at creating opportunities for the 
revisitation of sentences that may have been overly harsh when 
initially imposed, and help me understand whether you think it 
is ever proper for a prosecutor to charge anything less than 
the most serious offense available and carrying the longest 
sentence.
    Senator Sessions. Well, that was a lot of questions there, 
Senator Coons.
    Senator Coons. Yes.
    Senator Sessions. So the Sentencing Act has one 
foundational requirement now, and that is the minimum 
mandatories. The guidelines have been either made voluntary by 
the Sentencing Commission and the courts and the policies of 
the Attorney General. So the thing that does stand in place are 
the minimum mandatories. The minimum that can be sentenced for 
a certain offense.
    I offered legislation in 2001--it was opposed by the Bush 
Justice Department--that would have reduced the sentencing 
guidelines. And in fact, what passed a number of years later, 
unfortunately, essentially could have been done in 2001. I made 
a speech in favor of it saying what you are saying, that it was 
disproportionately impacting our African-American community and 
we needed to fix it, and eventually that was passed. So I have 
a record of doing that, number one.
    Number two, so these other things happened in the meantime. 
The guidelines were reduced; the Justice Department has reduced 
its requirements. The Justice Department now allows a 
prosecutor to present a case to the judge that does not fully 
reflect the evidence that they have in their files about a 
case. That is a problematic thing. I think it is problematic 
and difficult to justify a prosecutor charging five kilos of 
heroin when the actual amount was 10, to get a lower sentence. 
Now, there may be circumstances when somehow proof and other 
issues could justify that, but I just would say, as a 
principle, you have got to be careful about it.
    Finally, colleagues, sentencing guidelines are within the 
breadth of the Congress. They are mandated by law. I was 
concerned about what we are beginning to see--a rise in crime--
and, at the same time, a decline in sentences. Sentences are 
down 19 percent already, as based on the Sessions-Durbin 
legislation and guidelines changes. So that is a matter of 
interest. And I felt we should slow down a bit before we go 
further and make sure we are not making a mistake, Senator 
Coons.
    Senator Coons. It is my hope that if you are confirmed and 
we do make progress on bipartisan criminal justice reform, that 
as Attorney General you will carry out whatever legislative 
decisions that might be made by this body.
    Last, let me just say that in my 6 years here, in addition 
to not working with us on a number of bipartisan proposals on 
criminal justice reform, that you have been one of the few 
Senators to repeatedly and steadfastly vote against 
congressional attempts to prohibit torture in the military 
context, or in the interrogation context, and to repeatedly 
defend enhanced interrogation practices.
    Are you clear now that our statutes prohibit torture, and 
if the President were to attempt to override that clear legal 
authority, what actions would you take?
    Senator Sessions. On your previous question, I would note 
that the Federal prison population has already dropped 10 or 
more percent and will drop another 10,000 this year. So what is 
happening now is reducing the Federal population. This law only 
dealt with the Federal prison population, and that represents 
the most serious offenders. Our Federal DEA and U.S. Attorneys 
are prosecuting more serious cases.
    With regard to the torture issues, I watched them for some 
time, and have been concerned about what we should do about it. 
This bill that passed last time was a major step. I thought it 
was really not the right step. Senator Graham, I know, has been 
a steadfast opponent of torture and supported a lot of 
different things opposed to it. It basically took what I was 
teaching the young soldiers at the Army Reserve Unit as a 
lecturer, as a teacher, the Army Field Manual, and it made that 
the law for the entire Government, including the intelligence 
agencies and other departments.
    I thought that was an unwise step, to take something that 
directs even the lowest private to do, to make that the rule 
for higher-ups.
    Senator Coons. Well, Senator----
    Senator Sessions. But it is the law. It is the law, and it 
needs to be enforced. Absolutely.
    Senator Coons. As we both know, there was a bipartisan 
effort to review our experience with enhanced interrogation 
that concluded it was not effective.
    Senator Sessions. Yes, there was. And of course Senator 
Graham was a JAG officer, as I was, for a little bit.
    Chairman Grassley. Senator Cruz.
    Senator Cruz. Thank you, Mr. Chairman.
    Senator Sessions, congratulations on your nomination.
    Senator Sessions. Thank you.
    Senator Cruz. You are a friend; you are a man of integrity. 
You and I have worked closely together on this Committee, on 
the Armed Services Committee, and I have every confidence you 
are going to make a superb Attorney General.
    You know, this has been an interesting day at this hearing, 
listening to Democratic Senator after Democratic Senator give 
speeches in praise of the rule of law. And I am heartened by 
that. I am encouraged by that, because for 8 years it has been 
absent. For 8 years, we have seen a Department of Justice 
consistently disregarding the rule of law.
    When Eric Holder's Department of Justice allowed illegal 
gun transactions, illegally sold guns to Mexican gun 
traffickers as part of ``Fast and Furious,'' guns that were 
later used to murder Border Patrol agent Brian Terry, the 
Democratic Members of this Committee were silent.
    When Eric Holder was found in contempt of Congress for 
refusing to cooperate with Congress' investigation into ``Fast 
and Furious,'' once again the Democratic Members of this 
Committee were silent.
    When the IRS illegally targeted United States citizens for 
exercising the First Amendment views--for exercising their 
roles in the political process, Democratic Members of this 
Committee were silent. When the Department of Justice refused 
to fairly investigate the IRS targeting citizens and indeed 
assigned the investigation to a liberal partisan Democrat who 
had given over $6,000 to President Obama and Democrats, 
Democrats on this Committee were silent.
    When numerous Members of this Committee called on the 
Attorney General to appoint a special prosecutor to ensure that 
justice was done in the IRS case, Democrats on this Committee 
were silent.
    When the Justice Department began using Operation Choke 
Point to target law-abiding citizens that they disagreed with 
politically----
    [Audience interruption.]
    Senator Cruz. You know, free speech is a wonderful thing.
    When the Department of Justice used Operation Choke Point 
to target legal businesses because they disagreed politically 
with those businesses, the Democrats on this Committee were 
silent.
    When the Obama Justice Department sent millions of dollars 
of taxpayer moneys to sanctuary cities that were defying 
Federal immigration law, the Democrats on this Committee were 
silent.
    When the Obama administration refused to enforce Federal 
immigration laws and unilaterally rewrote those laws, the 
Democrats on this Committee were silent.
    When the Obama administration released tens of thousands of 
criminal illegal aliens, including rapists and murderers, into 
the general population, Democrats on this Committee were 
silent.
    When the Department of Justice signed off on the Obama 
administration paying a nearly $2 billion ransom to Iran, 
contrary to Federal law, the Democrats on this Committee were 
silent.
    When the Obama administration ignored and rewrote provision 
after provision of Obamacare, contrary to the text of the law, 
the Democrats on this Committee were silent.
    When the Obama administration signed off on illegal recess 
appointments that the Supreme Court had to strike down 
unanimously, the Democrats on this Committee were silent.
    And when the Obama administration released five Guantanamo 
terrorists without the required notification to Congress, the 
Democrats on this Committee were silent.
    That pattern has been dismaying for 8 years, but I take 
today as a moment of celebration. If once again this Committee 
has a bipartisan commitment to rule of law, to following the 
law, that is a wonderful thing and it is consistent with the 
tradition of this Committee going back centuries.
    Now, if we were to play a game of tit for tat, if what was 
good for the goose were good for the gander, then a Republican 
Attorney General should be equally partisan, should disregard 
the law, should advance political preferences favored by the 
Republican Party.
    Senator Sessions, do you believe that would be appropriate 
for an Attorney General to do?
    Senator Sessions. No, I do not. I think we do have to be 
aware that when something like this is done, and some of the 
things I am familiar with enough to agree with you that I 
thought were improper, I do believe it has a corrosive effect 
on public confidence and the constitutional republic of which 
we are sworn to uphold.
    Senator Cruz. I think you are exactly right. You and I are 
both alumni of the Department of Justice, and it has a long 
bipartisan tradition of staying outside of partisan politics, 
of simply and fairly enforcing the law.
    I will say right now, if I believed that you would 
implement policies, even policies I agreed with contrary to 
law, I would vote against your confirmation. And the reason I 
am so enthusiastically supporting your confirmation is I have 
every degree of confidence you will follow the law faithfully 
and honestly. And that is the first and most important 
obligation of the Attorney General.
    Now, earlier in this hearing, Senator Franken engaged you 
in a discussion that I think was intended to try to undermine 
your character and integrity, and in particular, Senator 
Franken suggested that you had somehow misrepresented your 
record.
    It is unfortunate to see Members of this body impugn the 
integrity of a fellow Senator with whom we have served for 
years. It is particularly unfortunate when that attack is not 
backed up by the facts. Senator Franken based his attack 
primarily on an op-ed written by an attorney, Gerald Hebert. 
There is an irony in relying on Mr. Hebert, because as you well 
know, in 1986 during your confirmation hearing, Mr. Hebert 
testified then and attacked you then, making false charges 
against you. And indeed, I would note, in the 1986 hearing, 2 
days later, Mr. Hebert was forced to recant his testimony, to 
say that he had given false testimony to this Committee and 
indeed to say, ``I apologize for any inconvenience caused Mr. 
Sessions or this Committee by my prior testimony.'' So an 
individual who has testified falsely once before this 
Committee, his op-ed is now the basis for Senator Franken's 
attack on you. And indeed, the basis of Senator Franken's 
attack is he claims you were uninvolved in several civil rights 
cases that were listed on your questionnaire.
    In 1986, Mr. Hebert testified--this is a quote from him--
``I have needed Mr. Sessions' help in those cases and he has 
provided that help every step of the way.'' Is that correct, 
that that is what Mr. Hebert testified?
    Senator Sessions. Yes, that is correct.
    Senator Cruz. Now, in the four cases Senator Franken 
referred to, you reported all four of them in your supplement 
to the Judiciary Committee, is that right?
    Senator Sessions. That is correct.
    Senator Cruz. Mr. Franken did not mention that, and let me 
point out, here is how you describe your involvement in your 
written submission to this Committee: ``For the cases described 
in two, four, eight, and nine, my role, like most U.S. 
Attorneys in the Nation and with non-criminal civil rights 
cases, was to provide support for the Department of Justice 
Civil Rights Division's attorneys.
    ``I reviewed, supported, and co-signed complaints, motions, 
and other pleadings and briefs that were filed during my tenure 
as U.S. Attorney. I provided assistance and guidance to the 
Civil Rights attorneys, had an open-door policy with them, and 
cooperated with them on these cases. For the cases described in 
six, I supervised litigation and signed the pleadings.''
    Now, that is consistent with the 1986 testimony that you 
provided help every step of the way, is that correct?
    Senator Sessions. Well, I think so, yes.
    Senator Cruz. There is no question you have been forthright 
with this Committee, and I would note that Members of this 
Committee do not have to search far and wide to know who Jeff 
Sessions is. We have known every day, sitting at this bench 
alongside you.
    I want to shift to a different topic, and it is the topic I 
opened with, which is the politicization of the Department of 
Justice. The Office of Legal Counsel has a critical role of 
providing sound legal and constitutional advice, both to the 
Attorney General and the President. And in the last 8 years, we 
have seen a highly politicized OLC, an OLC that has given 
politically convenient rulings, whether on recess appointments, 
whether on Executive amnesty, and early on, perhaps that was 
started by 2009 Attorney General Holder overruling OLC 
concerning legislation trying to grant the District of Columbia 
representation in Congress. And it may well be that that sent a 
message to OLC that its opinions were to be political and not 
legal in nature.
    Tell me, Senator Sessions. What will you do as Attorney 
General to restore professionalism and fidelity to law to the 
Office of Legal Counsel?
    Senator Sessions. Senator Cruz, I think any short-term 
political agenda gains that come from the abuse of the 
lawmaking processes and requirements of the Department of 
Justice just do not make sense. It will always, in the long 
run, be more damaging, the short-term gain that one might have.
    The Office of Legal Counsel, all of us who served in the 
Department know, is a big-time position. You need a mature, 
smart, experienced person who understands this Government, who 
understands the laws and is principled and consistent in their 
application of the laws. That will help the President, it will 
help the Congress, and it will help the American people. I do 
believe we need to work hard to have that, and I will do my 
best to ensure we do have it.
    Senator Cruz. One final question. In the last eight years, 
the Department of Justice's Solicitor General's Office has 
also, I believe, been unfortunately politicized. And it has 
sustained an unprecedented number of unanimous losses before 
the U.S. Supreme Court.
    Indeed, President Obama's Justice Department won less than 
half of its total cases before the Supreme Court, which is the 
lowest Presidential win rate since Harry Truman. The average 
historically for the last 50 years has been about 70 percent. 
Numerous of those cases were unanimous with, indeed, both 
Obama's Supreme Court appointees voting against the lawless 
positions of this Justice Department, including their assertion 
that the Government has the authority to supervise and direct 
the appointment, the hiring, and firing of clergy in the 
church.
    What will you do as Attorney General to ensure the 
integrity of the Office of Solicitor General, that it is 
faithful to the law and not advancing extreme political 
positions like the Obama Justice Department did that have been 
rejected over and over again by the Supreme Court?
    Senator Sessions. I think the problem there is a desire to 
achieve a result sometimes that overrides their commitment to 
the law. In the long run, this country will be stronger if we 
adhere to the law, even though somebody might be frustrated in 
the short term of not achieving an agenda.
    The Solicitor General should not advocate to alter the 
meaning of words to advance an agenda. That is an abuse of 
office, and I would try to seek to have a Solicitor General who 
is faithful to the Constitution, serves under the Constitution, 
does not feel it has the power to rise above it and make it say 
what it wants it to say.
    Senator Cruz. Thank you, Senator Sessions.
    Chairman Grassley. Senator Blumenthal goes--I think we have 
votes still scheduled for 2:45. It is my idea that we would 
continue this, going--like I will go at the end of the first 
vote and then vote and come back, and I hope other people will 
preside and keep asking questions while the two votes are going 
on so we can finish at a reasonable time today.
    [Exchange aside.] Oh, that is right. Did we get a decision? 
You can stay here during that voting.
    Senator Blumenthal.
    Senator Blumenthal. Thanks, Mr. Chairman, and thank you for 
conducting this hearing in such a fair-minded and deliberate 
way. And I want to join you in thanking Senator Sessions for 
his public service over so many years, and his family, who have 
shared in the sacrifices that you have made.
    I am sure that my colleagues and I appreciate your service 
and your friendship. This experience for us is a difficult one, 
not only because you are a colleague, but I consider you to be 
a friend and someone who is well liked and respected in this 
body, understandably. And I know if you were sitting here, you 
would be pretty tough on me, maybe tougher than I am going to 
be on you. But it is not personal, as you understand, because 
we have an obligation to advise and consent, to ask those kinds 
of tough questions.
    You and I have shared some experiences; both of us have 
been United States Attorneys and Attorneys General of our 
State. And I want to thank you as well for thanking our law 
enforcement community, which is so important to this Nation. 
And it makes sacrifices, and those sacrifices often are not 
only in time and forgone income, but also in lives. And I join 
you in respecting the law enforcement officers who were victims 
most recently of gun violence.
    I want to begin just by asking you a question which I asked 
in a letter. Will you recuse yourself from voting on your own 
nomination and the nominations of other Cabinet secretaries?
    Senator Sessions. I do not have plans to vote on my 
nomination. I have not thoroughly examined all the issues, but 
if I think there could be a conflict of interest or a violation 
of the ethics rule, then I would comply with the rules.
    Senator Blumenthal. I believe it would be a conflict of 
interest for you to vote on other Cabinet secretaries, as they 
are nominated by the President, who is also your boss. And I 
think that--I hope you will consider recusing yourself from 
those votes as well, because I think it will set a tone for 
what you will do in cases of conflicts of interest.
    I want to talk a little bit about conflicts of interest, 
because I think that the Attorney General of the United States 
has a unique and special role, especially at this point in our 
history. He should be a champion, a zealous advocate of rights 
and liberties that are increasingly under threat in this 
country, and he is not just another Government lawyer or 
another Cabinet secretary. He is the Nation's lawyer. And so 
any appearance of conflict of interest or compromising 
positions because of political involvement I think is a real 
danger to the rule of law and respect and credibility of the 
rule of law.
    I would hope that you would consider appointing special 
counsel in cases where there may be a conflict of interest 
involving the President. And one of those cases involves 
Deutsche Bank. The President of the United States owes Deutsche 
Bank several hundreds of millions of dollars. It is currently 
under ongoing investigation. Will you appoint an independent 
counsel to continue the investigation of Deutsche Bank?
    Senator Sessions. Well, Senator Blumenthal, I am not aware 
of that case. I have not researched it or even read some of the 
public's articles about it. So I am totally uninformed about 
the merits, or lack of it, of the case. I do not know that the 
President is implicated simply because he has borrowed from a 
bank. But I would say that, as I think Senator Lee raised in 
his questioning, you do not want to be in a position where 
every time an issue comes up, the Attorney General recuses 
himself. But at the same time, when serious questions arise, 
the Attorney General should recuse himself under the 
appropriate circumstances. And I guess that goes with the 
appointment of a special counsel, which is a somewhat different 
issue.
    Senator Blumenthal. Would you----
    Senator Sessions. There are a lot of criticisms of that, 
but I think it is a useful tool in the appropriate 
circumstances.
    Senator Blumenthal. Would you agree with me that the 
Emoluments Clause applies to the President of the United 
States?
    Senator Sessions. Well, the Emoluments Clause applies. I 
guess the dispute is and the discussion is to what extent does 
it apply and how does it apply in concrete situations----
    Senator Blumenthal. If there is evidence----
    Senator Sessions [continuing]. Which I have not studied.
    Senator Blumenthal. If there is evidence that the President 
of the United States has violated or may be violating the 
Emoluments Clause, will you appoint a special counsel?
    Senator Sessions. We would have to examine that. I would 
not commit, at this time, to appointing a special counsel when 
I am not aware of a precise factual situation that would be in 
play.
    Senator Blumenthal. If there is a violation by the 
President's family of the STOCK Act, which prohibits the use of 
private or insider information for personal gain, will you 
apply special counsel?
    Senator Sessions. Well, we will have to evaluate that if 
such a circumstance occurs, and I would do my duty as I believe 
I should do it at the time.
    Senator Blumenthal. I would suggest that in those cases an 
independent counsel is not only advisable but required to avoid 
a conflict of interest, and I would hope that you would be 
sensitive to those concerns.
    Senator Sessions. Well, there are reasonable arguments to 
be made for that. I suggested that Attorney General Lynch 
should appoint a special counsel in the Clinton matter. I do 
not know whether you supported that or not.
    Senator Blumenthal. One reason I am asking the question is 
that you have advocated a special counsel in other instances 
where, in fact, the argument for it was weaker than it would be 
in these cases, and I think it would be appropriate. Let me----
    Senator Sessions. Well, I will suggest that during the 
campaign sometimes we get excited, but as Attorney General, you 
have to follow the law, you have to be consistent, and you have 
to be honorable in your decisionmaking. And I respect the 
question you are raising.
    Senator Blumenthal. Let me ask you about another group. I 
welcome your condemnation of the Ku Klux Klan. You may be 
familiar with a group called ``Operation Rescue,'' and 
Operation Rescue endorsed you. In fact, Troy Newman, the head 
of Operation Rescue, said, ``We could not be happier about the 
selection of Senator Jeff Sessions as the next Attorney 
General.''
    Operation Rescue has, in fact, advocated ``execution'' of 
abortion providers, and as an example of its work, this poster 
was circulated widely in the 1990s and early 2000s about a 
doctor, George Tiller, who subsequently was murdered. After his 
murder, Operation Rescue said that his alleged murderer should 
be treated as a political prisoner. Dr. Tiller was murdered in 
2009, and I am sure you are familiar with this case. Will you 
disavow their endorsement of you?
    Senator Sessions. I disavow any activity like that, 
absolutely, and a group that would even suggest that is 
unacceptable. And I will enforce the laws that make clear that 
a person who wants to receive a lawful abortion cannot be 
blocked by protesters and disruption of a doctor's practice. I 
might not favor that. I am pro-life, as you know, but we have 
settled on some laws that are clearly in effect, and as 
Attorney General, you can be sure I would follow them.
    Senator Blumenthal. You would use the FACE statute, the 
Freedom of Access to Clinic Entrances Act, to empower and 
mobilize the FBI, the Federal Marshals Service, or the Bureau 
of Alcohol, Tobacco, and Firearms to protect clinics if there 
were harassment or intimidation?
    Senator Sessions. I would use the appropriate Federal 
agencies, and I do believe it is in violation of the law to 
excessively or improperly hinder even the access to an abortion 
clinic.
    Senator Blumenthal. Will you rigorously enforce statutes 
that prohibit purchase of guns by felons or domestic abusers or 
drug addicts and use the statutes that exist right now on the 
books to ban those individuals from purchasing guns?
    Senator Sessions. Well, Congress has passed those laws. 
They remain the bread-and-butter enforcement mechanisms 
throughout our country today to enforce gun laws. The first and 
foremost goal, I think, of law enforcement would be to identify 
persons who are dangerous, who have a tendency or have been 
proven to be lawbreakers and been convicted and those who are 
caught carrying guns during the commission of a crime. Both of 
those require mandatory sentences. As United States Attorney in 
Alabama, it was a high priority of mine. I calculated a number 
of years we were one of the top--even though a small office--on 
a percentage basis we were one of the top prosecutors of those 
cases. I think it saves lives, Senator Blumenthal. My judgment, 
at least, tells me it can help create a more peaceful 
community.
    Senator Blumenthal. Will you support laws necessary to 
effectively apply those laws, including universal background 
checks that are necessary to know whether the purchaser is a 
felon or a drug addict or a domestic abuser?
    Senator Sessions. Well, I believe in background check laws, 
and many of them are appropriate. But in every instance--there 
are some instances when it is not practical, like, say, for 
example, somebody inherited a gun from their grandfather. Those 
transactions I am not sure should require that kind of 
universal background check.
    Chairman Grassley. For the first time I call on a new 
Member of this Committee, Senator Crapo. Welcome to the 
Committee, and you may proceed.
    Senator Crapo. Thank you, Mr. Chairman, and I too want to 
thank you for the way you are handling this hearing, and I 
appreciate your service here in the Committee.
    Senator Sessions, I also want to join those who have 
congratulated you on your nomination to be the Attorney General 
of the United States. I am one of those who has had the 
opportunity to work with you for years and know you very well. 
I consider you well qualified and look forward to your service 
as Attorney General of the United States if you are confirmed, 
and I expect you will be. I know you to be a man of your word. 
I know that you are committed to the Constitution of the United 
States of America, and you are committed to enforcing the law 
of this country, as you have said multiple times here in this 
Committee. So I thank you for that.
    I want to go in my questions into just a couple of other 
areas beyond just the notion of the enforcement of the law but 
the manner in which the Department of Justice enforces the law. 
Three basic areas: one, the abuse of the power or 
discriminatory enforcement of the law; two, regulatory 
overreach that we are seeing across this country and what role 
the Department of Justice plays in trying to deal with that; 
and then, finally, cooperation with the States. We live in a 
Union of 50 States, and under our Constitution there are 
appropriate roles for the Federal Government and the States, 
and the Department of Justice has a very powerful influence on 
that. So if I could get into those three areas.
    The first one I am just going to use as an example of the 
kind of abusive use of power that I hope you will help stop and 
prevent from continuing to happen. This example is one that was 
already referenced by Senator Cruz, Operation Choke Point. 
Operation Choke Point, for those that are not familiar with it, 
the only appropriate thing about it, in my opinion, is its 
name. It was a program designed by the Department of Justice to 
help choke financing away from businesses and industries that 
were politically unacceptable or, for whatever reason, 
unacceptable to the administration.
    The Justice Department, working with, and I think perhaps 
even pressuring, some of our financial regulatory agencies, 
created this program to give additional scrutiny--indeed such 
aggressive scrutiny that it pressured them out of their access 
to financing--to certain industries. I do not know how these 
industries got on the list, but I will just read you several 
that are on the list: ammunition sales, coin dealers, firearms 
sales, installment loans, tobacco sales. This list is a list of 
30 that was put out by the FDIC. When they actually realized 
they should not have put the list out, they quickly took it 
back. And the FDIC says that they are not pursuing this program 
anymore. But when we tried to de-fund it earlier, the 
administration fought aggressively to make sure we did not get 
the votes to de-fund it.
    This program is one where the justification is, well, the 
businesses who operate in these industries have not done 
anything wrong. But these are industries that might do things 
wrong more than other industries, and, therefore, we are going 
to pressure people out of these industries. It reminds me of a 
2002 movie called ``Minority Report.'' It was a Tom Cruise 
movie, and that was one about an advanced police force in the 
future that had determined or developed the ability to know if 
you were going to commit a crime before you commit the crime. 
And then their job was to go arrest you. It was really good at 
stopping crime because they arrest you before you even commit 
it. And then one of them came up on the list, and that is the 
story of that movie.
    My point is we cannot really tell for sure whether 
Operation Choke Point is still operating, although we still 
have people in these industries who cannot get financing. If 
that kind of thing is going on in the Department of Justice, 
will you assure that it ends?
    Senator Sessions. I will. At least as you have framed this 
issue and as I understand the issue, from what little I know 
about it, but, fundamentally, a lawful business should not be 
attacked by having other lawful businesses pressured not to do 
business with the first business. That to me would be hard to 
justify. I guess maybe they have got some arguments that would 
be worth listening to, but, fundamentally, that seems to me--
Senator Crapo, you are a great lawyer, but it seems to me that 
goes beyond what would be legitimate in a great economy like 
ours.
    Senator Crapo. Well, I would hope the Department of Justice 
would not be a partner with any of our Federal agencies in this 
kind of conduct.
    Another one which I will throw out as an example is the 
National Instant Criminal Background Checklist, which is now 
being utilized by the Veterans Administration and by the Social 
Security Administration to put people's names on the list so 
that they can be denied access to owning or purchasing a 
firearm. And the way they put their name on the list is to say 
that they are mentally deficient. If they need a little help on 
their Social Security benefits, if they are a veteran who put 
their life on the line for us and goes to war and receives a 
head injury and so they need a little bit of assistance, then 
they get their name often put on the list.
    I know that these are not the agencies that you supervise, 
but I know the Department of Justice supervises the NICS list. 
And I would just encourage your help, whether it is here or 
anywhere else in our Government. As we see agencies using their 
power to achieve political purposes or some other 
discriminatory purpose of the administration, I would hope you 
would stand solidly against it.
    Senator Sessions. Well, thank you, Senator Crapo. I know 
you have worked on that issue. So I would be sympathetic and be 
willing to receive any information that I know you have 
gathered to form your views about it.
    Senator Crapo. All right. I appreciate that.
    Let me move on to the question of regulatory overreach. I 
will just use one example there. I am one who believes that 
today we have gone--we talked a lot in this hearing today about 
the rule of law. In America, statutes are passed by Congress 
and signed into law by a willing President. But now we have 
multiple agencies that are doing rulemakings that, in my 
opinion, are going far beyond the legal authority of the laws 
under which they operate. I will use one example: the Waters of 
the United States rule that has been implemented or is seeking 
to be implemented by the EPA and the Army Corps of Engineers. 
In my opinion, that is totally unfounded in law, and often the 
Department of Justice is partnered up with these agencies as 
they try to defend their activities in court. And I am not sure 
I actually know the proper role there.
    Does the Department of Justice simply have to litigate on 
behalf of these agencies? Or does it have the ability to advise 
these agencies that they are pursuing activities beyond the 
bounds of the law?
    Senator Sessions. It can be that an agency would ask an 
opinion of the Office of Legal Counsel, the Department of 
Justice, as to whether their interpretation is sound or not. 
That opinion, until reversed at some point, stands for the 
entire Government. But, basically, these agencies oftentimes 
just set about their own agendas without asking for an opinion, 
and often they are narrow-minded or they are focused only on 
what they feel are the goals of their agency and do not give 
sufficient respect to the rule of law and the propriety of what 
they are doing. In particular, did the Congress really intend 
this? Did this law really cover this? Or is it just something 
you want to accomplish and you are twisting the law to justify 
your actions? Those are the kinds of things that we do need to 
guard against.
    Senator Crapo. Well, I appreciate that, and I hope that 
under your leadership we will have a Justice Department that 
will give strong advice where it can and have strong influence 
where it can across the United States system, across our 
agencies in this country, to help encourage and advise that 
they stay within the bounds of the law.
    The last thing, and I will just finish with this--and you 
can give a quick answer, I am running out of time here--and 
that is, cooperation with the States. As I said earlier, our 
system of Government is comprised of 50 States in a Union under 
a Constitution that establishes a Federal Government. And you 
and I both know well that the Tenth Amendment says that those 
rights and powers that are not specifically granted to the 
Federal Government in the Constitution are reserved to the 
States and to the people, respectively.
    Many of our States feel that that proper respect for their 
sovereignty is being abused, again, by Federal agencies, not 
just the Department of Justice, but the Justice Department 
often gets involved in this through providing the legal 
services that it does to our agencies. And, you know, I could 
go through a ton of more examples and lists of litigation that 
is ongoing right now with my State and other States around the 
country where, if we simply had a better level of respect for 
the role of States in this Union and under our Constitution, we 
could work out a lot more of these issues rather than having 
the heavy hand of the Federal litigation system come to play 
into forcing compliance by States.
    I will not go into any specific details, but would just ask 
your feelings about that importance of respecting the role of 
States in this country.
    Senator Sessions. There is no general Federal crime. So, 
many things like larceny and even murder, when there is no 
civil rights connection, have traditionally been totally the 
responsibility of the States. As a young prosecutor in the 
1970s, I remember almost all the cases had an interstate 
commerce nexus. It was not the theft of an automobile that you 
prosecuted. It was interstate transportation of a stolen 
vehicle. So a lot of that is just--now we have forgotten that 
distinction, that limitation on Federal power.
    Senator Crapo. We have. And a lot of what I am talking 
about happens in the Environment and Natural Resource Division 
or in others. There is a lot of litigation out there. I would 
just encourage you--I see I am out of time.
    Chairman Grassley. Let me make a suggestion before I 
introduce Senator Hirono, and she is welcomed back to the 
Committee. She has been off 2 years. To make efficient use of 
our time, when she is done, it would be Senator Kennedy's turn. 
But you probably have to go vote, so if there is somebody back 
here that can start the second round, do it, and then we will 
call on Senator Kennedy to finish the first round.
    Senator Hirono.
    Senator Hirono. Thank you, Mr. Chairman. It is good to be 
back on this Committee. And aloha to you, Senator Sessions.
    Senator Sessions. Aloha.
    Senator Hirono. I will do my best to be nice to you.
    [Laughter.]
    Senator Sessions. Well, that will not be hard for you.
    Senator Hirono. Thank you very much. I know that the 
Attorney General has broad prosecutorial discretion. You noted 
in some of your responses to questions from Senator Durbin 
around the issue of what would happen to the 800,000 DACA-
registered people if the President-elect rescinds that program, 
and you indicated that I think at that point the AG's office 
has only so many resources and that may not be a high priority 
for you. But you indicated that is why we needed immigration 
reform.
    So my series of questions will center around how you would 
exercise your prosecutorial discretion, which I think you would 
acknowledge is wide as Attorney General, would you not?
    Senator Sessions. In many cases, you do--the Federal 
prosecutors set discretionary limits, but you have to be 
careful that it does not exceed a reasonable judgment about 
what a discretion should be.
    Senator Hirono. I agree. It is not totally unfettered, but 
wide prosecutorial discretion, so my questions will center 
around how you would exercise prosecutorial discretion with 
regard to some specific issues. You probably know, Senator 
Sessions, that I am an immigrant, and you indicated in one 
response that you would want immigration reform to center 
around skills-based immigration reform. And if that were the 
case, my mother who brought me to this country to escape an 
abusive marriage would not have been able to come to this 
country, and she acquired her skills later. But I just want to 
let you know that this is one of the reasons that issues 
relating to immigration are very important not just to me but 
to millions of people in this country. And I have heard from 
them. I have heard from immigrants in this country, LGBT 
Americans, women, and religious minorities who are terrified 
that they will have no place in President-elect Trump's vision 
of America. And based on what I have heard, since the election, 
I am deeply concerned that their fears are well founded. I am 
hoping that you can address some of these concerns today.
    I mentioned the exercise of prosecutorial discretion. When 
you came to see me, we did talk about whether or not you would 
support a ban on Muslims coming to this country based on the 
fact that they were Muslims, and you said you would not support 
that. But you also indicated that you would support basically 
what would be considered enhanced vetting of people with 
extreme views. What would characterize an extreme view to you? 
And how would you go about ferreting out people with extreme 
views? And there are millions of people legally coming into our 
country.
    And also a related question: The fact that you would 
consider vetting of people with extreme views to be a proper 
use of our governmental authority, there must be a connection 
in your mind that people with extreme views, which I hope you 
will describe what you mean by, will do something that would 
compromise the safety of Americans? Could you respond to my 
series of questions relating to extreme views?
    Senator Sessions. Well, I do think, first of all, the 
vetting process is in the hands of the State department, the 
consular offices, and those offices that are meeting people 
abroad and evaluating them for admission to the United States. 
So the Department of Justice really does not dictate that, as 
long as it is within constitutional order.
    I think the approach that is preferable is the approach 
that would be based on areas where we have an unusually high 
risk of terrorists coming in, people that could be clearly 
violent criminals, and those certainly justify higher intensity 
of vetting. I think that maybe responds to your question. But, 
again, the ultimate decision about that would be done through 
the State Department and by the President.
    Senator Hirono. I am sure they would ask for the Attorney 
General's opinion as to the limits of the Constitution in 
requiring these kinds of questions to be asked of people who 
come to our country. You did indicate that one's religious 
views would be a factor in determining whether somebody has 
extreme views.
    Let me turn to----
    Senator Sessions. If their religious views----
    Senator Hirono. Not in and of itself.
    Senator Sessions [continuing]. Encompass extremism, if 
their interpretation of their religious views encompasses 
dangerous doctrines and terrorist attacks, I think they should 
certainly deserve more careful scrutiny than someone whose 
religious views are less problematic.
    Senator Hirono. Yes, Senator Sessions, you did say that 
one's religious views would be a factor in determining whether 
one has extreme views that would not enable them to come to our 
country.
    Let me turn to the question of abortion. On Roe v. Wade, 
you did say, ``I firmly believe that Roe v. Wade and its 
descendants represent one of the worst, colossally erroneous 
Supreme Court decisions of all time,'' and it was an ``activist 
decision.'' My question is: Do you still hold that view? I 
believe you answered yes to someone who asked you that question 
previously, that you believe that Roe v. Wade was a bad 
decision.
    Senator Sessions. Well, I----
    Senator Hirono. Do you still believe that?
    Senator Sessions. Well, I guess I have said that before. I 
am a pro-life----
    Senator Hirono. Thank you.
    Senator Sessions [continuing]. Advocate. But, 
fundamentally, the problem as I see it with Roe v. Wade is that 
it denies the people the right to make laws that they might 
feel appropriate. Did the Supreme Court have that power? I 
concluded they did not because the Constitution did not answer 
that question, but----
    Senator Hirono. Senator Sessions, I----
    Senator Sessions [continuing]. I respect people----
    Senator Hirono. I hate to interrupt you, but I have less 
than 2 minutes, so I do not want to get into the substance of 
Roe v. Wade. I realize you still believe that that was a bad 
decision, although it was based on constitutional privacy 
protections. So we can expect the makeup of the Supreme Court 
to change, and we can very well end up with a Supreme Court 
that will be very open to overturning Roe v. Wade. And should 
you be the Attorney General, would you direct or advise your 
Solicitor General to weigh in before that Supreme Court which 
has an opportunity to overturn Roe v. Wade? And would your 
Solicitor General go in and weigh in to repeal--or to overturn, 
I should say, Roe v. Wade?
    Senator Sessions. Well, Roe v. Wade is firmly ensconced as 
the law of the land, and I do not know if we would see a change 
in that. You are asking a hypothetical question. Those cases 
seldom come up on such a clear issue. They come up at the 
margins. I just would not be able to predict what well-
researched, thoughtful response would be to matters that could 
happen in the future.
    Senator Hirono. I think most of us know that the next 
opportunity for the Supreme Court to weigh in on whether or not 
to change Roe v. Wade would be a very close decision and likely 
possibly a 5-4 decision, and that it is not just a hypothetical 
but it is a real concern to a lot of people.
    Let me turn to the Voting Rights Act. While the Supreme 
Court did eliminate parts of the Voting Rights Act, it still 
retains Section 2, which prohibits States from enacting laws 
that would have a discriminatory impact. The Attorney General's 
office was a party to challenging two States' laws--I believe 
it was Texas and there was another State--that the Supreme 
Court ultimately agreed with the Attorney General's position 
that these laws violated the Voting Rights Act Section 2. Would 
you, should you become the Attorney General, just as vigorously 
prosecute those kinds of State laws that have a discriminatory 
voting impact?
    Senator Sessions. Well, this administration's Attorney 
General has intervened when it felt it was appropriate and not 
intervened when it did not feel it was appropriate. So I think 
my responsibility would be to ensure that there are no 
discriminatory problems regarding the Voting Rights Act in a 
State. If there is, if it violates the Voting Rights Act or the 
Constitution, I think the Attorney General may well have a 
responsibility and a duty to intervene. You cannot allow 
improper erosion of the right of Americans to vote.
    Senator Hirono. Well, we know that since the Supreme 
Court's decision that did away with major parts of the Voting 
Rights Act that numerous States, perhaps 13 States, have 
already enacted laws that could be deemed contrary to the 
Voting Rights Act. So I would hope that as Attorney General you 
would vigorously review those kinds of laws and to prosecute 
and to seek to overturn those State laws, just as your 
predecessors have done.
    I want to turn to VAWA. I know that you voted against the 
most recent iteration of VAWA because you had concerns about 
how non-Indians would be prosecuted under Tribal law. And you 
indicated that, yes, you do acknowledge that non-Indians do go 
on Tribal lands, commit crimes, and that these kinds of crimes 
should be prosecuted at the Federal level. And I would expect 
that should you become Attorney General that you will do that.
    But at the same time, my question is: Would you then seek 
to overturn that part of VAWA that allows the Tribal courts to 
proceed?
    Senator Sessions. That would be a strictly legal decision. 
We should give respect to the laws of Congress that have been 
passed. As a Member of Congress, I was uneasy with it, did not 
think it was a good approach, and I believe eight out of nine 
Republicans on the Committee shared that concern and did vote 
against it.
    As I noted earlier, I voted for the Violence Against Women 
Act in 2000, 2010, and I voted for the Grassley version of the 
Violence Against Women Act this past time, even though I did 
vote against the version that became law.
    Senator Hirono. So as Attorney General, you would not do 
anything to challenge that part of VAWA that allows for Tribal 
courts to proceed, right?
    Senator Sessions. Well, I would have to make a legal 
decision on that. I am not able to do so today.
    Senator Hirono. Thank you, Mr. Chairman.
    Senator Lee [presiding]. Thank you.
    Senator Sessions, as you are aware, in many instances, 
Congress, when enacting a law, will choose to issue a broad 
sort of mandate, a broad aspirational statement, leaving the 
details of the actual lawmaking process to a regulatory system 
that then has to follow certain procedures in turn to 
effectively make laws. We call those regulations, typically, 
and sometimes an executive branch agency will go a step further 
and, outside the process that has to be followed when 
promulgating a new regulation, they will just issue a guidance 
document--a guidance document outlining what the agency feels 
is the status of the law in this area. Guidance documents have 
received a lot of criticism from members of the public who 
point out that they are bereft of any kind of safeguard and 
that they have not gone through a legislative process; they 
have not even gone through any type of review process that 
would normally accompany the regulatory rulemaking cycle.
    As a matter of policymaking, will the Department of 
Justice, under your leadership, assuming you are confirmed, use 
guidance documents as a matter of course in promulgating legal 
interpretations?
    Senator Sessions. Senator Lee, a guidance document that is 
clearly within the intent of Congress and the law's plain words 
can be beneficial. I think they are normally issued by the 
agency or department that administers it, like, for example, 
the Department of Health and Human Services, Homeland Security, 
Department of Commerce. Sometimes, they ask the Office of Legal 
Counsel for their opinion about what the proper interpretation 
of a statute is. But I do think you raise a valid concern. A 
guidance document cannot amount to an amendment of a law. 
Bureaucrats do not have--that is a pejorative term, but 
department and agency attorneys and members do not have the 
ability to rewrite the law to make it say what they would like 
it to say.
    If we get away from that principle, we erode the respect 
for law and the whole constitutional structure where Congress 
makes the laws, not the executive branch.
    Senator Lee. What about in the context of litigation, where 
you are litigating a case involving one of these guidance 
documents, and you are representing the Federal agency in 
question? Will the Department, under your leadership, assuming 
you are confirmed to this position, ask courts to defer to 
nonbinding guidance documents in the same way that courts are 
routinely asked to defer to regulations?
    Senator Sessions. Well, that is a good question from a good 
lawyer, I have to say. In other words, the question you are 
suggesting is, established law of the land or the courts is 
that they give certain deference to well-established, properly 
established regulations issued pursuant to statute. But what if 
a Secretary just issues a guidance document? Is the court 
entitled to give full deference to that? First of all, I do not 
know. I have not researched it, but I do think that that would 
be a pretty bold step to go that far, and would be dubious 
about it.
    Senator Lee. Thank you. As you know, from time to time, the 
Department of Justice receives subpoenas, or one of the 
entities being represented by the Department of Justice might 
receive requests from Members of Congress, from Committees in 
Congress, including some Committees that have the power to 
issue subpoenas, in other instances, just letters or other 
types of requests from Congress for documents.
    I suspect that there may be a number of outstanding 
requests of this nature that are left pending at the end of 
this Administration, requests that were issued during the 114th 
Congress, the Congress previous to this one, but that will 
still need to be handled within the Department after you are 
confirmed, assuming you are confirmed.
    Will you commit to reviewing any of those that remain 
pending, and doing so in a manner that is timely and showing 
the respect for a coordinate branch of Government?
    Senator Sessions. Senator Lee, if you would, repeat for me 
what kind of request?
    Senator Lee. Pending requests for documents that might be 
left over from the previous Congress.
    Senator Sessions. Requests for documents in what kind of 
proceeding?
    Senator Lee. Requests for documents either from the 
Department, itself, or in matters where the Department is 
involved representing an entity within the Federal Government. 
I just want to make sure that those do not get left behind, 
that they do not get ignored simply because they have not been 
dealt with by the previous administration.
    Senator Sessions. Well, I do think they are entitled to be 
evaluated and proper requests, I would assume, would continue 
to be valid. We would try to follow whatever the law requires 
in that regard.
    Senator Lee. Thank you. I appreciate that.
    I want to talk about the attorney-client privilege by 
members of the executive branch, by executive branch officials. 
In a 1998 opinion, the U.S. Court of Appeals for the D.C. 
Circuit reached a conclusion that executive branch officials do 
not enjoy the same common law attorney-client privilege as 
ordinary lawyers--lawyers who are not executive branch 
officials.
    Justice Scalia, while he was serving as the Assistant 
Attorney General over the Office of Legal Counsel, authored a 
legal opinion stating that executive branch officials do not 
enjoy the privilege unless they are dispensing with personal 
legal advice. Instead, in that view, executive branch officials 
need to assert the executive privilege, rather than the 
traditional common law attorney-client privilege.
    And yet, executive branch agencies routinely can be 
observed asserting the attorney-client privilege, instead of 
the--in much the same way they would in the traditional 
context, rather than just invoking the executive privilege. 
Would you agree with that? That that might raise some 
questions?
    Senator Sessions. Senator Lee, I have not studied that 
opinion of Justice Scalia. I would be reluctant to comment, 
except I would say that it is probably good for the American 
Republic that Department and Agency officials seek legal advice 
before they act. In the long run, that is probably better.
    I think having some expectation that they can have a candid 
comment with their attorney is of value. I had not thought 
about, and never given study to, the question of whether it 
should be under executive privilege or attorney-client. 
Although, I can imagine the difficulties.
    Senator Lee. Yes. I appreciate your candor on that point. 
It gives me some comfort knowing that you are aware of the 
situation and you will look at those.
    I would like to talk about some antitrust issues in the 
moments I have remaining, and then perhaps we will get back to 
these during a subsequent round.
    Antitrust regulators, when they are reviewing potentially 
competitive harms that might arise as a result of a merger, 
will sometimes impose conditions on the merger moving forward, 
saying unless you do A, B, and C, this merger cannot go 
forward. But if you do A, B, and C in order to address whatever 
concerns we, the antitrust regulators have, then the merger can 
be consummated.
    It is my view that there is a temptation for antitrust 
regulators sometimes to impose conditions that do not involve 
anticompetitive concerns, and that that raises some red flags 
because the role of the antitrust regulator is to look out for 
anticompetitive concerns arising out of the merger. That is 
where their inquiry ought to be focused, and that is where 
their conditions ought to be focused. Do you disagree with 
that?
    Senator Sessions. I would agree with that. As you 
formulated, I believe it would be wrong to further some other 
separate, discrete agenda that is not reasonably connected to 
the merger itself. So I think we should ensure that we have the 
highest integrity in antitrust adjudications because they can 
have great impact. The law is not crystal clear about what is 
lawful, and what is not lawful, and what the Antitrust Division 
is required to do. It leaves dangers, if not politicization of 
it--it remains--dangers of policy agendas getting embroiled in 
it. So it is an important division. It requires great 
integrity, and ability, I believe, in the leadership at the 
Antitrust Division.
    Senator Lee. Thank you.
    Senator Leahy.
    Senator Leahy. Thank you. Thank you, Mr. Chairman.
    I listened to Senator Lee asking these questions. It 
occurred to me that you are one of a very, very, very small 
minority of Members who opposed the USA Freedom Act that I 
drafted with Senator Lee. It passed with a super-majority in 
both the House and the Senate.
    Even though you voted against it--and this, of course, 
stopped the bulk collection by NSA that both Senator Lee and I 
opposed--do you agree the executive branch has to follow the 
law, that they cannot reinstate the bulk collection of 
America's phone records without amending Federal statutes?
    Senator Sessions. Senator Leahy, that appears to be so, and 
I cannot swear that that is absolutely, totally always true, 
but it appears to be so.
    Senator Leahy. Wait a minute. We either passed the law or 
we did not pass the law. A super-majority voted for the Lee-
Leahy law. The President signed it into law. You voted against 
it. Will you uphold the law?
    Senator Sessions. I will follow the law, yes, sir.
    Senator Leahy. And will you commit that you are not going 
to allow the NSA to engage in bulk collection of Americans' 
records in violation of the USA Freedom Act based on a theory 
that somehow whoever is President has the power to disregard 
the statute?
    Senator Sessions. I do not believe that the statute can be 
disregarded, and it should be followed.
    Senator Leahy. Thank you. I appreciate that.
    We had a dust-up in the press, as you recall, when Mr. 
Trump bragged about how he had grabbed women and so on, shortly 
after the tape came out, and I realize an explanation here--you 
said, ``I do not characterize that as sexual assault.'' But 
then you said later, ``The Weekly Standard's characterization 
of comments I made following Sunday's presidential debate is 
completely inaccurate. My hesitation was based solely on 
confusion of the content of the 2005 tape. A hypothetical 
proposed by the reporter which was asked in a chaotic post-
debate environment. Of course, it is crystal-clear that assault 
is unacceptable. I would never intentionally suggest 
otherwise.''
    Especially what you said--after the confusion on your first 
comment. Is that correct?
    Senator Sessions. I believe that is correct.
    Senator Leahy. Thank you.
    Is grabbing a woman by her genitals without consent--is 
that sexual assault?
    Senator Sessions. Clearly, it would be.
    Senator Leahy. Thank you.
    If a sitting President or any other high Federal official 
was accused of committing what the President-elect described in 
a context in which it could be federally prosecuted, would you 
be able to prosecute and investigate?
    Senator Sessions. The President is subject to certain 
lawful restrictions, and they would be required to be applied 
by the appropriate law enforcement official when appropriate, 
yes.
    Senator Leahy. And the conduct described, based on the 
description, would be sexual assault?
    Senator Sessions. Well, the confusion about the question 
was a hypothetical question, and it related to what was said on 
the tape. I did not remember at the time whether this was 
suggested to be an unaccepted, unwanted----
    Senator Leahy. Let us----
    Senator Sessions. That would certainly meet the definition. 
If that is what the tape said, then that would be----
    Senator Leahy. My question is very simple: Is grabbing a 
woman by her genitals without consent, is that sexual assault?
    Senator Sessions. Yes.
    Senator Leahy. Thank you.
    Now you were asked earlier about having called the NAACP 
and ACLU un-American. You said that was before you were a 
Senator. But as a Senator you have continued to be hostile to 
them. You have criticized nominees for having what you call 
``ACLU DNA.''
    Now, I remember when Republicans led the Justice 
Department, its Inspector General found the Bush administration 
engaged in unlawful politicized hiring practices. That is the 
Republican administration's own Inspector General. It said the 
Ashcroft Justice Department used a litmus test whether 
applicants would be sufficiently conservative. If they were 
ever in the ACLU, they could not have a job.
    You said in a radio interview, ``Justice has to be saved 
from secular, progressive liberals.''
    All right. Let me ask you a couple simple questions. Are an 
individual's religious beliefs relevant to their employment at 
the Justice Department?
    Senator Sessions. Not unless it is such that they cannot 
perform their duties in an honorable way, consistent with the 
law.
    Senator Leahy. What would be an example of that?
    Senator Sessions. Well, if an individual so strongly 
believed that abortion should be unlawful that they used their 
position to block constitutionally approved abortions, I think 
that would make them not subject to being employed in the 
Department of Justice.
    Senator Leahy. Are you going to have a litmus test at the 
Department of Justice for people who worked at civil rights 
organizations?
    Senator Sessions. No.
    Senator Leahy. Senator Graham mentioned you have long been 
a champion of State's rights. Certainly you and I have had 
enough discussions on that, and I realize those are deeply held 
beliefs. But States have also voted on the issue of marijuana 
and regulation. I believe your own State of Alabama permits the 
use of a derivative of marijuana known as CBD oil, legal in 
Alabama, illegal under Federal law.
    If you are confirmed as the Nation's chief law enforcement 
official, and you know that we have very, very limited Federal 
resources--in fact, we spend about a third of our budget now 
just to keep the prisons open because of mandatory minimums and 
whatnot.
    Would you use our Federal resources to investigate and 
prosecute sick people who are using marijuana in accordance 
with their State laws, but might violate Federal law?
    Senator Sessions. Well, I will not commit to never 
enforcing Federal law, Senator Leahy, but absolutely, it is a 
problem of resources for the Federal Government.
    The Department of Justice under Lynch and Holder set forth 
some policies that they thought were appropriate to define what 
cases should be prosecuted in States that have legalized, at 
least in some fashion, some parts of marijuana----
    Senator Leahy. Do you agree with those guidelines?
    Senator Sessions. I think some of them are truly valuable 
in evaluating cases, but fundamentally, the criticism I think 
that was legitimate is that they may not have been followed. 
Using good judgment about how to handle these cases will be a 
responsibility of mine. I know it will not be an easy decision, 
but I will try to do my duty in a fair and just way.
    Senator Leahy. The only reason I mention it, you have some 
very strong views. You even mandated the death penalty for 
anyone convicted of a second drug trafficking offense, 
including marijuana, even though mandatory death penalties are, 
of course, unconstitutional.
    Senator Sessions. Well, I am not sure under what 
circumstances I said that, but I do not think that sounds like 
something I would normally say. I will be glad to look at it, 
but----
    Senator Leahy. Would you say that is not your view today?
    Senator Sessions. It is not my view today.
    Senator Leahy. Thank you very much.
    Senator Lee. I perked up when he started talking about 
federalism. Of course, everything Senator Leahy said was 
interesting, but the federalism stuff is particularly 
interesting.
    Senator Leahy. I am praising your legislation.
    Senator Lee. Yes, exactly. I appreciated that, too. That 
was great.
    Federalism is an issue that is near and dear to many of us, 
and I know it is important to you. The notion that our Federal 
Government possesses powers that James Madison described as few 
and defined, and those reserved to the States are numerous and 
indefinite.
    We were supposed to be a different legislative body. Our 
Federal Government was always intended as a limited-purpose 
national government, not a general-purpose national government, 
one possessing complete police powers. We have seen a slow but 
steady drift over the last 80 years away from this principle of 
federalism, such that powers exercised at the Federal level 
today could no longer be described as few and defined, but more 
appropriately described as numerous and indefinite.
    In light of the Supremacy Clause in the Constitution, any 
powers we do exercise through the Federal Government are, by 
definition, replaced from the States. In other words, when our 
action conflicts with State action, it is our action that 
prevails in light of the Supremacy Clause. It is one of the 
reasons why federalism needs to be looked out for so carefully. 
One of the reasons why a view that I think both you and I share 
is that U.S. Government officials in all three branches of 
government, whether they wear a black robe or not, are expected 
when they swear an oath to uphold the Constitution, to look out 
for basic structural protections in the Constitution like 
federalism so that we do not have an excessive accumulation of 
power in the hands of the few.
    The Founding Fathers set up this system in which we have 
these structural protections. We have the vertical protection 
we call federalism, which we just described, and the horizontal 
protection we call separation of powers. It says, within the 
Federal Government in order to protect us against the risks 
associated with the excessive accumulation of power in the 
hands of few, we are going to have one branch that makes the 
laws, another branch that enforces the laws, and a third branch 
that interprets the laws.
    As long as we keep each branch within the same lane, the 
people are protected from what happens when one person, or a 
group of people, gets too powerful. But over the last 80 years, 
just as we have seen a deterioration of federalism, we have 
also seen a deterioration of separation of powers.
    You have an interesting set of circumstances with our laws, 
our controlled substances laws concerning marijuana, in that 
for the first time in a very long time, you have seen some 
attention paid to federalism, but in the limited area 
associated with marijuana. In other words, there are Federal 
laws prohibiting the use of marijuana, the sale of marijuana, 
the production of marijuana that apply, regardless of whether a 
State has independently criminal-
ized that drug as every State, until recently, had.
    Then you had some States coming along and decriminalizing 
it, sometimes in the medical context, other times in a broader 
context. The response by the Department of Justice during the 
Obama administration has been interesting, and it has been 
different than it has in other areas. They have been slow to 
recognize principles of federalism elsewhere. They chose to 
recognize it here.
    My question to you is, did the way they responded to that 
federalism concern run afoul of separation of powers? Did the 
Department's approach to this issue that they identified as a 
federalism issue contravene the understanding that we are the 
lawmaking body, the executive branch is the law-enforcing body?
    Senator Sessions. Well, I am not sure I fully understand 
the point of your question, but--you are talking about 
separation of powers within the Federal Government?
    Senator Lee. Yes.
    Senator Sessions. The three branches of Federal Government.
    Senator Lee. Yes.
    Senator Sessions. And how does that implicate the marijuana 
laws?
    Senator Lee. Yes. Are there separation of powers concerns 
arising out of the Department of Justice's current approach to 
State marijuana laws?
    Senator Sessions. Well, I think one obvious concern is that 
the United States Congress has made the possession of marijuana 
in every State and distribution of it an illegal act. If that 
is something that is not desired any longer, Congress should 
pass a law to change the rule. It is not so much the Attorney 
General's job to decide what laws to enforce. We should do our 
job and enforce laws effectively as we are able.
    Senator Lee. Thank you. I would like to get back to 
antitrust issues for a moment. In 2010, you cosponsored some 
legislation that extended the Antitrust Division's leniency 
program and extended it all the way out to 2020. So it was a 
10-year extension at the time, you helped move that through. 
The legislation provided that members of a cartel could receive 
reduced penalties if they reported cartel activity to the 
Department and cooperated with any investigation the Department 
had in connection with that antitrust cartel.
    Now the Antitrust Division within the Department of Justice 
considers this tool ``its most important investigative tool for 
detecting cartel activity,'' because it creates an incentive 
for cartel members to self-report, to come forward, and to 
identify things that the Antitrust Division needs to be aware 
of. So I applaud your leadership in this area because it has 
been very helpful to the enforcement of our antitrust laws of 
the Department.
    I have two questions related to this program looking 
forward: First, given its importance, do you think the program 
should be made permanent; and second, are you open to any other 
ideas that might strengthen the program?
    Senator Sessions. Senator Lee, I would not commit to you 
that I have formed an opinion on that. These are very complex 
areas of the law. I am not a Member of the Antitrust 
Subcommittee as a number of Members of our Committee are and 
have achieved levels of expertise, like Senator Klobuchar, and 
you, and others.
    I would just have to commit to you that I am open to 
hearing the views of this Congress and that Subcommittee, and 
would try to work with you, but I do understand that antitrust 
policy is an important issue for America, and we need to get it 
right, and that would be my goal.
    Senator Lee. Thank you. One important question sometimes 
arises in the antitrust context. It relates to what role the 
Department of Justice should play in communicating with foreign 
authorities, authorities in other countries that deal with 
competition laws, deal with things analogous to our antitrust 
laws in this country. The Department of Justice has typically 
played a leading role, but in recent years it has also allowed 
the Federal Trade Commission, the FTC, to become heavily 
involved.
    To my mind, this raises some potential concerns because the 
FTC is an independent agency as compared to the Department of 
Justice, of course, which is headed by a presidential appointee 
who, with Senate confirmation, serves at the pleasure of the 
President.
    Do you have any opinion on this point, that the Department 
of Justice, which is more accountable to the President, and 
therefore, has some connection to the people, should be more 
actively involved in communicating with foreign antitrust or 
competition authorities?
    Senator Sessions. I really would not attempt to comment 
today on that. I would be glad to hear your thoughts on it. I 
think it can be problematic if U.S. officials encouraged 
foreign officials to join with them to--against an action of a 
private company. They put--could put so much excessive pressure 
on them that they are not able to resist, when they may have a 
lawful basis to resist. But--so these are big issues and you 
have to be sensitive to the power that the Department of 
Justice has, the Antitrust Division has, and make sure that 
there is a principled policy and lawful basis for what is done.
    Senator Lee. Thank you, Senator Sessions. I see our 
Chairman is back. Oh, he is not back.
    Senator Feinstein.
    Senator Feinstein. It is my understanding that Senator 
Durbin has not yet had his second round, and so I would like to 
defer to him.
    Chairman Grassley. Senator--oh, I am sorry.
    Senator Feinstein. I am going to defer to Senator Durbin 
because he somehow got missed.
    Senator Durbin. Thank you very much. I want to thank the 
Chairman and my friend Senator Feinstein.
    This morning, before the Senate Intelligence Committee, 
Director Comey of the FBI was testifying on the question of 
investigating the Russian involvement in this last election and 
he was asked if there was any ongoing investigation about 
contacts between Moscow, the Russians, and any Presidential 
campaigns, and he refused to answer, said he was not going to 
discuss any ongoing investigations publicly.
    I would like to ask you a question related to recusal. You 
stated earlier today that you had made the decision--and you 
have not given us a real background on it--but made the 
decision that you would recuse yourself from any prosecutions 
involving Hillary Clinton or the Clinton campaign and emails.
    Then I understand--I was not present--but Senator 
Blumenthal asked you for some other hypotheticals as to whether 
you would recuse yourself on an emolument question or some 
other things, and you said you would take it on a case-by-case 
basis.
    What if, hypothetical, same as Hillary Clinton, we are 
dealing with an investigation that involves the Trump campaign, 
or anyone in the Trump campaign. Would you recuse yourself as 
Attorney General from that prosecution?
    Senator Sessions. Well, my response to the--to my recusal 
issue was because I had made public comments about it that 
could be construed as having an opinion on the final judgment 
that would have to be rendered. I do not think I made any 
comments on this issue that go to that, but I would review it 
and try to do the right thing as to whether or not it should 
stay within the jurisdiction of the Attorney General or not.
    Senator Durbin. It would strike me that this is an obvious 
case for a special prosecutor if it involves a campaign leading 
to a candidate who selected you as the Attorney General. Would 
not an abundance of caution suggest that you would not want any 
questions raised about your integrity in that type of 
prosecution?
    Senator Sessions. Senator Durbin, I think it would be 
incumbent upon anybody who is holding the office of Attorney 
General at that time to carefully think his way through that to 
seek the advice and to follow the normal or appropriate special 
prosecutor standards, and so I would intend to do that, but I 
have not expressed an opinion on the merits of those issues, to 
my knowledge.
    Senator Durbin. Senator Sessions, there has been a lot of 
controversy about refugees. The United States had a dubious 
record on refugees during World War II, refusing to accept 
Jewish refugees who were then, in some cases, returned to 
Europe and the Holocaust, and perished. After World War II, a 
new policy emerged in the United States, bipartisan policy, and 
the United States became more open--in some cases generous--to 
accepting refugees.
    The numbers--I have heard various numbers, but 650,000 
Cuban refugees who came to the United States during the 
ascendancy of the Castro regime; 125,000 or more Soviet Jews 
accepted in the United States, spared from persecution in the 
Soviet Union; 400,000 from Eastern Europe after World War II; 
400,000 from Vietnam; 150,000 from the former Yugoslavia.
    In the audience today is Omar al-Muqdad. I do not know--if 
he could please stand here. Mr. al-Muqdad is a Syrian refugee. 
His story is a story of a journalist who, for more than a 
decade, publicized human rights abuses by the Assad regime, 
arrested seven times, imprisoned for 2 years. When he refused 
to stop writing after that, the prison guards broke his hands.
    After his release from prison, he continued to write about 
the abuses of the Syrian security forces. When he was again 
pursued by the regime, he fled to Turkey. He was resettled in 
the United States by Catholic Charities after receiving refugee 
status.
    There have been some strong words spoken about Syrian 
refugees. In fact, during the course of the campaign there were 
some who said we should accept none, and many have questioned 
whether we should accept any refugees from anywhere. Despite 
the lengthy vetting process and background checks, some have 
said no refugees, we are finished with that business.
    One of your responsibilities as Attorney General will be 
the involvement of prosecutorial discretion, decisions that 
have to be made about the fate of men like Alton Mills, I 
introduced earlier, who had served 22 years of a life sentence 
for the possession of crack cocaine; the case of Oscar Vasquez, 
a man who was a DREAMer and wanted to serve the United States 
in uniform; and this case involving Omar al-Muqdad.
    The American Bar Association standards say the duty of a 
prosecutor is to seek justice, not merely to convict. It is an 
important function of the prosecutor to seek to reform and 
improve the administration of criminal justice.
    When it comes to cases like these, in your role as the 
leading prosecutor in the United States of America, what is 
your feeling about your discretion to make the decision as to 
whether or not to spare individuals like those I have 
described?
    Senator Sessions. I have been made aware in the last 
several years how this process works. It is really the 
Secretary of State, usually through consultation with the 
President, that decides how many refugees should be admitted to 
the country. There is little Congress can do, other than 
getting into a funding argument with the President, about that.
    So Secretary Kerry met with Members of the Judiciary 
Committee to announce what he planned to do on refugees. That 
would be how it would be decided, and legally the President 
appears to have that power. But it would be my responsibility, 
I think, to make sure that it was exercised within the bounds 
of law.
    Senator Durbin. But you have a responsibility, too. You 
oversee the Office of the Pardon Attorney, who recommends that 
sentences like those of Alton Mills be commuted. You oversee 
the immigration courts, which are responsible for interpreting 
how our Nation's immigration laws apply to DREAMers and 
refugees like Mr. al-Muqdad.
    So this is not another agency, it is the Department of 
Justice, and you will be the leader of that department. You 
will have the authority and prosecutorial discretion. You 
cannot point to Congress and you cannot point to the State 
Department; there is a responsibility within your own 
department.
    Senator Sessions. Well, a refugee is admitted or not 
admitted to the United States on the approval or disapproval by 
the Secretary of State and its consular officials. It is not a 
trial or not a litigation, so that is how that would be 
determined.
    The gentleman from Syria that you mentioned should have--be 
able to make a strong case for his acceptance as a refugee 
because he has been damaged and injured and attacked and at 
risk for his writings, so that would give him a more--proving 
that should give them--put him at a higher level of potential 
acceptance.
    Senator Durbin. Well, you and I can disagree on this one 
point and your authority over immigration courts as Attorney 
General, but I hope that we both agree that there are 
compelling cases of people who are victims around the world, of 
terrorism and war, discrimination and maltreatment, men and 
women, and many of them look to the United States as the last 
possible place for them to find safety and security.
    I hope, after the heated language of this last election 
campaign, that we can come back to some of the standards that 
have guided this Nation since World War II.
    Senator Sessions. Well, we will not end the refugee 
program. I would not favor that. But we do have a 
responsibility to be careful and make sure that those who are 
admitted have been properly vetted and are not a danger.
    Senator Durbin. Thank you.
    Chairman Grassley. Before I--this is what I would like to 
do. The vote has kind of made this a convoluted rounds that we 
are in here. One person has had a third round, we have got one 
person with no round. So this--or not--without his first round. 
And then Senator Sessions would like to take a break.
    So here is what I would like to do, Senator Sessions, if it 
is okay with you. I want to go with Senator Hatch, Senator 
Feinstein for their second rounds, and then Senator Kennedy for 
his first round, and give you a short break at that point. Is 
that okay?
    Senator Sessions. That would be good. Thank you.
    Chairman Grassley. And for the benefit of the rest of you, 
I kind of got lost out of this, but I have got to be here for 
the rest of the meeting, where maybe some of you do not have to 
be. So I will wait and do my second, third, and fourth round 
when everybody else is gone.
    Senator Feinstein. Oh, is that nice!
    Senator Sessions. How many?
    [Laughter.]
    Chairman Grassley. So now it is Senator Hatch.
    Senator Hatch. Senator Sessions, I think you have done a 
terrific job. I have known you all your 20 years. I have 
watched you work diligently on the Judiciary Committee and on 
your other Committees as well. You are an honest, decent man 
and you have tremendous abilities in law enforcement, and you 
have proven it here today and you are showing it here today. It 
is hard for me to understand why anybody would be against you.
    Let me ask just a couple of questions. I want to emphasize 
that you have wide support for your appointment among law 
enforcement, including the National Sheriff's Association, 
National District Attorney's Association, the National 
Association of Police Organizations, the National Association 
of Assistant U.S. Attorneys, National Narcotic Officers 
Association, the Fraternal Order of Police, the Federal Law 
Enforcement Officers Association, the International Union of 
Police Associations, and the Associations of Major County 
Sheriffs and Major City Chiefs of Police. I am not sure I have 
seen anybody that had all that kind of massive support for this 
position.
    Now, I draw attention to this for an important reason. This 
agreement about political--or policy positions are one thing, 
but accusations about your commitment to fairness or 
suggestions that you are not sensitive to race is another.
    Would these law enforcement organizations enthusiastically 
support someone who was biased? We know they would not. Of 
course not. Would they endorse someone who would fail to be 
impartial? Of course not.
    Such accusations, especially without any evidence to 
support them whatsoever, are not simply attacks on Senator 
Sessions, they are also smears against organizations like these 
which have similarly examined the record and found Senator 
Sessions worthy of support. So I am grateful to you for your 
willingness to take this on, knowing that you might be sneered 
by certain organizations. It takes some guts to do this, but we 
all know you have guts and we all know that you believe in what 
you are doing. We all know that you have a tremendous 
integrity, we all know that you have a tremendous intellectual 
ability as well. And even though you and I have disagreed on 
some issues that are important to both of us, you have always 
acted with distinction, and with fairness and decency, and I 
would expect you to do the same thing as Attorney General of 
the United States. One thing I know: you would be giving it 
everything you have, and that is a lot. You have a lot to give.
    Let me just say that this morning one of my Democratic 
colleagues said that the standards for evaluating your 
nomination is whether you will ``enforce the law fairly, 
evenly, without personal bias.'' Now, do you agree that the 
Attorney General has a duty to do that?
    Senator Sessions. That is the core responsibility of the 
Attorney General, absolutely.
    Senator Hatch. I have no doubt, knowing you, that you will 
live up to that. No doubt whatsoever. I think everybody should 
have to agree with that. The real question is how we can be 
confident that you will fulfill that responsibility, and most 
of the questions this morning were about statements you made, 
positions you took, or votes you cast as a Senator on 
legislative issues. Some of these questions suggested that you 
could not enforce a law you had not voted for or that you would 
not enforce a law or policy that you might have questioned or 
personally disagreed with.
    Now, I would personally categorically reject that, and you 
have, too. Am I right?
    Senator Sessions. That is correct.
    Senator Hatch. You are darned right it is.
    Some of my friends would also reject the suggestion that a 
liberal could not be impartial. I think liberals can be 
impartial.
    Senator Sessions. I do, too, Senator Hatch. Some people--I 
do not think it would be hard for me to be impartial and to 
enforce laws that I did not vote for. I just do not think that 
is going to be a--I think I can separate my personal votes, 
maybe years ago, from what my responsibility is today and I 
hope that my colleagues can believe that.
    Senator Hatch. Well, the answer to the question whether you 
can, as Attorney General, enforce the laws fairly evenly and 
without personal bias, it is a resounding yes, you can, and 
anybody who disagrees with that has not been listening, has not 
observed you over the last 20 years, or anytime over the last 
20 years. There is not a shred of evidence from your entire 
record to undermine that conclusion.
    Now, does the fact that you have already served in both the 
executive and legislative branches strengthen even further your 
commitment to the duty of fairness and impartiality? It seems 
to me it does. Am I right?
    Senator Sessions. Well, thank you. Yes, I do believe that I 
have conducted myself according to principles that I think are 
valid and try to be consistent and honest in my evaluation of 
the many complex issues that we have here. Sometimes good 
people can certainly disagree on them.
    Senator Hatch. Well, anybody who knows you knows that that 
is true.
    Now, the Justice Department has a duty to defend, in court, 
the laws enacted by Congress. As a Member of this Committee for 
20 years, you have heard Attorney General nominees profess 
their commitment to fulfill that duty, regardless of politics.
    Now, in my opinion, the Justice Department, under the 
outgoing administration, reneged on its duty to do so in a 
number of respects. In some key instances, they made decisions 
on political rather than legal grounds.
    How important is it for the Justice Department to defend 
Congress' statutes, and will you commit to do so even when, as 
a legislator, you would have opposed those statutes?
    Senator Sessions. Senator Hatch, you have been through 
these issues for many years and I certainly respect your 
judgment, but I do believe that the lawyer for Congress, the 
lawyer for the United States that represents the U.S. 
Government in court, should be the lawyer that defends an act 
lawfully passed in Congress whenever a reasonable defense can 
be found, and I commit to you I will do that.
    Senator Hatch. Well, I believe you and I know that is true, 
and I have a rough time seeing why anybody would find any real 
flaws or fault with your nomination. I just want to personally 
thank you for being willing to go through this, for your 
willingness to be able to do this, and for your integrity that 
you have shown, and exhibited, and demonstrated over the last 
20 years. I can personally testify about you and about what a 
fine, really good person you are.
    And we have differed on some pretty important issues from 
time to time. I have respect for you because you stand up for 
what you believe, however wrong you may have been.
    [Laughter.]
    Senator Sessions. I heard my wife laugh at that.
    [Laughter.]
    Senator Hatch. Well, I have a lot of respect for you and I 
hope that the rest of this proceeding goes really well and that 
we can get you confirmed as soon as possible, because I know 
you will do a terrific job and I am very proud of you for being 
willing to accept this.
    Thanks, Mr. Chairman.
    Senator Sessions. I am honored to have your support, 
Senator Hatch.
    Senator Hatch. Thank you. You have it.
    Chairman Grassley. Senator Feinstein.
    Senator Feinstein. Thanks very much, Mr. Chairman.
    Just to begin, I would like to ask unanimous consent that 
all statements and written testimony sent to the Committee 
concerning Senator Sessions be made part of the record, and I 
have some testimonies and letters.
    Chairman Grassley. Without objection, so ordered.
    [The information referred to appears as submissions for the 
record.]
    Senator Feinstein. Thank you very much.
    Senator Sessions, when I was a small child it was during 
World War II, and my father took me to a racetrack south of San 
Francisco called Tanforan. It had become a detention camp for 
Japanese American citizens. During the length of World War II--
well, thousands of families were held in this compound. We 
checked with CRS who says no Japanese American was ever 
convicted of any sabotage against the United States during that 
period of time.
    Senator Lee, Senator Cruz, and I have tried, together, to 
enact a bill to assure that no American citizen or lawful 
permanent resident detained in the United States can be held 
indefinitely without charge or trial, pursuant to authorization 
of military force.
    So here is the question: Do you believe that the Government 
can, pursuant to a general authorization to use military force, 
indefinitely detain Americans in the United States without 
charge or trial?
    Senator Sessions. Senator Feinstein, that is an important 
question. Classically, the answer is yes. Classically, if you 
captured a German soldier, they could be held until the war 
ended. That was done, I am sure, at the Civil War and most wars 
since.
    Senator Feinstein. I am talking about Americans.
    Senator Sessions. I hear you. So then the question is, we 
are in a war like we have now that has gone on multiple years 
and I would think the principle of law certainly would appear 
to be valid. But as reality dawns on us, and wars might be even 
longer, you know, it is important to discuss those issues. So I 
respect your willingness to think about that and what we should 
do, but in general I do believe--and Senator Graham has argued 
forcefully for many years--that we are in a war and when 
members who--unlike the Japanese who were never proven to be 
associated with a military regime like the Japanese government, 
these individuals would have to be proven to be connected to an 
enemy, a designated enemy of the United States. I probably 
explained more than I should, but that is basically the 
argument and the issue we are facing. I respect your concerns 
and I am sure they will continue to be debated in the future.
    Senator Feinstein. Well, let me just say a few things about 
that. I have served on the Intelligence Committee for 15 years. 
I read all of it. I think I know as much as anybody about what 
is happening in the United States and this is not--these are 
Americans that we are talking about that can be picked up and 
detained and held without benefit----
    Senator Sessions. You are talking about American citizens?
    Senator Feinstein [continuing]. Of trial, indefinitely, and 
that should not be the case.
    Senator Sessions. Well, I understand your point. A citizen 
of the United States has certain important rights. They cannot 
be abrogated. It is absolutely so, they cannot be detained 
without undergoing a habeas review and the Government surely 
has to prove that they are indeed connected sufficiently with 
an enemy action against the United States or they could not be 
detained. And if----
    Senator Feinstein. Well, I appreciate that.
    Let me go on to another subject. You were one of nine 
Senators to vote against the Detainee Treatment Act of 2005. It 
prohibited the imposition of cruel, inhuman, or degrading 
treatment or punishment of any person in the custody or control 
of U.S. personnel. You also voted against an amendment 
sponsored by Senator McCain in the 2016 Defense Authorization 
bill to limit interrogations to the techniques provided by the 
Army Field Manual, which does not include waterboarding.
    Do you agree that the CIA's former enhanced interrogation 
techniques, including waterboarding, are prohibited by this 
provision of law, as now codified at 42 U.S.C. Sec. 2000dd?
    Senator Sessions. It does appear to be clear that the last 
Act, the McCain Amendment, would prohibit waterboarding.
    Senator Feinstein. And you would enforce that?
    Senator Sessions. I would enforce the law, yes.
    Senator Feinstein. Thank you very much.
    Now, my third question is--and this was in The Washington 
Post, a report last night--that you failed to disclose to this 
Committee and to the Office of Government Ethics subsurface 
rights to oil or other minerals on more than 600 acres in your 
home State, some of which, I gather, are adjacent to a Federal 
wildlife preserve.
    Apparently, ``Alabama records show that the Senator leased 
undivided mineral interests to Chief Capital, a Texas firm, in 
2015.'' Do you in fact own these interests?
    Senator Sessions. Senator Feinstein, I believe that is so. 
And the way it happened was that many years ago, at least 50 or 
more years ago, my family ancestors sold some land and reserved 
mineral rights. Later, there was a dam built on the river and a 
desire to take land that was going to be flooded and to add 
additional land for a duck preserve, and they negotiated and 
the family sold land to the Government and retained the mineral 
rights, per the agreement. At least, that is my understanding. 
So by an odd series of events, the properties fell to me. I 
have never reviewed the deeds, I have never known how much land 
is out there that I own mineral rights on, although oil 
companies are pretty good about making sure they contact real 
owners before they drill a well. So you are correct that we 
reported the income on my return as----
    Senator Feinstein. I saw that, $4,000. I saw that.
    Senator Sessions [continuing]. As coming from the property 
that I own and the property where the oil well is. I did not 
note in that report specifically that it was oil income because 
the blank said ``royalties.'' So I would just say this to you, 
this is something I have taken no action on. I have one of the 
simplest, clearest, fairest, financial reports you can see. My 
assets and my wife's assets are almost entirely Vanguard Funds 
and municipal bonds. I own no individual stocks because I want 
to be sure that I do not have conflicts of interest. I want to 
adhere to high standards. We are going to find out what we did 
or did not do and correct it.
    Senator Feinstein. Good. Thank you.
    Chairman Grassley. I welcome brand-new Senator Kennedy, not 
only to this Committee but to the Senate as well.
    Senator Kennedy, you are allowed 10 minutes now.
    Senator Kennedy. Good afternoon, Senator.
    Senator Sessions. Thank you.
    Senator Kennedy. My name is John Kennedy. That is really my 
name.
    [Laughter.]
    Senator Kennedy. Just so you will know, I used to have a 
law partner named Jose Canseco. It caused a lot of confusion 
when we would go to meetings together.
    Senator Sessions. I guess.
    Senator Kennedy. I have been impressed, in preparing for 
the hearings, with the deep support you enjoy from law 
enforcement. In fact, one of my sheriffs from Louisiana--I do 
not know if Greg is still here--Sheriff Greg Champagne, who 
also happens to be a lawyer, came all the way up from Louisiana 
to lobby other Senators on your behalf. And I have noticed that 
a lot of the organizations that are supporting you are 
organizations that have not always agreed with your positions 
on the issues, and that impressed me.
    I just wanted to read you one quick excerpt. This is from a 
statement by the Sergeants Benevolence Association from the 
NYPD, New York, about as far away from Mobile as you can get. 
This is what the letter said: ``As a union representing law 
enforcement officers, over the years the SBA''--that is the 
Sergeants Benevolence Association--``has worked as both an ally 
and a respectful opponent of Senator Sessions. This experience 
has shown us that Senator Sessions is a man of unquestionable 
integrity, devoted to the rule of law and the best interests of 
our Nation. It is for these reasons and many others that we 
believe Senator Sessions is the absolute right choice to serve 
as America's chief law enforcement officer.''
    Now, that impressed me. I would like to know what you 
intend, as Attorney General, to do to further partner with 
State and local law enforcement?
    Senator Sessions. That is so important. The U.S. Attorneys 
throughout the country, as in Louisiana and Alabama, are key 
players in this. All U.S. Attorneys, colleagues, are funded to 
have law enforcement coordinating officers. I had two in my 
small office. We had regular meetings. In the early '80s, this 
is when it started. This is the first time.
    Instead of having a law enforcement plan produced in 
Washington, DC, the U.S. Attorneys were directed to get all the 
Federal agencies and all the State and local agencies to sit 
down and identify what their main threats are and to direct 
their resources to deal with these real threats in that 
district, and they would be different in different districts 
around the country. I sense that that has been eroded somewhat, 
so we need to go back to a lot of that.
    The Department of Justice has great resources for 
identifying tactics and strategies that work on crime. We ought 
to be able to always help the State and local police officers 
have the best data on what works and how to create safer and 
better communities. The Federal Government cannot dictate to 
these agencies. It would be a disaster. They would not accept 
it, number one, and any influence you might have would be 
eliminated. We need to be partners.
    The Federal Government, through its power internationally 
and nationally, can help a local investigative agency solve a 
complex criminal case that they do not have the subpoena power, 
or they do not have--a Louisiana U.S. Attorney or sheriff does 
not have power to have investigations conducted in Texas or 
Denver. So these are the things that are all important. And I 
truly believe from a matter of public policy, we need to see 
the big picture, and we are all in it together. Ninety percent 
of the law officers in America are State and local, and they 
are the ones that are the eyes and ears of law enforcement. So 
I really think, Senator Kennedy, you are correct that we need 
to do this. I think there is a feeling among law enforcement 
that that has not been happening sufficiently, and the fact 
that I think I understand that explains why I have had as much 
strong and enthusiastic support as I have had.
    Senator Kennedy. You know, when a radical Islamist 
terrorist drives a truck into a group of people and kills them, 
we are told that we should not judge all Muslims by the act of 
a few. Now, I agree with that. Do you not think the same rule 
ought to apply when one or two law enforcement officers make a 
mistake, do you not think that same rule ought to apply to all 
the other 99.9 percent law enforcement officials out there who 
just get up every day and go to work and try to protect us?
    Senator Sessions. Well, I really do, and I think those of 
us in high public office do need to be cautious about demeaning 
whole departments and whole groups of people because within 
those--most any department you can find in America, surely most 
of the people are just wonderful servants, public servants 
trying to do the right thing.
    So when we say these things, we can increase risks for 
them. We can make it harder for them to have relationships with 
constituents where they are serving, and actually result in an 
increase in crime and ineffectiveness in law enforcement. So, 
we cannot miss these issues. We cannot make big mistakes like 
we may be making now. So I commit to doing my best as a law 
officer to engender the kind of unity and comprehensive effort, 
State, local, Federal, that will be the most effective engine 
to fight crime and make our community safer.
    Senator Kennedy. In Louisiana, Senator, we believe that 
love is the answer, but we also believe that we have the right 
under the Constitution to own a gun just in case.
    Could you share with me your thoughts on the Second 
Amendment?
    Senator Sessions. Well, I do believe the Second Amendment 
is a personal right. It is a historic right of the American 
people and the Constitution protects it, and explicitly states 
it. It is just as much a part of the Constitution as any of the 
other great rights and liberties that we value. So my record is 
pretty clear on that.
    However, people can forfeit their right to have a gun, and 
it can be a factor in receiving sentences and being prosecuted 
if you carry a gun, for example, during the commission of a 
crime. That can add penalty and convictions to you. I think 
that is a legitimate and responsible restraint on the Second 
Amendment right to keep and bear arms.
    Senator Kennedy. I think they believe this in Alabama too, 
but in Louisiana we also believe that nothing makes it easier 
to resist temptation than a good upbringing, a strong set of 
values, and witnesses. I would like to know your thoughts on 
the Freedom of Information Act.
    Senator Sessions. Well, the Freedom of Information Act is 
law. I would see it is carried out. The policies of the country 
need to be followed.
    Senator Kennedy. I have got one final question. I read the 
Inspector General's report about the Department of Justice. I 
think it came out in about the middle of 2016, last year. The 
Inspector General talked about problems with the Department's 
massive grant programs. The Inspector General said that 
approximately $100 million over the last 5 years went for 
``questionable expenditures'' or funds that ``could have been 
put to better use.'' Now, this is taxpayer money. It did not 
just fall from heaven. We thank heaven for it, but it came out 
of people's pockets.
    I would like to know your thoughts about the IG report if 
you are familiar with it and what you plan to do once you are 
confirmed, and I believe you will be confirmed to help our 
friends at the Justice Department prioritize their spending a 
little bit.
    Senator Sessions. Thank you, Senator Kennedy. That report 
raises real concerns. I believe that any responsible public 
official should recognize that when their own Inspector General 
says that their department is not performing according to high 
standards, they should listen to that report and take action 
and review what is happening and make sure it does not 
continue. The American people have no desire, and they 
absolutely should not have their money sent to Washington and 
then be wasted. We can do a lot more with the money that we 
have--having been Ranking Member of the Budget Committee, I 
know how difficult it is--but one way to get extra money, free 
money, is to use the money you have got wisely for things that 
are valuable.
    Senator Kennedy. Senator, I do not know you well, but I 
followed your career with respect and admiration for a lot of 
years, and I just want to tell you that. You will be a great 
Attorney General. Thank you very much.
    Chairman Grassley. Senator Sessions, you asked for a short 
break. I hope, maybe, 15 minutes will be adequate.
    Senator Sessions. That would be adequate. Absolutely.
    Chairman Grassley. We stand in recess.
    [Whereupon, at 3:57 p.m., the Committee was recessed.]
    [Whereupon, at 4:13 p.m., the Committee reconvened.]
    Chairman Grassley. We will resume with Senator Whitehouse, 
but I was wondering if the staff or Members could give my staff 
some indication of how many people still want to ask questions, 
and it does not matter how many it is, I am going to stay here 
as long as people want to ask questions, because I have not had 
my second round yet, and if I could ascertain that, I would 
appreciate it. I know we have at least one or two Republicans 
that want to.
    Senator Whitehouse, you go ahead.
    Senator Whitehouse. As you know, the Department of Justice 
has at its heart the career, prosecutor, and attorney core that 
staffs it. On social media, conservative bloggers are already 
circulating names of career attorneys in the Department who 
they say should be demoted or reassigned, because of positions 
they argued under Attorneys General Holder and Lynch.
    One commentator for the Heritage Foundation has made the 
comparison to ``filth'' within the Department of Justice and 
suggested that like the Augean Stables, you need to run rivers 
through the Department and wash out the agency from top to 
bottom. And you yourself have criticized Department attorneys 
for being secular. Now that was as recently as November. Now, 
in Rhode Island, we have a long tradition back to Roger 
Williams, of separating church and state and as an Attorney 
General and as a U.S. Attorney, we also have a tradition of 
allowing career attorneys to follow the policy dictates of 
other administrations and not holding the career people 
responsible for that.
    I am wondering how you would react to this. Do you have a 
problem with career attorneys if their private religious 
beliefs are secular ones? Will you support the career attorneys 
against the pressure from these right-wing organizations, 
seeking to, ``wash them out like filth,'' to paraphrase the 
Heritage Foundation?
    Senator Sessions. The Department of Justice is composed 
primarily of career professionals, as you know, Senator 
Whitehouse. You served there ably as United States Attorney, 
and I give them the highest respect. Most of those attorneys 
reach high standards and they are willing to follow lawful 
orders and directions from their superiors, even if they might 
have a different philosophy. I do think that they are often put 
into non-career spots and can then go back to career spots, but 
I do not know how exactly that works.
    I am sure the Obama administration made changes in the 
leadership of the department, they put career people in 
positions that they thought would be most advantageous for them 
to advance the causes they believed in, and that is sort of 
within the rules of the game. But to target people, and to any 
way demean them, if they were fine public servants and they 
were following the law, and carrying out a legitimate policy of 
their supervisors, would be wrong and I think we should respect 
them.
    Senator Whitehouse. Does a secular----
    Senator Sessions [continuing]. And I would do that.
    Senator Whitehouse [continuing]. Attorney have anything to 
fear from an Attorney General Sessions in the Department of 
Justice?
    Senator Sessions. Well, no. And I use that word at the 
90,000-foot level. I am a little concerned that we as a Nation, 
I believe, are reaching a level at which truth is not 
sufficiently respected; that the very ideal, the idea of truth, 
is not believed to be real and that all of life is just a 
matter of your perspective and my perspective, which I think is 
contrary to the American heritage. But we are not a theocracy, 
nobody should be required to believe anything. I shared Thomas 
Jefferson's words on the Memorial over here, ``I have sworn 
upon the altar of God eternal hostility against every form of 
tyranny over the mind of man,'' and I think we should respect 
people's views and not demand any kind of religious test for 
holding office.
    Senator Whitehouse. And a secular person has just as good a 
claim to understanding the truth as a person who is religious, 
correct?
    Senator Sessions. Well, I am not sure. In what method?
    Senator Whitehouse. In the method----
    Senator Sessions [continuing]. Objectively committed to----
    Senator Whitehouse [continuing]. It is that an attorney 
would bring to bear it.
    Senator Sessions. Well, let me just say we are going to 
treat anybody with different views fairly and objectively. And 
the ideal of truth in trying to achieve the right solution to 
me is an important goal of the American jurisprudential system 
and, actually, our legislative system. What is the right thing, 
what is true? Let us act on it and do the right thing.
    Senator Whitehouse. On the subject of what is truth, you 
may----
    Senator Sessions. It is an age-old question.
    Senator Whitehouse [continuing]. You may be in a position 
as Attorney General to either enforce laws, or bring actions 
that relate to the problem of carbon emissions and the changes 
that are taking place, both physically and chemically in our 
atmosphere and oceans, as a result of the flood of carbon 
emissions that we have had. It is the political position of the 
Republican party in the Senate as I have seen it that this is 
not a problem, that we do not need to do anything about it, 
that the facts are not real and that we should all do nothing 
whatsoever. That is the Senate.
    You, as Attorney General of the United States, may be asked 
to make decisions for our Nation that require a factual 
predicate that you determine as the basis for making your 
decision. In making a decision about the facts of climate 
change, to whom will you turn? Will you, for instance, trust 
the military, all of whose branches agree that climate change 
is a serious problem of real import for them? Will you trust 
our national laboratories, all of whom say the same? Will you 
trust our national science agencies? By the way, NASA is 
driving a rover around on the surface of Mars right now. So 
their scientists, I think, are pretty good. I do not think 
there is a single scientific society, I do not think there is a 
single credited university, I do not think there is a single 
nation that denies this basic set of facts. And so, if that 
situation is presented to you and you have to make a decision 
based on the facts, what can give us any assurance that you 
will make those facts based on real facts and real science?
    Senator Sessions. That is a good and fair question and 
honesty and integrity in that process is required and if the 
facts justify a position on one side or the other on a case, I 
would try to utilize those facts in an honest and appropriate 
way. I do not deny that we have global warming. In fact, the 
theory of it always struck me as plausible and it is just a 
question of how much is happening and what the reaction would 
be to it. So that is what I would hope we could see occur.
    Senator Whitehouse. Indeed, I will bet you dollars against 
those lovely Krispy Kreme doughnuts that we have out back that 
if you went down to the University of Alabama and if you talked 
to the people who fish out of Mobile, they would already see 
the changes in the ocean and they would be able to measure the 
pH changes, and they would know that acidification is happening 
and that there is no actual dispute about that, except in the 
politics of Washington, DC.
    Senator Sessions. I recognize the great interest in time 
that you have committed to the issue and I value your opinion.
    Senator Whitehouse. I do come from an ocean State, and we 
do measure the rise in the sea level and we measure the warming 
of Narragansett Bay, and we measure the change in pH. It is 
serious for us, Senator.
    Thank you, my time is expired.
    Senator Sessions. Thank you.
    Chairman Grassley. Now it looks like it will be the Senator 
from Texas, and Senator from Texas, I am going to step out for 
a minute and when your 8 minutes are up, would you call on 
Senator Klobuchar?
    Senator Cruz [presiding]. Sure. Thank you Mr. Chairman.
    Senator Sessions, I want to congratulate you in making it 
through a lengthy hearing and then performing admirably. And I 
think your performance today has reassured this Committee and 
even more importantly, has given comfort to the American people 
that you will be an Attorney General who will faithfully apply 
the law without partiality, without partisan lens, but with 
fidelity to the Constitution and the laws of the United States.
    I also want to do something I do not do very often, which 
is, I want to commend the Democrats on this Committee, for, I 
think, showing admirable restraint. At the beginning of this 
hearing I had concerns that it would turn ugly with accusations 
that do not belong in this hearing. And I think my friends on 
the Democratic side of the aisle have largely restrained from 
going down that road. I think that was the right decision to 
make, but I commend them for that.
    You know, I would note that in the recesses of the 
internet, and in some of the groups that are speaking on this 
nomination, and indeed in the view of some of the protestors 
who have made their voices heard today, there have been racial 
charges raised, and indeed some of the protestors have chanted 
``KKK.'' And you and I have both talked about this a number of 
times. That is one of the easiest charges for someone to make 
when they do not have an argument on the merits, when they do 
not have the facts behind them. And it is a particularly 
hurtful argument that can be directed at someone, particularly 
when it is countered by the facts.
    What I want to focus on principally in this round is 
spending a little bit of time highlighting an aspect of your 
record, which is your involvement in the prosecution of Henry 
Hays, a member of the Ku Klux Klan. Because I suspect it is 
something that very few people watching this hearing have ever 
heard of. And it is striking and, I think, highly revealing, so 
I would like to just walk through some of the facts. I know you 
are very familiar with them, but I suspect some of the folks at 
home watching this hearing may not be.
    In 1981, in Mobile, Alabama, the Ku Klux Klan ordered the 
murder of a random African-American man, Michael Donald. KKK 
members Henry Hays and James ``Tiger'' Knowles abducted 19-
year-old African-American Michael Donald. They beat him, they 
strangled him, they cut his throat, and they hung him from a 
tree. Absolutely shameful and disgraceful.
    You were a U.S. Attorney at the time. Your office, along 
with the FBI, along with the local District Attorney, 
investigated the murder. The Department of Justice attorneys 
Barry Kowalski and Bert Glenn worked on the case. When asked 
about your work on this case, Mr. Glenn testified that, 
``During the entire course of the investigations, he''--meaning 
Sessions--``has provided unqualified support and cooperation to 
us, and independently as an individual who absolutely wanted to 
see that crime solved and prosecuted.'' Is that accurate, 
Senator Sessions?
    Senator Sessions. I think it is, yes. That is exactly what 
I intended to do. It actually occurred before I became a United 
States Attorney. A wrong group of people had been indicted in 
State court that complicated matters. The case was not making 
the kind of progress it needed to make and so we had a 
discussion. And we invited Civil Rights Division attorneys, 
Bert Glenn and Barry Kowalski, both of which were exceptionally 
fine, and along with Assistant Thomas Figures in my office, 
they broke that case. And I thought they deserved a great deal 
of credit. But I was with them, I was in the grand jury with 
them. I called the grand jury at their convenience, whenever 
they wanted to come to the State. I actually used and empaneled 
a special grand jury so they could be called when they desired 
it. It had already been called for another special purpose, but 
we added that to their purpose. And so they had the flexibility 
and it was, I thought, a brilliantly conducted investigation. I 
guess Barry Kowalski was the lead attorney in it.
    Senator Cruz. Now, Bobby Eddy was the chief investigator 
for the Mobile County District Attorney's office. He testified, 
``Without his''--meaning Sessions'--``cooperation, the State 
could not have proceeded against Henry Hays on the capital 
murder charge.'' Chris Galanos, who was the Mobile County 
District Attorney in 1981, stated, ``We needed some horsepower, 
which the Feds, through Jeff Sessions, provided. Specifically 
we needed the investigative power of the FBI and the power of 
the Federal grand jury. I reached out to him''--Sessions--``and 
he responded, `Tell me what you need and you'll have it.' '' 
And indeed, your office prosecuted Hays' accomplice in Federal 
court, where he pleaded guilty. And Mr. Eddy testified that 
Tiger Knowles, the accomplice, pled guilty on a civil rights 
violation and received a life sentence, the highest sentence he 
could receive under Federal law, in Federal prison. And he 
continued to say Henry Hays was tried in State court by Mr. 
Galanos' office and found guilty and sentenced to die in the 
electric chair. And this made Hays the first White man executed 
in Alabama for murdering a Black person since 1913.
    When you were the Attorney General of Alabama, you later 
argued to uphold Hays' death penalty. And in 1997, five months 
after you joined this party as a Senator, Hays died in 
Alabama's electric chair. And I would note not only that, not 
only did you assist in the prosecution of the face of evil, a 
Ku Klux Klan murderer who saw ultimate justice, but as it so 
happened, you also prosecuted Hays' father, KKK Grand Titan 
Bennie Jack Hays, who ordered his son to kill an African 
American and you prosecuted him for attempting to defraud his 
home insurer in order to collect money to pay for his son's 
legal defense. Is that correct?
    Senator Sessions. That is correct.
    Senator Cruz. And beyond that, your office cooperated with 
Morris Dees in the Southern Poverty Law Center to bring a civil 
suit against the KKK, and Mr. Galanos explained, ``After the 
criminal cases were over, the Southern Poverty Law Center took 
the evidence we had developed and gave to them and they sued 
civilly, and got a 7-million-dollar verdict on behalf of Ms. 
Donald. And the 7-million-dollar civil judgment against the KKK 
in Alabama bankrupted the Klan, leading to its demise in the 
State.'' Is that correct?
    Senator Sessions. That is essentially correct, yes. In 
fact, they sold the Klan headquarters to help satisfy the 
judgment.
    Senator Cruz. Well I would say, Senator Sessions, it is 
easy for people reading things on the internet to believe 
whatever is raised, and passions get hot. And I know the 
protestors who stand up and chant ``KKK'' they, in all 
likelihood, believe what they are saying, because they are 
reading and being encouraged on the internet. But I have not 
seen any appointee to the Cabinet, Democrat or Republican, who 
has a record like you do of prosecuting Klansmen, putting them 
on death row, bankrupting them, and putting them out of 
business, and doing so as you had. I will tell you, I admire 
your doing so, and I will issue a challenge to our friends in 
the news media. I noticed every time a protestor jumped up all 
the photographers took pictures of the protestors. I suspect we 
are going to see them in all the papers. I would encourage the 
news media, cover this story. Tell the story on the six o'clock 
news about Jeff Sessions helping prosecute a Klansman who had 
murdered an innocent African-American man, and putting him on 
death row, and bankrupting--helping bankrupt the Klan in 
Alabama. That is a story that needs to be told. And Senator 
Sessions, I thank you for your record, I thank you for your 
service.
    Senator Sessions. Thank you, Senator Cruz, and I would say 
it has been very disappointing and painful to have it suggested 
that I thought the Klan was okay when we did everything 
possible to destroy and defeat and prosecute the Klan members 
who were involved in this crime. And it was a good joint 
effort. I was supportive of it every step of the way and some 
great lawyers worked very hard on it.
    Senator Cruz. Thank you, sir.
    Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Mr. Chairman. 
Senator Sessions, just this week backpage.com announced that it 
was taking down the adult services section of its website. 
Senator Cornyn and I led the bill on the Judiciary Committee, 
you contributed to it, which we appreciate. And then we also 
had work by Senator Portman and Senators McCaskill and Heitkamp 
and others on this issue. We had 48 arrests around the towns of 
New Ulm and Mankato, Minnesota, alone, where Backpage was part 
of the operation and so this was a good result. They took the 
Fifth today in front of Homeland Security while you were 
testifying.
    But I wanted to know what your plans would be. The Justice 
Department finally came out with the national strategy on sex 
trafficking, which was part of our bill. And so it will be in 
your hands if you are confirmed as Attorney General to 
implement it. And could you just give me your thoughts on this 
issue?
    Senator Sessions. Well I am glad that the entire Nation 
seems to be giving priority to this. A lot of great people have 
given real focus to the problem of sex trafficking and the 
degradation and destruction that results from it. So I think it 
would be a firm and important part of the Department of 
Justice's priorities and I would look forward to following up 
on the legislative successes and other things that are 
happening to see if we can make a real impact against this 
abominable practice.
    Senator Klobuchar. I will say, Attorney General Lynch and 
the Deputy Attorney General Yates as former prosecutors like 
yourself, they have worked really hard in this area, so it 
would be worth talking to them about the work they have done as 
well.
    Antitrust. Senator Lee and I have long chaired that 
Committee. We rotate, depending on who is in charge of the 
Senate, as Ranking Member. I care a lot about this. We are in 
the midst of a merger wave. Between 2010 and 2015, the number 
of mergers reported to the Government increased over 50 
percent, from 716 to 1,801, and over the last 18 months we have 
seen substantial mergers in pharmaceutical, agriculture, cable, 
insurance, beer. Recently, across the political spectrum there 
has been a lot of concern about concentration, because, you 
know, you need to have an even playing field if competition is 
going to flourish. And that means that is better for consumers, 
if you have strong competition.
    Will you commit to making vigorous antitrust enforcement a 
priority? Kind of a sideline to that, there is some concern, 
based on some of the statements from the President-elect that 
maybe certain companies or industries could be targeted, 
depending on if they are in favor or not. These are not 
statements that you have made. Could you comment about 
independence of the Attorney General when it comes to 
considering these cases?
    Senator Sessions. The antitrust policies of the United 
States have to be consistent and as clear as possible. As you 
know, that is not always as easy as some people might think. I 
could say with confidence that you and Senator Lee, as leaders 
on the Antitrust Subcommittee, have been more attuned to the 
details and the special issues that are involved in that 
section of the Department of Justice. So we would work 
resolutely on it. I have no hesitation to enforce antitrust 
law. I have no hesitation, if the finding justifies it, to say 
that certain mergers should not occur, and there will not be 
political influence in that process.
    Senator Klobuchar. Thank you. I am going to put a series of 
some other questions on the record. One is on synthetic drugs. 
We are working hard. Senator Grassley and I have long worked on 
this issue with Senator Feinstein and Senator Graham, and we 
have a new bill that we are working on to make it easier to go 
after synthetic drugs, and maybe on the record we could get 
your comments on that.
    Drug courts. Again, one of my top priorities. I think that 
they have worked very well in jurisdictions that are devoted to 
seeing themselves not just as businesses that want to see 
repeat customers, but getting people off of the treadmill of 
crime and drugs.
    And then, a very Minnesota-focused issue. Minnesota was 
just--got a designation called HIDTA, for High-Intensity Drug 
Trafficking Area. A lot of it is based on heroin and some of 
the opioid addictions that we have seen, and somehow it was set 
up so the money came through Wisconsin. If you know anything 
about the Vikings-Packers rivalry, this makes our sheriffs very 
concerned. I thought I would maybe just on the record--again, I 
am not going to get into detail--discuss this with you on the 
record and ask you some questions about making sure we get our 
due for the funding for Minnesota.
    But the last thing I want to talk about was just the 
refugee issue. We have the biggest Somali population in the 
country. Our U.S. Attorney and the Justice Department have done 
an excellent job in taking on some ISIS cases, as well as al-
Shabaab cases, dozens of cases that have been successfully 
prosecuted, and I know that work will continue--I want that 
work to continue.
    We also have--the vast majority of them are law-abiding, an 
important part of our community. And as you know, there has 
been a lot of anti-Muslim rhetoric out there. We had--I heard 
the story in Minneapolis of a family that went out to eat. They 
had lived in our town forever. They had two little kids. They 
go out to eat and this guy walks by and looks at them and says, 
``You four, you go home. You go home to where you came from.'' 
And the little girl looks up at her mom and she says, ``Mom, I 
don't want to go home. You said we could eat out tonight.''
    You think of the words of that innocent child. She only 
knows one home, and that is my State. She only knows one home, 
and that is America. So a big part of the job of the Attorney 
General, to me, is not just enforcing those laws, as we have in 
our State, against terrorist activities, but it is also 
protecting the innocents among us.
    So I wondered if you could close your questions from me by 
commenting about your view of how you would uphold all of our 
Nation's laws, the basic value of religious freedom, but also 
the protection of people from larger crimes than the remark I 
just talked about, but actually bullying and those kinds of 
things, because I just think it has no place in our country.
    Senator Sessions. Thank you. That is an important principle 
that you have touched on, which is the principle that in 
America you are free to exercise your religious beliefs as you 
deem fit, as long as it does not violate established law. So we 
have that provided for in the Constitution. We cannot establish 
a religion and we cannot prohibit free exercise, and I believe 
Americans value that principle and support it and we should 
always hold it high and we should not back away from it, and 
that includes Muslim friends and neighbors, as well as any 
other religion.
    You are right, overwhelmingly, there is not violence and 
radicalism among our Muslim friends and neighbors, and we 
should not ever think that and treat people in a discriminatory 
basis. When people apply to come to the country it is 
appropriate, I believe, to vet them--from countries that may 
have had a history of violence, to be careful about who we 
admit because basically the admission process is a process that 
should serve the national interest. So that is sort of my view 
about it. I believe it is an acceptable and good view and would 
try to carry that out. But the decision about admitting and not 
admitting is really not the Attorney General's decision at all. 
It is the policy of the President and the State Department. And 
so we would just simply make sure, if it is done, it is done in 
a proper fashion and not unlawfully.
    Senator Klobuchar. Thank you.
    And Mr. Chairman, I also have some statistics on 
immigration in response to some of the first exchanges that 
Senator Sessions and I had about what Minnesota--the business/
economic value of immigrants in our community. I will just put 
that on the record later. So, thank you. Thank you.
    Chairman Grassley. Senator Cornyn.
    Senator Cornyn. Thank you, Mr. Chairman.
    Senator Sessions, thanks to Senator Grassley and Senator 
McConnell I now find myself as a Member not only of this 
Committee, but also the Intelligence Committee, for which I am 
grateful. One reason why I thought it was so important for 
another Member of the Senate Judiciary Committee to get on the 
Intelligence Committee is because while the Intelligence 
Committee conducts a lot of the oversight, it is the Judiciary 
Committee that confers the authorities on our intelligence 
officials and law enforcement officials to do what they do.
    My hope is that during this process, where we are coming 
off of a very contentious election, that our colleagues across 
the aisle will join us in making sure that the new President 
has his National Security Cabinet members, at least, confirmed 
on an expedited basis. And of course, I would include the 
office of Attorney General as one of those. As you know, the 
Attorney General and the Department's National Security 
Division work with members of the intelligence community and 
help oversee the collection of foreign intelligence 
information.
    I know earlier Senator Leahy and perhaps Senator Lee asked 
you a little bit about the USA Freedom Act and the National 
Security Agency, but I want to highlight something you are well 
aware of, and that is the sunsetting of Section 702 of the 
Foreign Intelligence Surveillance Act. According to the Privacy 
and Civil Liberties Oversight Board, which Congress 
appropriately appointed to oversee the activities of the 
intelligence community, Section 702, which will expire at the 
end of this year, has been responsible for disrupting more than 
100 known terrorist plots, including the New York subway bomb 
plot in 2009 and other plots outside the United States. As I 
said, if we do not act by the end of the year, that authority 
will expire. I think we are fortunate on the Judiciary 
Committee to also have, in addition to our other colleagues, 
Senator Feinstein, who has until recently served as the Ranking 
Member on the Senate Intelligence Committee, and now of course 
she is Ranking here. I hope she, along with Chairman Grassley, 
will make sure that all of the Committee Members are thoroughly 
briefed and comfortable with the reauthorization of Section 
702, and to make it one of our highest priorities this year.
    In addition to Section 702, as you know, there are other 
legal and policy challenges that you are going to face as the 
next Attorney General. Our national security investigators and 
law enforcement officers are facing incredible challenges, many 
of them technical challenges, like growing encryption of 
communications, whether it is hardware or in the--or software.
    We saw that being relevant to what happened in San 
Bernardino, where the FBI had to pay third parties a 
substantial amount of money to get at the communications 
contained in the telephones of the actors in the San Bernardino 
attacks, or in Garland, in my home State of Texas, where the 
last time the FBI Director came before this Committee said 
there were still a multitude of communications on the devices 
of the two shooters in Garland that they still had not been 
able to get access to. So the FBI Director said this is a part 
of the tradecraft now of terrorists, and he referred to it as 
``going dark.'' Thankfully, Chairman Grassley held a hearing on 
that just this last year. We know there are other statutes, 
including the Electronic Communications Privacy Act, things 
like the Electronic Communications--the so called ECTR fix, 
which would allow the use of national security letters to get 
IP addresses--not content without a warrant, but IP addresses, 
or metadata--which is important to these national security 
investigations.
    I think I know the answer to this, but as Attorney General 
I just would like your verbal commitment here to continue to do 
what you have always done, and that is, put the safety and 
security of the American people first, and you will continue to 
work with us, in a cooperative fashion, to make sure that all 
the needs of all the stakeholders are being met, including the 
brave men and women who defend us each and every day in the 
intelligence and law enforcement community. Will you do that?
    Senator Sessions. I will, Senator Cornyn, and thank you for 
your hard work and leadership on these important issues.
    Senator Cornyn. Let me ask you about the Freedom of 
Information Act. I do not know whether Senator Grassley had a 
chance to ask you about this or not. As you may know, Senator 
Grassley and I are--excuse me--Leahy and I are kind of the odd 
couple on Freedom of Information Act reforms. As a 
conservative, I have always felt that the best antidote to 
abuse or waste is sunlight where possible. You do not have to 
pass another law or another regulation where people change 
their behavior because they know people are watching. And 
Senator Leahy and I have worked closely together to see a 
number of reforms passed and signed into law, many of which I 
know you have supported or consulted with us on. It is not a 
blank slate. Sometimes you have to be careful about disclosing 
information that ought not to be public information, or is law 
enforcement sensitive, or classified, or the like.
    But I just would hope that you would continue to work with 
us, and I am confident you will, but I would just like to get 
your verbal commitment to continue to work with us to make sure 
that the public's right to know is protected. I am not 
suggesting that the public has a right to know everything 
because, frankly, as I have said, classified law enforcement 
sensitive information needs to be protected for important 
policy reasons. But will you continue to work with us to make 
sure that we protect the public's right to know to the extent 
feasible?
    Senator Sessions. I will, Senator Cornyn, and I would value 
your judgment and insight on this important issue. I appreciate 
your work.
    Senator Cornyn. Thank you.
    Thanks, Mr. Chairman.
    Chairman Grassley. Senator Franken.
    Senator Franken. Thank you, Mr. Chairman. Before I move on 
to my questions, I would like to respond very briefly to what 
Senator Cruz said earlier. It is important, in my view, that 
the Members of this Committee get clarity with regard to the 
nominee's record. That is our job and it is important.
    Now, let us be clear: Senator Sessions said in his 
questionnaire that he ``personally handled four civil rights 
cases.'' Some of the lawyers who worked on those cases disputed 
that characterization, and Senator Sessions himself, after his 
questionnaire was in, felt the need to file a supplement in 
which he clarified that he merely provided ``assistance and 
guidance'' to Civil Rights Division attorneys on these four 
cases. Now, if that is a distinction without a difference, I am 
not sure why Senator Sessions felt the need to clarify. But I 
want to move on.
    Senator Sessions, in late November, President-elect Trump 
tweeted, ``In addition to winning the electoral college in a 
landslide, I won the popular vote if you deduct the millions of 
people who voted illegally.'' Now, let us be clear: President-
elect Trump lost the popular vote by more than 2.8 million 
votes, so what he is saying here is that more than 2.8 million 
fraudulent votes were cast. Do you agree with President Trump 
that millions of fraudulent votes were cast in the Presidential 
election?
    Senator Sessions. Senator Franken, I do not know what the 
President-elect meant when he made that comment, or what facts 
he may have had to justify his statement. I would just say that 
every election needs to be managed closely and we need to 
ensure that there is integrity in it, and I do believe we 
regularly have fraudulent activities occur during election 
cycles.
    Senator Franken. Well, the Department of Justice is tasked 
with protecting voting rights and prosecuting fraud, so if 
millions upon millions of fraudulent votes were cast, I would 
imagine that the next Attorney General would be quite concerned 
about that.
    Did the President-elect tell you anything about what caused 
him to come to this conclusion?
    Senator Sessions. I have not talked to him about that in 
any depth, particularly since the election.
    Senator Franken. Uh-huh. So he did not share any evidence 
of voter fraud with you? Because I would imagine, as the man 
who wants--that he wants to make responsible for combatting 
fraud at the ballot box, that he would want to make sure that 
you had all the evidence necessary to take action and to 
protect the vote. So he did not do that, evidently.
    Before I move on, I should note for the record that State 
election and law enforcement officials surveyed in mid-December 
found virtually no credible reports of fraud among the nearly 
138 million votes that were cast, and no States reported 
indications of any widespread fraud. What is truly troubling 
about this, I believe, are these bogus claims of voter fraud. 
They are routinely used to justify voter suppression. Thanks to 
the Supreme Court's disastrously decided Shelby County decision 
which gutted the Voting Rights Act, it is easier than ever 
before for States to make it harder for people to vote.
    Now, Senator Sessions, you have a complicated history with 
the Voting Rights Act. Ten years ago when voting rights was a 
bipartisan issue, you voted to reauthorize the Voting Rights 
Act, everyone did. It passed 98 to nothing. But you have also 
called the Voting Rights Act ``an intrusive piece of 
legislation.'' You have complained that the Act's preclearance 
requirement unfairly targeted certain States, and you said that 
there is ``little present-day evidence that State and local 
officials restrict access to the franchise.'' You said that the 
Voting Rights Act has ``eliminated that discrimination.''
    Well, Senator, after the Shelby County decision, which you 
celebrated, States began testing the limits of what they could 
do, in many cases, citing the risk of so-called voter fraud as 
a justification for their actions. Now, that is what happened 
in North Carolina, for example. Just a few months after Shelby 
County, the State enacted one of the Nation's strictest voter 
ID laws and enacted other restrictions without any evidence. 
The State described these changes as necessary to prevent 
fraud.
    Well, the courts disagreed. North Carolina's restrictions 
were challenged, and in July, the Fourth Circuit found the 
primary purpose of the restrictions was not to fight fraud, but 
to make it harder for Black people to vote. Here is what the 
court said: ``The new provisions target African Americans with 
almost surgical precision. They constitute inept remedies for 
the problems, assertively justifying them, and in fact impose 
cures for problems that did not exist.''
    Senator, do you still believe that there is little present-
day evidence of States restricting access to the franchise? And 
if you do, what do you think the Fourth Circuit got wrong when 
it found that North Carolina targeted Black voters ``with 
almost surgical precision''? Do you accept that North Carolina 
was targeting African-American voters, but not believe that it 
was engaging in discriminatory conduct?
    Senator Sessions. Well, you cannot create laws designed to 
inhibit the right of any class of citizens to vote, and so if 
the Fourth Circuit found that, and there is a factual basis to 
support it, then any law that is passed would be subject to 
being either eliminated or altered. So I support your concern 
that laws of this kind cannot be used for that purpose.
    I do believe, not long ago, that the Supreme Court did 
uphold voter ID laws, but there are ways to do it and ways you 
probably cannot do it. I am not familiar with the details of 
the North Carolina law, but you are correct, any finding that 
there is a racial animus in the passing of a law that would 
restrict voting would render that unsustainable.
    Senator Franken. Now, North Carolina is one of the States 
who would have been covered by preclearance, was it not?
    Senator Sessions. North Carolina would be. Of course----
    Senator Franken. It would have been. So now we are----
    Senator Sessions. I would just suggest that Section 2 
allows all the remedies, and that is what I suppose they filed 
the action under in this case. It is just not a preclearance 
question. That preclearance policy is intrusive, as the Supreme 
Court has said, and I did not mean that in any pejorative way. 
I was asked, do you believe it is intrusive, is that correct? I 
said it is intrusive, but the Voting Rights--I said this in 
1986--but the Voting Rights Act was absolutely essential to 
reverse the problem that we had in the South of systemic voter 
suppression.
    Senator Franken. Mr. Chairman? Mr. Chairman, let me just 
respond to that, please. Okay. Here is the thing.
    Senator Sessions. Well----
    Senator Franken. Okay. Because we had this debate after 
Shelby. Chairman Leahy tried to introduce something, a 
substitute, so that we could have preclearance again, which was 
fought by you. The whole point is the section--Section 2 of the 
Voting Rights Act, you are right. But how many years after 
North Carolina did that? So how many times, how many elections 
were conducted in North Carolina where African-American votes 
were suppressed? That is why you need preclearance. And as soon 
as Shelby came down, you saw Texas, you saw North Carolina go, 
``Oh, good, now we can suppress votes.'' That is the reason you 
have preclearance and that is the reason that you cannot rely 
on the District Court or the Circuit Courts to rule.
    Senator Sessions. Mr. Chairman, I voted a few years ago to 
extend the Voting Rights Act for 25 years. It included 
preclearance in it. We all knew at that time that the Supreme 
Court would probably take up a case before long that would have 
wrestled with the question of whether there is a sufficient 
basis for the extraordinary remedy of requiring only a few 
States in the country to first have permission, even with 
ministerial acts like moving a voting precinct, by the 
Department of Justice.
    The Supreme Court found that that could no longer be 
justified. The Supreme Court decided that we did not have to 
have preclearance. But Section 2 of the Voting Rights Act 
allows these kind of challenges that Senator Franken is talking 
about. That is what was brought in North Carolina, that is what 
is being litigated today, and the court there did in fact find 
that the voter ID law was improper, as I understand it. So I 
believe we have proceeded in a lawful fashion, and I did feel 
in one sense that it was a good feeling that the Supreme Court 
had concluded that there had been substantial improvement in 
our area of the country as to voting rights, sufficiently so 
that Section 5 could no longer be justified. But I voted for 
it.
    Senator Franken. Thank you, Mr. Chairman, for your 
indulgence. As Justice Ginsberg said, an umbrella means you do 
not get wet when it is raining and you do not take the umbrella 
away.
    Chairman Grassley. I will put in the record a letter that I 
just today received in support of Senator Sessions' nomination 
from the National Shooting Sports Foundation. Senator Sasse. 
Without objection, I should say.
    [The letter appears as a submission for the record.]
    Senator Sasse. Thank you, Mr. Chairman.
    Senator Sessions, I would like to talk a little bit about 
the Sarah Root case. I know that you and I have discussed it 
briefly last summer. Sarah Root was a woman who was killed a 
year ago this month in Omaha. She had just graduated from 
college, and she was killed by a drunken street racer. Omaha 
authorities believed that this guy had been engaged in similar 
activity many times in the past. He was an illegal immigrant. 
He ran into her car, killed her right after her graduation. He 
was detained by Omaha police. They ultimately notified the 
Department of Homeland Security this guy is a flight risk. He 
was able to post a fairly insignificant bond and he 
disappeared. The Department of Homeland Security did nothing to 
detain the guy, despite the fact that the Douglas County 
sheriff and the Omaha Police Department asked that he be 
detained. The Obama administration determined that it was not 
an enforcement priority.
    I do not want to hold you to specifics on this case here, 
but I want to get your pledge in this context. I want to hear 
you talk generally about the coordination between State and 
local enforcement on illegal immigration activities, and 
particularly in cases where serious crimes have been committed.
    But I wonder if you would pledge now that if I send you a 
letter the day after you are confirmed, would you give 
expeditious attention to responding with some of these details 
about how enforcement priorities are set inside the Federal 
Government?
    Senator Sessions. Thank you, Senator Sasse. I certainly 
will. It does represent unjustifiable failures that we are 
seeing too often in our system today.
    Senator Sasse. Do you have any top-line thoughts on the way 
local and State officials interact with Federal officials on 
immigration cases?
    Senator Sessions. Well, the immigration enforcement 
procedures, the courts have held, are exclusively the power of 
the Federal Government. But it is also clear that a State 
official has the right to arrest somebody for their offense of 
crossing the border illegally. They have the right to arrest 
people who have entered the country illegally or repeatedly 
entered the country illegally for any kind of offense, 
including that of illegal reentry. The cooperative system 
should work in a way whereby the Federal Government then 
evaluates whether or not it wants to put a hold on in order not 
to release that person until they can take them and see them be 
deported.
    It is failing in a whole number of ways. You have got the 
sanctuary cities that refuse to tell Homeland Security they 
have got somebody that has committed a serious crime so they 
can be deported. They refuse to honor detainers. On the other 
side, we have got Homeland Security too often having standards 
or failing to follow up on serious offenses of people who 
should be deported. So in both aspects, I think, Senator Sasse, 
we can do much better. This country has every right to deport 
persons who are here unlawfully, who violate our criminal laws 
in some other aspect, and they should indeed be promptly 
deported.
    Senator Sasse. Thank you. We will follow up with a letter, 
because this guy, Edwin Mejia, who killed Sarah Root, it was 
obvious to everybody engaged locally, lots of law enforcement 
and the family whose daughter was killed, that this guy was a 
flight risk and everyone was screaming to the Feds, please do 
not let this guy disappear before he can stand trial. He is now 
on the Top Ten Most Wanted list, and nobody thinks he is ever 
going to be found. Everybody believes he left the country.
    This kind of case is not an isolated case, it is a kind of 
hand-off between Federal and local law enforcement that could 
happen repeatedly if you do not have a Federal Government that 
has any clear policy. So we would like to--so I would like to 
send you a letter, right after your confirmation, asking for 
clarity about how enforcement discretion and enforcement 
actions are prioritized.
    Senator Sessions. And Senator Sasse, I would note that 
fundamentally that would be a Homeland Security issue 
initially, and they need to set the standards of what they 
should and should not do. And I would think that General Kelly 
would be quite willing to also talk with you about it, as will 
I.
    Senator Sasse. I will likely be addressing the letter to 
both you and General Kelly, so thank you.
    A completely different line of questioning. This morning, 
you were asked some hard and appropriate questions about the 
responsibility of a chief law enforcement officer for the 
Federal Government. When you have--if there are cases where 
there might be a conflict between your oath of office to the 
Constitution of limited government and a separation of 
executive and legislative authorities and the people that you 
report to when you work inside an administration, you said in 
the course of that answer that there could ultimately be cases 
where someone might have to resign because they were being 
forced to do something that conflicted with their oath.
    I wonder if you could unpack that a little bit and talk 
about, you know, the Justice Department's responsibilities and 
Attorneys General--Attorneys General past--over the past few 
decades. Can you name instances where a resignation might be in 
order and what kinds of lines would you envision being crossed, 
and ways that you as the Attorney General might push back on an 
administration if asked to do things that you regarded as 
inconsistent with your oath to the Constitution?
    Senator Sessions. It would be difficult to speculate on 
that. We saw what you are alluding to during the Nixon 
administration. But there could clearly be a circumstance in 
which there is such a relationship breach that an Attorney 
General would not be an effective member of a President's 
administration. Maybe the Chief Executive could even be correct 
and the Attorney General could be wrong. But the Attorney 
General's duty is to give the best judgment that the Attorney 
General can give, and, therefore, if it is rejected on a very 
fundamental area, then that causes great concern. Maybe in 
another area of less importance, you could afford to disagree. 
But I just think that that result should be very rare, has not 
happened very often in the history of this country. Actually, I 
only know of one. And, therefore, the reason is that usually 
the Chief Executive--and I would expect with President Trump--
that when confronted--or advised that certain policies are not 
acceptable, he would accept that advice. I am confident that he 
would. But you raise a hypothetical, and I have at least given 
you my thoughts about it.
    Senator Sasse. Just to conclude, because I am inside my 
last minute, but going back to the connection between this 
question and the OLC line of questioning that Senator Lee posed 
this morning, if a head of OLC, if the Assistant Attorney 
General from OLC was coming to you and saying, ``I have been 
asked to try to justify a certain position, I have been asked 
to write a memo to support this position, and I do not think we 
can get there, I do not think that the Department of Justice's 
considered wisdom and insight into the law is that we can 
ultimately write the memo that will authorize certain 
actions,'' how do you as the Attorney General envision that 
conversation going? Just tell us the parts between an OLC, an 
Attorney General's office, and the White House?
    Senator Sessions. Well, Attorney General Mukasey, who I 
think is still here--yes, and I am honored to have him here 
today. He issued a memorandum about how the communications 
could be effectively carried out, and it restricted 
communications from the political officials to the Justice 
Department in a way that guaranteed integrity. But there is 
nothing wrong, as I understand it, if it goes through the 
proper chain of command that a request for an OLC opinion on a 
certain subject--there is nothing wrong with the White House 
asking for that. Indeed, you want that. You do not want the 
White House acting unadvised. You want it to seek legal advice. 
And, generally, historically things get sort of worked out.
    If the OLC comes back and says, ``Mr. President, you can do 
this, but you cannot do it this way, maybe you can do it that 
way, maybe it will not give you everything you want, but that 
is safe, that is legal, that is within the realm of action that 
the President can take, this we believe is not.'' And, usually, 
an Attorney General has the confidence of the President, and 
the President knows that he or she is giving him the best 
advice, advising him of what he can and cannot do. And you need 
the best lawyers, and you need to be very careful because these 
things set precedents. They also can result in lawsuits and all 
kinds of controversy that should not happen as a result of a 
bad OLC opinion.
    Senator Sasse. Thank you. The stewardship of the integrity 
of that office is critically important. Thank you for your 
forthrightness.
    Chairman Grassley. Senator Coons.
    Senator Coons. Thank you, Chairman Grassley, Senator 
Sessions.
    Senator Sessions. Thank you, Senator Coons.
    Senator Coons. To return to an issue a number of Senators 
asked about before, but I just want to get clarity about a 
particular concern I had. The intelligence community has issued 
a unanimous opinion with high confidence that at the highest 
levels, the Russian Government engaged in an organized cyber 
attack that was designed to influence the American elections, 
and it is, as you have mentioned before, emblematic of the 
kinds of threats that the United States faces, whether it is 
China stealing our intellectual property or hacks into our 
Federal database that affects a lot of Federal workers or in 
this case a direct attack on democracy. And you mentioned in 
response to a previous question you have not been fully briefed 
on this. But there is a bipartisan bill that has been 
introduced to strengthen and sustain sanctions against Russia 
for this attack on our democracy. Is that something you would 
support?
    Senator Sessions. That is something that is appropriate for 
Congress and the Chief Executive to consider. In other words, 
how do you respond to what is believed to be a cyber attack 
from a major nation? It is difficult just to say, well, we are 
going to prosecute the head of the KGB or some group that has 
participated in it--no longer the KGB, of course. So in many 
ways, the political response, the international foreign policy 
response, may be the only recourse. And it would help in that 
regard that more clarity be established, which, Senator Coons, 
you probably understand more than I the discussions about 
having the world know that if you do X to us, you can expect we 
are going to do Y to you.
    Senator Coons. Well, I think this bipartisan bill is 
designed to be a forceful response to provide predictable 
preemption of other countries that might believe that they 
could engage in a successful cyber attack to influence future 
elections, whether at the Federal or local level. So I urge you 
to get briefed up on it, as all Senators can now, and to have a 
clear public stance on it.
    Let me move to immigration, if I might. Alabama had a State 
statute that enforced its schools to check students' 
immigration status before allowing them to enroll in school. 
Are you concerned at all that that statute might target 
innocent children and discourage school attendance for 
juveniles?
    Senator Sessions. First, I had no involvement in that 
statute. Second, I believe the Court struck that statute down. 
I am not sure.
    Senator Coons. I believe that is correct.
    Senator Sessions. Some of the act was declared improper, 
and some not. What was your question exactly?
    Senator Coons. Well, I will follow up, if I could. There 
was a statute in Alabama that was designed to require teachers, 
school administrators to check the immigration status of 
students before enrolling them. And I believe at that point 5 
years ago, you made a public statement that we have allowed a 
sad situation for decades where large numbers of people are in 
this country illegally, and it is going to have unpleasant and 
unfortunate consequences.
    Some took that to mean that you felt that it was an 
unfortunate consequence but appropriate that children who were 
brought here illegally by their parents could be denied access 
to education.
    Senator Sessions. But they cannot be denied access to 
education. The courts have decided that, as I understand it. 
The question is: Could you even ask if you are lawfully in the 
country or not? And I do not know what the law is on that 
subject.
    But what I was getting at was that this is a continual 
problem and will continue to be a problem if we do not end the 
lawlessness. I mean, you would rather have children of 
immigrants here that came lawfully rather than unlawfully. It 
creates a problem that we do not need to have, and I believe it 
is within our grasp to fix, and I believe people of good will 
will support that. And we need to get that done. A lot of 
problems in our country will be fixed and a lot of our ability 
to create a more harmonious system in the future could become 
possible once this illegal system is fixed.
    Senator Coons. Well, as you know, Senator, on this 
Committee together, many of us worked, put great effort into 
crafting a bill that ultimately passed the Senate by a strong 
bipartisan margin, would have invested heavily in securing the 
border, and addressed a lot of unresolved issues in 
immigration. But my recollection was you did not support that 
bill. It is my hope that we can find a bill, as you say, that 
you could support.
    Let me move to another point. We worked together to restore 
funding to the Federal Public Defenders Service when it was cut 
by sequestration, and I think that is because we both agree 
that outcomes are more fair when there is effective 
representation on both sides. One of the amendments I offered 
to that immigration bill would have provided counsel to 
children who were applying for refugee status because they were 
fleeing violence in their home countries in U.S. immigration 
proceedings. Is that something you would support?
    Senator Sessions. Senator Coons, as I understand it, that 
is the law, that you cannot provide lawyers to illegal entrants 
into the country, and I do not believe it distinguishes between 
minors and adults. But I may be wrong about that. I presume 
that is why you have offered legislation to that effect, to 
change established law. But, in general, I do not believe we 
can afford nor should we undertake to provide free lawyers for 
everybody that enters the country unlawfully. I think that 
would be a massive undertaking.
    So you are talking about children specifically. I 
understand that. I think that is a matter----
    Senator Coons. Specifically, those who are applying for 
asylum.
    Senator Sessions [continuing]. That Congress would need to 
decide what to do about it.
    Senator Coons. Let me ask you another question, if I might. 
There was a lot of discussion in the course of the campaign--it 
was a very vigorous campaign--about the role of immigrants and, 
in particular, Muslims in this country. And I just want to make 
sure I have understood this. You believe it is improper for the 
Government to discriminate based solely on a person's religion, 
correct?
    Senator Sessions. That is incorrect. I believe that 
religion, as practiced by and understood by an individual, 
could make that individual subject to being denied admission if 
that individual's practice of their religion would present a 
threat to the country. So we have no requirement to admit 
somebody who claims to be religious who would present a threat 
to the United States, and I strongly think we have every right 
to inquire into those kind of radical and dangerous ideas that 
some might----
    Senator Coons. So there are about 3 million Muslims in the 
United States today. There have been Muslims in America since 
its founding. Thomas Jefferson had a copy of the Koran. Would 
you support a national registry of Muslims? And what sort of 
surveillance of mosques do you think would be appropriate 
within the constraints of civil liberties and respect for free 
exercise?
    Senator Sessions. I would not favor a registry of Muslims 
in the United States. No, I would not. And I think we should 
avoid surveillance of religious institutions unless there is a 
basis to believe that dangerous or threatening illegal activity 
could be carried on there. I am not aware that there is a legal 
prohibition on that under current law.
    Senator Coons. Let me ask a last question, if I might. As 
Alabama's Attorney General--this is back in 1996--there was a 
conference planned at the University of Alabama, and this was 
for LGBT students, a conference to talk about a wide range of 
issues, from health to status in society, for the LGBT 
community. And based on a State law, you sought to prevent that 
conference from happening. And a Federal district court held 
that the existing State statute, Alabama State statute, that 
prevented ``gatherings in public buildings for the advocacy of 
sodomy and sexual misconduct''--I am quoting--the district 
court held that that clearly violated the First Amendment, the 
free speech rights of students to gather and talk about their 
lives. And you publicly announced that you intended to do 
everything you could to stop that conference and I believe 
sought an injunction, which was later denied, and the Eleventh 
Circuit later held that this law was unconstitutional on its 
face.
    Would you think, looking back on this now, given your 
statement earlier that you understand the needs for justice of 
the LGBTQ community, that it was a poor use of State resources 
to defend a law that was so facially unconstitutional?
    Senator Sessions. Senator Coons, that litigation started in 
another university before I became Attorney General. It was 
going on for about a year, and I believe the litigation arose 
from the group filing a declaratory judgment against the law, 
and as Attorney General, I felt I should attempt to defend the 
law. And the court ruled against it. It would have been better 
if we had not passed a law. It would have been better if the 
controversy had not occurred.
    Senator Coons. Thank you.
    Chairman Grassley. Before I go to Senator Crapo, I have a 
letter here from a former colleague, Senator Lieberman of 
Connecticut, and in that letter he makes an important point. 
There are two sentences I would like to repeat: ``Do I agree 
with everything he''--meaning Senator Sessions--``has ever said 
or done? Of course not. But I do not agree with everything 
anyone I know has ever said and done, including myself. If I 
were in the Senate today, I would vote aye on his nomination.''
    I ask consent to put that in the record.
    [The letter appears as a submission for the record.]
    Chairman Grassley. Senator Crapo.
    Senator Crapo. Thank you, Mr. Chairman.
    Senator Sessions, one issue that has been gone over a lot 
today which I am going to return to is the question of the rule 
of law and whether you would honor it. Many times an 
administration will not agree with a particular statute, even 
though the language and intent of Congress are crystal clear. 
And, in addition, many times the individual who has been 
appointed to enforce the laws does not personally agree with a 
law that is on the books. Yet, as Attorney General, it will be 
your job, as you have already indicated, to enforce and defend 
the laws as written by the legislative branch, regardless of 
your own personal philosophical views. And I know that you have 
done this. Let me talk about a few examples.
    Even though you support the death penalty, you agreed to 
drop the death sentence of a defendant when you determined that 
the aggravating circumstances standard in the statute for 
applying the death penalty did not apply to their particular 
convicted double murder.
    Even though you had supported a Republican Governor when 
you were Alabama's Attorney General, when this Governor 
violated the ethics laws, you agreed and argued to uphold his 
conviction.
    Again, when you were the Alabama Attorney General, you 
declined to prosecute a former Alabama insurance commissioner 
who was a Democrat, even though you received criticism for 
this. You did not prosecute because you believed there was 
actually a criminal--there was not actually a criminal 
violation.
    You also prosecuted the Alabama Republican Party Vice 
Chairman even though you are from the same party. So it seems 
to me that your history shows that you can make those kinds of 
judgment calls and do what the job demands.
    I already know the answer to this question because I have 
seen it in your record and because I have known and worked with 
you for a number of years, but I ask anyway, again: If you are 
confirmed, will you commit to enforce and defend the laws and 
the Constitution of the United States, regardless of your 
personal and philosophical views on the matter?
    Senator Sessions. I will, Senator Crapo. And I would note 
on the death penalty case, my appellate lawyers gave a little 
briefing of the cases that were coming up, and they said, ``We 
will be defending this death case, but we are probably going to 
lose.'' I said, ``Why are we going to lose?'' And they said, 
``It did not have the aggravating factor you needed to carry 
out a death penalty.'' And I said, ``We cannot go before the 
Supreme Court and argue for a death penalty if it does not meet 
the standard for a death penalty.'' To which the lawyers said, 
``Well, the local people are really fired up about it, and we 
usually just do what they want and let the Court decide.'' And 
I said, ``Well, no, we should not do that.''
    Well, that turned out to be an easy decision to make that 
day. But when I was running for the United States Senate, maybe 
a year later, it became one of the biggest ads and biggest 
attacks on me that I had failed to defend the jury conviction 
for murder in this county. But you just have to do the right 
thing, and some of these others cases reflect the same thing.
    Indeed, that case was taken by the Governor's team to the 
State D.A. who prosecuted the case and convicted the man, but 
it was reversed on appeal. The Court of Appeals found that he 
did not commit a crime, just like we had concluded originally. 
So these are tough calls. Sometimes I have not always made them 
right. But I do believe you have to put the law first, Senator 
Crapo, and I have tried to do that, tried to teach my people 
that. And none of us are perfect, but we should strive to get 
it right every time.
    Senator Crapo. Well, thank you, Jeff. And I knew that 
answer, as I said, before I asked the question. But one of the 
other Senators here today said that it is important to get your 
record out, and I think it is important to get your record 
correctly understood, and I think that there unfortunately is 
too much inaccurate reporting about your record.
    Another instance in that context: As you know, I am the 
Republican sponsor of the Violence Against Women Act that we 
passed recently here in the U.S. Senate and the Congress. You 
have been criticized for not supporting that act, but I want to 
give you a chance again to correct the record and to fully 
state the record. If I understand it right, you voted for the 
original and supported the reauthorization of that act at least 
twice, and that your objection to the act that did pass this 
last time, the reauthorization, was not at all based on the 
question of whether to have the statute in place. It was 
instead based on an issue with regard to jurisdiction on Tribal 
lands and other related matters.
    Could you again restate your position on the issue?
    Senator Sessions. Well, thank you, Senator Crapo. And, you 
know, I came here as a lawyer, tried to conduct myself 
properly, and consider what some might consider legal 
technicalities but I think are pretty important. The bill, as I 
understood it, was controversial primarily because of this 
situation in which a non-Tribal member could be tried in a 
Tribal court, which apparently, I think it is fair to say, is 
not constructed in a way that is consistent with the 
Constitution, and in a way that we have never done before.
    And so eight of the nine Republicans on the Judiciary 
Committee concluded that this was not appropriate. So by voting 
against that version of the Violence Against Women Act, if it 
had failed, we would not then, I am confident, have had a bill. 
We would have been able to pass a Violence Against Women Act 
that did not have that provision in it. So that is sort of 
where we were in the political process, and one of the bad 
things about modern American politics is if you take that 
position, you are not portrayed as being wrong on the Tribal 
issue; you are portrayed as being against a bill that would 
protect women from violence. And I think that is unfair, and 
thank you for giving me the chance to respond.
    Senator Crapo. Well, thank you, and I appreciate that, and 
I can again confirm because, as I said, I am the Republican 
sponsor of that bill, and that description you have given is 
exactly one of just a couple issues which were being seriously 
litigated, if you will, here, which we were trying to resolve. 
And those of you who took that position, again, were not in any 
way objecting to the act. You had multiple times before 
supported it, and you were trying to help resolve one specific 
issue on the bill. And so I just wanted to clarify that with 
you and, again, get the record straight about where you stand 
on the issue.
    I see my time is pretty much gone, Mr. Chairman. I will not 
go to my next question.
    Chairman Grassley. Before I call on Senator Blumenthal, out 
of consideration for you, I want to explain what I think we 
have left here. And if you need a break, tell me.
    We have got two Democrats and two Republicans to do a 
second round besides the Chairman, but I am going to wait until 
later to do my second round. We have got two Democrats, I have 
been told, at least, who want a third round. And so what I 
would like to do is, first of all, if you need a break, we will 
take a break whenever you say so now. And in the meantime, I 
would like to have my colleagues take into consideration 
something I want to do. I want everybody to get over here that 
wants to ask questions, and I am not going to take up anybody's 
time until everybody else is done. And then I want to take 
about maybe 15 or 20 minutes of your time to do the equivalent 
of a couple rounds with questions I have not asked yet. So what 
is your desire?
    Senator Sessions. I am ready to go.
    Chairman Grassley. Okay. Senator----
    Senator Sessions. I may need a break at some point.
    Chairman Grassley. Well, you just say when you want to take 
a break.
    Senator Sessions. Thank you. Thank you, Mr. Chairman.
    Chairman Grassley. Senator Blumenthal.
    Senator Blumenthal. Thanks, Mr. Chairman. Thank you, 
Senator Sessions.
    I was pleased to hear you disavow and denounce Operation 
Rescue in response to my last questions. I want to ask about a 
couple of other groups and individuals.
    In 2003, at an event called ``Restoration Weekend,'' you 
gave a speech praising a man named David Horowitz as ``a man I 
admire.'' David Horowitz has said, among other things, that 
``all the major Muslim organizations in America are connected 
to the Muslim Brotherhood,'' and ``80 percent of the mosques 
are filled with hate against Jews and Americans.'' He has also 
made a number of statements about African Americans, as in, 
``Too many Blacks are in prison because too many Blacks commit 
crimes.'' You praised him as ``a man I admire.''
    That statement was omitted from your response to the 
Committee. Did you omit it because you were embarrassed about 
praising David Horowitz?
    Senator Sessions. No, and I did not know David Horowitz had 
made those comments. I read his brilliant book--what is the 
name of it? I have a hard time remembering. But it was about 
his transformation, having grown up in, as he described it, a 
``communist family.'' He was editor of Ramparts magazine, the 
radical magazine, and I believe ``Radical Son'' was the name of 
his book. And it was a really powerful and moving story of how 
he moved from the unprincipled totalitarian radical left to a 
more traditional American person.
    Senator Blumenthal. I find it----
    Senator Sessions. He has written a number of other books 
and I have read, I think, one of them. But he is a most 
brilliant individual and has a remarkable story. I am not aware 
of everything he has ever said or not.
    Senator Blumenthal. Well, these statements have been 
reported publicly repeatedly over many years. You first came to 
know him in 2003. In fact, you received an award from the David 
Horowitz Freedom Center in 2014. You are unaware of any of the 
apparently racist comments that he made over----
    Senator Sessions. I am not aware of those comments, and I 
do not believe David Horowitz is a racist or a person that 
would treat anyone improperly, at least to my knowledge. And he 
did give me----
    Senator Blumenthal. Well, let me just----
    Senator Sessions. The award he gave me was the Annie 
something Johnson Award, and that was the lady that went over 
Niagara Falls in a barrel. That is the award that I received.
    [Laughter.]
    Senator Blumenthal. Let me ask you about another group 
which also you left out of your questionnaire, a group that the 
Southern Poverty Law Center, cited earlier by Senator Cruz, 
listed as a hate group. And you received from the Federation 
for Fair Immigration Reform an award known as the Franklin 
Society Award. The founder of that group has said, ``I have 
come to the point of view that for European-American society 
and culture to persist requires a European-American majority, 
and a clear one at that.'' He said also, ``Too much diversity 
leads to divisiveness and conflict.'' The founder, John Tanton, 
also through his political action committee, contributed twice 
to your campaigns in 2008 and 2014, $1,000 in each donation.
    Will you denounce those statements and disavow that award 
and that support from that organization?
    Senator Sessions. I do not accept that statement. I believe 
the United States should have an immigration policy that is 
fair and objective and gives people from all over the world the 
right to apply. And that we should give preference to people 
who have the ability to be prosperous and succeed in America 
and can improve their lives and improve the United States of 
America. And that is sort of my view of it. I do not accept 
that kind of language----
    Senator Blumenthal. Will you return the award----
    Senator Sessions [continuing]. It would be contrary to my 
understanding of the American vision of life.
    Senator Blumenthal. Will you return the award?
    Senator Sessions. Well, I do not know that I have to. I do 
not know whether he had any involvement in choosing the award 
or not. Presumably, the recipient of the award is chosen based 
on some contribution or criteria, but I was not involved in 
that decision.
    Senator Blumenthal. This award similarly was left out of 
your response to the questionnaire, and I guess the question, 
Senator Sessions, is: How can Americans have confidence that 
you are going to enforce anti-discrimination laws if you have 
accepted awards from these kinds of groups and associated with 
these kinds of individuals and you will not return the awards?
    Senator Sessions. Well, first of all, I do not know that I 
defer to the Southern Poverty Law Center as the final authority 
on who is a radical group. So I would first challenge that. 
They acknowledged publicly, and have in the last few weeks, 
that I was a strong assister to them in prosecuting the Klan, 
but they said they oppose me because of their views on 
immigration. Well, I believe my views on immigration are 
correct, just, decent, and right. Somebody else can disagree, 
but that is what I think. I do not----
    Senator Blumenthal. Would you also disavow support from 
Frank Gaffney at the Center for Security Policy, who gave you 
an award in August 2015, similarly having made statements about 
Muslims and supporting your candidacy for Attorney General?
    Senator Sessions. Well, they chose to give me the award. 
They did not tell me what they gave it to me for. And I do not 
adopt everything that that center would support, I do not 
suppose. I am pretty independent about those things. I would 
acknowledge----
    Senator Blumenthal. But you can understand----
    Senator Sessions [continuing]. That Ronald Reagan, Dick 
Cheney, Joe Lieberman also have received that award from that 
institution.
    Senator Blumenthal. Well, he has not been nominated to be 
Attorney General.
    Senator Sessions. Well, he has not. But he ran for Vice 
President on your party's ticket.
    Senator Blumenthal. And the people of the United States 
might be forgiving for including that the kinds of attitudes 
and the zealousness--or lack of it--that you bring to 
enforcement of anti-discrimination laws might be reflected in 
your acceptance of awards from these organizations, your 
association with these kinds of individuals. So, I am giving 
you the opportunity to completely repudiate and return those 
awards.
    Senator Sessions. Senator Blumenthal, I just feel like the 
reason I was pushing back is because I do not feel like it is 
right to judge me and require that I give back an award if I do 
not agree with every policy of an organization that gave the 
award. I was honored to be given awards.
    A lot of prominent people, I am sure, have received awards 
from either one of these groups. And David Horowitz is a 
brilliant writer and I think has contributed to the policy 
debate. Do I agree with everything he said? I am sure I do not. 
Some of the language that you indicated he has used, I am not 
comfortable with. It is all right to ask that question. But I 
do not believe it would be proper for you to insist that I am 
somehow disqualified for Attorney General because I accepted an 
award from that group.
    Senator Blumenthal. Given that you did not disclose a 
number of those awards, are there any other awards from groups 
that have similar kinds of ideological, negative views of 
immigrants or of African Americans, or Muslims, or others, 
including awards that you may have received from the Ku Klux 
Klan?
    Senator Sessions. Well, I would not receive it from Henry 
Hayes, I will tell you that. He no longer exists. So no, I 
would not take an award from the Klan.
    Senator Blumenthal. I want to give you the opportunity----
    Senator Sessions. So I would just say that I received 
hundreds of awards. I do not think--I probably somehow should 
have made sure that the--Annie Johnson jumping off the Niagara 
Falls, I should have reported that. But I would just say to 
you, I have no motive in denying that I received those awards. 
It was probably publicly published when it happened. I have 
received hundreds--multiple hundreds of awards over my career, 
as I am sure you have.
    Senator Blumenthal. My time has expired, Mr. Chairman. I 
apologize, and I will return on the third round. Thank you.
    Chairman Grassley. I do not find any fault with the 
questions you are asking, except for this business that 
somebody that is in the United States Senate ought to remember 
what awards we get. I do not know about you, but I will bet 
every other week somebody's coming into my office to give me 
some award, and you take these plaques, or whatever they give 
you, and you do not even have a place to hang them. You store 
them someplace. I do not know whether, even if I went down to 
that storage place, I could tell you all the awards I got. I do 
not need any more awards. It is kind of a problem that they 
give you the awards.
    [Laughter.]
    Chairman Grassley. And obviously I will bet Senator 
Sessions feels that way right now.
    [Laughter.]
    Senator Blumenthal. I do not differ with you. Mr. Chairman, 
I do not differ with you that, sitting here, none of us on this 
side of the table could probably recall every single award we 
have ever received. But the questionnaire from this Committee 
asked for the information as to all awards, and I think it is 
fair to observe that a number of these awards were omitted from 
the responses.
    Chairman Grassley. Okay. Well, if somebody asked me to fill 
out that same questionnaire, it would never be complete, and I 
do not know how you ever could make it complete.
    Before I go to you, I have a statement here from the 
Alabama State Senate, Quinton Ross, a Democrat, Minority 
Leader. He says, ``I know him,'' meaning Senator Sessions, 
``personally and all of my encounters with him have been for 
the greater good of Alabama. We have spoken about everything 
from civil rights to race relations, and we agree that as 
Christian men, our hearts and minds are focused on doing right 
by all people.''
    I do not think we should forget that Senator Sessions got 
re-elected to the United States Senate without a primary 
opponent or a general election opponent. Ye gods, you know, 
would we not all like to do that?
    Senator Graham.
    Senator Graham. I have been unable to do that.
    Chairman Grassley. For the record, without objection.
    [The information appears as a submission for the record.]
    Senator Graham. Thank you. I had six primary opponents.
    Chairman Grassley. I can understand why.
    Senator Graham. There you go. I will probably have 10. I 
will probably have 10 next time. But here is what I want them 
to know: I, too, received the Annie Taylor Award.
    Senator Sessions. The Annie Taylor Award.
    Senator Graham. Yes, there it is. I was there. I got it, 
too. I do not get enough awards; you can speak for yourself, 
Mr. Chairman.
    [Laughter.]
    Senator Graham. Yes, I got the award. I went to the dinner, 
and Chris Matthews interviewed me. So I do not know what that 
means, other than I will do almost anything for a free dinner.
    [Laughter.]
    Senator Graham. You know, I like Senator Blumenthal, but 
you know, we did this for Alito, this whole guilt by 
association stuff. You have been around 15 years.
    Senator Sessions. Twenty.
    Senator Graham. Twenty. Well, 15 with me. I am pretty sure 
you are not a closet bigot. And I got the same award you did. 
That other award--who got it, Joe Lieberman?
    Senator Sessions. He got the award at the Gaffney.
    Senator Graham. Okay. Well, anyway, all I can tell you is 
that this whole idea that if you receive recognition from some 
group, you own everything they have ever done or said, is 
probably not fair to any of us. We can go through all of our 
records about donations. The bottom line is, Senator Sessions, 
there is no doubt in my mind that you are one of the most fair, 
decent, honest men I have ever met. And you know what I like 
most about you? If you are the only person in the room who 
believes it, you will stand up and say so. I have seen you 
speak out when you were the only guy that believed what you 
believed, and I admire the heck out of that. So if I get 
nominated by Trump, which I think will come when hell freezes 
over----
    [Laughter.]
    Senator Graham [continuing]. I am here to tell you I got 
the Annie Taylor award, too.
    So let us talk about the law of war. I think you were asked 
by Senator Feinstein about indefinite detention. Hamdi v. 
Rumsfeld. This is Sandra Day O'Connor's quote: ``There's no bar 
to this Nation's holding one of its own citizens as an enemy 
combatant.'' That case involved a U.S. citizen that was 
captured in Afghanistan and was held as an enemy combatant. Are 
you familiar with that case?
    Senator Sessions. Generally, yes. Not as familiar as you 
because I know you have studied it in great depth.
    Senator Graham. Well, being a military lawyer, this was 
sort of part of what I did.
    Do your constitutional rights as a U.S. citizen stop at the 
Nation's shores or do they follow you wherever you go?
    Senator Sessions. Well, you have certain rights wherever 
you go.
    Senator Graham. So if you go to Paris, you do not give up 
your Fourth Amendment right against illegal search and seizure. 
Could the FBI break into your hotel room in Paris and basically 
search your room without a warrant?
    Senator Sessions. I do not believe----
    Senator Graham. No, they cannot. Your constitutional rights 
attach to you. So to the people who say, well, he was in 
Afghanistan, that does not matter. What the court is telling 
us, no American citizen has a constitutional right to join the 
enemy at a time of war. In re: Quirin, that case involved 
German saboteurs who landed in Long Island. Are you familiar 
with this?
    Senator Sessions. I am very familiar with that case. I have 
read it.
    Senator Graham. They were German saboteurs and had American 
citizen contacts in the United States. They were all seized by 
the FBI and tried by the military. So what I would tell Senator 
Feinstein and my other colleagues, the law is well settled 
here, that a United States citizen in other wars have been held 
as enemy combatants when the evidence suggests they 
collaborated with the enemy.
    Under the current law, if you are suspected of being an 
enemy combatant within a certain period of time--60 days, I 
think--the Government has to present you to a Federal judge and 
prove, by a preponderance of the evidence, that you are a 
member of the organization they claim you to be a member of. 
Are you familiar with that, your habeas rights?
    Senator Sessions. Correct. Yes.
    Senator Graham. So as to how long an enemy combatant can be 
held, traditionally under the law of war, people are taken off 
the battlefield until the war is over or they are no longer a 
danger. Does that make sense to you?
    Senator Sessions. It does make sense, and that is my 
understanding of the traditional law of war.
    Senator Graham. And the law of war is designed to, like, 
win the war. The laws around the law of war are designed to 
deal with conflicts and to take people off the battlefield, you 
can kill or capture them, and there is no requirement like 
domestic criminal law that at a certain point in time they have 
to be presented for trial because the goal of the law of war is 
to protect the Nation and make sure you win the war. So when 
you capture somebody who has been adjudicated a member of the 
enemy force, there is no concept, in military law or the law of 
war, that you have to release them on an arbitrary date, 
because that would make no sense.
    All I am saying is that I think you are on solid ground, 
and this idea of an American citizen being an enemy combatant 
is part of the history of the law of war. And I am very willing 
to work with my colleagues to make sure that indefinite 
detention is reasonably applied and that we can find due 
process rights that do not exist in the traditional law of war, 
because this is a war without end.
    When do you think this war will be over? Do you think we 
will know when it is over?
    Senator Sessions. I have asked a number of witnesses in 
Armed Services about that, and it is pretty clear we are 
talking about decades before we have a complete alteration of 
this spasm in the Middle East that just seems to have legs, and 
will continue for some time.
    Senator Graham. So let me----
    Senator Sessions. That is most likely what would happen.
    Senator Graham. You are about to embark on a very important 
job in an important time, and here is what my suggestion would 
be: That we work with the Congress to come up with a legal 
regime that recognizes that gathering intelligence is the most 
important activity in the law against radical Islam. The goal 
is to find out what they know. Do you agree with that?
    Senator Sessions. That is a critical goal.
    Senator Graham. And I have found that under military law 
and military intelligence gathering, no manual I have ever read 
suggested that reading Miranda rights is the best way to gather 
information. As a matter of fact, I have been involved in this 
business for 33 years, and if a commander came to me as a JAG 
and said we just captured somebody on the battlefield--you name 
the battlefield--they want their rights read to them, I would 
tell them, they are not entitled to Miranda rights. They are 
entitled to Geneva Convention treatment, they are entitled to 
humane treatment, they are entitled to all the things that go 
with the Geneva Convention because the court has ruled that 
enemy combatants are subject to Geneva Convention protections.
    I just want to let you know, from my point of view, that we 
are at war. I am encouraged to hear that the new Attorney 
General recognizes the difference between fighting a crime and 
fighting a war, and that the next time we capture bin Laden's 
son-in-law, if he has got any more, I hope we do not read him 
his Miranda rights in 2 weeks. I hope we keep him, humanely, as 
long as necessary to interrogate him to find out what the enemy 
may be up to. Does that make sense to you?
    Senator Sessions. Well, it does. We did not give Miranda 
warnings to German and Japanese prisoners we captured, and it 
has never been part of the--and so they are being detained and 
they are subject to being interrogated properly and lawfully 
anytime, any day, and they are not entitled to a lawyer, and so 
forth.
    Senator Graham. Right. And Miranda and all did not exist 
back in World War II but it does now, but the law, the Hamdi 
case says--this is very important--that you do not have to read 
an enemy combatant their Miranda rights. They do have a right 
to counsel in a habeas proceeding----
    Senator Sessions. In a habeas court. You are correct.
    Senator Graham [continuing]. To see if the Government got 
it right. You can hold them as long as is necessary for 
intelligence gathering, and you can try them in Article III 
courts, you can try them in military commissions. As Attorney 
General of the United States, would you accept that military 
commissions could be the proper venue, under certain 
circumstances, for a terrorist?
    Senator Sessions. Yes.
    Senator Graham. Thank you.
    Chairman Grassley. Senator Hirono, then Senator Kennedy, 
then you should take a break, because I want one.
    [Laughter.]
    Chairman Grassley. Proceed.
    Senator Hirono. Thank you.
    Senator Sessions, in 1944, the Supreme Court handed down 
what is considered one of the worst rulings in the history of 
our country, and that case is Korematsu v. United States, which 
upheld the constitutionality of the internment of Japanese 
Americans in internment camps.
    Despite the near-universal condemnation today of the 
court's ruling, this past November, Carl Higby, a spokesman for 
a pro-Trump Super PAC and a surrogate for President-elect 
Trump, cited Korematsu as precedent for a program which would 
require Muslims in the United States to register with the 
Government.
    Here are my questions: First, would you support such a 
registry for Muslim Americans? In other words, U.S. citizens?
    Senator Sessions. I do not believe we need a registration 
program for U.S. citizens who happen to be Muslim. Is that the 
question?
    Senator Hirono. Yes. My question is whether you would 
support such a registry for U.S. citizens who happen to be 
Muslims.
    Senator Sessions. No.
    Senator Hirono. Thank you.
    So since the President may go in that direction, what kind 
of constitutional problems would there be for U.S. citizens who 
happen to be Muslims to be required to register?
    Senator Sessions. Well, my understanding is, as I recall, 
the later comments by President-elect Trump do not advocate for 
that registration, but he will have to speak for himself on his 
policies. But I do not think that is accurate at this point, as 
his last stated position on it.
    Senator Hirono. Since you do not support such a registry 
for U.S. citizen Muslims, is that because you think that there 
are some constitutional issues involved with such a requirement 
for U.S. citizen Muslims?
    Senator Sessions. It would raise serious constitutional 
problems because the Constitution explicitly guarantees the 
right to free exercise of religion. I believe Americans 
overwhelmingly honor that and should continue to honor it, and 
it would include Muslims for sure. I do not believe they should 
be treated differently, fundamentally. They should not be 
treated differently.
    Senator Hirono. Thank you.
    And in addition to the freedom of religion provisions, 
perhaps there would be some equal protection constitutional 
problems, possibly some procedural due process constitutional 
problems with that kind of registry requirement.
    Turning to consent decrees, there are more than 18,000 law 
enforcement agencies in the United States. America's police 
officers are the best in the world, and that is due in large 
part to their bravery, skill, and integrity in what they do. 
Our Constitution ensures that the Government is responsible to 
its citizens, and that certain rights should not be violated by 
the Government. But that does not mean that things always work 
perfectly, as you noted in one of your responses, in the real 
world.
    So while the vast majority of police officers do exemplary 
work and build strong relationships with their communities to 
keep the public safe, there have been specific use-of-force 
deadly incidents that have sparked nationwide outrage.
    Some of these incidents have led the Attorney General's 
Civil Rights Division to do investigations into whether 
individual police departments have a ``pattern of practice'' of 
unconstitutional policing and to make sure our police 
departments are compliant with the law.
    When these investigations find that police departments are 
engaged in unconstitutional policing, they are frequently 
resolved through consent decrees with the Department of 
Justice, which requires police departments to undertake certain 
important reforms that are overseen by independent monitors to 
ensure that necessary changes are being made in these 
departments.
    Senator Sessions, you once wrote that ``consent decrees 
have a profound effect on our legal system, as they constitute 
an end run around the democratic processes.'' Currently, more 
than 20 police departments around the country are engaged in 
consent decrees with the Justice Department. In Maryland, 
Baltimore Mayor Catherine Pugh said Monday she expects her city 
to finalize a consent decree with the Justice Department this 
week, as noted in the Baltimore Sun.
    My question is, will you commit to maintaining and 
enforcing the consent decrees that the Justice Department has 
negotiated during this administration?
    Senator Sessions. Those decrees remain in force if and 
until and if they are changed. And they would be enforced. The 
consent decree itself is not necessarily a bad thing, could be 
a legitimate decision. There can be circumstances in which 
police departments are subject to a lawsuit, which is what 
starts this process, ultimately ending in a consent decree.
    But I think there is concern that good police officers and 
good departments can be sued by the Department of Justice when 
you just have individuals within the department who have done 
wrong and those individuals need to be prosecuted.
    These lawsuits undermine the respect for police officers 
and create an impression that the entire department is not 
doing their work consistent with fidelity to law and fairness, 
and we need to be careful before we do that, is what I would 
say to you, because filing a lawsuit against a police 
department has ramifications, sometimes beyond what a lot of 
people think. It can impact morale of the officers, it can 
impact and affect the view of citizens to their police 
department. I just think that caution is always required in 
these cases.
    Senator Hirono. Senator Sessions----
    Senator Sessions. I would not pre-judge a specific case.
    Senator Hirono. I understand that, but showing a pattern of 
practice needs to be shown, so these are not just a rogue 
police officer doing something that would be deemed 
unconstitutional.
    So are you saying that with regard to negotiated consent 
decrees that you will revisit these consent decrees and perhaps 
give police departments a second bite at the apple so that they 
can undo some of the requirements on them?
    Senator Sessions. Well, presumably the Department of 
Justice, under the Holder-Lynch leadership, would be expecting 
to end these decrees at some point, so I just would not commit 
that there would never be any changes in them. If departments 
have complied or reached other developments that could justify 
the withdrawal or modification of the consent decree, of course 
I would do that.
    Senator Hirono. Well, usually consent decrees require when 
they end it is because they have complied with the provisions 
of the consent decree. So I am just trying to get a simple 
answer. And I hope that you would----
    Senator Sessions. Well, I will give you a simple answer.
    It is a difficult thing for a city to be sued by the 
Department of Justice and to be told that your police 
department is systematically failing to serve the people of the 
State or the city. So that is an august responsibility of the 
Attorney General and the Department of Justice.
    Senator Hirono. So----
    Senator Sessions. So they often feel forced to agree to a 
consent decree just to remove that stigma, and sometimes there 
are difficulties there. So I just think we need to be careful 
and respectful of the departments.
    Senator Hirono. I understand that. But as to the consent 
decrees that were negotiated with both parties in full faith to 
do what is appropriate, that you would leave those intact 
unless there are some exigent or some extraordinary 
circumstances.
    Of course, going forward as Attorney General you can enter 
into whatever consent decrees you deem appropriate. So my 
question really is the existing consent decrees, which took a 
lot to negotiate, by the way. And it is not the vast majority 
of police departments in this country, it is 20.
    Chairman Grassley. You can answer that if you want to, and 
then we will move on.
    Senator Sessions. I understand what you are saying. One of 
the impacts of a consent decree is it does require judicial 
approval of any alteration in it, and that raises pros and 
cons.
    Senator Hirono. Thank you.
    Chairman Grassley. Senator Kennedy.
    Senator Kennedy. Thank you, Mr. Chairman.
    Senator, could you tell the Committee a little bit more 
about what it was like to be a U.S. Attorney? What was your 
management style? Did you enjoy it? How was it compared to 
serving in the State government as a State Attorney General?
    Senator Sessions. I loved being a U.S. Attorney. Almost 
everybody that has held the job says it is the greatest job if 
you like law enforcement and trying to protect citizens and 
prosecuting criminals. It was just a fabulous job, and we had 
great assistants. I loved it, and our team did. Those were 
Camelot days for me. So I did feel that. I only had 2 years as 
Attorney General. We had this monumental deficit when I got 
elected and we had to lay off a third of the office because we 
did not have money to pay the electric bill, and it was just 
one thing after another. Then I was running for the Senate, so 
I did not get to enjoy that job.
    But the United States Attorney's job was a really fabulous 
experience, and I believe in the course of it I worked with 
FBI, DEA, U.S. Customs, Marshals Service, all the Federal 
agencies, ATF, IRS, Postal Service and their inspectors, and 
you get to know their cultures and their crimes that they 
investigate, the officers and what motivates them, and how a 
little praise and affirmation is so important for them. They 
get the same salary, you know. If they are not being 
appreciated, they feel demeaned, their morale can decline. So 
that kind of experience was wonderful, and I do think it would 
help me be a better Attorney General.
    Senator Kennedy. I have made up my mind. I yield back my 
time. I hope you will be a raging voice of common sense at the 
Department of Justice, Senator.
    Senator Sessions. Well, thank you.
    Chairman Grassley. Before you take a break, I hope that all 
the people that still want to do a third round will come back 
in about maybe 15 minutes, or a little less. Is that okay?
    Senator Sessions. Yes.
    Chairman Grassley. Okay. We stand in recess for 15 minutes 
or so.
    [Whereupon, at 6 p.m. the Committee was recessed.]
    [Whereupon, at 6:26 p.m., the Committee reconvened.]
    Chairman Grassley. For third round, I call on Senator 
Franken.
    Senator Franken. Well, thank you.
    Senator, last Friday, the Director of National 
Intelligence--we have covered this a little--representing 16 
agencies, released a declassified intelligence report stating, 
``we assess Russian President Vladimir Putin ordered an 
influence campaign in 2016 aimed at the U.S. Presidential 
election,'' and yet despite the consensus among our 
intelligence agencies, President-elect Trump has remained 
persistently skeptical.
    During the first Presidential debate, he wondered aloud 
whether the responsible party could be China or ``somebody 
sitting on their bed that weighs 400 pounds.'' Last month, he 
called reports of Russian hacking ``ridiculous'' and ``another 
excuse for the Democrat loss.'' He said, ``It could be somebody 
sitting in a bed someplace again. I mean, they have no idea.''
    And even after the release of the declassified report, the 
President has really yet to acknowledge Russia's role in the 
hacking. You said earlier that you accept the FBI's conclusion. 
To my mind, it is absolutely extraordinary to see a President-
elect so publicly refuting, and without evidence so far as I 
can tell, the assessment of our intelligence agencies.
    Why do you think President-elect Trump has been so 
unwilling to acknowledge Russian involvement in the hacking?
    Senator Sessions. I did mean to indicate I respect the FBI 
and I respect the fact that if they give a conclusion, they 
believe it is accurate. I am not able to comment on the 
President-elect's comments about it.
    Senator Franken. Okay.
    CNN has just published a story--and I am telling you about 
a news story that has just been published, so I am not 
expecting you to know whether it is true or not--but CNN just 
published a story alleging that the intelligence community 
provided documents to the President-elect last week that 
included information that ``Russian operatives claimed to have 
compromising personal and financial information about Mr. 
Trump.''
    These documents also allegedly stated, ``There was a 
continuing exchange of information during the campaign between 
Trump surrogates and intermediaries for the Russian 
government.'' Now again, I am telling you this as it is coming 
out, so, you know--but if it is true, it is obviously extremely 
serious. If there is any evidence that any one affiliated with 
the Trump campaign communicated with the Russian government in 
the course of this campaign, what will you do?
    Senator Sessions. Senator Franken, I am not aware of any of 
those activities. I have been called a surrogate at a time or 
two in that campaign and I did not have communications with the 
Russians, and I am unable to comment on it.
    Senator Franken. Very well.
    Without divulging sensitive information, do you know about 
this or know what compromising personal and financial 
information the Russians claimed to have?
    Senator Sessions. Senator Franken, allegations get made 
about candidates all the time, and they have been made about 
President-elect Trump lots of times. Most of them--virtually 
all of them--have been proven to be exaggerated or untrue. I 
would just say to you that I have no information about this 
matter. I have not been in on the classified briefings and am 
not a Member of the Intelligence Committee, and so I am just 
not able to give you any comment on it at this time.
    Senator Franken. Okay. Totally fair.
    Last week, Julian Assange, the founder of WikiLeaks, 
claimed that the Russian government was not the source of the 
hacked emails WikiLeaks published during the campaign. Now, 
Assange did not identify his source, nor did he say whether his 
source worked with or received information from the Russians. 
But again, American intelligence agencies have concluded the 
Russian government directed the hacking operation. Nonetheless, 
immediately following that interview, President-elect tweeted, 
``Julian Assange said a 14-year-old could have hacked Podesta. 
Why was DNC so careless? Also said Russians did not give him 
the info!''
    Senator Sessions, does it concern you that our future 
Commander-in-Chief is so much more willing to accept what 
Julian Assange says instead of the conclusions of our 
intelligence agencies, and why do you think President Trump 
finds Assange trustworthy?
    Senator Sessions. Senator Franken, I am not able to answer 
that. I have not talked to the President-elect about any of 
these issues. It is often inaccurate, what gets printed in the 
papers.
    Senator Franken. Well, back in 2010, back when WikiLeaks 
was publishing stolen American diplomatic cables and military 
secrets, you voiced concern about the Obama administration's 
response. You said that WikiLeaks publishing sensitive 
documents should be ``pursued with the greatest intensity.'' 
You said, ``The President from on down should be crystal clear 
on this, and I haven't seen that. I mean, he comes out of the 
left, the anti-war left. They've always glorified people who 
leak sensitive documents. Now he's the Commander-in-Chief, so 
he's got a challenge.''
    President-elect Trump, by contrast, said, ``WikiLeaks, I 
love WikiLeaks.'' Do you believe that by holding up Julian 
Assange, who traffics in leaked and stolen documents, often 
classified documents, as a legitimate source of information 
that President-elect Trump is glorifying people who leak 
sensitive documents?
    Senator Sessions. Well, I would say this, that if Assange 
participated in violating the American law, then he is a person 
subject to prosecution and condemnation.
    Senator Franken. Well, we know that in regard to what he 
did in 2010, and yet the President-elect said, ``WikiLeaks, I 
love WikiLeaks.'' Does it not seem like perhaps if you were not 
sitting before us today as an Attorney General nominee, and if 
President Obama was publicly embracing Julian Assange, that 
perhaps you might take a more critical view?
    Senator Sessions. As a Member of the Senate, as you, and I 
remain for, hopefully, not too much longer--depends on you and 
your colleagues--but I feel it is a lot easier to be vigorous 
and outspoken. But it is different as you begin to think about 
the awesome responsibility of serving as an Attorney General, 
with the possibility of having to handle certain cases. You 
need to be more cautious about what you say. So I think it is 
just not appropriate for me to be the person for you to seek 
political responses from.
    Senator Franken. Okay. I am out of time. I will try to 
stick around for one more quick round.
    Chairman Grassley. Okay. Senator Cruz.
    Senator Cruz. Thank you, Mr. Chairman.
    Mr. Sessions, thank you for your endurance today.
    Senator Sessions. Thank you.
    Senator Cruz. Let us turn to a different topic, one that 
has been addressed some in this hearing but one that I know is 
a particular passion of yours and one on which you have built a 
remarkable record, and that is immigration. I want to focus in 
particular on the problem of criminal aliens in the United 
States and this administration's non-enforcement of the laws, 
and take a moment just to review some of the numbers, which you 
know very well but I think it is helpful to review for those 
watching this hearing.
    We have had an administration that consistently refuses to 
enforce our immigration laws, so in October 2015, I submitted 
that there were 929,684 aliens present in the United States who 
had been ordered to leave the country but who had not done so. 
Of those over 929,000 aliens with removal orders, 179,027 had 
criminal convictions. In addition to the 179,027 criminal 
aliens with final orders of removal, there were at least 
194,791 known criminal aliens who were at the time in removal 
proceedings. We also know that 121 criminal aliens released by 
ICE between fiscal year 2010 and 2014 went on to commit 
homicides, and between Fiscal Year 2009 and Fiscal Year 2015, 
ICE released 6,151 aliens with sexual offense convictions from 
its custody.
    My question for you, Senator Sessions, is can you commit to 
this Committee and to the American people that as Attorney 
General you will enforce the laws, including the Federal 
immigration laws, and you will not be releasing criminal 
illegal aliens into the public, especially those with violent 
convictions, such as homicide or sexual assault convictions?
    Senator Sessions. Senator Cruz, you and I have talked about 
this and you know that I believe we have failed in dealing with 
criminal aliens. President Obama set that as a priority, but I 
do not think they have been as effective as needed. I believe 
that should be increased and stepped up. The actual policies, 
as you know, are Homeland Security policies. The Secretary of 
Homeland Security will determine those policies. There are ways 
in which the Department of Justice can fulfill a role in it, 
but the overall policies and priorities would be set by 
Homeland Security.
    I just believe that as we go forward and reduce the flow of 
illegal immigrants into America, then there are fewer people 
illegally per investigative officer and you get a better 
handle--you are in a virtuous cycle instead of this dangerous 
cycle that we are in today where things tend to get worse. So I 
believe we can turn that around. This is one of the policies 
that has to be given priority. Donald Trump has also said that 
he believes criminal aliens obviously should be the top 
priority, and I believe this Government will work effectively 
to deal with it. I would do my part.
    Senator Cruz. You know, there are few issues that frustrate 
Americans more than the refusal to enforce our immigration 
laws. Not too long ago, I was down on the border in Texas 
visiting with Border Patrol officials, visiting with law 
enforcement, local sheriffs. I will tell you, it was after the 
election and there was a palpable sense of relief, that finally 
we would have an administration that did not view the laws as 
obstacles to be circumvented, but rather an administration that 
would be willing to enforce the laws on the books and stop 
releasing criminal aliens in communities where the citizens are 
at risk.
    One of the most tragic instances that we are all familiar 
with is Kate Steinle, beautiful young woman in California who 
lost her life, who was murdered, by a criminal illegal alien 
who had seven prior felonies, and yet over and over and over 
again the system failed and young Kate Steinle lost her life in 
her father's arms, saying, ``Daddy, please save me.'' You and I 
are both the fathers of daughters and I cannot think of a more 
horrific experience than having to hold your daughter at that 
moment of agony.
    Can you share--this has been an issue you have been leading 
for so long. Can you share your perspective as to the 
responsibility of the Federal Government to keep the American 
people safe and not to subject the American people to murderers 
and other repeat felons who are here illegally, not to release 
them to the public?
    Senator Sessions. Senator Cruz, you touched on the right 
issue here. First and foremost, the immigration policy of the 
United States should serve the national interest, the people's 
interest. That is what an immigration system should do.
    Number two, under the laws and world agreements, when a 
citizen from a foreign country is admitted by visa to the 
United States and commits a deportable act or otherwise needs 
to be removed, that country has to take them back. When they 
cease to do that, then you have a serious breach of collegial 
relations between the two countries. No country, particularly 
the United States, should ever allow in so many individuals who 
committed crimes here, often when they entered illegally, and 
not even coming on a lawful visa. They need to be deported 
promptly. The reluctance of carrying this out is baffling to 
me. It should have total bipartisan support. It is said that it 
does, but somehow it is never accomplished. So it is very, very 
frustrating. The basic summary of that is, it is perfectly 
proper, decent, and correct that this Nation not allow people 
who come here on a visa or illegally to remain here after they 
have committed crimes.
    Senator Cruz. Well, thank you, Senator Sessions. As you 
know, I have introduced legislation in the Senate, Kate's Law, 
which would provide, for those who illegally re-enter with a 
violent criminal conviction, a mandatory 5-year prison 
sentence. This past Senate that failed to pass. It is my hope 
that Congress will pass that legislation and give additional 
tools to the administration to keep the American people safe.
    Let me turn to one additional aspect of illegal 
immigration, which is the national security component of it. 
Since August 2015, you and I have joined together to send three 
separate letters to the Departments of Justice, Homeland 
Security, and State, as well as a letter to the President, 
seeking information on the immigration histories of individuals 
who have been convicted or implicated in a terrorist attack in 
the United States, and over and over again the current 
administration has stonewalled our efforts as Senators to get 
basic facts that I think the American people are entitled to.
    You and I were able to piece together from the public 
record that at least 40 people who were initially admitted to 
the United States as refugees were subsequently convicted or 
implicated in terrorism, and more broadly, of a list of 580 
individuals who were convicted of terrorism or terrorism-
related offenses between 2001 and 2014, at least 380 were born 
in foreign countries, many from terror spots in the Middle 
East, Africa, and Central Asia. Of the 198 U.S. citizens you 
and I were able to find on that list, at least 100 were born 
abroad and subsequently naturalized.
    As I mentioned, the administration has stonewalled us. Will 
you commit to work with this Committee to provide the data that 
we have been seeking, that I think the American people are 
entitled to know, of those who are committing terror plots 
against us, how many are coming in through a broken immigration 
system, through a broken refugee system, and to working with 
this Committee to prevent that from happening in the future to 
keep the people safe?
    Senator Sessions. I would do that. I do believe that is a 
Homeland Security's primary responsibility, but it was a bit 
frustrating because what those numbers tend to indicate is that 
it is not true that refugees do not commit terrorist acts. 
There is a danger, even in the refugee population, and good 
vetting is critical in that process.
    Senator Cruz. Thank you, Senator.
    Chairman Grassley. Senator Coons.
    Senator Coons. Thank you, Mr. Chairman.
    Senator Sessions, if I might, I would like to take us to an 
area I do not think has been explored much today, but of grave 
concern to me, which is disability rights, another area where, 
if confirmed as Attorney General, you would be charged with 
protecting among the most vulnerable Americans and those whose 
rights have only recently been fully recognized and enforced.
    You have previously said that the IDEA, which provides for 
access to education for those with intellectual disabilities, 
creates ``lawsuit after lawsuit, special treatment for certain 
children, and is a big factor in accelerating the decline in 
civility in classrooms all over America.'' In a different 
setting, you were critical of the Supreme Court's decision in 
Atkins v. Virginia in 2002 which held that executing 
individuals with intellectual disabilities violates the Eighth 
Amendment. In a floor speech 6 days later after that ruling you 
said that you were ``very troubled'' by the Court telling 
States ``they could not execute people who were retarded.'' If 
a State was scheduled to execute someone with intellectual 
disabilities, would you insist on the Justice Department now 
taking vigorous action to stop it? And given your previous 
comments about the IDEA, do you still believe it unfairly 
benefits some children and hurts others?
    Senator Sessions. We made real reform in IDEA. I led that 
effort. We ended up having the vote of Hillary Clinton and Dick 
Durbin, Senator Durbin. We worked on it very hard and I was 
very pleased with the way it worked out. It was true that the 
IDEA community pushed back against the reforms I was proposing, 
but in the end I think it worked out fine.
    The reason was that the burden was on the school systems. I 
was in a Blue Ribbon, great little school in Alabama on the 
first day of school and the principal told me, it is now 3; at 
5, I will go to a meeting with lawyers and parents about a 
child on whether or not they will be in the classroom all day 
or half a day, and the child had serious disabilities. So he 
said, I am trying to get this school up and running and I am 
having to spend this extraordinary amount of time on this. So 
we created a legal system that made it better and the schools 
got a little more deference in being able to monitor it, and it 
was a big issue. It was a disruptive force in big-city schools 
in New York and Chicago and other places like that.
    So on the question of intellectual disabilities, I suppose 
we can disagree, as a matter of policy. Perhaps I was 
questioning the legal mandate. But a person with intellectual 
disabilities, that should be considered as a factor in the 
sentencing jury or the judge's opinion before they go forward. 
But obviously if a person knows the difference in right and 
wrong, historically they would be held to the same standard, 
even though their intellectual ability would be less.
    Senator Coons. Let me revisit a question about consent 
decrees that Senator Hirono was asking about previously, 
because consent decrees have been used in this area, in 
disability rights, to make sure that folks with intellectual 
disabilities have access to services and education, but also in 
policing.
    Police chiefs and elected officials, as we have spoken 
about, in communities across the country have in some cases 
invited DOJ to open civil rights investigations of their police 
departments and have invited them to enter into consent decrees 
in order to implement reforms to law enforcement in order to 
make sure that they improve the quality of police-community 
relations and respect for civil rights.
    Do you plan to continue to assist cities with these 
investigations when asked, if Attorney General, and under what 
circumstances would you commence a civil rights investigation 
of a law enforcement agency that may have violated Federal law?
    Senator Sessions. Well, those are difficult questions for 
me to answer explicitly today, but I would note on the consent 
decrees or the language Senator Hirono quoted, that my 
statements were simply part of the foreword to a booklet.
    Consent decrees have been criticized in a number of areas. 
I am not familiar with how they have worked out in the 
disabilities arena, but with regard to police departments, I 
think it is a good thing that a police department might call on 
Federal investigators and a team to work with their police 
department to identify any problems and to help select remedies 
that the community might feel were more valid because the 
Department of Justice validated them and agreed to them. So, as 
I think you and I talked, it really is important that the 
people trust the police departments and the police departments 
have respect from the communities. When you do not have that, 
people's safety is at risk.
    Senator Coons. Well, I hope we can find ways to continue to 
work together to combat violent crime and to improve police-
community relations.
    Let me just briefly ask you about trade secret theft and 
intellectual property, something we have also talked about. 
There is a significant problem for American inventions, 
companies, entrepreneurs, of having their innovations stolen, 
sometimes by cyber hack, by intrusions, sometimes physically 
through industrial espionage. The Obama administration has made 
real progress in increasing enforcement and in going after 
those who would steal America's inventions.
    Is that something that you would intend, to continue 
vigorous enforcement to protect American inventions?
    Senator Sessions. I do. I think a lot of that may be 
through the U.S. Trade Representative, it could be done through 
the Commerce Department and other departments, and the 
Department of Justice may have a role----
    Senator Coons. It does.
    Senator Sessions [continuing]. In criminal activities or 
civil enforcement. I would not say for certain what that role 
would be at this point, but my view, as you and I have talked, 
is that you are correct about this. When we enter into a trade 
agreement with a foreign nation, we have to understand that it 
is just a simple contract and we will comply, we will deal with 
you on this basis, and if a party to that contract is not 
acting honorably, then you have every right to push back.
    And if it ultimately means you have to pull out of the 
agreement, then you pull out of the agreement if it is serious 
enough. I do not think we have been as aggressive as we should 
have been in those agreements.
    Senator Coons. Let me ask one last question, if I may, Mr. 
Chairman. I just wanted to reflect on something you said in 
your opening, and something we have talked about. You were born 
in Selma, roughly 70 years ago. I have been to Selma several 
times with Congressman Lewis and a number of others, and last 
year many of us joined Congressman Lewis for the 50th 
anniversary of that famous march across the Edmund Pettus 
bridge when he faced violence and the response--the conscience 
of the Nation was stirred by this horrible event, and it 
spurred Congress to pass the bipartisan Voting Rights Act.
    There has been a lot of questioning back and forth about 
your comments about whether the Voting Rights Act was intrusive 
in the Shelby County decision, and I just wanted to make sure I 
came back to an important point, which was that Senator Leahy 
and I, and a number of others, tried hard to find Republican 
partners to advance the Voting Rights Advancement Act, which 
would have replaced the now 50-years-old, roughly, preclearance 
formula with a new one that would be national in scope, would 
not disadvantage any region, and would be simply based on 
enforcement actions.
    Previous questioning by, I think, Senator Franken and 
others focused on recent enforcement actions, the Fourth 
Circuit finding that North Carolina's post-Shelby voter ID law 
violated the law because it targeted African Americans. You 
said in your opening statement that you witnessed the civil 
rights movement as it happened near you, that you witnessed the 
depredations of segregation. In a ceremony last year during the 
presentation of the Congressional Gold Medal to the foot 
soldiers of the civil rights movement, you said, ``I feel I 
should have stepped forward more.''
    What more do you think you perhaps could have done, or 
should have done, in recent years as a Senator to take more 
active action so that folks from around the country could have 
confidence in your commitment to continuing the journey of 
civil rights in this country?
    Senator Sessions. Well, I do not think we have to agree on 
everything. Just because you think this was a necessary thing, 
you may be right, and if I do not think so I do not know that I 
am necessarily wrong. I would say that I did sponsor the 
Congressional Gold Medal Act that gave the Gold Medal to the 
Selma and Montgomery marchers with Senator Cory Booker. We were 
the two lead sponsors on it.
    I was at that event and have a wonderful picture I cherish 
with John Lewis and other people on the bridge, celebrating 
that event. It changed the whole South. African Americans were 
being discriminated against systematically in voting. They were 
being flatly denied, through all kinds of mechanisms, and only 
a very few in many instances were allowed to vote, if any. So 
this was an unacceptable thing. As I said at the hearing in 
1986, I was asked about it being intrusive. Please, Senator 
Coons, do not suggest in any way that that word means that I 
was hostile to the act. I said then and I say now, it was 
necessary that the act be intrusive because it had to force 
change, and it would not have happened without the power of the 
Federal Government. That is a plain fact.
    Senator Coons. Senator, what I am suggesting is an 
alternative path forward for the Voting Rights Act that would 
not have been singling out one region or one State or one 
history, but that would have allowed the Voting Rights Act to 
continue to be effective in the face of the recent record 
showing ongoing discrimination, ongoing denial of the right to 
vote in different States across the country, now no longer 
isolated to the South. When presented with an opportunity to 
continue and strengthen the Voting Rights Act post-Shelby, you 
did not take that step.
    Senator Sessions. Well----
    Chairman Grassley. Senator Sessions, if you need to answer 
that, go ahead and answer it.
    Senator Sessions. I will be short.
    Chairman Grassley. I want to go to Senator Blumenthal.
    Senator Sessions. As I said, I supported the 
reauthorization of the Voting Rights Act with Section 5 in it. 
When the Supreme Court said it was no longer necessary that 
Section 5 be in it, I did not support the language that you and 
Senator Leahy offered that would basically put it back in. So I 
do not apologize for that. I think that was a legitimate 
decision.
    With regard to the question of voter ID, I am not sure it 
has been conclusively settled one way or the other whether a 
properly conducted voter ID system is improper and 
discriminatory. Indeed, the Supreme Court has held that voter 
ID is legitimate, at least under certain circumstances.
    Chairman Grassley. Okay. Before Senator Blumenthal, I have 
another thing that has come to our attention, so I would put 
this in the record without objection, a letter that we received 
from some lawyers about the IDEA issue. These lawyers litigate 
cases on this issue. They say certain stories about the issue 
took Senator Sessions' comments out of context, and then they 
go on to note that Senator Kennedy and others later reached an 
agreement with Senator Sessions on the issue.
    [The letter appears as a submission for the record.]
    Chairman Grassley. Senator Blumenthal.
    Senator Blumenthal. Thanks, Mr. Chairman.
    Senator Sessions, I want to pursue this conversation about 
voting rights. In October 2015, there was a report, widely 
reported, that the State of Alabama intended to close a number 
of DMV offices. Congresswoman Terry Sewell wrote to the 
Attorney General, Loretta Lynch, urging an investigation, 
stating, I am quoting, ``This decision will leave 8 out of 10 
counties with the highest percentage of non-White registered 
voters without a Department of Motor Vehicles, DMV, to issue an 
Alabama driver's license.'' She noted that, ``an estimated 
250,000 Alabamians who do not have an acceptable form of photo 
identification to cast a ballot.''
    As you know, subsequently the Department of Transportation 
initiated an investigation under Title VI of the Civil Rights 
Act, and that year-long investigation found that Alabama's 
conduct caused ``a disparate and adverse impact on the basis of 
race.'' Did you believe, or do you believe now, that it was a 
problem that 250,000 estimated citizens of your State did not 
have the requisite ID to vote?
    Senator Sessions. There is a system, I understand, that 
makes those IDs available. The driver's license offices were 
part of a budget-cutting process within the State, which I had 
absolutely nothing to do with, and did not know about until it 
was done. And they claim that they were simply identifying the 
areas with the lowest population and trying to do some 
consolidation and trying to make the system more efficient and 
productive.
    It was later that these objections arose, and they have 
reversed that, I believe. So that is the way that went. I hope 
there was no intent at the time to be racially insensitive, but 
indeed many of the closures were in counties with large 
African-American populations.
    Senator Blumenthal. Did you believe then that there was a 
problem in denying 250,000 people an access to photo 
identification they needed to vote?
    Senator Sessions. Well, it did not deny 250,000 people the 
right to vote. That would be utterly wrong and should be 
stopped immediately. But in this instance, it might have 
required people to go to the closest driver's license office in 
the next county which might be closer for you to go to than the 
one that was closed. But it was, in general, perceived as 
detrimental to African Americans, and included within that 
detriment was the possibility of an ID for voting. So you are 
correct. It was controversial, and it was fixed.
    Senator Blumenthal. Did you agree with the Department of 
Investigation finding that it had an adverse and disparate 
impact on people on the basis of race?
    Senator Sessions. Oh, I have never expressed an opinion 
upon it and I never studied that issue in depth. But apparently 
somebody must have agreed, because it was changed.
    Senator Blumenthal. Did you agree with that conclusion?
    Senator Sessions. Well, yes; I was happy that that solution 
was reached, yes. Very much. You know, we should remember those 
things as we move forward, setting policy, what kind of 
ramifications it could have. I do not think they had voting on 
their minds at all, but it could impact voting to some degree, 
for sure.
    Senator Blumenthal. But you took no action at the time? You 
expressed no conclusion at the time, despite what was found to 
be a disparate and adverse impact on voting rights of 250,000 
members of the citizens of your State?
    Senator Sessions. Well, they did not ask my opinion before 
they did it, and it was purely a State matter. And I did not 
actively intervene, you are correct.
    Senator Blumenthal. I want to ask you about the DACA young 
people, the DREAMers, who have submitted information to the 
Federal Government about their whereabouts, their identities, a 
lot of personal details. And I know that your response, I think 
to a question about it, was that Congress must act.
    But would it not violate fundamental fairness, whether due 
process or some standard of constitutional due process, to use 
that information, in fact, against them? Obviously, we are not 
talking about a criminal proceeding, so there is no double 
jeopardy. But I guess I am asking for your commitment, as a 
prospective Attorney General, your respect for the 
Constitution, to make a commitment that those young people will 
not be deported, that you will continue that policy that has 
been initiated.
    Senator Sessions. Certainly you are correct that that 
cohort of individuals should not be targeted and given priority 
anything like that which should be given to criminals and 
people who have had other difficulties in the United States--
those who have been ordered deported and had final orders of 
deportation. I understand what you are saying there. I think, 
until I have had a chance to think it through and examine the 
law and so forth, I would not opine on it myself.
    Number two, importantly, this is a policy of Homeland 
Security. They have got to wrestle with the priorities of their 
agents, how they should spend their time, and try to do that in 
the most effective way. So General Kelly will have to think 
that through. Simply, if some matter were litigated, we would 
try to be supportive of the litigating position, if possible. 
But it is really a Homeland Security question.
    Senator Blumenthal. I understand that Homeland Security may 
be involved, but ultimately, orders to deport are the 
responsibility of the Department of Justice to enforce. You are 
the nominee to be the Nation's chief law enforcement officer. 
And more importantly, in some sense you are a source of the 
Nation's conscience, legal conscience. And so I am asking you, 
as a prospective United States Attorney General, whether your 
conscience would be violated by using information submitted in 
good faith, by countless young people who have been in this 
country since infancy, many of them, and who trusted the 
Government of the United States of America to give them the 
benefit of that policy articulated by the President of the 
United States.
    You may have disagreed with that policy, but the submission 
of that information in good faith on the basis of 
representations by the United States of America, it seems to 
me, involve a prospective commitment on your part in 
representing the United States of America.
    Senator Sessions. Well, you make a good point, and that is 
a valid concern. I know of no policy that would suggest that 
something like that would be done, and I would not push for it. 
But ultimately the decision would be made by the Homeland 
Security Department. They decide their priorities for 
enforcement. I would not want to be in a position to say they 
would never be used, and I cannot make that commitment today. I 
have not thought it through as to what laws might be 
implicated. But if somebody were a terrorist or had other 
criminal gang connections, could you never use that 
information? I do not know. I am just not prepared to answer 
that today. It may not be possible to use it.
    Senator Blumenthal. Well, I recognize, Mr. Chairman, my 
time is up. But I will pursue this line of questioning again, 
because I feel I am midway through a number of questions.
    Thank you, Senator.
    Chairman Grassley. Before I call on the Senator from 
Hawaii, I would like to note that Pat Edington, former vice 
chair of the Alabama Democratic Party, wrote to our Committee 
in support of this nomination. Mr. Edington says, ``I truly 
hope our party will not make this vote on party lines, but 
instead vote on the man.'' Quote again, ``I have known him for 
approximately 40 years, and while we have had our policy 
differences, I know his instincts are fundamentally humane and 
just.'' I will, without objection, enter that in the record.
    [The letter appears as a submission for the record.]
    The Senator from Hawaii.
    Senator Hirono. Thank you, Mr. Chairman.
    Our Muslim-American community is gravely concerned about 
what a Trump presidency would mean for them. So can the Muslim 
Americans count on you, as Attorney General, to protect their 
constitutional and civil rights?
    Senator Sessions. Yes.
    Senator Hirono. Thank you. Very reassuring.
    [Laughter.]
    I had asked you earlier about consent decrees, to relate to 
police departments. I have a question along those lines, but it 
involves another part of civil rights. In 2015, a Federal 
district court in Alabama, your State, approved a consent 
decree order filed by the Department of Justice in the 
Huntsville City Schools case. And this was a school 
desegregation case.
    A number of other school districts throughout the country 
are under desegregation orders. Would you commit to maintaining 
and enforcing those decrees?
    Senator Sessions. Those decrees still remain in effect in a 
number of districts. Huntsville is a very strong, healthy, and 
well-managed school system. I believe they have good 
leadership. But a consent decree remains in effect until it is 
altered by the Court.
    Senator Hirono. So your answer is----
    Senator Sessions. They would be enforced until there is an 
alteration of it, yes.
    Senator Hirono. Thank you. I have a question about violence 
and the increasing number of threats against providers of 
health care services and abortion services to women.
    Since the November election, the number of threats online, 
many of them online, against the providers have more than 
tripled. Given the increasing numbers of violence targeting 
abortion providers, how high of a priority will it be for you 
to prosecute violence targeting abortion providers under the 
Freedom of Access to Clinic Entrances Act?
    Senator Sessions. They deserve the same protection that any 
entity--business or otherwise--is entitled to, when people 
violate the law and carry out improper threats or blockades of 
their business.
    Senator Hirono. Well, where there is----
    Senator Sessions. Even more so, because we have a specific 
law about abortion clinics, I believe.
    Senator Hirono. Yes. So there is a specific law that 
Congress passed that protects access to these clinics and where 
there is evidence of increasing number of threats of violence, 
I hope that that gets on your radar screen as a priorty for 
enforcement.
    Senator Sessions. As the law is to be applied, yes. I do 
not know exactly how the threats are worded, but if it is 
improperly done, they can be subject to criminal prosecutions 
and they would be evaluated properly, in my administration.
    Senator Hirono. And certainly where Congress cared enough 
about this particular area of access, that I hope that you 
would have a commitment to making sure that that law is being 
enforced in the way that we intended.
    Regarding birthright citizenship, people born in this 
country are U.S. citizens, regardless of the citizenship status 
of their parents. And there are those who argue that that is 
not enough to confer citizenship.
    Do you believe that there should be more required to become 
U.S. citizens?
    Senator Sessions. Well, under the current state of the law, 
it is accepted that they do obtain their citizenship. There are 
two obstacles to changing that. One would be congressional 
enactment, I believe, to change it, and even that congressional 
action could be construed as violative of the Constitution and 
not be a constitutional act. I have not reviewed the details of 
that. I do know there is some dispute about whether or not the 
Congress could change that status.
    Senator Hirono. But it is certainly not anything that, in 
the order of priorities, that you would pursue as Attorney 
General to ask Congress to change the law to require more than 
being born in this country to confer U.S. citizenship?
    Senator Sessions. I would be focusing my attention on 
enforcing the laws that exist, and I guess it would be 
Congress' duty to wrestle with whether to change it or not.
    Senator Hirono. On turning to a change in the law that came 
about after the Lilly Ledbetter case, the Lilly Ledbetter Act, 
and I know you are familiar with the factual circumstance in 
which Lilly Ledbetter did not know that she had been given 
disparate pay--that was illegal. She did not find out about it, 
and the Supreme Court said you only have 180 days in order to 
find this out, in order to have your day in court.
    So Congress had a bill which you voted against, and I am 
wondering why you voted against that bill. Because in making 
that decision, the Court basically abrogated years and years of 
legal precedent. It was a surprise to a lot of us that suddenly 
they were imposing 180-day, you-must-know kind of a 
requirement.
    But you voted against that bill. Can you tell us briefly 
why?
    Senator Sessions. We had a hearing on it in the Judiciary 
Committee. A number of witnesses testified, and the testimony, 
as I understood it, was that she did in fact have notice, that 
the Court found that she had notice, and that is why they held 
that the statute of limitations was enforced.
    You need a statute of limitations of some kind, and if they 
do not know, then you can allow it to continue indefinitely. 
But as I understood it, that was the ruling. So it was less 
problematic for future cases than was discussed, but my 
recollection is not perfectly clear on that issue. That was one 
of the factors I remember being involved in my decision.
    Senator Hirono. My recollection of the holding in that case 
is different from yours, because often in these pay 
discrimination cases, unlawful pay discrimination, the victim 
is not aware and has no way of finding out that such 
discrimination is occurring. And that is why the law made it 
very clear that every instance of a disparate paycheck would 
constitute a new violation, and that is all this bill did. 
Otherwise, the Lilly Ledbetters of the world would really be--
would be foreclosed from their day in court.
    So you obviously have a different understanding of the 
holding of the case.
    Senator Sessions. My memory is not that good. But if you 
have explicit notice, hypothetically, should every paycheck for 
the next 20 years restart the statute of limitations? So that 
was the legal question. However, my recollection is not 
perfect.
    Senator Hirono. I was very concerned about that case, and 
so I would say that perhaps my recollection of the holding is 
more accurate than yours.
    Let me turn to corporate wrongdoing. When I just met with 
you, you indicated that nobody is above the law. And there is, 
I think, an ongoing investigation on the part of the Department 
of Justice what Wells Fargo did in basically defrauding 
millions of their customers.
    So would you continue to pursue this kind of investigation, 
and would you also hold accountable individual corporate 
officeholders should there be found to have been a violation of 
law?
    Senator Sessions. Corporations are subject as an entity to 
fines and punishment for violating the law, and so are the 
corporate officers. And sometimes it seems to me, Senator 
Hirono, that the corporate officers who caused the problem 
should be subjected to more severe punishment than the 
stockholders of the company who did not know anything about it.
    Senator Hirono. That could not agree with me more.
    Thank you, Mr. Chairman.
    Chairman Grassley. Senator Franken, you said you had one 
more question you wanted to ask?
    Senator Franken. Could I ask two?
    Chairman Grassley. Go ahead.
    Senator Franken. By the way, Chairman, I must compliment 
you. You have deferred your time to us all, and I thank you.
    Chairman Grassley. I have not given it up. I have just----
    Senator Franken. No, you deferred it.
    Chairman Grassley. Please proceed. You are taking time.
    [Laughter.]
    Senator Franken. Okay.
    Senator, I would like to briefly return to something you 
said earlier about your opposition to VAWA and our courtesy 
visit. The second item of substance that we discussed was 
violence against Native women. I told you how important the 
issue is to me and to Tribes all over the country, and they 
have highlighted that for me time and time again. And when I 
provided you with a statistic demonstrating just how prevalent 
violence against Native women is and at the hands of non-
Indians, you expressed shock and said that you did not realize 
the extent of the problem.
    Over 84 percent of Native women experience domestic or 
sexual violence, and over 97 percent of them are victimized by 
non-Indians. That is a recent stat. But in 2012, all you had to 
do was talk to one Tribe, and you would have learned that women 
in Indian Country are regularly abused by non-Indians, who go 
unprosecuted and unpunished.
    If you take the issue of domestic and sexual violence 
seriously, I think it is incumbent upon you to visit at least 
one Tribe. I think Alabama has nine Tribes that are recognized 
in the State, is that correct?
    Senator Sessions. Well, I believe, only one Tribal group 
that has properties on Tribal lands.
    Senator Franken. The Poarch?
    Senator Sessions. Poarch Creek. Used to be in my district; 
I have had good relations with them. Been on that small Tribe's 
lands a number of times and visited their clinics.
    Senator Franken. Okay, good. Well, I would--if you are 
Attorney General--and even if you are not, but certainly if you 
are Attorney General, when you are back home you might take 
some time to talk with them about this issue. Earlier, you told 
Senator Hirono that you cannot commit to not challenging VAWA 
on these grounds. But you have also admitted that you did not 
understand the gravity of the problem of violence against 
Native women when you voted on it in 2013, or the extent of 
non-Indian violence.
    Would you just commit to me to spending a little bit of 
time with the Poarch Tribe? Thank you. That would be good.
    Senator Sessions. They have been supportive of me.
    Senator Franken. Thank you.
    I want to talk about one last thing.
    Chairman Grassley. You have got one more question.
    Senator Franken. Thank you. Thank you, Mr. Chairman.
    The day before the election, Candidate Trump came to my 
State for his only rally during the campaign. And let me tell 
you what he said. He was standing before a large crowd, and he 
accused Democrats of planning to ``import generations of 
terrorism, extremism, and radicalism into your schools and 
throughout your communities. Here in Minnesota,'' he said, 
``you have seen firsthand the problems caused with faulty 
refugee vetting and large numbers of Somali refugees coming 
into your State without your knowledge, without your support or 
approval, and with some of them joining ISIS and spreading 
their extremist views all over our country and all over the 
world.''
    I cannot begin to tell you how angry those comments made 
me, to see Candidate Trump hold his only rally in Minnesota at 
an airport where about a thousand Somalis, immigrants, work--
Somali Minnesota immigrants--work and earn--well, refugees, 
really. And to stoke that kind of fear and hatred was an 
insult, I believe, to every Minnesotan. It was offensive, it 
was irresponsible, but it was not really surprising. Candidate 
Trump made scapegoating immigrants and refugees and banning 
Muslims from entering our country a centerpiece of his 
campaign. Now, some of his advisers tried to spin or walk back 
his comments on the so-called Muslim ban, but you, Senator, no, 
you said that the idea was ``appropriate to discuss.''
    In June you said, ``We must face the uncomfortable reality 
that not only are immigrants from Muslim-majority countries 
coming to the United States, radicalizing, attempting to engage 
in acts of terrorism, but also their first-generation American 
children are susceptible to the toxic radicalization of 
terrorist organizations.''
    You said that our Nation has an ``unprecedented 
assimilation problem.'' You know, Senator, part of what makes 
that assimilation challenging is when people seeking to lead 
this country exploit fear and anxiety and redirect that fear 
toward our immigrant and refugee communities.
    Right after the election, my office got a call from a 
middle school teacher in St. Paul. Her school has a very 
sizable population of Somali-Americans, Somali-Minnesotan kids. 
Now, they are smart kids, so they have been paying attention to 
the election, and they were terrified. The teacher called my 
office and said, please, please have Senator Franken come to 
the school and give them some assurance. These kids did not 
know what to make of a country, their country, electing a 
leader who describes them and their families as worthy of 
hatred and suspicion. So I did my best to alleviate their fears 
that day. I told them, ``You are Americans.'' I said, ``You 
kids, you are Americans. Do not be afraid.''
    A couple of weeks later, I talked to the French Ambassador 
to the United States. I said to him, ``Who is defined as a 
Frenchman in France?'' And he said, ``Somebody who can trace 
back a couple of centuries to their family in a French 
village.'' Well, these kids are Americans, and we consider them 
American. And what we saw in Paris and what we saw, which was 
caused by Belgians, is because they take that attitude in 
Europe. We do not take this attitude, and it is dangerous to 
take it.
    One of the most beautiful events I have been to was the 
graduation--high school graduation, Wilmer, Minnesota, in June. 
I invited myself there because one of our pages, our Senate 
pages, was from Wilmer and she is Somali. A Somali Minnesota 
girl. When I saw her on Election Day, I was at the University 
of Minnesota; she graduated and went to the University of 
Minnesota. She told me her sister, her younger sister, was 
named the Wilmer Homecoming Queen. In Europe, they do not 
assimilate people. Here in the United States, we vote them 
Homecoming Queen.
    Thank you.
    Chairman Grassley. Senator Tillis.
    Senator Sessions. They are Americans.
    Chairman Grassley. Senator Sessions, if you want to 
respond, go ahead.
    Senator Sessions. Well, I think Senator Franken makes some 
important points, and I appreciate his comments.
    Senator Franken. Thank you.
    Chairman Grassley. Senator Tillis.
    Senator Sessions. Although I do believe my comment was 
unrelated to the event in your State.
    Chairman Grassley. Senator Tillis, you are entitled to 10 
minutes--first round, but you do not have to use it all.
    [Laughter.]
    Senator Tillis. I have learned nothing else except to 
understand what the Chairman means when he says that.
    Chairman Grassley. I want to do my second and third round.
    Senator Tillis. No, Mr. Chair, I am not going to take long. 
And Mr. Chair, you know, and Senator Sessions, I think that you 
know that I was in Tennessee today for the proud moment of 
seeing my brother sworn in to the legislature. However, I got 
up and watched the opening comments, your opening comment. You 
did an extraordinary job. And to be honest with you, I think 
you have demonstrated more stamina today than the Crimson Tide 
did last night against a worthy adversary.
    But Senator Sessions, I am not going to ask a lot of 
questions. I am going to tell you I thank you for your 
leadership. I think you and I have talked about this before, 
but I want to thank you again publicly about your leadership as 
a balanced chair and I think, as the late Arlen Specter said, 
an egalitarian.
    I have seen you sit on the Immigration Subcommittee, and 
you have seen me come to every one of those meetings and you 
know you and I have a difference of opinion on that matter. 
What is remarkable about you is you bring balanced panels to 
discuss the issue so that both sides can be heard, and you 
never, ever hesitated to let me speak as long as I want to, 
which I am sure was a lot longer than you wanted me to. And I 
really appreciate your leadership, because that is what is 
missing oftentimes up here in the Senate. And we are going to 
miss you, and I am going to look forward to voting for you and 
for your confirmation.
    I asked the same question of the Attorney General that was 
before this Committee two years ago, and I want to ask you 
because it is very important to me. I think the Department of 
Justice has issues. I think that the Inspector General's report 
is a good example, back in 2014, when I simply said, an 
Inspector General's report that says that they need to increase 
accountability in the Department of Justice--and I will get to 
a specific question in a minute--that we should act on it. I 
got a non-answer to that question. In fact, I got a better 
answer to a deputy who came back in, which is why I supported 
the deputy and I did not support the AG nominee.
    Could you tell me if you have had an opportunity to take a 
look at those recommendations and to what extent those 
recommendations would be instructive to you, now that you have 
become the--when you become the Chief Executive of that agency?
    Senator Sessions. I am glad you raised it and I hope you 
will stay on the Department of Justice to respond to it. I have 
not studied it. Some time ago, I believe, I had a briefing on 
the nature of it, but it does appear to me to raise fundamental 
questions about the good management of the people's money. That 
money needs to be managed effectively--every single dollar--to 
get positive results, not wasted. And I will be glad to hear 
any suggestions you have and it will be a priority of mine.
    Senator Tillis. Thank you.
    Senator Sessions. In fact, you are the third person that 
has raised it, and so I think what we need to do, and I will 
do, is an immediate analysis of it if I am so fortunate as to 
be confirmed.
    Senator Tillis. Thank you, because we will be following up 
on it. This is something that I think is very important to me. 
And really a specific question in that regard, I hope you will 
look at it, and when you get confirmed, make it a priority to 
look into.
    As a part of the report, I believe it was said that some 
DOJ employees engaged in prosecutorial misconduct and perjured 
themselves in court. If you find that to be substantiated, what 
would you do with the people in the DOJ who were guilty of such 
actions?
    Senator Sessions. The Department of Justice is a great 
institution. Most of the people are people of the highest 
character and ability.
    Senator Tillis. Without a doubt.
    Senator Sessions. However, we have had a series of problems 
over time that seem to me to be worthy of concern, broadly. And 
I think it would be important for the next Attorney General to 
try to revitalize and re-emphasize the absolute commitment that 
a Federal prosecutor must have to do justice and not just win a 
case.
    And also, it is hard for lawyers in Washington who get sent 
out to the field to try a big, important, high-profile case; 
they do not know the community very well. Maybe they have not 
tried as many cases as a United States Attorney in the field 
that does that every day. Things can go wrong. We need to do 
better.
    Senator Tillis. Well, I thank you for that. Also, just by 
way of comment, the Chair lifted a stack of letters that 
remained unanswered by the current Attorney General and the 
DOJ. He did cite that he expects you to respond, at least to 
the one that you signed, but I hope you will actually respond 
to all of them. To the Chair's credit, not only from the Chair, 
but from the Ranking Member and Members of this body who are 
trying to make the DOJ the best it can possibly be.
    Finally, I will just yield back the rest of my time after 
saying that I watched--I probably watched a good 3 hours of the 
proceedings today. I was struck at one point when some were 
casting doubt about you in terms of your view of ethnicity and 
a number of other backgrounds. What struck me the most about 
that picture on TV was your wife's eyes welling up because she 
and your son know you well. Many of us know you well. And I 
think all of us know that you are going to make a great 
Attorney General. You are a fair-minded man, and you are going 
to obey the law. You will no longer be a lawmaker, which I know 
from time to time is probably going to frustrate you. But I 
have no doubt in my mind you will be one of the best Attorney 
Generals; you will faithfully execute the law, you will enforce 
the law, and you will do it in a fair and impartial manner. And 
I cannot wait to see you in action.
    Thank you, Senator Sessions. Thank you, Mr. Chair.
    Senator Sessions. Thank you.
    Chairman Grassley. Before we start the fourth round, I do 
not think you have had your third round, Senator Sasse, so 
proceed.
    Senator Sasse. Thank you, Mr. Chairman.
    Chairman Grassley. You have got 8 minutes. You do not have 
to use it all.
    Senator Sasse. Thank you for the counsel for a rookie. I 
also did not think I could talk about college football, but 
Senator Tillis already broke that bubble. Senator, Nebraska 
1995 remains the best team in the history of college football. 
I think we can all agree after last night.
    [Laughter.]
    Senator Sasse. I would like to ask you a question about sue 
and settlement. I have heard from Nebraskans how regulations 
are gamed by activists to try to change Federal policy through 
lawsuits and settlements rather than through the making of law 
in the Congress. Federal agencies and activist groups are often 
assumed to have been sort of colluding to do this to circumvent 
the Congress, and I am curious as to what you think when 
plaintiffs and the Government enter into a settlement to try to 
change policy.
    What is the appropriate role of the Department of Justice 
to make sure that that agreement does not circumvent the law 
and the Congress and the Administrative Procedure Act?
    Senator Sessions. The Department of Justice has final 
settlement authority in any case against the United States, 
although they can listen to and see their role as being 
supportive of the agency. So if Homeland Security or the 
Department of Education or EPA is being sued, they have the 
power to make the final judgment, and their responsibility is 
to protect the public interest, the national interest, and to 
make sure the law is followed.
    There has been in State court, and sometimes in Federal 
court this sue and settlement, this consent decree that we have 
been talking about. I pointed out that it is, at times, 
controversial. So if the officials at the Environmental 
Protection Agency believe that a law should be expanded and 
they are sued by a group that wants to expand the law in the 
same way, and if the Department of Justice goes along with the 
agency and agrees to a settlement and gets a court to order 
this to occur, then the Government is bound by their settlement 
agreement. The democratic process is eroded because a decision 
is being made by unelected people and not the legislature.
    So you understand, and I think that was a fundamental part 
of your question, I do believe a good Department of Justice 
needs to be alert to that and should not feel obligated to 
settle a case on the terms that any agency might think, but 
make sure the settlement is legal and justified and in the 
national interest.
    Senator Sasse. And there have been occasions, there have 
been reports that it has been the practice of DOJ at times to 
force violators to make certain payments to approved third 
parties as a condition of settlement. As a hypothetical, there 
have been discussions about whether or not a bank that was, 
again hypothetically, fined by the DOJ might see its penalties 
reduced if it made payments to a designated not-for-profit.
    When, if ever, is it appropriate for the Department of 
Justice to require payments to any third party as a part of a 
settlement?
    Senator Sessions. I think that is a very dubious practice. 
I would be cautious about it, and we would have to make sure it 
is justified. And normally that is not the best way to settle a 
case, in my opinion.
    Senator Sasse. And, finally, the Judgment Fund that the 
Department of Justice administers is a general fund that is 
available to compensate those who sue the Government and win. 
Unfortunately, how this money ultimately gets used is not fully 
known by the Congress.
    Will you commit to making public the use of these funds?
    Senator Sessions. The funds that are not paid out or funds 
that are paid out as part of a litigation?
    Senator Sasse. In the Judgment Fund, the Department has the 
discretion to determine how to settle these cases and what 
payments to make. But the Congress and the public often do not 
know where this money goes.
    Would you commit, as Attorney General, to being transparent 
with where the funds go out of the Judgment Fund?
    Senator Sessions. I would be surprised if it is not public, 
and it should be available to the public. They should know how 
a lawsuit is settled and where the money went, absolutely.
    Senator Sasse. Thank you, Senator.
    Chairman Grassley. Before Senator Blumenthal follows up on 
some things he wanted to, we received a letter in support of 
Senator Sessions' nomination from 108 former U.S. Attorneys who 
served under every President since President Nixon. They say, 
``We have no doubt that Senator Sessions can do the job well, 
bringing to this critically important office his own unique and 
extraordinary strengths of courage, humility, experience, and 
an inviolable promise to treat all people equally under the 
law.''
    Without objection, I will insert that in the record.
    [The letter appears as a submission for the record.]
    Chairman Grassley. Senator Blumenthal.
    Senator Blumenthal. Thanks, Mr. Chairman.
    Senator Sessions, in response to one of Senator Tillis' 
questions, you said that the job of the Attorney General is to 
do justice, not necessarily to win a case. And I think that is 
almost an exact quote from Justice Jackson when he was United 
States Attorney General. It is one of my favorite quotes. I 
think he said the role of the United States Attorney or a 
Government lawyer is to do justice, not necessarily win a 
conviction. And that is why I feel that the role of Attorney 
General ought to be the legal conscience for the Nation, as I 
was remarking earlier.
    So I hope that you will reconsider what you have said about 
the DACA policies and assert an independent view based on the 
Nation's conscience, or what it should be, about what has 
happened to those young people. Likewise, on issues like 
Deutsche Bank, which you and I have discussed privately, and 
where I think there ought to be an investigation focusing on 
individual culpability, and perhaps in some of these other 
investigations as well, where an independent counsel may be 
necessary; and, similarly, your response on recusal from votes 
on your prospective colleagues appointed by the President-elect 
where you have not yet responded to the letter that I wrote.
    I am not going to take more time this afternoon or tonight, 
but I think that I remain unsatisfied on those questions. And, 
in general, I think that the role that you would have as United 
States Attorney General ought to be not just another Government 
lawyer, but as a champion of civil rights and liberties and the 
Nation's legal conscience. And thank you, Mr. Chairman, for 
giving me this opportunity.
    Senator Sessions. Thank you, Senator Blumenthal, and I 
respect your history as a prosecutor and United States Attorney 
and time in the Department of Justice.
    Senator Blumenthal. Thank you.
    Chairman Grassley. Thank you, Senator Blumenthal.
    Senator Sessions, you have been a vocal champion for 
American workers, especially as we have heard so much about how 
American workers are being laid off and replaced by cheaper 
foreign labor imported through some of our visa programs. You 
have been a cosponsor of a bill sponsored by me and Senator 
Durbin that would reform H-1B visa programs by ensuring that 
qualified American workers are considered for high-skilled job 
opportunities before those jobs can be offered to foreign 
nationals. It also would prohibit companies from hiring H-1B 
employees if they employ more than 50 people and more than 50 
percent of their employees are H-1B or L-1 visa holders.
    This provision would crack down on outsourcing companies 
that import a large number of H-1B and L-1 workers for short 
training periods and then send these workers back to their home 
countries to do the work of U.S. workers.
    In 2013, you and I seemed to be the lone Senators on this 
Committee who fought for U.S. workers. We argued that the Gang 
of Eight bill that would have increased the number of foreign 
workers who came in on H-1B visas and actually hurt Americans 
who were qualified and willing to do those jobs, we said that 
the bill failed to adequately protect U.S. workers and 
neglected to hold employers accountable for misusing the H-1B 
and L-1 visa programs.
    We tried to provide more protection for U.S. workers. We 
tried to ensure that no business imported foreign workers 
before making a good faith effort to hire people at home. We 
tried to expand the ability for Government to audit employers. 
We offered amendments that were supported by the AFL-CIO. In 
April 2015, you helped lead eight other Senators in a letter to 
then-Attorney General Holder, Secretary of Homeland Security 
Johnson, and Secretary of Labor Perez on this issue. Some of 
those who signed that letter sat on this panel today, for 
instance, Senator Durbin and Senator Blumenthal. That letter 
requested that the Obama administration investigate abuse of H-
1B visa programs by companies, including Southern California 
Edison, Disney, and IBM, that have been laying off American 
workers and replacing them with H-1B workers, in some cases 
reportedly making the American workers train their own 
replacements.
    The Office of Special Counsel for Immigration-Related 
Unfair Employment Practices is an office within your Department 
that you will head. That enforces the anti-discrimination 
provisions of the Immigration and Nationality Act. While the 
office is designed to protect foreign nationals with employment 
visas from discrimination, it is also charged with ensuring 
that American workers are not discriminated against in the 
workplace.
    Many U.S. worker advocates believe, for example, that the 
layoff of American workers and the replacement by cheaper, 
foreign H-1B workers constitutes de facto nationality-based 
discrimination against American workers. The Obama 
administration has failed to protect American workers here.
    This is my question: Will you be more aggressive in 
investigating the abuses of these visa programs?
    Senator Sessions. Mr. Chairman, you know, I believe this 
has been abused, and I have been pleased to support your 
legislation, and some others' too, that I believe could be 
helpful. It needs to be addressed. It is simply wrong to think 
that we are in a totally open world and that any American with 
a job can be replaced if somebody in the world is willing to 
take the job for less pay. We have borders. We have a 
commitment to our citizens. And you have been a champion of 
that. I have been honored to work with you on it. Thank you for 
your leadership. I would use such abilities that I have to help 
address that.
    I think it also does require legislation like you have 
offered--you and Senator Durbin. I believe legislation may be 
necessary to have the kind of reforms that we need.
    Chairman Grassley. I appreciate your answer. We will 
continue to push for the legislation. We have been very 
difficult moving that legislation along because of business 
oppositions within our country. So whatever you can do in 
regard to being more aggressive, investigating the abuses of 
our visa programs, will help solve some of the problems if we 
do not get legislation passed. But we still intend to pursue 
that.
    Now on another point, as you know, relationships between 
law enforcement and the communities they serve have been 
strained. You have already spoken to that in your opening 
comments. In many instances, police have been specifically 
targeted.
    Now tomorrow, it is my understanding, the president of the 
Fraternal Order of Police will testify about this issue. But I 
would also like to hear from you on this point. We obviously 
need to figure out a way to fix these relationships and restore 
mutual trust and respect for law enforcement.
    What role can you play as Attorney General in this, and 
what role can the Department play more broadly?
    Senator Sessions. It is essential that this Nation support 
those that we send out to provide public safety and affirm 
their good deeds. If they make mistakes and commit crimes, then 
they have to be prosecuted like anyone else would who commits a 
crime and violates the law, but fundamentally, the overwhelming 
majority of our law officers are dedicated, faithful 
individuals, serving their country and their community with 
discipline and integrity and courage.
    So I think this is an important matter. We need to guard 
against the kind of public statements that have troubled me in 
recent months and years in which we seem to dismiss and take 
sides against the entire law enforcement community, where we 
suggest that the law enforcement community is not a positive 
factor, and that all officers are not performing at a high 
level. So, I believe that. I will do my duty to correctly 
distinguish between wrongdoing by individuals and the entire 
law enforcement community.
    Deaths of law enforcement officers are up 10 percent over 
the last year. The number of policemen and law officers who 
have been killed with a firearm is up, I think, 58 percent. 
Some stunning numbers, and part of this is a corrosion of 
respect between the communities and law officers. I think it is 
a dangerous trend we must reverse and reverse soon.
    Chairman Grassley. My next question deals with agricultural 
antitrust. I do not believe that there should be political 
decisions involved in antitrust decisions in your Department. 
But there are several high-level agricultural mergers going on 
right now, one before DOJ, one before the FTC, and then there 
is another one I do not think has been assigned yet. I come 
from the standpoint of being in agriculture with a general--
just a very, I guess ideological belief that when you have less 
companies, you have less competition, you have higher prices 
for inputs. That is in agriculture, but that would be true of 
any segment of the economy.
    I also--before I ask this question--want to make a point 
that I do not think there are enough people in the Department 
of Justice that know much about farming. And one time, maybe 
10, 15 years ago, I got some administration--I do not know if 
it was a Clinton one or the Bush one--to say they were going to 
have somebody in the Antitrust Department that knew something 
about agriculture, and I think they did put somebody there. I 
do not know whether that person is still there or not.
    So this is my question: I am concerned about increased 
consolidation and possible anticompetitive business practices 
in the agricultural industry. Currently, the Antitrust Division 
is reviewing several significant mergers and acquisitions in 
the agricultural sector.
    Do I have your commitment that the Justice Department will 
pay close attention to agribusiness, competition matters, and 
carefully scrutinize proposed agriculture mergers and 
acquisitions, and can you assure me that the agricultural 
antitrust issues will be a priority for the Justice Department 
if you are confirmed as U.S. Attorney General?
    Senator Sessions. There has been controversy on a number of 
those issues over the years that I am, generally, aware of. 
Without committing and commenting on any particular case, I 
will, Senator Grassley, be pleased to honor your request.
    Chairman Grassley. In 1986, 10 years before you came to the 
United States Senate, I got the False Claims Act passed. It has 
brought 53 billion dollars back into the Federal Treasury since 
then.
    If you are confirmed, will you pledge to vigorously enforce 
the False Claims Act and devote adequate resources to 
investigating and prosecuting False Claims Act cases?
    Senator Sessions. Qui tam provisions are a valid and 
effective method of rooting out fraud and abuse. I even filed 
one myself one time as a private lawyer. So these are important 
issues that you have been a leader on. It has saved this 
country lots of money and probably has caused companies to be 
more cautious because they could have a whistleblower that 
would blow the whistle on them if they try to do something that 
is improper. So I think it has been a very healthy thing. You 
are to be congratulated for that, and I do support that act.
    Chairman Grassley. You took care of my second question I 
was going to ask you on qui tam. And you said that 
whistleblowers are very important. I am glad to hear you say 
that. I do not know whether they get enough support. I hope you 
give priority to that, because a great number of the qui tam 
places come from the outside, not from the inside.
    Will you provide Congress with regular--this is the last 
point on this one. Will you provide Congress with regular 
timely updates on the status of FCT, False Claims Act cases, 
including statistics as to how many are under seal and the 
average length of seal time?
    Senator Sessions. I would do that. My experience has been 
that they take an awfully long time.
    Chairman Grassley. That is exactly why I am asking the 
question. And updates from time to time, I think, will keep 
people within your Department more responsive and responsible.
    Senator Sessions. I understand that. I do not know if a 
report is required now, but I do not see why it would be 
particularly difficult to provide that to you.
    Chairman Grassley. Okay. I have a long lead-in to another 
question. I am just going to ask you if you would tell us, for 
the record, your reasons for opposing the 2013 Immigration 
Bill.
    Senator Sessions. Mr. Chairman, fundamentally, I believe 
that it would not end the lawlessness, and it would grant 
amnesty. That is the position that fundamentally caused you 
concern, because in 1986, there was an amnesty given and a 
promise of enforcement in the future. And it did not happen.
    So, instead of 3 million people, the estimates are that we 
now have 11 million people here unlawfully. This is not the 
kind of policy a great nation must have. We need to have a 
lawful system that we can be proud of, that the world knows 
works, that people stop coming illegally because they do not 
think they will be successful in the attempt, and we could see 
a dramatic reduction in illegality and we could all be pleased 
to see that result occur. We will have to call on Congress to 
help some.
    You understand the issue, and you have been supportive, but 
we may have to pass some legislation. Not a lot can be done 
with current law, but I would love to be part of an effort with 
this Committee to restore the immigration system to the high 
level at which it ought to be.
    Chairman Grassley. I want to return to the issue of 
Violence Against Women Act. I know that for me, that bill did 
not do enough to fight fraud and abuse. That is why I 
introduced a substitute amendment that would have given more 
money to victims by fighting fraud and abuse that was 
discovered in the program. It would have ensured that no money 
under the program was used to lobby Congress. It also would 
have had limited the amount of funding in the program that 
could be used for administrative fees and salaries.
    In addition, my substitute amendment developed harsher 
penalties for Federal conviction of forcible rape, which the 
bill that passed weakened. It also addressed child pornography, 
and aggravated sexual assault, neither of which were addressed 
in the bill that is now law. Finally, my substitute amendment 
combatted fraud in the award of U visas to ensure true victims 
were protected.
    My question, as you mentioned, you voted for my substitute 
amendment that was stronger in many respects than the bill that 
was passed: Will you enforce the law that was passed?
    Senator Sessions. Yes, I will, Mr. Chairman.
    Chairman Grassley. That is probably the tenth time you 
answered that today, but thank you for being with me.
    I want to speak about the Board of Immigration Appeals. It 
is the highest administrative body for interpreting immigration 
laws, hearing appeals rendered by immigration judges. This 
Board, which is under the Attorney General's purview, has 
published some very problematic precedent decisions the past 
several years. The Board of Immigration Appeals decisions are 
binding on all immigration officers, including Homeland 
Security Officers and Immigration Judges unless overturned by 
the position you are seeking or a Federal court.
    Will you, or someone on your team, commit to taking a hard 
look at all precedent decisions made by this Board?
    Senator Sessions. Mr. Chairman, that does appear to be a 
power or an ability of the Attorney General which I have not 
thoroughly studied. Any changes would need to be carefully 
done, and thought out in a principled and honorable way. I 
would do that, and if changes need to occur, and I have the 
ability to do it, I will try to conduct myself properly in 
making those changes.
    Chairman Grassley. Two more points. Oversight by Congress 
is important. You have already said that. I am glad you know 
the necessity of that. But Congress cannot do all the oversight 
needed on its own. We need to rely on strong Inspectors General 
to provide another independent assessment on the operations 
within the executive branch. That is why that position was set 
up in 1979, I believe.
    Do you agree that independence is the hallmark of an 
Inspector General's integrity and effectiveness and if you do, 
please elaborate. The reason I ask the question is, probably it 
happens in more departments, but I pay a lot of attention to 
DOJ, and I think there has been some problems within DOJ of 
recognizing and cooperating with the independence of the 
Inspector General.
    Senator Sessions. Yes, that independence should be 
respected and should be had. I am familiar with some cases in 
which the independence of the Inspector General is less than 
that, in general, throughout the Congress, and I have been 
willing and interested in strengthening their independence.
    It is a challenge. The Inspector General is appointed by 
the agencies for the most part, I believe. But if they are not 
seen as independent, then they cannot be the effective body 
that we would like them to be. They have staffs. They have the 
ability to contribute to saving money. I believe in the 
Inspector General's process.
    Chairman Grassley. Before I ask the last question, whatever 
reputation I have for investigation and oversight, probably, 
maybe even 90 percent of the leads we get come from 
whistleblowers. And whistleblowers within an agency are 
generally treated like skunks at a picnic. I hope that--I do 
not know how many thousands or tens of thousands of employees 
you are going to be administering over. You cannot possibly 
know what goes on with all those employees. I hope you will 
give encouragement to whistleblowing, and that you will listen 
to them.
    Once in a while you have a crank, but for the most part, 
these are just patriotic people that want the Government to do 
what the Government is supposed to do, or spend money the way 
the Government is supposed to spend it. And then when they do 
not get anything going up the chain of command, that is when 
they become whistleblowers and they come to us. And by that 
time, even if they are protected under law, they still ruin 
themselves professionally. So I hope that you see them as a 
source, so you can administer a better Department and do what 
the Government is supposed to do.
    In regard to that, I would appreciate it if you would 
provide Congress with accurate and timely information regarding 
any action taken, administrative or criminal, against 
individuals who retaliate against whistleblowers because it is 
against the law to retaliate.
    Senator Sessions. You are correct about that. And it is not 
acceptable to retaliate against a whistleblower. Some have been 
known to be cranks, as you indicated, but you cannot 
effectively manage this Government without good citizens and 
good employees speaking up when they see wrongdoing. You have 
established a reputation as someone willing to receive that 
information and act on it and then defend the individual who 
had the courage to come forward. We need more of that in this 
Government.
    Chairman Grassley. I thank you very much. I would like to 
have you and other people listen to a couple of points I want 
to make at the tail end.
    I want people to know that we will keep the record open 
until Monday for questions, and you know what to do with those 
when you get them.
    I want to thank everybody who participated, including those 
in the audience, but most importantly, thank you for your 
testimony today, and for answering our questions, and doing it 
very thoughtfully and very thoroughly. You performed, I think, 
admirably, and showed this entire country what we all know from 
serving with you. You are eminently qualified to serve as 
Attorney General, and I have every confidence that you are 
going to do a superb job.
    Senator Sessions, you are excused. We will reconvene 
tomorrow morning at 9:30 for Panel II.
    [Whereupon, at 8:02 p.m., the Committee was recessed, to 
reconvene at 9:30 a.m., Wednesday, January 11, 2017.]
    [Additional material submitted for the record for Day 1 
follows Day 2 of the hearing.]



                      CONFIRMATION HEARING ON THE
                    NOMINATION OF HON. JEFF SESSIONS
                         TO BE ATTORNEY GENERAL
                          OF THE UNITED STATES

                              ----------                              


                      WEDNESDAY, JANUARY 11, 2017

                              United States Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:35 a.m., in 
Room SR-325, Russell Senate Office Building, Hon. Charles E. 
Grassley, Chairman of the Committee, presiding.

    Present: Senators Grassley, Hatch, Graham, Cornyn, Lee, 
Cruz, Flake, Tillis, Sasse, Crapo, Feinstein, Leahy, Durbin, 
Whitehouse, Klobuchar, Franken, Coons, Blumenthal, and Hirono.

         OPENING STATEMENT OF HON. CHARLES E. GRASSLEY,
             A U.S. SENATOR FROM THE STATE OF IOWA

    Chairman Grassley. Good morning, everybody. I welcome 
everyone back for our second day of the hearing on Senator 
Sessions' nomination for Attorney General. As I said yesterday, 
I want everyone to be able to watch the hearing without 
obstruction. If people stand up and block the views of others 
behind them, or if they speak out of turn, it is not fair or 
considerate to others, so officers will remove individuals, as 
they have previously.
    Before we begin with opening statements from the panel, I 
want to go over a couple of housekeeping items and explain how 
we are going to proceed today.
    Senator Whitehouse will be acting as Ranking Member today, 
and I will give an opening statement, and he can if he wants to 
as well. I welcome that. Then we will turn to our witnesses for 
their opening statements. Following their statements, we will 
begin with the first round of questions in which each Senator 
will have 7 minutes. After we finish asking questions of the 
first panel, we will turn to the final panel for their 
testimony. And in regard to the timing of that, it will kind of 
depend upon when this panel is completed. But if we get this 
panel completed, let us say, around lunch or 12:30 or 1 
o'clock, we may adjourn for an hour or so at that time. But I 
will not be able to make that determination until we finish 
here with this panel.
    Yesterday, we met here from 9:30 until about 8 p.m. so that 
every Senator, both Democrat and Republican, could ask Senator 
Sessions as many questions as they wanted to. We had great 
cooperation yesterday, and I should thank everybody for that 
cooperation, and we will press ahead today.
    We heard from Senators Shelby and Collins who gave their 
strong endorsement of Senator Sessions. Their introductions 
described Senator Sessions' extensive experience, outstanding 
qualifications, and character.
    I also want to note that yesterday Senator Feinstein 
participated in her first nomination hearing as the new Ranking 
Member. I am looking forward to working with her in her new 
capacity, as I said yesterday.
    In her opening statement yesterday, Senator Feinstein 
correctly observed, and I would like to quote, a fairly long 
quote: ``Today we are not being asked to evaluate him''--
meaning Senator Sessions--``as a Senator. We are being asked to 
evaluate him for the Attorney General of the United States--the 
chief law enforcement for the largest and best democracy in 
America.'' She continued, ``As Attorney General, his job will 
not be to advocate for his beliefs. Rather, the job of Attorney 
General is to enforce Federal law, even if he voted against a 
law, even if he spoke against it before it passed, even if he 
disagrees with the precedent saying that the law is 
constitutional.'' Then she concluded, ``This hearing must 
determine whether this Senator will enforce the laws that he 
voted against.''
    And yesterday, through 10\1/2\ hours of testimony, we got a 
clear and unequivocal answer to this threshold question. He was 
asked repeatedly if he would enforce the law, even if he 
disagreed with that law as a matter of policy.
    Time and again, Senator Sessions reaffirmed his commitment 
to this fundamental principle. As Attorney General of the 
United States, his solemn duties, as we all know and expect, 
are to the Constitution and to enforce the laws duly enacted. 
His fundamental commitment to the rule of law emerged as a 
central theme of our discussion yesterday. And as I made clear 
in my opening statement, that is what I believe the Department 
desperately needs.
    Yesterday's testimony further convinced me that Senator 
Sessions is the right choice to serve as our Nation's chief law 
enforcement officer at this critical time. We know that he is 
very well qualified for the position, having served for 15 
years as a prosecutor and now 20 years as a Senator, so that is 
three decades of public service.
    We all know Senator Sessions will be up front with you. 
When he says that he is going to do something, he will do it. 
Senator Sessions will be an independent Attorney General, as he 
has been asked so many times yesterday and about his 
enforcement of the law. That is the bottom line.
    I now turn to Senator Whitehouse.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE,
         A U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. Thank you very much, Chairman. Let me 
just make some very brief remarks.
    First, I cannot help but note, as a general proposition, 
hearing after hearing, the effort to push nominees into 
confirmation hearings before their FBI background checks are 
complete, before their ethics and financial disclosure filings 
are concluded, and I would like to put into the record of this 
hearing the letter that Senator Schumer, Minority Leader 
Schumer, wrote to Majority Leader McConnell in which he took a 
letter that Majority Leader McConnell had written to--Minority 
Leader McConnell had written to Majority Leader Reid and simply 
changed the names. He wrote ``Dear Mitch'' in place of ``Dear 
Harry,'' and he signed his own name at the bottom. And it was, 
thus, a verbatim letter, and what we have been asking for is 
exactly what Republicans have asked for over and over again, 
what has long been the tradition of the Senate.
    It is not the Senate's fault that the Trump administration 
was not prepared and that it did not have its nominees vetted 
in place. I know that Senator Sessions has been one of the 
nominees who has been prepared, but I cannot help but point out 
that across the board, the ramming of unvetted nominees, the 
stacking of hearings on top of hearings, and the jamming of all 
of this up against an unprecedented vote-a-rama for a no-
hearing budget creates, I think, an unfortunate new precedent 
in the Senate.
    The point that I will make about the Department of Justice, 
as somebody who has served in the Department of Justice, like 
many of my colleagues or a number of my colleagues, is that I 
think there is legitimate concern based on the hectoring in the 
right-wing groups for a general housecleaning of career staff 
and for a particular targeting of named career staff. As I 
mentioned in my questioning yesterday, one of the Heritage 
Foundation spokespeople made the comparison to the Augean 
stables and ``filth'' as having to be washed out of the Augean 
stables. I do not think it is fair to characterize the career 
employees of the United States Department of Justice as 
``filth,'' nor do I think it is proper to assert that this 
should not be secular. And I think it is a matter of concern 
when an Attorney General thinks that a secular attorney may 
have a lesser or a different appreciation of truth than a 
religious attorney. Particularly coming from Rhode Island, 
where freedom of conscience has been such a principle of core 
value since the days of Roger Williams when Providence was a 
tiny settlement in the wilderness where people who thought 
freely were able to get away from the theocracy of 
Massachusetts, we have a long history of concern about that 
kind of evaluation of career department professionals.
    Finally, I would say that after a very divisive campaign 
that left a lot of Americans and a lot of communities feeling 
very wounded and very vulnerable and very set upon, and after a 
promise that he would be President for all Americans over and 
over and over and over again, we are seeing an array of Cabinet 
nominees who run far to the right and, frankly, in many cases 
come out of the swamp that the President-elect promised to 
drain.
    So I thank you, Mr. Chairman, for the, I think, thoughtful 
and fair way in which you have run this hearing. I thought that 
Senator Sessions handled himself very well by staying until all 
the questions were answered. I appreciate the procedure that 
you have gone through, but I did want to make a record of those 
concerns from our side about the larger process in which these 
nominations hearings are taking place.
    And with that, I yield back to you, sir.
    Chairman Grassley. Thank you.
    Before we swear witnesses and I introduce them, I promised 
Senator Coons a point of personal privilege on one of the 
nominations.
    Senator Coons. Thank you, Mr. Chairman. I had asked for the 
opportunity to introduce my friend and colleague from law 
school, Cornell Brooks, but I am perfectly happy to wait to do 
so until there are other introductions afoot or to do it right 
now.
    Chairman Grassley. I would rather have you do it now, if 
you would, please.
    Senator Coons. Okay. Thank you, Mr. Chairman.
    I am pleased to introduce Dr. Cornell Brooks, the president 
and CEO of the NAACP as one of our many witnesses on this 
distinguished panel here today. Mr. Brooks has dedicated his 
entire career to ensuring that Americans truly enjoy the 
promise of equal protection of the law.
    Before assuming leadership of the NAACP in 2014, he was 
head of the Newark, New Jersey-based Institute for Social 
Justice, and fittingly for a hearing on the nominee to lead the 
Department of Justice, his early experience was being a part of 
the Department of Justice as a trial attorney, where he secured 
the then-largest Government settlement for victims of housing 
discrimination and filed the Government's first lawsuit against 
a nursing home alleging discrimination based on race.
    He was also executive director of the Fair Housing Council 
of Greater Washington, a trial attorney with the Lawyers' 
Committee for Civil Rights Under Law, and a law clerk to the 
Honorable Samuel J. Ervin, III, on the Court of Appeals for the 
Fourth Circuit. He is a fellow alum of Yale Law School, holds a 
Master of Divinity degree from Boston University School of 
Theology. He is not just a lawyer and social advocate but a 
fourth-generation ordained minister in the African Methodist 
Episcopal Church, a husband, and father of two sons.
    Mr. Brooks, thank you for your leadership in the work of 
justice around our Nation, and I look forward to your testimony 
here today.
    Thank you, Mr. Chairman.
    Chairman Grassley. You bet.
    I am going to ask you to stand and swear you in before I 
introduce you. Would you raise your right hand? Do you affirm 
that the testimony you are about to give before this Committee 
will be the truth, the whole truth, and nothing but the truth, 
so help you God?
    Mr. Mukasey. I do.
    Sergeant Vazquez. I do.
    Mr. Kirsanow. I do.
    Ms. Swadhin. I do.
    Ms. Sepich. I do.
    Mr. Brooks. I do.
    Mr. Canterbury. I do.
    Mr. Cole. I do.
    Mr. Thompson. I do.
    Chairman Grassley. Okay. I notice that all of you have 
affirmed that. Thank you very much. Please sit down.
    The 81st Attorney General of the United States was the 
Honorable Michael Mukasey. Mr. Mukasey has also served as a 
U.S. Attorney and a district court judge in the Southern 
District of New York. We thank him for coming.
    Our second witness is Oscar Vazquez. He became a citizen of 
the United States in 2011 and served honorably in Afghanistan 
with the U.S. Army. We welcome you and thank you, obviously, 
for your military service.
    Our next witness, Peter Kirsanow, is a member of the U.S. 
Commission on Civil Rights and is very familiar with this 
Committee, and we are familiar with you. Thank you for coming.
    Next is Amita Swadhin. She is a sexual assault survivor and 
co-founder of Mirror Memoirs. I hope I am right on that. 
Welcome to you.
    Then we have Jayann Sepich, the mother of Katie Sepich. She 
is the founder of Surviving Parents Coalition.
    Our next witness, Cornell Brooks, you have heard 
introduced, but let me further say that he is president of the 
National Association for the Advancement of Colored People, and 
he is well known to us as well. Thank you for being here today.
    Chuck Canterbury is the national president of the Fraternal 
Order of Police. He is familiar to a lot of us as well, so we 
welcome you.
    Next we will hear from David Cole, national legal director 
of the American Civil Liberties Union. He is also a professor 
at the Georgetown Law Center. We welcome you.
    And, finally, we will hear from Larry Thompson. He served 
as Deputy Attorney General under President Bush, as a well-
known U.S. Attorney for the Northern District of Georgia, and 
welcome back to the Committee, Mr. Thompson.
    So I think we will start with Mr. Mukasey, and we are going 
to hear testimony from all of you, and then we will have 
questions, as I indicated, 7-minute rounds. So proceed, will 
you, General Mukasey?

STATEMENT OF HON. MICHAEL B. MUKASEY, FORMER ATTORNEY GENERAL, 
           U.S. DEPARTMENT OF JUSTICE, WASHINGTON, DC

    Mr. Mukasey. Thank you, Chairman Grassley, Ranking Member 
Whitehouse, Members of the Committee. This is one of those 
occasions that is both an honor and a pleasure: an honor to 
appear before this Committee and a pleasure to speak to the 
qualifications of Senator Sessions to serve as Attorney 
General.
    I have submitted a statement to the Committee, and I am 
happy to answer any questions relating to it or to any other 
subject that the Committee thinks is relevant to passing on the 
qualifications of Senator Sessions. But, of course, I am here 
for the convenience of the Committee, not simply to orate. And 
after watching yesterday's hearing and Senator Sessions' 
responses to the Committee's questions, I think the only thing 
I have to add to what I have already submitted at this point is 
to say that the person you saw and heard yesterday is very much 
the person I came to know beginning in 2007 when I first 
appeared before this Committee: principled, intelligent, 
knowledgeable, thorough, modest, and thoroughly dedicated to 
the rule of law and to the mission of the Department, which is 
to enforce the law and to preserve our freedoms.
    So I thank you very much for hearing me.
    [The prepared statement of Mr. Mukasey appears as a 
submission for the record.]
    Chairman Grassley. Does that complete your testimony?
    Mr. Mukasey. It does.
    Chairman Grassley. Thank you.
    Now, Sergeant Vazquez, thank you. Please proceed.

          STATEMENT OF OSCAR VAZQUEZ, FORMER DREAMER,
              U.S. ARMY VETERAN, FORT WORTH, TEXAS

    Sergeant Vazquez. Chairman Grassley, Ranking Member 
Whitehouse, thank you for the opportunity to testify before the 
Committee. My name is Oscar Vazquez, and I am proud to be an 
American.
    I was born in a small town in Mexico. I was 12 years old 
when my mother and I boarded a bus for the border. Although I 
did not make the choice to come to America, this country 
quickly became my home. As soon as we were settled in America, 
my parents made sure that I was enrolled in school because they 
wanted me to understand the value of education. It was at this 
point that I started to develop a passion for math and science 
since the formulas and equations transcended the language 
barrier.
    In high school, I joined the JROTC program where my two 
instructors were Vietnam veterans. They taught us the value of 
selfless service, whether you were able to provide it in the 
military or not. They wanted us to be better Americans. I loved 
the order and discipline and was eventually awarded the JROTC 
Officer of the Year. During my sophomore year, soon after 9/11, 
I saw the ``Band of Brothers'' miniseries, and I knew then I 
wanted to join the Army. But when I met with a recruiter, I was 
told that I could not enlist because I was undocumented. I left 
that meeting not knowing what to do or what was next. I was 
devastated.
    I knew I had to figure out what else I could do with my 
life. At the beginning of my senior year, I joined the robotics 
club. Our team of undocumented students entered a NASA-
sponsored national competition, and we designed an underwater 
robot, which we named ``Stinky.'' Beyond our wildest dreams, my 
high school team won the grand prize for the competition 
against some of the country's top technical universities.
    Winning the competition was proof that we as DREAMers had 
something to offer to the country we always considered our 
home. Although I could not contribute to my country by joining 
the military, I enrolled at Arizona State University and 
decided I could contribute by becoming an engineer.
    In 2005, I married my wife, Karla, a U.S. citizen. She 
started the process of petitioning for my legal status, but as 
is the case with many DREAMers, there were enormous legal 
obstacles and substantial risks.
    While I was a student at Arizona State, the Arizona 
Legislature passed a law prohibiting undocumented students from 
receiving in-State financial aid and paying in-State tuition. 
Even though Arizona had been my home for many years and I was 
married to a U.S. citizen, I was treated like an outsider. The 
law tripled my tuition, but through private scholarships and by 
working construction, I scraped the money together to pay for 
college and support my family. I graduated in 2009 with a 
degree in mechanical engineering.
    This was 3 years before the Deferred Action for Childhood 
Arrivals was established, so even though I had a STEM degree 
and there were jobs available, no one would hire me in this 
field because I did not have legal status.
    In 2010, after completing a legal process that involved 
substantial hardship to my family, I was able to get a green 
card. Having legal resident status changed my life. I was able 
to get a driver's license, travel freely within the United 
States, and pursue my career in engineering. The biggest change 
that I noticed was the fear. I was no longer afraid of being 
deported or being forcibly separated from my family. I could 
also pursue my dream of joining the military and become a 
paratrooper. I enlisted in the United States Army and started 
basic training in February 2011. I wanted to fight for the 
country that raised me. Saying I love this country was not 
enough. I wanted to let my actions speak for themselves.
    Shortly before I finished basic training, I became a U.S. 
citizen. A couple of weeks later, I found myself jumping out of 
a C-130 flying over Fort Benning, Georgia. And a couple of 
months after that, I was deployed to Afghanistan. I looked 
forward to combat because I wanted to protect the United 
States. Serving in the Army allowed me to contribute more fully 
to this country and make it safer. I was following in the 
footsteps of countless other immigrants who have proudly served 
the United States. In Afghanistan, I fought side by side with 
my Army brothers. We wore the same uniform with the U.S. flag 
on the same shoulder. It mattered more that we were willing to 
die for each other and for our country than where we came from.
    To this day, I remember how I felt after our first 
firefight in Afghanistan. I had put my life on the line for my 
brothers and for my country, and I felt really proud to be an 
American. I felt then for the first time that no one could 
again question whether I am an American. It has been a great 
honor to serve my country.
    My son, Oskar Maximus, is 4 years old and in preschool. My 
daughter, Samantha, is 8 years old and in third grade. We live 
outside of Fort Worth, Texas, where I volunteer at two 
different high schools in their respective robotics programs. I 
feel that my family is living the American dream. But I want to 
continue serving my country, and I will soon join the Army 
Reserve.
    I think now about all the doors that were unlocked for me 
when I gained lawful permanent residence--the ability to get 
the job of my dreams, provide for my family, and live without 
fear. I cannot imagine what it would be like to have that taken 
away from me today. I also cannot imagine what it is like today 
for my former teammates and the nearly hundred thousand DACA 
recipients who do not have a legal status and who are afraid of 
what could happen to them in a matter of days. Of course, DACA 
is only a temporary solution, and now even that is at risk.
    I hope that you will not view my story as that of someone 
exceptional; rather, I am where I am today because of the many 
great people that have believed in me and have given me a 
chance.
    I also want to acknowledge that most DREAMers and most 
undocumented immigrants do not have a path to legal status 
right now. I wanted to come here today because our country's 
top law enforcement officer must be someone who understands 
that immigrants make our country stronger. Most Americans agree 
that it is not right to deport someone who was brought here as 
a child and deport them to a country they might not even 
remember. We need an Attorney General who will protect the 
American people from those who would do us harm, but who will 
also show mercy to those who deserve it.
    Thank you again for the opportunity to testify. I look 
forward to answering your questions.
    [The prepared statement of Sergeant Vazquez appears as a 
submission for the record.]
    Chairman Grassley. Thank you very much, Sergeant.
    Now, Mr. Kirsanow. Have you pushed the red button or 
whatever color the button is?

           STATEMENT OF PETER KIRSANOW, COMMISSIONER,
        U.S. COMMISSION ON CIVIL RIGHTS, CLEVELAND, OHIO

    Mr. Kirsanow. Thank you, Chairman Grassley, Ranking Member 
Whitehouse, and Members of the Committee. I am Peter Kirsanow, 
a member of the U.S. Commission on Civil Rights and a partner 
in the Labor and Employment Practice Group of Benesch, 
Friedlander. I am here in my personal capacity.
    The U.S. Commission on Civil Rights was established 
pursuant to the 1957 Civil Rights Act to, among other things, 
act as the national clearinghouse for matters pertaining to 
denials of equal protection, discrimination, and voting rights, 
and in furtherance of that clearinghouse function, my assistant 
and I reviewed the bills sponsored and cosponsored by Senator 
Sessions in his tenure in the Senate, as well as his public 
activities and actions that are at least arguably related to 
civil rights.
    Our examination found that Senator Sessions' approach to 
civil rights matters both in terms of his legislative record 
and his other actions is consistent with mainstream textual 
interpretation of relevant statutory and constitutional 
authority, as well as governing precedent.
    Our exam also reveals that Senator Sessions' approach to 
civil rights is consistent, is legally sound, intellectually 
honest, and has an appreciation and understanding of the 
historical bases for civil rights laws. And our examination 
found that several aspects of Senator Sessions' record, 
unfortunately, have been mischaracter-ized and distorted to 
portray him as somehow being indifferent if not hostile to 
civil rights.
    The facts emphatically show otherwise. Among other things--
and this is probably least consequential--Senator Sessions has 
sponsored or cosponsored a plethora of bills honoring 
significant civil rights leaders, events, icons, such as 
Reverend Martin Luther King, Jr., Coretta Scott King, Reverend 
Shuttlesworth's fight against segregation, three separate bills 
honoring Rosa Parks, a Senate apology to the descendants of 
victims of lynching, a bill to honor participants in the Selma 
Voting Rights March, a bill to honor the victims of the 16th 
Street Baptist Church bombing, and on and on and on. But 
Senator Sessions' commitment to civil rights transcends simple 
resolutions in support of civil rights. He has authored, 
cosponsored, or sponsored a number of bills to protect and 
enhance voting rights, such as the Federal Election Reform Act 
of 2001, the Voter Fraud Protection Act of 2009, a number of 
bills to protect and enhance the voting rights of 
servicemembers, particularly those serving overseas.
    He is a strong proponent of religious liberty, having 
sponsored or cosponsored several bills to prevent 
discrimination against the religiously observant and to prevent 
the Government from substantially burdening the free exercise 
of a person's religious beliefs. But in our estimation, his 
most profound and important impact is on preserving and 
protecting the rights of American workers, particularly Black 
workers.
    The employment and wage levels of Black workers in America 
have been abysmal for several decades. The labor force 
participation rate for Black males is 61.8 percent and falling. 
The unemployment rate for Black males is nearly double that of 
White males. Evidence adduced before the U.S. Commission on 
Civil Rights shows that 40 percent of the 18-point decline in 
Black employment levels is attributable to Government failure 
or refusal to enforce existing immigration laws, and this has a 
cascade effect by increasing the competition within the 
unskilled and low-skilled marketplace, driving out Black 
workers, slashing wages, particularly among Black males. And 
this has resulted in hundreds of thousands if not slightly over 
a million Blacks having lost their jobs directly due to this 
phenomenon. And it has broader sociological implications as 
well related to incarceration and family formation rates.
    No one has been more committed or engaged than Senator Jeff 
Sessions in protecting and enhancing the prospects of Black 
workers in America. But for his indefatigable efforts in this 
regard, the plight of Black workers now and in the immediate 
future, in the foreseeable future would be demonstrably worse. 
His leadership on this matter and his leadership on the 
Subcommittee on Immigration and the National Interest has been 
key to forestalling an even deeper downward trajectory for 
Black workers in this country.
    I will conclude, Mr. Chair, by simply respectfully offering 
that his record on civil rights legislation, his actions as a 
U.S. Attorney and State Attorney demonstrate an unwavering 
commitment to equal protection under the law and a genuine 
fidelity to the rule of law that should make him an outstanding 
Attorney General.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Kirsanow appears as a 
submission for the record.]
    Chairman Grassley. Thank you.
    Ms. Swadhin.

              STATEMENT OF AMITA SWADHIN, FOUNDER,
            MIRROR MEMOIRS, LOS ANGELES, CALIFORNIA

    Ms. Swadhin. Good morning. My name is Amita Swadhin. I am a 
resident of Los Angeles, California, born in Ohio to two 
immigrants from India and raised in New Jersey. And I am 
grateful to Chairman Grassley, Ranking Member Whitehouse, and 
Members of the Committee for the opportunity to be here today.
    In October, hot mic tapes were released of President-elect 
Trump describing forcibly kissing women and grabbing women by 
the genitals. In the wake of these comments becoming public, 
Senator Sessions was quoted stating he does not characterize 
that behavior as sexual assault.
    Millions of sexual assault survivors were triggered in the 
wake of these events. I was one of those survivors. My father 
raped me at least once a week from age 4 to age 12. I endured 
psychological, verbal, and physical abuse from him for years. I 
also grew up watching my father abuse my mother in a textbook 
case of domestic violence and marital rape.
    When I disclosed the sexual abuse to my mother at age 13, 
she called a therapist, engaging mandated reporting. The 
prosecutor threatened to prosecute my mother for being 
complicit. They told me I would be harshly cross-examined by 
the defense attorney and did not connect me to any victim 
support services. I was too afraid to tell them my story. My 
father received 5 years' probation and no jail time, and his 
violence continued for 2 years until my mother finally found 
the support to leave him.
    I am here today on behalf of rape and sexual assault 
survivors to urge you not to confirm Senator Sessions as 
Attorney General. As a publicly out survivor of child sexual 
abuse, many people have downplayed the impact of this violence 
on my present-day life. I live with complex post-traumatic 
stress disorder and struggle every day to be well. It directly 
and negatively impacts me when people minimize sexual assault. 
So to hear Senator Sessions initially say President-elect 
Trump's comments do not constitute sexual assault and then to 
consider him leading the Department of Justice has been 
incredibly worrisome.
    I am unfortunately far from alone in my experience. More 
than 320,000 Americans over age 12 are raped or sexually 
assaulted every year. One in four girls and one in six boys 
will be sexually abused before age 18. These are public health 
issues occurring in the private sphere. In 80 percent of adult 
sexual assaults and 90 percent of cases of child sexual abuse, 
victims know and trust our perpetrators. For this reason, most 
victims of violent crime never seek healing or accountability 
from the State. Most violent crimes remain unreported.
    Thankfully, we have improved the response of the criminal 
justice system with the creation of the Violence Against Women 
Act in 1994. The STOP Formula Grants under VAWA provide 
training to judges, prosecutors, police officers, and other law 
enforcement personnel to better support survivors. In 1991, the 
police did not contact victim services for me, but today, 
thanks to VAWA, law enforcement is encouraged to provide 
victims an advocate to support them in breaking their silence.
    Yet despite this progress, rape, sexual assault, and 
domestic violence still happen at epidemic rates, and survivors 
at the intersections of oppression are especially vulnerable. 
LGBT people and particularly transgender women of color are 
disproportionately victimized. One in two transgender people 
will be raped or sexually assaulted in their lifetime.
    Furthermore, the majority of hate violence homicide victims 
are transgender women. In fact, only 11 days into the new year, 
two transgender women of color have already been murdered: 
Mesha Caldwell, an African-American transgender woman from 
Mississippi; and Jamie Lee Wounded Arrow, a two-spirit Oglala 
Lakota woman from South Dakota.
    We need an Attorney General who is committed to improving 
and enforcing our laws to ensure the most vulnerable victims of 
crime can come forward to seek accountability and to access 
healing. Time and again, Senator Sessions' voting record has 
shown us he is not the man for the job. Despite his claim to be 
a champion for victims of violent crime, he has not been a 
friend to vulnerable survivors. While Senator Sessions voted in 
favor of the Violence Against Women Act in the bill's early 
years, when VAWA was expanded in 2013 to ensure LGBT, 
immigrant, and Tribal populations of domestic violence and 
sexual assault survivors are protected and have access to 
services, Senator Sessions voted against the bill.
    We must trust the Attorney General to enforce and apply our 
laws fairly per our Constitution's provisions on equal 
protection. We must trust the Attorney General to respect the 
humanity of all Americans, and especially to be committed to 
seeking justice for our most vulnerable victims of crime. Given 
his voting record on VAWA and on LGBT rights, we have no reason 
to put our faith or our trust in Senator Sessions as Attorney 
General.
    In conclusion, I want to emphasize that members of the 
National Task Force to End Sexual and Domestic Violence, 
including, but not limited to, the National Coalition Against 
Domestic Violence, the YWCA, the National Council of Jewish 
Women, UGEMA, the National Center on Violence Against Women in 
the Black Community, the National Alliance to End Sexual 
Violence, the National Coalition of Anti-Violence Programs, 
Break the Cycle, and Jewish Women International oppose Senator 
Sessions' nomination because of the issues I am raising today.
    Thank you.
    [The prepared statement of Ms. Swadhin appears as a 
submission for the record.]
    Chairman Grassley. Thank you very much.
    And now we will go to Ms. Sepich.

            STATEMENT OF JAYANN SEPICH, CO-FOUNDER,
                DNA SAVES, CARLSBAD, NEW MEXICO

    Ms. Sepich. Good morning, Chairman Grassley, Ranking Member 
Whitehouse, and Members of the Committee. My name is Jayann 
Sepich, and thank you for the opportunity to testify today in 
support of the nomination of Senator Sessions as Attorney 
General of the United States.
    In 2003, my daughter Katie, a vivacious 22-year-old 
graduate student, was brutally raped, murdered, and set on 
fire. It is never easy to lose a child for any reason, but the 
pain and horror of losing our daughter in this violent manner 
is beyond description.
    No suspects emerged in Katie's case, but Katie fought for 
her life, and underneath her fingernails were found the blood 
and skin of her attacker, and a DNA profile was extracted and 
uploaded into the national forensic DNA database called 
``CODIS.'' I made the comment to investigators that the man who 
had killed Katie was such a monster that surely he would be 
arrested for another crime, his cheek would be swabbed, and we 
would soon know his identity, and he would not be able to harm 
another young woman. That is when I learned it was not legal in 
New Mexico, my home State, or in most States to take DNA at the 
time of a felony arrest. It could only be taken after 
conviction.
    I was stunned. We do not use DNA to accurately identify 
persons arrested for serious crimes? We release them from law 
enforcement custody without a check of the DNA database for a 
possible match to other unsolved crimes? We collect 
fingerprints, mug shots, and check what other crimes a person 
may have been involved in, but we do not collect DNA?
    After considerable research, I became a national advocate 
for the collection of DNA upon arrest. My husband and I started 
the nonprofit association DNA Saves. We know we cannot bring 
Katie back, but we absolutely believe that we may be able to 
prevent new crimes--prevent this horrible pain from being 
visited on other families--by advocating for laws that allow 
for the collection of DNA from persons arrested for serious 
crimes.
    To date, 30 State legislatures and the U.S. Congress have 
enacted laws requiring that a DNA sample be taken for 
qualifying felony arrests. In June 2012, the U.S. Supreme Court 
upheld these laws, ruling that taking DNA at the time of 
booking for a felony arrest is ``a legitimate police booking 
procedure that is reasonable under the Fourth Amendment.'' 
Senator Sessions helped craft the legislative language that 
became the DNA Fingerprint Act to provide Federal authorities 
with the authorization to collect DNA from arrestees.
    In 2008, Senator Bingaman, along with Senator Schumer as an 
original cosponsor, introduced the Katie Sepich Enhanced DNA 
Collection Act, which was passed in 2012. This Federal law 
provides additional funding, through the Debbie Smith DNA 
Backlog Elimination Act, to those States that have enacted laws 
to expand their databases. Once again, as the Judiciary 
Committee's Ranking Member during that time in which this 
legislation was pending, Senator Sessions played a significant 
role in helping us to craft a bill that would gain bipartisan 
support and eventually passed Congress unanimously.
    As a result of stronger State and Federal DNA database 
laws, we have seen many heinous criminals identified through 
arrestee DNA testing. My home State of New Mexico has seen over 
1,200 cases matched. California is seeing ten cases matched 
every day on their DNA database. The Alabama Department of 
Forensic Sciences remains one of the most successful programs 
in the country, and they credit Senator Sessions for much of 
the success largely due to the support he has provided from the 
outset of the State's forensic DNA program during his term as 
Alabama Attorney General. Alabama has utilized the DNA database 
to solve over 6,500 previously unsolved cases.
    In Katie's case, after more than 3 long years, DNA finally 
identified Gabriel Avila as Katie's killer. But he would have 
been identified after only 3 months if law enforcement had been 
permitted to collect DNA at arrest.
    Over the past 11 years, our family has worked to change DNA 
laws across the country. We have been supported by lawmakers of 
both parties. We have also seen opposition from both 
Republicans and Democrats. Forensic DNA is a very complex 
issue, and it is vitally important that policymakers take the 
time to fully understand these complexities in a truly 
nonpartisan manner.
    Senator Sessions has done that. And with that 
understanding, he has stood in strong support of the use of 
forensic DNA to both identify the guilty and exonerate the 
innocent. He knows that when a DNA match is made on CODIS, it 
is completely blind to race, ethnicity, and socioeconomic 
status. DNA is truth. It is science.
    Senator Sessions said in a 2002 floor speech, ``We are 
spending only a pittance on getting our scientific evidence 
produced in an honest and effective way. As a result, justice 
is being delayed, and justice delayed is justice denied.''
    I believe that Senator Sessions is committed to the 
philosophy that it is the core responsibility of our Government 
to protect public safety. He cares about victims. He has been a 
leader on forensics policy for years and consistently has 
supported vital funding for DNA.
    In conclusion, our lives were shattered when our daughter 
was brutally murdered. We know intimately the pain that violent 
crime brings to families. Senator Sessions has shown he 
understands the pain of victims and has put that understanding 
into action to help make changes that will make a difference. 
Senator Sessions will provide strong leadership to the United 
States Department of Justice, and I hope you will support his 
nomination for Attorney General.
    Thank you.
    [The prepared statement of Ms. Sepich appears as a 
submission for the record.]
    Chairman Grassley. Thank you, Ms. Sepich.
    Now, Mr. Brooks.

   STATEMENT OF CORNELL WILLIAM BROOKS, PRESIDENT AND CHIEF 
EXECUTIVE OFFICER, NATIONAL ASSOCIATION FOR THE ADVANCEMENT OF 
              COLORED PEOPLE, BALTIMORE, MARYLAND

    Mr. Brooks. Good morning, Chairman Grassley, Ranking Member 
Whitehouse, and esteemed Senators of this Committee. My name is 
Cornell William Brooks. I serve as president and CEO of the 
NAACP. I greatly appreciate the invitation to testify before 
you today and to express the deep concerns of the NAACP 
regarding the nomination of Senator Jefferson Sessions to be 
U.S. Attorney General.
    As you well know, the Attorney General is the chief law 
enforcement officer of the United States. Particularly for such 
a time as this, with racial divisions deepening, hate crimes 
rising from sanctuaries to schoolyards, with State-imposed, 
racially motivated voter suppression spreading in State 
legislatures, as well as being struck down in Federal courts, 
with police-involved shootings reduced to hashtag #homicides 
and viralized videos, it is critical that this Committee 
closely examine Senator Sessions' entire record as a prosecutor 
and as a legislator to determine whether he is fit to serve as 
the chief enforcer of our Nation's civil rights laws.
    Based upon a review of the record, the NAACP firmly 
believes that Senator Sessions is unfit to serve as Attorney 
General. Accordingly, representing multiple civil rights and 
human rights coalitions, we urge this Committee not to 
favorably report his nomination to the full Senate. As our 
written testimony details, Senator Sessions' record reveals a 
consistent disregard for civil and human rights of vulnerable 
populations, including African Americans, Latinos, women, 
Muslims, immigrants, the disabled, the LGBT community, and 
others. Further, his Senate voting record reflects a 
fundamental disregard for many of the Department of Justice's 
programs which are vital for the protection of Americans.
    Senator Sessions' votes against the Hate Crimes Prevention 
Act of 2000, 2002, 2004, 2007, and 2009 and the Violence 
Against Women Act in 2012 and 2013 demonstrate a disturbing 
lack of concern regarding violent crimes: rape, assault, murder 
committed against minorities, and an American majority--women. 
These crimes in particular make victims of individuals as well 
as the groups to which they belong and the American values we 
cling to.
    His opposition to the Lilly Ledbetter Fair Pay Act 
indicates a hostility to the claims of employment 
discrimination and more specifically to allowing legal redress 
for pay discrimination against women.
    His consistent opposition to any meaningful gun controls 
shows an unwillingness to stand up to the firearms lobby and a 
lack of concern regarding the destructive impact of gun 
violence on our children and communities.
    His failure to condemn the President-elect's call for an 
unconscionable and unconstitutional ban on Muslim immigrants as 
well as his opposition to a Senate resolution condemning a 
Government-imposed litmus test on a global religion evidences 
an unwillingness to protect the rights of the vulnerable and 
the unpopular, which is something an Attorney General must do.
    His call for the re-evaluation of a basic constitutional 
principle, that persons born in this country are citizens of 
this country, reflects a form of an unconstitutional xenophobia 
that is fundamentally inconsistent with the duty of the 
Attorney General to protect the rights of all Americans.
    His calling into question the legitimacy of consent decrees 
causes us to question whether he will use this powerful tool to 
hold accountable police departments such as Ferguson that 
engaged in predatory policing and a pattern and practice of 
discrimination.
    With his consistent support for mandatory minimums as a 
prosecutor and a legislator, he stands in opposition to 
bipartisan efforts to bring to an end this ugly era of mass 
incarceration, with 2.3 million Americans behind bars, with 
overpopulated prisons and jails, and depopulated families and 
communities.
    It is Senator Sessions' record on voting rights, however, 
that is perhaps the most troubling. As this Committee is well 
aware, the infamous Marion Three case in which civil rights 
activists were prosecuted by then-U.S. Attorney Sessions for 
voter fraud, all of whom were acquitted by a jury in less than 
4 hours on 29 counts. This chilling prosecution against 
innocent civil rights workers who were later given Gold Medals 
by Congress painfully reverberates in the hearts of Black 
voters in Alabama and the history of this country.
    Senator Sessions' record of prosecuting so-called voter 
fraud and both intimidating and suppressing voters then is now 
reflected in a legislative record of supporting voter ID 
requirements that suppress votes based on the myth of voter 
fraud today. His record of vote suppression prosecution is 
connected to a record of vote suppression legislation today. 
Rather than condemn, he has commended voter ID laws like that 
in his own State of Alabama affecting a half million voters, 
similar to laws struck down in Texas and North Carolina in the 
Fourth and Fifth Circuits.
    If we can imagine Senator Sessions leading a Department of 
Justice in Michael Brown's Ferguson, Freddie Gray's Baltimore, 
towns with rising hate crime, communities of vulnerable 
populations, and a democracy divided by voter suppression in 
this Twitter-age civil rights movement--we can imagine that. 
Imagining that, we must face the reality that Senator Sessions 
should not be our Attorney General.
    With that said, thank you for this opportunity to testify. 
I welcome your questions.
    [The prepared statement of Mr. Brooks appears as a 
submission for the record.]
    Chairman Grassley. Thank you, Mr. Brooks.
    Mr. Canterbury.

STATEMENT OF CHUCK CANTERBURY, NATIONAL PRESIDENT, GRAND LODGE, 
                   FRATERNAL ORDER OF POLICE,
                         WASHINGTON, DC

    Mr. Canterbury. Good morning, Mr. Chairman, Ranking Member 
Whitehouse, distinguished Members of the Committee, and, of 
course, my own Senator, Lindsey Graham.
    My name is Chuck Canterbury, the national president of the 
330,000 rank-and-file police officer organization. I am very 
pleased to have the opportunity to be here today to testify 
before this Committee. I have testified before on Cabinet 
nominations, agency head nominations, and even a nominee for 
the Supreme Court of the United States. I can say without 
reservation that I have never testified with more optimism and 
enthusiasm than I do today for Senator Jeff Sessions. We 
wholeheartedly support his position and nomination as Attorney 
General of the United States.
    Following the news that President-elect Trump intended to 
tap Senator Sessions, we immediately issued a statement to the 
press indicating our strong support for his nomination. He has 
been a true partner to law enforcement in his time as a U.S. 
Attorney, Attorney General for the State of Alabama, and 
throughout his tenure in the United States Senate.
    Senator Sessions has demonstrated commitment not just to 
so-called law-and-order issues, but also to an issue very 
important to my members: officer safety. He was the leading 
cosponsor of the FOP's efforts to enact the Law Enforcement 
Officers Safety Act, which was authored by our friend and 
former Chairman of this Committee, Senator Leahy. In 2010, 
Senator Sessions was the Republican lead cosponsor of S. 1132, 
the Law Enforcement Officers Safety Act Improvements, which 
made important and needed changes to the original law. He has 
provided true leadership in this successful and bipartisan 
effort.
    More recently, Senator Sessions was deeply involved in the 
passage of S. 2840, the Protecting Our Lives by Initiating COPS 
Expansion Act. He helped build bipartisan support for the 
legislation, which passed the Senate and then the House before 
being signed into law by the President. That law gives the 
Office of Community-Oriented Policing Services the authority to 
award grants to State, local, and Tribal law enforcement 
agencies to get active shooter response training for their 
officers. The need for this training has obviously been 
identified by numerous law enforcement leaders and by the FOP.
    Senator Sessions played a key role in the efforts to pass 
the Fallen Heroes Flag Act, the bill which provides a flag 
flown over this Capitol to surviving members of public officers 
killed in the line of duty.
    Now, this may not sound like much to you, but in a time 
when officers are being assassinated at the highest rate since 
the 1970s and officers are being assaulted at record rates, 
officers in the field want to know: Who has my back? Who will 
protect me while I protect my community? Bills like this, which 
acknowledge and respect the sacrifices made by the rank and 
file truly resonate with my members and with the public safety 
community.
    Members of the Committee may remember the years that were 
spent trying to do away with the disparity between the 
sentencing on possession of crack cocaine versus powder 
cocaine. There was a considerable gulf between the position of 
the FOP and many Members of this Committee. But in 2001, 
Senator Sessions introduced a bill to address this issue, and 
he worked tirelessly to bring it together. He made sure the 
voice of law enforcement was heard and also asserted his belief 
that the disparity as existed in the current law was unjust. In 
2010, as the Ranking Member of this Committee, he brokered the 
compromise that led to the passage, with our support, of the 
Fair Sentencing Act. We accepted that compromise because it was 
fair, it was just, and it reflected the perspective of law 
enforcement in the law enforcement community. The importance of 
his direct role in this issue cannot be overstated. Without 
Jeff Sessions, I believe we might be here today still trying to 
remain unsolved.
    That said, I understand that there is a certain amount of 
partisanship, and it is expected in these nomination hearings. 
But I ask all the Members of this Committee to recollect that 
Senator Sessions has worked in a bipartisan manner on many 
issues, officer safety issues, with the FOP and Members of the 
left. More than many times that I have been here has Senator 
Sessions been one of the sole Members to stand up for law 
enforcement, especially when it came to the issue of asset 
forfeiture. Without his leadership and support, the equitable 
sharing program may have been dismantled. For us, that 
demonstrates that Jeff Sessions is a man who can reach across 
the aisle to get things done for the rank-and-file officer and 
to protect the citizens of this country.
    Senator Sessions has worked tirelessly and faithfully for 
the majority of his adult life. He is above all a man who 
reveres the law and reveres justice. I believe he will be an 
exemplary Attorney General, and we urge you to move this 
nomination forward to the Senate for passage.
    Thank you, sir.
    [The prepared statement of Mr. Canterbury appears as a 
submission for the record.]
    Chairman Grassley. Thank you, Mr. Canterbury.
    Now, Mr. Cole.

  STATEMENT OF DAVID COLE, NATIONAL LEGAL DIRECTOR, AMERICAN 
             CIVIL LIBERTIES UNION, WASHINGTON, DC

    Mr. Cole. Thank you for inviting me to testify.
    The ACLU is a nonpartisan organization with a longstanding 
policy of neither endorsing nor opposing nominees for Federal 
office. We rarely testify in confirmation hearings as a result. 
We do so today because we believe Senator Sessions' record 
raises serious questions about the fitness of Senator Sessions 
to be an Attorney General for all the American people.
    We take no position on how you should ultimately vote, but 
we urge you to painstakingly probe the many serious questions 
that his actions, words, and deeds raise about his commitment 
to civil rights and civil liberties.
    Our concerns arise from his conduct as a prosecutor and 
from his record as a Senator. As a prosecutor, when he 
exercised the power to prosecute, the most serious power that 
any Government official in the United States exercises, he 
abused that power. Cornell Brooks has already talked about his 
prosecution, ultimately baseless, of civil rights heroes for 
seeking to increase the Black vote in Alabama. He did not 
investigate those who sought to help White voters in Alabama, 
but he did investigate and prosecute those who sought to aid 
Black voters. Many of the charges in that case were dismissed 
before they even went to the jury because they were baseless. 
The jury then acquitted them of all of the charges.
    In a second case, the TIECO case, Senator Sessions 
collaborated with campaign contributors to his senatorial 
campaign to use the office of the criminal prosecutor to 
intervene in a private business dispute on behalf of his 
campaign contributors. He filed a 222-count indictment against 
TIECO, an engineering supply corporation. All charges in the 
case were dismissed. Many were dismissed because, again, they 
were baseless. There was no evidence whatsoever to support 
them. The others were dismissed on grounds of prosecutorial 
misconduct, and the judge who dismissed them said this was the 
worst case of prosecutorial misconduct he had seen in his 
career on the bench. Mr. Sessions' successor, Mr. Pryor, did 
not even appeal that decision. So those actions raise serious 
questions about his fitness to become the most powerful 
prosecutor in the land.
    Second, his record as a Senator. Here he has shown 
blindness or outright hostility to the concerns of the people 
whose rights he will be responsible to protect. On voting 
rights, he supported felon disenfranchisement laws and voter ID 
laws that suppress the Black vote. When the Supreme Court 
gutted the single most effective provision of the Voting Rights 
Act, the most important statute in getting African Americans 
the right to vote in this country, Senator Sessions called that 
``a good day for the South.''
    On religious tolerance, he called Islam a ``toxic 
ideology.'' It is, in fact, a religion practiced by millions of 
Americans. Imagine if he called Christianity a ``toxic 
ideology.'' Now he says he opposes a Muslim ban on entrance to 
the United States, but when Donald Trump proposed that, he 
stood up and opposed a resolution introduced here in the Senate 
to keep religion out of immigration decisions.
    On women's rights, now he says that grabbing women's 
genitals is sexual assault. But when Donald Trump's tape 
recording bragging about his doing precisely that was made 
public, Senator Sessions said, and I quote, ``I don't 
characterize that as a sexual assault. That is a stretch.''
    When he voted against extending the hate crimes law to 
crimes motivated by gender and sexual orientation, he said, and 
I quote: ``I am not sure women or people with different sexual 
orientations face that kind of discrimination. I just don't see 
it.'' Well, if you do not see discrimination, you cannot very 
well enforce the laws against discrimination.
    On torture, he now says that waterboarding is illegal, but 
he praised Michael Mukasey for not ruling out waterboarding. 
And he opposed Senator McCain's amendment which was designed to 
make it clear that waterboarding was illegal.
    On criminal justice, he is an outlier, departing even with 
many of his Republican colleagues who seek to make the criminal 
justice system more fair and less harsh.
    If someone applying to intern for one of your offices had 
as many questions in his record as Senator Sessions has, racist 
comments, unethical conduct, padding of his resume, you would 
not hire him absent the most thorough investigation and 
inquiry, if then.
    Senator Sessions is not seeking to be an intern. He is 
nominated to be the most powerful law enforcement officer in 
the Nation. The Senate and, more importantly, the American 
people deserve satisfactory answers to these questions before 
Senator Sessions is confirmed.
    Thank you very much.
    [The prepared statement of Mr. Cole appears as a submission 
for the record.]
    Chairman Grassley. Thank you, Mr. Cole.
    Now, Mr. Thompson.

   STATEMENT OF HON. LARRY THOMPSON, FORMER DEPUTY ATTORNEY 
              GENERAL, U.S. DEPARTMENT OF JUSTICE,
                         WASHINGTON, DC

    Mr. Thompson. Chairman Grassley, Ranking Member Whitehouse, 
and other Members of this distinguished Committee, I appreciate 
the opportunity to appear before you today in support of the 
nomination of Senator Jeff Sessions to be Attorney General of 
the United States.
    I want to add this morning a bit of a personal perspective 
on Senator Sessions. I have known Senator Sessions for over 30 
years, and I am honored to consider him a good friend. Over the 
years, we have talked frequently, had dinners together, and 
enjoyed each other's counsel and support.
    When I first met Senator Sessions, he was the United States 
Attorney in Mobile and I was the United States Attorney in 
Atlanta. In order to stretch our limited Government per diems 
on travel to Department of Justice conferences, we sometimes 
shared a room together. We were simply two young prosecutors 
trying to save money.
    In 1982, when I was asked by Attorney General William 
French Smith to head the Southeastern Organized Crime Drug 
Enforcement Task Force simply because of the strategic location 
in Atlanta, where my office was, a delicate situation was 
presented. The task force consisted of 11 other United States 
Attorneys' Offices, but any potential problem was avoided 
because my friend, Senator Sessions, rallied the other United 
States Attorneys around our common cause and my leadership. 
Senator Sessions had a lot to do with the success of the task 
force under my leadership.
    Senator Sessions was highly thought of by his colleagues 
and served on the prestigious Attorney General's Advisory 
Committee. Membership to this committee is by invitation only. 
I have thought about this a lot and can identify for you 
without any equivocation whatsoever three themes by which the 
Senator will lead the Department of Justice.
    First, Senator Sessions will vigorously but impartially 
enforce our laws. Senator Sessions has a strong record of 
bipartisan accomplishment on criminal justice matters. He also 
understands the importance of what former Attorney General 
Robert Jackson said about what constitutes a good prosecutor, 
that being one who displays a sensitivity to fair play and who 
appreciates his or her task with humility.
    Next, Senator Sessions will continue to make certain that 
the traditional role of Federal law enforcement is carried out 
with vigor, effectiveness, and independence. The Department of 
Justice under his leadership will tackle such critical crime 
problems as complicated fraud schemes by individuals and 
organizations, civil rights violations, serious environmental 
violations, terrorism, and espionage.
    Finally, Senator Sessions will seriously look at the role 
of Federal law enforcement to help our citizens achieve a 
greater sense of personal safety in their homes and 
neighborhoods. This will be especially important for some of 
our minority and low-income citizens against whom violent crime 
has a disproportionate impact. Of all our important civil 
rights, the right to be safe and secure in one's home and 
neighborhood is perhaps the most important.
    We all know that Senator Sessions has strongly but honestly 
held political and policy views, but the Senator also has a 
record of bipartisan leadership in the Senate, especially on 
criminal justice issues. We talked yesterday, a great deal was 
presented to the Committee, on Senator Sessions' effort under 
the Fair Sentencing Act of 2010 and his work with Senator 
Durbin on that important legislation. It is interesting that, 
as the Deputy Attorney General of the United States in the Bush 
administration, I opposed this legislation. Senator Sessions 
was right and I was wrong.
    A son of the South who has had up-close experiences with 
our great civil rights movement, Senator Sessions is not 
oblivious to the fact that we have more to do in the area of 
racial equality. He noted in a speech praising the foot 
soldiers of the civil rights movement that, ``More needs to be 
done. We need to join closer hands.''
    So as a lawyer myself who has spent a fair amount of time 
during my 43-year legal career supporting diversity in our 
great profession and equal rights, this statement touched me 
greatly because it reflects the man I have known for over 30 
years and who I am proud to call my friend. Senator Sessions 
deserves confirmation as our next Attorney General.
    Thank you.
    [The prepared statement of Mr. Thompson appears as a 
submission for the record.]
    Chairman Grassley. Thank you.
    We will have 7-minute rounds now and I am going to start 
with General Mukasey. Senator Sessions himself has noted the 
Attorney General is not the President's lawyer. In your 
opinion, would Senator Sessions have the independence, and of 
course the ability, to say ``no'' to the President, if they 
disagreed?
    General Mukasey. Absolutely. And I think he made that both 
clear and explicit yesterday, saying that if necessary, the 
alternative was to resign.
    Chairman Grassley. Also, we heard Senator Sessions testify 
about the appropriate scope of communication between the White 
House and the Department of Justice. He said he thought that 
there was merit in your December 2007 memo on that topic, so 
could you tell us what you believe the merits of your approach 
to be, which would be your explaining in further detail what 
Senator Sessions said yesterday?
    General Mukasey. Okay. What is in the memo is that contact 
between the White House and the Justice Department is limited 
to the Attorney General and the Deputy Attorney General, with a 
couple of exceptions. Those exceptions are, pending 
legislation, which is the subject of communication between 
lower level people in the White House and people in the Office 
of Legal Policy and other routine budget matters. Other than 
that, there is to be no contact between anyone at the Justice 
Department and anyone in the White House and if anybody gets 
such a call, they are instructed that the polite response is, 
``Thank you very much, I will refer you to the person who can 
respond to you.''
    Chairman Grassley. Mr. Thompson, you have known Senator 
Sessions for 35 years and in that time you worked very closely 
with him, so you have already said something about your service 
together, but could you tell us about that service and might be 
more detailed than you did in your opening statement?
    Mr. Thompson. Yes, Senator Grassley. I have known, as I 
have said, Senator Sessions for a number of years. He has a 
great deal of respect for the Department of Justice. He had 
been an Assistant United States Attorney when I had met him. He 
had already been promoted to become the United States Attorney. 
He is a fine lawyer, was a very effective prosecutor, and has 
great fidelity to the principles of fair prosecution and the 
traditions of the Department of Justice.
    Chairman Grassley. And would you, knowing him as you do, 
would you say that he is going to be that independent head that 
we expect of the Department of Justice?
    Mr. Thompson. Absolutely. I would expect Senator Sessions 
to understand and appreciate and to practice the traditional 
independent role of the Department of Justice and he would be 
an Attorney General, I think, that all the Senators on this 
Committee would be proud of.
    Chairman Grassley. Further, since you know him, how do you 
think he would fare standing up to a strong-willed President 
who wants to take certain actions as Senator Sessions, in his 
capacity as Attorney General, would feel would be 
inappropriate?
    Mr. Thompson. That is a good question. As I said, Senator 
Sessions is not only an experienced prosecutor, but he is a 
mighty fine lawyer. He would understand his role to counsel the 
President and to bring the President around to what position is 
appropriate, but he, at the end of the day, would be 
independent if the President insisted upon doing something that 
was inappropriate.
    Chairman Grassley. Mr. Canterbury, of course you are no 
stranger to these sort of Attorney General hearings. You 
testified in support of Attorney General Eric Holder 8 years 
ago. Reflecting on the last 8 years of leadership, the 
Department of Justice from the perspective of arguably the 
largest law enforcement advocacy group, how did DOJ fare, and 
how might it be different if the person you are supporting 
today were Attorney General?
    Mr. Canterbury. Senator, it is our position that we have to 
work with whoever is in that office, and we have historically 
worked with every Attorney General. Personally I have worked 
with every Attorney General since Janet Reno. And we believe 
that with Senator Sessions, the communications, the lines of 
communications will be more direct than they have been. We have 
had good success with career employees at DOJ. They are very 
professional. We believe it is an outstanding organization, but 
we also believe with Senator Sessions, information and the 
knowledge that he has had from serving on this Committee, he 
will be able to serve us well in the area of criminal justice, 
with reform efforts and with training and equitable sharing and 
those type of things. We feel the communications will be 
excellent with Senator Sessions.
    Chairman Grassley. Another question for you. The sheriff's 
association at the national level recently noted that in the 
past year this country has seen the highest number of law 
enforcement fatalities in 5 years, including 21 officers who 
were ambushed, shot and killed. If confirmed for the position 
of Attorney General, what steps do you think that Senator 
Sessions could take to reverse the trend?
    Mr. Canterbury. First and foremost, we believe that Senator 
Sessions, as Attorney General, will not speak out on incidents 
that arise before a thorough and full investigation. And we 
believe that the anti-police rhetoric comes from people that 
make comments without knowledge of the situation prior to the 
facts being released to the media. And so we believe that there 
will be a much more positive tone about reconciliation. Nobody 
in this country wants our communities and police to reconcile 
more than my members, Senator.
    Chairman Grassley. Mr. Kirsanow, Senator Sessions has 
received some criticism for his enforcement of voting rights 
while he was a Federal prosecutor and Alabama Attorney General. 
Would you evaluate Senator Sessions' record on voting rights? 
This will probably have to be my last question.
    Mr. Kirsanow. Thank you, Mr. Chair, I would be happy to. I 
have heard testimony and I have heard media reports with 
respect to cases related to voting rights that Senator Sessions 
was prosecuting and if he had failed to prosecute the Perry 
County case, that would have been an extraordinary dereliction 
of duty. I would advise everybody who is interested in facts, 
as opposed to optics, to read the indictment, to read all the 
available pleadings, read all of the contemporaneous reporting 
and you will have wasted about 2 days doing so, as I did. The 
multi-count indictment, if you go through it, details in 
excruciating detail all of the violations here.
    If you look at the facts of the case, what happened is, you 
had two separate factions of Black Democrats in Perry County, 
who were vying for seats. One faction went to the U.S. 
Attorney's Office and said, ``Wait a minute here, we believe 
there is rampant voter fraud going on here.'' And in fact, if 
you look at the FBI's affidavit related to this, they found 75 
forged signatures on absentee ballots. There were multiple 
counts where individuals who were part of--who were candidates 
who were taking absentee ballots, changing them, altering them, 
or filling them out on behalf of individuals and then giving 
them to the elections board.
    One family had a candidate, for whom they voted, who was 
their cousin. All six members testified that their ballot, 
nonetheless, was checked for the other person. And they said it 
was false. There was copious evidence that in fact there was 
voter fraud, in fact that it occurred.
    Now, it is true, these people were acquitted, but we have 
seen this circumstance before. The person who literally wrote 
the book on voter fraud prosecutions, Craig Donsanto, who is 
the legendary former head of the Public Integrity Section of 
DOJ was the man who told Senator Sessions, ``Go forward with 
this.'' He surmised, as did many other contemporary witnesses, 
that this was a classic case of voter nullification. I think as 
he testified, or he indicated, that this is a matter in which 
there was no way in the world a jury was going to convict these 
individuals who were, in fact, civil rights advocates. The 
facts of the case established that had a prosecutor not taken 
this and pursued this, there would have been some serious 
questions about his integrity.
    Chairman Grassley. Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman.
    Mr. Canterbury, I was my State's Attorney General, and 
Rhode Island is one of the States where the Attorney General 
has full prosecutive authority, there are only three. So I 
worked very closely with my police department. I was also my 
State's United States Attorney and in that capacity I worked 
very, very closely with police chiefs. My experience was that a 
police chief in Providence, which is an urban good-sized city, 
and a police chief in small coastal Narragansett, Rhode Island, 
would have very different law enforcement priorities. And that 
it, in my view, is appropriate for a police chief to be able to 
pursue their own law enforcement priorities within their 
communities. Would you agree with that?
    Mr. Canterbury. Yes, sir, Senator, the same thing with 
sheriffs, the Constitution-elected officers, they are going to 
police their communities as they think they need to be policed 
and set priorities that way.
    Senator Whitehouse. And an important part of that, for a 
police chief, is to maintain the kind of community relations 
between the department and the community that support effective 
pursuit of those law enforcement priorities. Is that not the 
case also?
    Mr. Canterbury. I do not think it is any different in a 
city with five police officers than it is in Providence. 
Wherever you are----
    Senator Whitehouse. Community relations----
    Mr. Canterbury. Community relations is the key to 
successfully performing our job.
    Senator Whitehouse. And it is going to be different in 
different communities. The method is going to be different of 
effective community relations in different communities.
    Mr. Canterbury. It can be, yes, sir.
    Senator Whitehouse. And so, would you agree that for the 
Department of Justice to try to dictate what local law 
enforcement priorities should be, or how a police department 
should choose to deal with its community, could be a stretch 
too far?
    Mr. Canterbury. In matters of law, no, but in matters of 
policy and procedure, yes, sir, I would agree.
    Senator Whitehouse. And prioritization, as well, correct?
    Mr. Canterbury. Absolutely.
    Senator Whitehouse. Yes. The reason I ask that is that one 
of the concerns that I have heard from Rhode Island police 
chiefs has been that a relentless or unthinking pursuit of very 
low-level immigration violations could disrupt everything from 
orderly community relations with a Latino community to even 
ongoing significant gang investigation in which cooperators 
might lose their willingness to cooperate if somebody came in 
and decided to try to deport their mother. My point is not that 
one is right or the other is wrong. My point is that the 
decision at the community level as to priorities and to 
maintaining community relations is an important one, correct?
    Mr. Canterbury. Yes, sir, it would be. But to cut more to 
the core of what I think you are asking, Sanctuary City 
decisions are usually made by politicians and not police 
chiefs. And very rarely----
    Senator Whitehouse. ``Sanctuary City,'' in fact, is not 
even a legal term, is it?
    Mr. Canterbury. And very rarely should law enforcement 
officers make those decisions. As you know, Senator, 
politicians pass the laws and we are charged with enforcing 
them, we do not necessarily have to agree----
    Senator Whitehouse. And in doing so----
    Mr. Canterbury. Or disagree with them.
    Senator Whitehouse [continuing]. And in doing so, you do 
establish law enforcement priorities.
    Mr. Canterbury. Yes, sir, we would.
    Senator Whitehouse. You do not put people out on the street 
to do jaywalking, you go after murders first, you go after 
robberies first. That is standard law enforcement practice, 
correct?
    Mr. Canterbury. Emergency protocol requires the highest 
level of crime first and down from there.
    Senator Whitehouse. Down from there.
    Mr. Thompson, Mr. Canterbury said earlier something that I 
agree very much with, which was to applaud the career employees 
of the Department of Justice and to say that right now the 
Department of Justice was an outstanding organization. You and 
I and others have served as United States Attorneys. What do 
you think about the career attorney core of the Department of 
Justice?
    Mr. Thompson. Well the career attorneys at the Department 
of Justice, through my years of experience, Senator, like 
yours, these are very good lawyers. They are dedicated to law 
enforcement, they are dedicated to the work of the Department 
of Justice. I have had nothing but positive experiences in my 
years at the Department of Justice, and in dealing with the 
Department of Justice as a defense lawyer.
    Senator Whitehouse. Should a career attorney in a new 
administration be punished for following properly the policy 
direction of a previous administration?
    Mr. Thompson. I do not actually think a career attorney 
should be punished for anything other than not doing his or her 
work.
    Senator Whitehouse. Clearly a career attorney should not be 
judged on whether they are secular or religious in their lives, 
correct?
    Mr. Thompson. Absolutely not.
    Senator Whitehouse. Mr. Brooks, the Sessions candidacy has 
achieved expressions of support from people like David Duke and 
from what has been described as a White supremacist neo-Nazi 
news site called The Daily Stormer, whose site founder wrote 
that the Sessions appointment was, ``like Christmas. Basically 
we're looking at a Daily Stormer Dream Team in the Trump 
Administration.'' Now you cannot fault a nominee for the people 
who choose to be enthusiastic about his candidacy. This is not 
obviously Senator Sessions' fault. But do you believe that he 
has distinguished himself away from whatever the causes are for 
that support so that you feel comfortable going forward that he 
has addressed that?
    Mr. Brooks. Based on the record, I do not believe that the 
Senator has sufficiently described a Department of Justice 
fully committed to enforcing the Nation's civil rights laws. 
Where we have hate crime rising, most of which is perpetuated 
not in bars, not in streets, but in K through 12 schools. 
Speaking out against hate crimes, making it clear that you are 
going to prosecute hate crimes, making it clear that you are 
going to enforce the Nation's civil rights laws, the Voting 
Rights Act to the full measure in a full-throated way, I do not 
believe we have heard that. So, he is not responsible for who 
endorses him, but he is in fact responsible for what he 
endorses and his vision for the Department of Justice.
    Senator Whitehouse. Thank you, Chairman, my time has 
expired.
    Chairman Grassley. Thank you, Senator Whitehouse. Now 
Senator Hatch.
    Senator Hatch. Well thank you, Mr. Chairman.
    General Mukasey, welcome back to the Judiciary Committee. 
You became Attorney General after nearly two decades as a 
Federal District Court Judge. The current Attorney General had 
nearly two decades of experience as a Federal prosecutor. Jeff 
Sessions will become Attorney General after two decades as a 
U.S. Senator.
    No matter where an Attorney General comes from, he or she 
has the duty described yesterday by one of my Democratic 
colleagues as enforcing the law fairly, evenly and without 
personal bias. You were here yesterday and heard, as I did, the 
repeated suggestion that Senator Sessions would not be able to 
enforce the law that he personally disagrees with. Do you agree 
that someone's political party, general ideological 
perspective, or personal opinions do not by themselves mean 
that he or she cannot be impartial and fair?
    General Mukasey. I certainly agree that a person's 
political background does not disqualify that person from 
enforcing the law and does not disable that person from 
enforcing the law. And I think Senator Sessions made it 
entirely clear that he understood the difference between 
advocating a position on the one hand as a legislator and the 
oath that he takes to enforce the law on the other. He was very 
clear, very precise about that. And I think everybody who 
passes from one status to another, be it from a judge to 
Attorney General, be it from a lawyer to a judge, understands 
that they are changing their responsibilities. And he is not 
alone in that but he certainly is very much alive to it.
    Senator Hatch. How comfortable are you that Senator 
Sessions, a conservative Republican Senator, would enforce the 
law fairly, evenly and without personal bias?
    General Mukasey. Well, I think his statements yesterday 
make it entirely clear that he understands his responsibility 
to do that and I see no reason why he will not do it.
    Senator Hatch. Mr. Kirsanow, in his written testimony, Mr. 
Brooks argued that Senator Sessions lacks the judgment and 
temperament to serve as Attorney General. Even more, he 
questioned whether Senator Sessions would actually prosecute 
hate crimes. I would welcome your response to that.
    Mr. Kirsanow. I have not known Senator Sessions as long as 
Mr. Thompson has, but I have known him for more than 10 years. 
And what I can tell you is that I have worked with several 
Senators here who have been very concerned about issues related 
to civil rights, particularly with respect to one issue that is 
within my wheelhouse as a labor attorney, and that is the 
interests of Black and other workers and their employment 
prospects.
    We had hearings at the Civil Rights Commission, several 
hearings at the Civil Rights Commission about a lot of 
deleterious policies to the prospects of Black employment. And 
these were rectifiable policies, but they had pronounced 
effects, negative effects on Black employment. We even had a 
hearing where every single witness that spanned the ideological 
spectrum from left to right agreed, for example, that massive 
illegal immigration has a decidedly negative impact on wage and 
employment levels.
    I provided these reports to a number of Senators and other 
Congressmen. Many of the Senators here were alarmed by it and 
questioned me about it and we had interactions and other 
members of the Civil Rights Commission. I also provided it to 
Members of Congress, including Members of the Congressional 
Black Caucus. The one Senator who reached out, being very 
alarmed and pursuing this case with ultimate vigor was Senator 
Sessions. He was very concerned about this. In a number of 
private conversations we talked about a number of the steps 
that could be taken aside from reforming immigration law, which 
we all know here is something that is a significant challenge. 
But what could we do to improve employment prospects of Black 
Americans? He was the only Senator to act in that fashion. I 
heard nothing whatsoever from the Congressional Black Caucus, 
despite copious detail about the negative impact of this.
    I am ultimately convinced that Senator Sessions would take 
the appropriate actions to enforce the law as written, because 
that is what we were talking about, existing immigration law, 
and he was adamant in doing that. Without fear or favor and 
without bias.
    Senator Hatch. Knowing him as well as I do, I agree with 
you.
    Mr. Canterbury, I want to thank you so much for what you 
and thousands of officers who represent us each and every day 
have said here for Senator Sessions.
    The Pew Research Center, today, released one of the largest 
polls of police officers ever conducted involving some 8,000 
officers in departments across the country. As a result of the 
high-profile fatal encounters between officers and Blacks, 
three-quarters of officers are more reluctant to use force when 
it is appropriate, and 72 percent have become less willing to 
stop and question people who seem suspicious.
    Now I believe this effect stems from what has become almost 
a presumption that police have done something wrong when such 
encounters occur. That is a pernicious and dangerous shift in 
the general attitude toward our police and it is totally 
without foundation. Now it seems to me that this change in 
attitude cannot only negatively affect officers and actually 
put police safety at risk, but also make much more difficult 
important efforts at community policing. Do you agree with me 
on that?
    Mr. Canterbury. Absolutely agree with you. I think the case 
in Chicago of the young female officer that decided to take a 
beating rather than deploy a taser because she said it was not 
worth what she would put herself through to deploy a taser is a 
microcosm of what is happening in law enforcement where it is 
not worth what you may have to put yourself through.
    Senator Hatch. Well that same poll found that 93 percent of 
officers had become more concerned about their own safety in 
this country. Yesterday, the Chairman noted that the number of 
police killed in the line of duty has significantly increased. 
You have made that point. Also yesterday, Senator Sessions 
noted that most police are local rather than Federal. The 
Fraternal Order of Police and other national law enforcement 
groups support his nomination. How do you think that a change 
in leadership of the Justice Department can concretely affect 
and improve things at the local level?
    Mr. Canterbury. Well, first of all, the Byrne JAG Grant 
Program, the COPS program, the community-oriented policing 
teams, consent decrees, pattern-of-practice investigations, 
when you have open lines of communication, where rank-and-file 
management as well as citizen and activist groups can discuss 
those cases, I think you can get to a place where the 
communities will feel safer and the police officers will feel 
safer. And we have got to reduce the violence in this country. 
You know, Senator Hatch, we have been saying for a long time, 
systemic poverty is an issue that law enforcement is not 
charged with, nor has the ability to fix. But we are willing to 
be good partners and we believe, with Jeff Sessions as Attorney 
General, we will be able to work in all of those sections of 
the Justice Department, to try to improve.
    Senator Hatch. We are pleased that you are here today and 
we are pleased that you are willing to testify for and on his 
behalf.
    Thank you, Mr. Chairman.
    Chairman Grassley. Senator Durbin.
    Senator Durbin. Thank you very much, Mr. Chairman.
    I want to thank all of the members of the panel who are 
here today, and especially Oscar Vazquez, who came as my 
invitee, for telling his inspiring life story. Thank you. You 
have given a face to an issue which is near and dear to my 
heart and the hearts of millions of Americans, and thank you 
for serving our country.
    General Mukasey, during the course of this hearing I sensed 
that there is an evolving context relative to Russia and the 
involvement of Russia in the election. Many of the questions we 
posed to Senator Sessions related to his values, his votes. And 
now, I think, there is a growing concern of a question that you 
have addressed yourself to him and I asked you to speak to 
again about his role if he becomes Attorney General, vis-a-vis 
the White House, the President.
    We now have allegations, unconfirmed, relative to Russian 
activity related to the President-elect. As I said, alleged, 
unconfirmed. And Director Comey of the FBI saying that at this 
point he would not talk about whether there was an ongoing 
investigation relative to Russia's role in the election.
    So can you give me some clarity? And I think you have 
addressed this, and forgive me if I am asking you to repeat. 
Could you give me some clarity: When you served as Attorney 
General, if you received a call from on high, from the White 
House, from any person in the White House, relative to an 
investigation, an ongoing investigation, or a prosecution, what 
do you believe was the appropriate response in that situation?
    Mr. Mukasey. The appropriate response is that, whatever 
investigation it is, is going to be pursued to its logical 
conclusion, which is to say where the facts and the law lead. 
And I am glad that the question was in the hypothetical because 
I, in fact, did not get such a call, although I have gotten to 
get calls with respect to other matters. And my response was 
generally that the department would pursue its agenda as 
already set.
    Senator Durbin. Is it your position the Attorney General is 
independent in this decisionmaking when it comes to other 
members of the executive branch?
    Mr. Mukasey. Correct. The Attorney General is, obviously, 
is a member of an administration and pursues priorities that 
are set by an administration. But when you are talking about 
particular investigations and particular cases, that is 
something altogether different. And I think Senator Sessions 
made it clear he understood it was altogether different.
    Senator Durbin. May I ask you another question related to 
that? Investigations undertaken by the Federal Bureau of 
Investigation: What authority does the Attorney General have 
over the commencement or the conclusion of those 
investigations?
    Mr. Mukasey. Well, the Attorney General theoretically is--
the FBI director reports to the Attorney General. I say 
``theoretically'' because occasionally one gets the idea that 
the FBI director is independent. If we had more time, I could 
tell you a story, but it will have to wait until an informal 
meeting.
    The FBI director works for the Attorney General.
    Senator Durbin. So I guess my question, repeatedly Senator 
Sessions has called for Attorneys General to recuse themselves 
rather than participate in investigations with political 
ramifications. Most recently, he called for Attorney General 
Lynch to appoint a special counsel for Hillary Clinton in an 
op-ed that he wrote on November 5th of last year.
    I am trying to work this through. I asked him pointedly 
whether he would recuse himself if there were any accusations 
against the President-elect, once he becomes President, or 
other people involved in the Trump campaign. And he basically 
answered me that he was going to take this on a case-by-case 
basis.
    If--he has the authority and power to stop an investigation 
at the FBI, is that what you are telling me?
    Mr. Mukasey. Yes.
    Senator Durbin. So if there is an investigation underway, 
he could stop it if he wished.
    Mr. Mukasey. Yes.
    Senator Durbin. And when it comes to the appointment of a 
special counsel involving the conduct of the President, is it 
your feeling that the Attorney General should, as a general 
rule, consider special counsel?
    Mr. Mukasey. No. It would depend on the case. A special 
counsel is to be appointed when there is a good reason why the 
department headed by the Attorney General cannot pursue that 
case. And I think what Senator Sessions had--I am not familiar 
with the op-ed that you mentioned, so I am speculating, but I 
think it sounds like what he had in mind was not simply the 
position of the Attorney General, but rather the tarmac 
conversation with President Clinton that put her in a difficult 
situation. I do not think that simply had to do with the fact 
that she was Attorney General appointed by the President.
    Senator Durbin. I see, thank you.
    Mr. Brooks, since the Shelby County decision, the Voting 
Rights Act is in a perilous situation. And I commended to my 
colleagues and I commend to you a book entitled ``White Rage'' 
by Carol Anderson, teaches at Emory. And she talks about the 
evolution of the issue of race since the Civil War.
    It strikes me now that we are in dangerous territory about 
the future of the Voting Rights Act. If preclearance is not 
required and the Department of Justice is reacting after the 
fact, there could be some delay in justice here in an 
intervening election or no action taken.
    I asked my staff to give me a listing of the cases 
initiated by the Department of Justice relative to the Voting 
Rights Act for the last several years, and it goes on for 
pages. Can you address this issue about your belief of the 
commitment of Senator Sessions to enforce the Voting Rights Act 
in principle, post-Shelby County?
    Mr. Brooks. Certainly. So as you well know, Senator, the 
Voting Rights Act is regarded as the crown jewel of civil 
rights statutes. And Section 5 was regarded as the most 
effective provision of the most effective civil rights statute.
    And so in the wake of the Shelby County v. Holder Supreme 
Court decision, which debilitated Section 5 via Section 4(b), 
we have seen nothing less than a Machiavellian frenzy of voter 
disenfranchisement from one end of the country to the other.
    And so that means that the Department of Justice has taken 
on more responsibility and civil rights organizations have 
taken on more responsibility with fewer tools. It has meant the 
debilitation, literally, of our democracy where we have 
citizens who have to wait for the violation to occur, as we saw 
in North Carolina where the Fourth Circuit, the U.S. Court of 
Appeals for the Fourth Circuit, held that the State legislature 
engaged in intentional racial discrimination with respect to 
voter suppression, carried out with surgical precision.
    It took an army of lawyers, an army of experts in order to 
vindicate the rights of the people, and a mass movement by the 
North Carolina State conference of the NAACP with so many 
others and so many other legal groups.
    The point being here is the Department of Justice, not only 
is our democracy in a perilous place, but the Department of 
Justice is in a perilous place. It needs strong leadership. It 
needs resources. And we need a Voting Rights Advancement Act to 
fix the Voting Rights Act.
    Senator Durbin. And post-Shelby County, if the Attorney 
General is not timely and aggressive in enforcing the Voting 
Rights Act, the damage will be done.
    Mr. Brooks. The damage is absolutely done. And when we 
think about all of the many Members of this body that went to 
Selma, that commemorated the foot soldiers of the movement on 
the Edmund Pettus Bridge, all that they died for, all that they 
sacrificed for is hanging in the balance. So we need strong 
leadership there because literally, literally we can squander 
the fruit of their efforts and the civic sacrament of our 
democracy, namely the right to vote.
    Senator Durbin. Thank you.
    Thank you, Mr. Chairman.
    Chairman Grassley. Thank you, Senator.
    Senator Cornyn.
    Senator Cornyn. Thank you, Mr. Chairman.
    There is a lot to cover in 7 minutes, so let me try to be 
somewhat selective.
    First of all, thanks to all of you for being here. I cannot 
help but believe that in spite of the fact that we have had a 
national election that the election is still ongoing, the 
campaign is still ongoing. I respect each one of your rights to 
express your point of view, but at the same time it is amazing 
to me that with the Senator having cast 6,000 votes in the 
United States Senate we are focused on a handful of policy 
differences and somehow people are saying that those are 
dispositive of the qualification of this person who we have 
served alongside of for 15 years, in my case, and 20 years in 
the case of others.
    So I guess our job is sort of like the jury in a regular 
lawsuit. We have to give weight to the testimony and we have to 
figure out whose testimony is entitled to greater weight 
because, frankly, the descriptions we have heard today are so 
wildly disparate that I would imagine for people who did not 
know Senator Sessions and know his record as I do and those of 
us who have served with him, it would be hard to reconcile.
    But I want to ask General Mukasey, Senator Hatch alluded to 
this, but this is really important to me and I just want to 
reiterate this.
    You have had the distinction of serving in two branches of 
our three branches of government, as a Federal district judge 
with great distinction, then as Attorney General in the 
executive branch. I, at a much lower level, have had the chance 
to serve now in three branches myself as a State court judge 
and as an Attorney General of my State and now as a legislator 
here at the Federal level.
    Each of those roles are different, are they not? And 
indeed, I think that is the point that Senator Sessions made 
eloquently yesterday. Even though he may have some policy 
differences or had cast a vote against a bill in the Senate, he 
would respect the Constitution and enforce the law. Is that not 
what you understood?
    Mr. Mukasey. That is precisely what I understood. And he 
recognized the difference in the different roles that he plays 
as a legislator from what he would play as Attorney General.
    Senator Cornyn. And I thought yesterday he did a 
magnificent job responding to the questions and acknowledging 
that policy differences do exist. That is just the way it is.
    Mr. Canterbury, let me ask you a little bit about the role 
of the Federal Government and the Attorney General's office and 
the Department of Justice in supporting local and State law 
enforcement.
    I believe the figure is roughly $2 billion a year that the 
Federal Government hands out or distributes in terms of grants 
to local and State law enforcement. I think in your testimony, 
you mentioned the active shooter training that we have tried to 
enhance through the Police Act which passed this Congress and 
was signed by President Obama, making sure that more officers 
got that training, which is even more relevant, sadly, today 
than perhaps even in the past.
    I would just add to that the work that we did recently on 
mental health and its intersection with the criminal justice 
system. The Mental Health and Safe Communities Act that was 
part of the 21st Century Cures bill, again, recognizing that 
our jails and our streets and our emergency rooms have become 
the treatment centers by default for people with mental 
illness.
    We need to do more to try to get people who need help the 
help they need, but not treat mental illness as a crime, per 
se.
    We also need to make sure that we train our law enforcement 
officials because we know how dangerous, at least from the 
stories and the statistics that we see, how dangerous it can be 
when a police officer encounters a person with mental illness 
and they do not have the training they need in order to de-
escalate the scene.
    But could you talk a little bit about your experience and 
your organization's experience as law enforcement officials 
dealing with people with mental illness?
    Mr. Canterbury. Well, I would say in the last 10 or 15 
years the number of mentally ill individuals that law 
enforcement comes in contact with has exponentially gone up as 
mental health services at the State and local level have gone 
down.
    And I have explained this recently to Vice President Biden 
when he asked about that same question, and my response was, in 
many of these situations, regardless of whether a police 
officer or a law enforcement professional realizes that there 
is a mental illness, the circumstances are dictated by the 
actions.
    And so whether or not we can recognize the particular 
mental illness is not as important as recognizing that there is 
an issue. The problem is that there is very little assistance 
at that level anymore for street-level mental illness. And 
making sure that they are not a danger to themselves or others 
should not, cannot be the responsibility of a first-responding 
officer. We just will never have the training to be able to do 
it to that extent. So it is a huge issue for local and State 
officers. And I do not know what we are going to do to fix 
that. But the biggest thing is that the community-based mental 
health facilities are just not there anymore.
    Senator Cornyn. Well, I think you will find a friend in 
Senator Sessions as Attorney General in recognizing the 
priorities for local and State law enforcement and making sure 
that the Mental Health and Safe Communities Act, which will 
provide priority for that kind of training and assistance for 
local and State law enforcement, is there.
    Ms. Sepich, thank you for your outstanding work and arising 
out of a terrible tragedy you and your family experienced in 
your lives. But I know you are committed to making sure not 
only that that does not happen to other families, but also that 
through your work on DNA Saves that we are able to bring people 
responsible to justice. There has been so much work that we 
have done here, and Senator Sessions has been front and center, 
as you have noticed. Things like Senator Hatch's Rapid DNA 
legislation act, the Paul Coverdell National Forensic Science 
Improvement Act, which was just renewed in the Justice for All 
Act that Senator Leahy and I cosponsored and was signed by 
President Obama.
    But it is so important to make sure that we do provide all 
of these essential tools and good science to make sure that we 
do convict the guilty, but we also exonerate people who are 
innocent of crimes.
    And would you--I just want to say thank you. I know the 
Chairman has got his gavel in his hand, he is getting ready to 
gavel me out of order here. But I just want to express my 
gratitude to you for your leadership on that issue.
    But you are right, Senator Sessions has been front and 
center at all of those efforts to not only convict the guilty, 
but also exonerate the innocent.
    Ms. Sepich. Thank you, Senator.
    Senator Cornyn. Thank you, Mr. Chairman.
    Chairman Grassley. And now Senator Leahy.
    Senator Leahy. Thank you. I was not going to interrupt 
Senator Cornyn as long as you are praising the legislation you 
and I wrote together. I mention it only because, contrary to 
what people believe, Republicans and Democrats do work together 
on a lot of things here in the Congress.
    Mr. Thompson, you and I have worked together on things, as 
you know.
    And I just want to say something to Sergeant Vazquez. I 
watched some of your testimony earlier. It is so moving. And my 
wife did, too, and we both are so proud of you and thank you 
for what you have done in your service for the country. And as 
parents of one who served in the military, we, like all parents 
everywhere, you worry about those who serve and you worry about 
what they do, but you thank everybody, the fact that we have 
people who are willing to serve our country.
    Are you concerned about what might happen under the new 
administration for young people registered under DACA?
    Sergeant Vazquez. Definitely, Mr. Senator. There is a huge 
concern for those roughly 800,000 people that raised their hand 
and said they were undocumented, right? I think that the 
biggest point that that makes is that when there was a path, 
there was a way for us to come out of the shadows, right? Eight 
hundred thousand people raised their hand and said they were 
undocumented. Now, the fact of the matter is that there was no 
other way, right? Congress, the Senate has not passed any 
meaningful laws that could guarantee them a path to 
citizenship, to--to whatever you want to call it.
    But unless there is a path, unless there is a way they can 
find a permanent solution, we are definitely concerned that the 
next administration is going to stop the DACA and that those 
students are going to have to go back into the shadows.
    Senator Sessions stated yesterday that there is not enough 
financial support to deport 800,000 people, and at the same 
time he opposed every single legislation that would have given 
them a way to become legal. So what are the students to do? 
What are the young adults to do when they are faced with that 
position? So it is definitely concerning.
    Senator Leahy. You must know an awful lot of people who are 
here under DACA. Is there a sense of concern about the rhetoric 
that we are hearing with the new administration?
    Sergeant Vazquez. There is definitely a sense of concern. 
There is a lot of fear most of all. I know students, one of the 
other--my teammates that won the competition so many years ago, 
he is a father to two U.S. citizen children now and he will be 
facing--he is facing the unknown, given the next 
administration.
    I mean, there has been statements saying that DACA is going 
to be repealed, maybe there is not, so we are not sure what is 
going to happen in that scenario. There is a lot of fear out 
there.
    Senator Leahy. Thank you.
    Ms. Swadhin, I raised--nobody had, I thought I should raise 
the question yesterday at our hearing about comments that the 
President-elect had made regarding sexual assault and gave Mr. 
Sessions a chance to explain. His first response is that he 
seemed to be basically minimizing it and approving of what the 
President-elect had said. He expanded what he meant yesterday. 
And yesterday he was under oath. I will accept that.
    But I think of my own daughter. I think of my three 
beautiful granddaughters. And I think about somebody in a 
Hollywood video when the President-elect jokes about what is 
sexual assault.
    Mr. Sessions, now when he is asked further about it, admits 
that what President-elect Trump bragged about doing is sexual 
assault.
    You have dedicated your life to helping others heal after 
sexual assault. You are a survivor yourself. So I have a two-
part question: What kind of a message does it send when 
somebody, especially somebody in power, trivializes sexual 
assault, even jokes about it? I was a prosecutor, I prosecuted 
sexual assault cases. What does it do for a victim's 
willingness to come forth if they see people in power 
trivialize something that might be a lifelong trauma for them? 
And I yield to you.
    Ms. Swadhin. Thank you for the question, Senator Leahy. You 
know, it is highly relevant on several levels that the impact 
that it has on survivors watching people in power, and in this 
case someone who, you know, has been elected to be the 
President of the United States, make these kind of jokes and 
brag about this kind of so-called ``locker room behavior'' 
about sexually assaulting women. I think it is important to go 
back to the point I made in my testimony that the majority of 
victims of violent crime are assailed by people who they know 
intimately. In cases of adult rape and sexual assault, it is 80 
percent of survivors know their assailant. And in 90 percent of 
cases of child sexual abuse, the person sexually abusing a 
child is known and trusted and often loved by the person who is 
perpetrating the violence.
    So it is already so hard for survivors to come forward 
because it means that we have to testify against the people 
that we put our trust in. My case, it was my father and that is 
not an uncommon story. It is someone very close to you. That is 
how these crimes happen. And so to be able to trust the State 
more than we fear our intimately known perpetrators, we have to 
see people in control of the State who take a hardline stance 
against sexual assault and who, you know, say publicly that 
they would support and believe survivors.
    And unfortunately in this political climate, we are looking 
at an administration led by a man who not only does not seem to 
prioritize helping sexual assault survivors heal and come 
forward and be able to trust the State, but, you know, may have 
actually engaged in sexual assault himself, the things that he 
was bragging about, so it is incredibly concerning.
    Add to that the fact that the violence that we live through 
has very traumatizing impacts. I, myself, live with complex 
PTSD, so your mental health on a day-to-day basis is already 
negatively impacted. So to be able to stay grounded enough to 
come forward and put your trust in a stranger, a social worker, 
a prosecutor, a police officer, in order to get the services, 
the healing, and the accountability that you deserve, it is 
incredibly difficult.
    Senator Leahy. Thank you, because I remember on these 
sexual assault cases with detectives in my office, the 
assistant prosecutors, and myself having to tell people you can 
trust us, we actually care about what you say, we do believe it 
is a crime.
    And frankly, those who trivialize it and say it is not a 
crime are ignoring too many people in this country.
    Thank you, Mr. Chairman.
    Chairman Grassley. Thank you, Senator Leahy. Now Senator 
Cruz.
    Senator Cruz. Thank you, Mr. Chairman. I want to thank all 
the members of this distinguished panel for being here today. 
And I want to take a special moment to thank Larry Thompson who 
was my boss at the Department of Justice, although I would note 
that you should not hold Larry accountable for my many missteps 
in the years that followed.
    I want to start, Mr. Cole, by addressing your testimony. 
And I would note that the ACLU--I have worked alongside the 
ACLU on any number of issues here in the Senate, including we 
have worked alongside each other on issues of indefinite 
detention, we have worked on the same side concerning the USA 
Patriot Act, we have worked on the same side working to stop 
the efforts of Senate Democrats to amend the Constitution and 
to amend the free speech protections of the First Amendment. 
And so I am grateful for many of the good things the ACLU does. 
You are a professor at Georgetown. I would like to ask you, as 
a professor, how would you react to a student who submitted an 
exam with a one-sided and biased account of the facts that 
included only the facts supporting the student's views and 
omitting everything else?
    Mr. Cole. Well, first of all, Senator Cruz, thank you for 
where you have worked with us and we hope to work with you in 
the future where our interests align. You know, what we did 
here with respect to Mr. Sessions was to----
    Senator Cruz. I will get into the facts for a moment.
    Mr. Cole. Yes, so I think----
    Senator Cruz. If you will indulge me and answer the 
question.
    Mr. Cole. Right. So I think it would depend. If the 
question were to the student, is grabbing a woman by the 
genitals sexual assault or not and they responded, yes, it is, 
I would say that is a correct answer. If they responded by 
saying, actually----
    [Interruption from the audience.]
    Mr. Cole. If they responded by saying, no, I would not 
characterize grabbing a woman by her genitals as sexual 
assault, I think that is a stretch, as Mr. Sessions did--
    Senator Cruz. Mr. Cole, I----
    Mr. Cole. Then I would say that is not a good answer. So it 
depends on the question.
    Senator Cruz. We will get into the facts and substance in a 
moment.
    I think I am on firm ground observing that if you had a 
student who presented a one-sided and biased answer you would 
grade them very poorly. I would also note you and I are both 
Supreme Court litigators. And any court would not look kindly 
at a litigant who omitted any facts or law that were to the 
contrary.
    Would you agree with that? That if you file a Supreme Court 
brief or do an oral argument and the case law that is against 
you, the facts that are against you, you just stick your head 
in the sand and ignore, that does not tend to be looked on too 
kindly by the Supreme Court or by any court?
    Mr. Cole. No, I think you have to address the questions 
that are presented by the case, as I think we did with respect 
to Senator Sessions.
    Senator Cruz. Okay, good. Well, then let us get into the 
facts. You blasted--and I will note that your testimony--I have 
to say, your testimony both written and oral is disappointing 
to me. You characterized it as ``strictly nonpartisan,'' and 
yet you blasted Senator Sessions for prosecuting African-
American civil rights leaders as a U.S. Attorney in the 1980s, 
insinuating that doing so somehow made him a racist.
    And yet, you did not mention in your written or oral 
testimony the fact that the complaints asking him to do so were 
brought by African-American citizens who felt that their votes 
were being abused and stolen. And indeed, I would like to read 
a quote from LaVon Phillips, who is an African-American 
investigator for the Perry County District Attorney's Office, 
who said, ``There was an ongoing, Black-on-Black power struggle 
in Perry County. In 1982, the office received numerous 
complaints from incumbent Black candidates and Black voters 
that absentee ballot applications were being mailed to 
citizens' homes without their request. People were going to the 
polls trying to vote. They were told that they had already 
voted absentee when they did not. A grand jury, a majority of 
which was African American, asked in its official report for a 
Federal investigation of voter fraud in Perry County because it 
was becoming very abusive and the Black incumbent candidates at 
the time were rather terrified.'' That is the case Senator 
Sessions brought as U.S. Attorney.
    And my question to you, Mr. Cole, is, in your written and 
oral testimony, why did you omit the fact that the complaint 
came from African-American citizens, from elected African-
American incumbent politicians, and the indictment came from a 
grand jury that was a majority African-American? Why did you 
omit those facts?
    Mr. Cole. Well, I do not think I intentionally omitted 
those facts, Senator Cruz. What I did was to express our 
concerns about several aspects of that case, namely that 
Senator Sessions, as the U.S. Attorney, investigated only 
counties, not just Perry County, but only counties where Black 
votes had gone up, not where White votes had gone up, but only 
where Black votes had gone up, number one.
    Number two, that he had conducted the investigation in an 
extremely intrusive way, addressing Black voters at their 
homes, asking them how they voted, why they voted, et cetera.
    Number three, that he took the position, the legal position 
that advising somebody on how to vote, on who to vote for, was 
a crime.
    Now, you, Senator Cruz, when you were running for 
President, advised people on how to vote for yourself. That was 
not a crime.
    Senator Cruz. Well, you also omitted the fact that the 
evidence in the case showed absentee ballots had been tampered 
with. And indeed, the defendant in the case admitted that he 
had changed absentee ballots. He argued it was with the voters' 
consent, but he admitted he had changed absentee ballots.
    Mr. Cole. And if you are----
    Senator Cruz. And my point is simple, Mr. Cole. This 
Committee can assess what occurred there. But any law student 
or any litigant who presented such a one-sided picture of the 
fact, conveniently omitting every single fact that is to the 
contrary, would not be treated as a credible witness and would 
not be treated, as you describe your testimony, as strictly 
nonpartisan.
    Let me turn briefly to a second issue you brought up, which 
was the TIECO case. You said the TIECO case undermines 
Sessions' fitness for the job as Attorney General. And 
likewise, there are a number of facts that you just omitted 
from your discussion.
    Number one, the basis of your complaints was submitted to 
the Alabama Ethics Commission. And on July 10th, 1996, the 
Ethics Commission unanimously dismissed the charges against 
Sessions for insufficient facts. Now, you briefly mention that 
in your written testimony, but you omitted it from your oral 
testimony.
    Fact number two, the Alabama State Bar--one of TIECO's 
lawyers filed a complaint with the Alabama State Bar, based on 
the trial court's order that you quoted, alleging over 20 
ethical violations. The Alabama State Bar adjudicated that 
matter and on February 16th, 2000, the State bar unanimously 
dismissed the complaint. Again, you omitted that fact from both 
your written and your oral testimony. That is nowhere to be 
found.
    But third, most strikingly, the language you rely on as the 
basis for your testimony, the Federal Court of Appeals, the 
Eleventh Circuit, concluded that that precise language 
concerning prosecutorial misconduct was ``particularly 
unreliable and misleading.'' It reversed a civil verdict based 
on it. And the Eleventh Circuit concluded there was ``no 
evidence in the record to support a finding that TIECO's 
Federal constitutional rights were violated,'' and concluded 
that ``probable cause existed to prosecute TIECO.'' You omitted 
that fact that the Federal Court of Appeals profoundly 
repudiated that State court ruling you are relying on. And 
that, again, is not credible or impartial testimony.
    Now, I would ask the Chairman for consent to introduce into 
the record the Federal court opinion, the ethics complaint 
dismissal, the State bar complaint dismissal, and related 
materials. And I would also like to introduce a memo from 
Professors Ronald Rotunda and William Hodes concluding that, 
``The mere nonspecific allegations of a party uncritically 
adopted by a State court judge and rejected by the State 
agencies with jurisdiction over ethics complaints cannot 
possibly have any bearing on Senator Sessions' ethical standing 
today.''
    Chairman Grassley. Without objection, so ordered.
    [The information referred to appears as submissions for the 
record.]
    Mr. Cole. Can I respond? No? Can I respond. Just briefly, 
and thank you.
    First of all, I did not omit that the Ethics Commission 
concluded there was not an ethics violation, but that was a 
year before the case was dismissed for rampant prosecutorial 
misconduct.
    Second, I did not omit the fact that the Eleventh Circuit 
reversed a lower court decision for introducing that trial 
court opinion. I addressed it and I explained that that 
Eleventh Circuit decision in no way questioned the factual 
validity of the trial court's findings that Senator Sessions' 
office engaged in the worst misconduct that he had ever 
witnessed.
    What the court held was that, because it was hearsay, 
because it was hearsay and, therefore, the defendants were not 
able to cross-examine the information and because it was very 
prejudicial, it was improperly introduced. But the court did 
not have before it any facts that would allow it to assess 
whether the judge's findings based on the judge's record in the 
State trial court were right or wrong. And in fact----
    Senator Cruz. So you say the Federal court did not question 
the reliability. The quote from the Eleventh Circuit is that 
the State court's opinion was, ``particularly unreliable and 
misleading.''
    Mr. Cole. And what it meant was--but if you read the 
opinion, which I did, and, Senator Cruz, you are now presenting 
misleading information, because if you read the opinion, the 
opinion makes it very clear that the decision is based on a 
rule of hearsay and its relation to prejudice. In the abstract 
it is a legal ruling, it is not a factual determination in any 
way, shape, or form.
    And so you present one side, I present another side. I urge 
the Committee to look at the facts of this case where Senator 
Sessions worked on behalf, closely collaborated with people who 
were making campaign contributions to him, filed a 222-count 
indictment, every count was thrown out.
    Senator Cruz. Mr. Cole, my time is expired, but I would 
simply note the Federal Court of Appeals said, and I quote, 
``The statement of facts was intended to exculpate TIECO and, 
thus, it was self-serving and unreliable.'' That is a verbatim 
quote from the Federal Court of Appeals and it is contrary to 
what you have just told this Committee.
    Chairman Grassley. Senator Franken.
    Senator Franken. Before my time starts, can I just note 
that Senator Cruz's time went over 4 minutes. And I want to 
respond to something Senator Cruz said.
    Chairman Grassley. [Off microphone.]
    Senator Franken. I know, but can I maybe have a couple of 
extra minutes because I want to respond to something that 
Senator Cruz said about omitting facts.
    Chairman Grassley. [Off microphone.]
    Senator Franken. Well, you are the Chairman. Yesterday I 
developed this line of questioning with Senator Sessions where 
he mischaracterized civil rights cases that he had been 
involved in.
    He said that he had personally handled--among the 10 most 
important cases he personally handled, four of them were civil 
rights cases. And I put into evidence testimony from an op-ed 
article co-authored by Gerry Hebert.
    Mr. Cruz, in following me, said that Mr. Hebert's testimony 
in '86 was discredited, that he recanted it and it was 
discredited. He did not recant his whole testimony. He recanted 
a small piece of his testimony. It was actually in the 
recanting of it--was Senator Sessions' favor. And he did it 
before--he did it in time so it was before the vote.
    It was one little piece where he had misidentified. He said 
that Sessions had stopped him from pursuing, or not given him 
approval to do a civil rights case, and he had looked back at 
his records and got that wrong. Every other part of his 
testimony he did not recant, and he was not discredited.
    So if the Senator is going after a witness for not being 
balanced, I would suggest that the Senator look at his own 
methods of making arguments.
    Now, I want to know, does anybody here, anybody on this 
panel, have any evidence at all, any reason to believe that 
there were 3 million fraudulent votes cast in this election?
    [Voice off microphone.]
    Senator Franken. Yes.
    Okay. Now, voting rights is a big deal. It is a really big 
deal. And so when we are going to be--we are talking about the 
Attorney General here, it is important that the Attorney 
General care about voting rights, because that is a part of his 
job.
    Now, Mr. Brooks, North Carolina. When was that--that was 
thrown out by the Fourth Circuit. When was that enacted--was 
thrown out by the Fourth Circuit?
    Mr. Brooks. I think 2 years ago.
    Senator Franken. How many?
    Mr. Brooks. I think 2 years ago, I am not sure.
    Senator Franken. Yes, 2 years ago, right? So in the 
intervening time, there have been elections, right?
    Mr. Brooks. Yes, sir.
    Senator Franken. And what did the Fourth Circuit say about 
how this was targeted?
    Mr. Brooks. The Court held that the voter suppression was 
intentional, racially intentional, and that it was carried out 
with surgical precision with respect to African-American 
voters.
    Senator Franken. Okay. So in other words, the North 
Carolina State Legislature, with surgical precision, went after 
African-American voters to prevent them from being able to 
vote.
    And because we did not have preclearance, there were 
elections allowed to happen in which votes were suppressed, 
right?
    Mr. Brooks. Yes, Senator.
    Senator Franken. Is that how our democracy is supposed to 
work?
    Mr. Brooks. No, Senator. As you well know, that when the 
preclearance provision was in effect, for years and years on 
end, these kinds of changes were regularly rejected by the 
Department of Justice--at least 20 or so a year. And so in the 
wake of the Shelby decision, what we have now is a political 
landscape in which the violation has to occur, and then 
ordinary citizens have to find lawyers, have to find experts, 
they have to find organizers, have to reach out to the NAACP to 
right a wrong in their democracy, where resources that they do 
not have in communities often under siege, civically speaking, 
and this is expensive. And it imposes a cost not only on the 
litigants, one of whom I walked with from Selma to DC last 
year, at 90-some-odd years of age. So this is not merely a 
matter of legal costs, but also costs on our fellow citizens.
    Senator Franken. Now, because we had Shelby, we did not 
have preclearance, and because of that, elections were held in 
which Black votes were suppressed. That we know. That we know 
is a fact.
    Now, if we do not have preclearance, we have--and Senator 
Sessions said that this was targeted at the States--of course 
it was targeted at States like North Carolina and States that 
have a history of doing this. That is for a reason. And we can 
get a new formula, as Senator Coons has tried to get passed 
through here.
    But in the meantime--and does anyone--can anyone guess why 
I asked about the evidence on 3 million suppressed votes, or 
supposedly fraudulent votes? I think you know why I brought it 
up. Because when you are saying that there are 3 million 
fraudulent votes, that is your excuse to suppress votes. There 
was no--none of the States, nobody came forth with evidence of 
any widespread fraud. Zero fraud mainly is what we heard.
    And so what I want is--and I will just finish up with this 
sentence--I want an Attorney General who is going to protect 
people's right to vote. And I do not think, with Senator 
Sessions, we are going to have that.
    Chairman Grassley. Senator Graham.
    Senator Graham. Thank you very much.
    Does anybody on the Committee doubt that there are cases of 
voter fraud in America? They all said they do not doubt it.
    Do you doubt it? If you do, now is the time to speak up.
    Mr. Brooks. Senator, various studies have indicated that 
when you compare the number of ballots cast in the hundreds of 
millions, the number of instances where voters are 
impersonating voters for the purpose of casting a ballot are a 
literal handful.
    So if you look at the research of Ari Berman, any number of 
scholars will indicate that it is virtually zero. It is a 
relative handful, to hundreds of millions of ballots cast.
    Senator Graham. So you are saying there really is no 
evidence of voter fraud. What happens if a county has more 
votes than there are people in the county?
    That does not seem right to me. But anyway, the bottom line 
is I think you want to do two things, at least I do--make sure 
people can vote, and nobody votes illegally. Indiana has an 
approach; North Carolina has an approach. We will keep working 
on it.
    Mr. Brooks, do you give a scorecard to Members of Congress?
    Mr. Brooks. The NAACP does, indeed.
    Senator Graham. Okay. Do you know what score was given to 
Senator Sessions in the 113th Congress?
    Mr. Brooks. The Senator has received a low grade, as in a 
failing grade, for years on end.
    Senator Graham. Okay. He got 11 percent. What did I get?
    Mr. Brooks. Senator, I will have to consult the scorecard 
for you.
    Senator Graham. I got 25 percent. Hatch got 25 percent. 
Grassley got 11 percent. Lee got 11 percent. Cruz got 11 
percent. Sasse is yet to be determined. Flake, 29 percent. 
Crapo, 14 percent. Tillis, not rated. Kennedy, not rated.
    What did the Democrats get on this Committee? Feinstein got 
100 percent. Leahy got 100 percent. Durbin got 100 percent. 
Whitehouse got 100 percent. Klobuchar got 100 percent. Franken 
got 100 percent. Coons got 96.
    [Laughter.]
    Senator Graham. Blumenthal got 100 percent and Hirono got 
100 percent.
    Why do--would you say that there seems to be a difference 
in terms of the parties and how well they do with NAACP's 
legislative agenda?
    Mr. Brooks. Yes. The new questions--the report cards are 
based on legislation, not party affiliation.
    Senator Graham. Well, is it not kind of odd that one party 
gets 100 percent and nobody else does very well on our side?
    Mr. Brooks. Senator, I do not think it is odd. It simply 
reflects the----
    Senator Graham. I think it is really odd. I think it--well, 
it speaks for itself. Name one--it means that you are picking 
things that conservative Republicans do not agree with you on 
and liberal Democrats do. I hope that does not make us all 
racist and all of them perfect on the issue.
    Can you name one person you think would be a good Attorney 
General on the Republican side?
    Mr. Brooks. Senator, my purpose here, as you well know, as 
a witness, is to speak to the nominee's fitness to serve as 
Attorney General. And I might note, with respect to our report 
card, we have done that for the better part of a century, not 
based on----
    Senator Graham. If I may, I think that the report card says 
volumes about how you view Republican conservatives, and all of 
us are in Jeff Sessions' boat when it comes to your 
organization. Maybe we are all wrong and maybe you are all 
right. I doubt if it is that way.
    Mr. Mukasey, you have been Attorney General.
    Mr. Mukasey. Yes.
    Senator Graham. You know the job pretty well.
    Mr. Mukasey. As well as you can learn it in the time that I 
was there.
    Senator Graham. So what makes you believe that Jeff is 
capable of doing the job?
    Mr. Mukasey. I think he has all the qualities of passing 
issues of competence and knowledge. He has all the qualities of 
mind and character that it takes to do the job, plus he has 
tremendous skill as a lawyer. He has also got an advantage that 
I did not have, which is to say he had 20 years in this body, 
so he understands relationships with Congress. It does not have 
to be a learned skill for him, and has the dedication to the 
rule of law that is required to do the job properly.
    I have no hesitation in supporting him.
    Senator Graham. Thank you.
    Mr. Canterbury, you are--do you work with Democrats and 
Republicans at the FOP?
    Mr. Canterbury. Absolutely, Senator. Many good friends on 
both sides of the aisles.
    Senator Graham. Have you found Jeff Sessions willing to 
work with the other side when he finds common ground?
    Mr. Canterbury. Absolutely. And we have disagreed with 
Senator Sessions on issues, but always willing to listen to us.
    Senator Graham. Have you found him--he will fight like a 
tiger for what he believes in?
    Mr. Canterbury. Yes, sir.
    Senator Graham. How do you say your name, Peter----
    Mr. Kirsanow. Kirsanow.
    Senator Graham. You have been a big supporter of Senator 
Sessions' immigration position, is that fair to say?
    Mr. Kirsanow. That is correct.
    Senator Graham. And I have been a big opponent of that.
    Mr. Kirsanow. That is correct.
    Senator Graham. Your observations about the man I agree 
with, substantively, on the issue, I disagree, but I appreciate 
you coming forward and speaking.
    Mr. Vazquez--is that right?
    Sergeant Vazquez. Yes, sir.
    Senator Graham. If I have my way, then we will find a way 
to replace the Executive orders with legislation to protect the 
800,000 people who have come out of the shadows. Look forward 
to working with you on that. Do you support deporting people 
who have committed felonies?
    Sergeant Vazquez. I believe that the real spirit of 
immigration when coming to this country is to come here to 
pursue a better life. I can speak for the people I know, my 
parents, right? We came here to work. We came here to pursue a 
better life, and----
    Senator Graham. My question is, do you support deporting 
people who have committed felonies?
    Sergeant Vazquez. If you are going to come here to work and 
you are here to do other issues, then perhaps you are not 
representing us, and you should not be given the same 
opportunities.
    Senator Graham. Thank you all.
    Chairman Grassley. Senator Coons.
    Senator Coons. Thank you, Mr. Chairman, and I would like to 
thank the witnesses of this panel today for their moving 
testimony and for sharing with us their experiences and their 
struggles, their work for public safety, for justice, for civil 
liberties, and civil rights.
    The role of an Attorney General is not to be a bystander or 
a mere witness to the passing of time. Fundamentally, the top 
law enforcement officer of our country has an obligation to 
enforce the law. But that is too simplistic a framing. In a 
world of limited resources and competing demands, not every 
violation of law is enforced equally at all times in every 
situation.
    The Attorney General of the United States has enormous 
power to shape the strategy of the Justice Department and 
deploy its resources of $27 billion and 100,000 employees. And 
at times we heard yesterday a more moderate, more reflective 
Senator Sessions, who gave encouraging answers to a number of 
pointed questions. But I am very concerned that Senator 
Sessions' 30-year record reflects many extreme positions far 
out of the mainstream, not just of our legislative work here, 
but out of the Republican Party.
    More than that, I am concerned that Senator Sessions' 
record demonstrates that when there was an opportunity to stand 
up for the vulnerable, to promote civil rights or advance 
justice, he did not take action, or even actively opposed 
bipartisan work that would advance justice. So I have just a 
few quick questions.
    First, I would like, Mr. Chairman, to introduce into the 
record a letter from Coretta Scott King that was sent to the 
Chairman and Ranking--at that point, Senator Biden--back in 
1986 that was apparently omitted from the record, that I think 
ought to be made a part of the record.
    [The letter appears as a submission for the record.]
    Senator Coons. And I would like to first ask, if I might, 
Dr. Brooks about Senator Sessions' record. He has been 
criticized for actions he took ranging from the 1980s to the 
current day. And based on his record, many have expressed 
concern that, as Attorney General, he might not fully enforce a 
variety of civil rights laws and help advance them.
    And after the Supreme Court's decision in Shelby County 
striking down preclearance--the most important piece, I would 
argue of the Voting Rights Act--a Voting Rights Act that was 
really forged in the crucible of the march in Selma.
    A number of us worked to try and find a fix that addressed 
his concerns about the formula being outdated, that the formula 
was based on things that had happened decades ago. And despite 
diligent, disciplined work to try and find a bipartisan 
solution, we did not find a partnership with him.
    Tell me, do you believe that Senator Sessions as Attorney 
General would not just be a witness to actions, but would act 
to advance justice?
    Mr. Brooks. Based upon the record, we do not believe that. 
And the reason being here is that the Voting Rights Act has 
been debilitated in the wake of Shelby. We have seen these 
voter ID laws affecting at least 21 million Americans. We have 
seen these voter ID laws based upon the false predicate of 
voter fraud. We saw that in Alabama. We have not heard the 
Senator speak out on the voter suppression in his own State.
    A voter ID law in that State, or similar to the one in 
Alabama, has been invalidated both in the Fourth Circuit and in 
the Fifth Circuit, North Carolina and Texas. The Senator has 
referred to the Voting Rights Act as--or I should say, the 
debilitation of it--as good for the South. He has referred to 
the Voting Rights Act as intrusive. He has not spoken in any 
way commendable, has not done anything to strengthen the Act in 
the wake of Shelby, has not recognized the voter suppression in 
his own State, has not spoken out in any way significantly in 
terms of the voter suppression that has occurred in the wake of 
Shelby. So we have no reason to be confident that as a chief 
law enforcement officer of the country, that he would do all 
that is necessary to protect the rights of Americans. In other 
words, being a prosecutor is not merely a binary matter; you do 
it or you do not. There is a matter of discretion, there is a 
matter of judgment, there is a matter of allocation of 
resources, and a matter of using the resources of the 
Department of Justice to bring about justice. We have no reason 
to be confident that he will do that.
    Senator Coons. And to make it clear, Dr. Brooks, Senator 
Franken was just asking about this. The allegation that there 
were 3 million fraudulent votes in this last election was made 
by the President-elect, without any foundation. We have had 
hearings in this Committee. There have been hearings in other 
places and in other legislatures. There is no evidence of 
widespread fraud to justify the voter ID statutes that have 
been enacted. And subsequent reviews, not just in North 
Carolina but in other places, have found them to be 
unconstitutional, yet the nominee for Attorney General has been 
silent about those issues and concerns. Is that your case?
    Mr. Brooks. That is in fact the case. And let us note this. 
Let us just be very clear about this. Empirically speaking, one 
is as likely to see the tooth fairy standing next to Santa 
Claus at the ballot box as to encounter an actual instance of 
voter impersonation, voter fraud. Those are simply the facts. 
So for this kind of voter fraud to be a predicate for voter 
suppression is a shame in our democracy. There is no such case 
of voter fraud on the magnitude that has been described by the 
President-elect.
    Senator Coons. Thank you, Dr. Brooks.
    Mr. Cole, the ACLU has published a report outlining a 
number of concerns about Senator Sessions' nomination, ranging 
from voting rights to criminal justice to LGBT rights to 
torture to religious freedom.
    I would like to note that in the audience today, I have 
marked, Mr. Khizr Khan is here with us. He has spoken 
passionately about his son's sacrifice for our Nation in combat 
in Iraq and has submitted a letter that I think is worth review 
by all Members. I would like to submit it for the record, if I 
might.
    [The letter appears as a submission for the record.]
    But Mr. Chairman, Mr. Khan, in his letter, spoke about his 
Muslim faith, about what it means to be an American and what it 
means to have real concerns about the Attorney General nominee 
and his commitment to the enforcement of religious liberty and 
protection of civil liberties.
    Out of all the issues raised by the ACLU, what concerns you 
most?
    Mr. Cole. Well, I think it is the pattern, the pattern of 
abuse when he exercised prosecutorial power, and the pattern 
while he was Senator of not just an ideological difference as 
some have put it, but of blindness at best and hostility at 
worst toward the interests and the rights that the Attorney 
General of the United States is--has a responsibility to 
protect.
    So when you say--you can vote against the Hate Crimes Act, 
but when you say the reason I am voting against the Hate Crimes 
Act is because I do not think gays and lesbians and women are 
victims of discrimination, that is a blindness. When you say 
that Islam is a toxic ideology, that is hostility.
    When you defend the President when he proposed--the 
President-elect, when he proposes a blatantly unconstitutional 
action using religion as a test for immigration, and you in the 
Senate are one of four people who defend that position and 
oppose a resolution that does no more than underscore what the 
Establishment Clause requires, which is that Government 
officials be neutral vis-a-vis religion, that gives us great 
pause.
    So I think it is the entire record here. It is not an 
individual disagreement, it is about a failure to recognize 
discrimination and a hostility to some of the very rights that 
the Justice Department is designed to protect.
    Senator Coons. Thank you both for your testimony. Thank 
you, Mr. Chairman.
    Chairman Grassley. I want to put in the record the fact 
that there has been a lot of discussion of the Perry County 
case. It is worth noting that the Turner's son, Albert F. 
Turner, Jr., thinks Senator Sessions handled their case fairly. 
He said this in the letter, ``My family and I have literally 
been on the front line of the fight for civil rights my whole 
life, and while I respect the deeply held positions of other 
civil rights advocates who oppose Senator Sessions, I believe 
it's important for me to speak out with regard to Senator 
Sessions personally''--I appreciate Mr. Turner's attitude--``he 
was a Federal prosecutor at the Federal level with a job to 
do.'' So without objection, I will put the statement in the 
record and turn to Senator Blumenthal.
    [The letter appears as a submission for the record.]
    Chairman Grassley. Oh. Well, did you show up before I 
called on him?
    Senator Blumenthal. I would be happy to yield, if the 
Chairman so wishes.
    Chairman Grassley. Senator Tillis, go ahead. I am sorry. I 
did not see you come in when I called him.
    Senator Tillis. Thank you, Senator Blumenthal. Actually, I 
have got to preside before too long, so this will be my last 
opportunity. So, thank you very much for the courtesy.
    Mr. Vazquez, I want to thank you for your service and I 
want to thank you for coming up and speaking on behalf of 
folks, where I for one happen to be on the spectrum where I 
think some sort of immigration reform policy is something I 
hope we accomplish over the next couple of years. I look 
forward to working with other colleagues on this issue.
    But now I want to go to Mr. Kirsanow. Am I pronouncing your 
name right, Mr.----
    Mr. Kirsanow. Close enough.
    Senator Tillis. Okay. Kirsanow. You sat on a panel that I 
referred to in general yesterday. I do not know if you recall 
the panel where it was primarily Senator Sessions and myself in 
a kind of a debate club in the Immigration Subcommittee, but I 
pointed to that as an example of his sense of fairness, because 
we came to that Committee with very different views about the 
immigration issue.
    I do share many of the concerns--I am going to ask you a 
question in a moment about it--that you expressed. But what I 
was most struck by were the multiple rounds of discussions that 
we had and how quick he was to give me another round when he 
knew full well that what I was going to talk about was at odds 
with what he, as the Chair of that Committee, really wanted to 
have the discussion be about. So that, to me, is just another 
testament of the fair nature of Senator Sessions and I look 
forward to supporting his nomination.
    Mr. Kirsanow, I actually hope--and this relates to a 
question that Senator or Chairman Grassley asked yesterday. I 
actually hope, and do you believe, that an Attorney General 
Sessions would likely prosecute examples of where visa programs 
are being abused and calling out the people who are abusing the 
work visa programs that we have today? Do you think he is going 
to do that?
    Mr. Kirsanow. I am fairly certain he will, based on his 
public actions and the discussions we have had. He is concerned 
about enforcing the law as it exists, fairly, impartially. I 
think one of the frustrations that he has expressed, as many 
people have expressed, is that existing immigration laws and 
other laws simply are not being enforced. As General Mukasey 
has indicated, it is his job to enforce the law as an Attorney 
General as opposed to a legislator who makes the law.
    Senator Tillis. And Mr. Vazquez, the reason why I like the 
answer to that question is that there are those of us who want 
to make progress on immigration reform need to get to the facts 
around where the abuses are occurring and how we eliminate 
them, because once we eliminate the abuses, then we can have 
the legitimate discussion about labor shortages and demographic 
trends that are probably going to get--have to get us to the 
right place on allowing legal immigration to occur.
    But until we have a top law enforcement official who is 
willing to actually make sure that the law is followed today so 
that I can come back and say that there is a need for migrant 
workers, there may be a need for highly skilled workers, and we 
have an Attorney General who is actually enforcing the law to 
get rid of the abuses that take us further away from that 
result?
    I think, interestingly enough, that an Attorney General 
Sessions may get us closer to a solution on immigration reform 
that both you and Mr. Kirsanow may find acceptable over time. 
Maybe idealistic, I have only been in this job for a couple of 
years, but having somebody who will get to the facts and who 
will actually get us to a point to where we can discuss the 
facts in this meeting about the reality of immigration reform 
and demographic trends is something I think that Mr. Sessions 
is going to help us do.
    Mr. Thompson, you have spent a fair amount of personal 
time--if you roomed with Senator Sessions, then that means you 
spent a lot of personal time with him. Tell me a little bit 
about his experience as U.S. Attorney that you think make him 
highly qualified for the role of Attorney General, and also 
your personal observations with him when he was in the role as 
U.S. Attorney?
    Mr. Thompson. So my response to your question, Senator, 
really will go to some of the questions that have been asked 
about Senator Sessions' ability and willingness to enforce the 
laws. Over the years, I have known, you know, some bad 
prosecutors and over the years I have known some good 
prosecutors.
    I can assure you that Senator Sessions will be aggressive 
with respect to potential violations of the law. He will strike 
hard blows, he will not strike foul blows. And I do not think 
anyone here should have any concern about his willingness to 
enforce our laws fairly, impartially. He is a professional. He 
will be a complete professional in this job.
    Senator Tillis. Mr. Canterbury, I thank you and all the men 
and women who serve in our communities keeping us safe. There 
is another element to, I think, an Attorney General Sessions 
that I believe will help us get through the variations that we 
have in illegal seizures. I know that the Chair has had some 
concerns with forfeitures and seizures.
    I think a part of that has to do with the past execution of 
the current Department of Justice, and maybe the leadership in 
the past. I firmly believe that this is another issue to where 
maybe we can have a discussion about a proper execution of 
seizures and forfeitures that will make people in this 
Committee who are concerned with abuses less concerned with 
that. Would you agree with that statement?
    Mr. Canterbury. Absolutely. I mean, we stand ready to work 
with the Committee as well to find a solution to the issues on 
the less-than-credible seizures. But the vast majority of the 
seizures, as Senator Sessions has commented many times, are 
crooks paying for law enforcement.
    Senator Tillis. And I tend to agree with that. Because my 
time is limited and I want to stay under, particularly in 
deference to Senator Blumenthal, I just want to thank General 
Mukasey. I actually had a question for you, but I am not going 
to ask it so I will not go over, except to thank you because 
you may be the first attorney who has come before a panel in 
this Judiciary Committee who answers yes/no questions with 
either yes or no. So, thank you very much.
    I yield back the balance of my time.
    Chairman Grassley. Senator Blumenthal.
    Senator Blumenthal. Thanks, Mr. Chairman. Thank you all for 
being here. This is a very distinguished panel and each of you 
brings a perspective that is very valuable to our Committee.
    Let me begin with Mr. Thompson, who has a wealth of 
experience, both as a private practitioner and as Deputy 
Attorney General.
    Mr. Thompson. And you used to be my Senator.
    Senator Blumenthal. That is correct. And we welcome you 
here. I am very concerned, as Senator Coons articulated so 
well, about a number of Senator Sessions' views on issues which 
seem to be out of the mainstream and hostile to basic civil 
rights and liberties, his views on immigration, his statements 
about Muslims, and his views on voting rights.
    You served as Deputy Attorney General. You were responsible 
for enforcing the Voting Rights Act. I assume that you feel 
that it served a valid purpose. Do you agree that the Shelby 
County v. Holder decision was ``good news,'' which is what 
Senator Sessions called it?
    Mr. Thompson. I am not that familiar with that case, 
Senator, but let me respond this way, please.
    Senator Blumenthal. Well, let me just tell you, you may not 
be familiar in depth with it but essentially it gutted the 
act's most important enforcement provisions and it lifted the 
obligation, which you were responsible for enforcing as Deputy 
Attorney General, on many States with a history of voting 
discrimination to clear voting changes with the Department of 
Justice.
    Mr. Thompson. As I understand the decision and as I 
understand the voting rights laws, the decision did leave in 
place provisions that allowed the Department of Justice to deal 
with important areas of voting rights. I now live in the South 
and one of the things about the way we have administered and 
implemented voting rights is that--I can tell you, I have lived 
in your home State and I have lived in the South, and I can 
tell you there are problems in both States.
    So for a lot of people who live in the South, the idea to 
be--the idea in this day and age to be subject to provisions 
that Connecticut, for example, is not subject to, or other 
northern States are not subject to, is something that is hard 
to swallow for a number of people.
    Now, let me respond about Senator Sessions, what we are 
talking about in terms of his ability and willingness to----
    Senator Blumenthal. Let me just----
    Mr. Thompson. Enforce the law. I--we all go about choosing 
our friends in different ways. I have friends with all kinds of 
different political philosophies, all kinds of different 
beliefs, liberal friends, conservative friends. But when you go 
to the character of Senator Sessions, as someone who is going 
to be the Attorney General of the United States and his 
willingness to enforce all laws in an aggressive and fair and 
impartial manner, I have no problem with him.
    I do not--I think he will be a very good Attorney General. 
You may not believe in that in terms of my own background, but 
I have practiced law for 43 years. I have spent a lot of time 
being concerned about diversity in our profession. I have spent 
a lot of time being concerned about equal rights. Jeff Sessions 
will be a very good Attorney General and I have no problem with 
his character as it relates to his willingness to enforce our 
laws.
    Senator Blumenthal. Would you not agree that there is a 
continued need for enforcement of voting rights laws in the 
South, and other areas of the country? I am not singling out 
the South.
    Mr. Thompson. Yes. Yes.
    Senator Blumenthal. And would you not urge Senator Sessions 
that a decision that essentially guts one of the essential 
features of that law is not really good news for the South or 
the country?
    Mr. Thompson. I have never been a legislator, but that 
really will not be his concern as Attorney General. That will 
be the concern of this Committee in terms of dealing with 
legislation that might change and improve the voting rights 
laws.
    Senator Blumenthal. Thank you.
    Mr. Vazquez, have you submitted information to the Federal 
Government in connection with your status, and do you know of 
others who have as well who could be subject to enforcement 
actions as a result of information that they provided the 
Federal Government?
    Sergeant Vazquez. I have--obviously I am now a U.S. 
citizen, but before--before this was the case I did submit a 
lot of information and I would have been subject to deportation 
before then. I know friends that have been--they have submitted 
all their information, there are beneficiaries on their DACA 
that are currently in that situation that could be--possibly be 
affected by a cessation of DACA.
    Senator Blumenthal. Yesterday, I questioned Senator 
Sessions about the status of those individuals who have 
submitted information and they find that information, in 
effect, used against them, which I think would be drastically 
unfair.
    And I asked him, as the Nation's legal conscience--not just 
the President's counsel, but he is the Nation's lawyer--to 
exercise some moral and legal oversight to assure that there is 
no unfairness against those individuals. They have, in fact, 
trusted the Government. They have entrusted the Government with 
that information. It is not a criminal double jeopardy issue, 
but my feeling is that many of them may be in a sense victims 
of their own honesty, coming forward to provide that 
information.
    Have you found among your friends a feeling of uncertainty, 
apprehension, fear that that information could be used against 
them?
    Sergeant Vazquez. The biggest sense that I get from my 
friends, it is the sense of fear, mostly due to the fact that 
we are not sure if DACA is going to continue. The fact that 
their names are out there, they raised their hands saying they 
are undocumented in the United States, and the fact that the 
top law enforcement of the country has voted against them every 
single time he has gotten a chance--their biggest issue is that 
he mentioned that he is not going to be able to deport 800,000 
people, and the fact that that means that we are going to 
remain in the country. Then how is that going to give us 
confidence to report crimes against us and feel that that is 
going to be processed in a judge manner?
    Senator Blumenthal. Thank you. Thanks. Thanks to you. Thank 
you, Mr. Thompson, both of you, for your very helpful answers. 
Thank you.
    Chairman Grassley. Senator Kennedy.
    Senator Kennedy. Thank you, Mr. Chairman.
    I listened to your testimony this morning and it is clear 
to me you all are very, very smart people. If I struggle with 
your name, it is because I cannot see your name over here in my 
little corner, but I am going to try to be brief.
    How many of you--you can just give me a show of hands--how 
many of you support Senator Sessions?
    [A showing of hands)
    Senator Kennedy. And how many of you oppose?
    [A showing of hands]
    Senator Kennedy. Does anybody know how many lawyers there 
are in the United States? Do you know, Professor? Any idea?
    Mr. Cole. Some would say too many.
    [Laughter.]
    Senator Kennedy. Yes. I knew you were going to say that.
    Mr. Cole. I do not know the precise number.
    Senator Kennedy. Okay. A couple hundred thousand, at least. 
I am a lawyer.
    Mr. Cole. That is in DC alone.
    Senator Kennedy. Yes, really. I do not know how many 
Democrats and how many Republicans there are, but is there 
anybody on this panel who doubts that if the President-elect 
had nominated an attorney to be Attorney General who happens to 
be a Republican, that the Democrat party could not produce 
witnesses to say that he would be a bad Attorney General? Does 
anybody doubt that in this environment?
    [No response].
    Senator Kennedy. Is there anybody here who doubts that if 
the President-elect had nominated a Democrat, an attorney who 
happens to be a Democrat, to be Attorney General of the United 
States, that the Republican Party could not or would not 
produce witnesses to say that he would be a bad Attorney 
General? Does anybody doubt that?
    [No response].
    Senator Kennedy. Thank you very much.
    Chairman Grassley. Senator Hirono. Maybe I should say what 
our plans are. I believe that we have all the questioning done 
on our side, so when these two are done, it would be my idea to 
adjourn, and then at 1 o'clock, bring back the panel that is 
scheduled for the next one after this panel. So we have 
informed people that regardless of when we quit here, we will 
be back at 1 o'clock.
    Go ahead, Senator from Hawaii.
    Senator Hirono. Thank you, Mr. Chairman. I thank all of the 
panelists this morning. Dr. Brooks, I have some questions for 
you. Post-Shelby, the burden of going forward to show that a 
voter requirement law is discriminatory now rests with 
organizations, individuals such as the NAACP, correct?
    Mr. Brooks. Yes, Senator.
    Senator Hirono. And prior to Shelby, the preclearance 
really put the burden on States to show that whatever laws they 
were contemplating in this area, they have to show that this 
was not a discriminatory act on their part.
    Mr. Brooks. States with a history of----
    Senator Hirono. Yes, I realize.
    Mr. Brooks. Yes.
    Senator Hirono. So in this area of voting rights, there is 
no question in my mind that who bears the burden to go forward 
to prove something has a very high burden. At this point, that 
burden is really up to organizations like yours unless the 
Attorney General comes in, as they did in the North Carolina 
and Texas voting cases, to come in and weigh in and be a party.
    So I asked Senator Sessions yesterday whether he would be 
just as vigorous in paying attention to these kinds of laws 
that have been enacted, by the way, by States, some 13 or 14 
States now post-Shelby. So my question to you is, recognizing 
that the Attorney General has very broad prosecutorial 
discretion, the Attorney General cannot prosecute every 
violation of law. That is--even he admitted yesterday that that 
would be pretty hard, given the resources, so the Attorney 
General has to make some priority decisions.
    So in your view, how high a priority was the enforcement of 
voting rights, such as the remaining Section 2 of the VRA, and 
civil rights laws under Jeff Sessions as Attorney General? How 
high a priority would those kinds of enforcement actions be?
    Mr. Brooks. Senator, based upon the record, we have no 
reason to believe it would be a high priority. Where--in the 
two States that you noted, North Carolina and Texas, our State 
conferences of the NAACP, with our lawyers, went to court. We 
are, in fact, in many ways partners with the Department of 
Justice.
    That partnership presupposes that the Department of 
Justice, the leadership, the prosecutors are willing to see 
voter suppression. When I began my career at the Department of 
Justice in the Civil Rights Division, one of the things that I 
was advised by my supervisors, by my management, was the first 
thing you do when you conduct an investigation is reach out to 
the local branch of the NAACP. So we bear a heavy burden, but 
it is a burden that we would like to shoulder with a Department 
of Justice that is willing to see what we see.
    Senator Hirono. Ms. Swadhin, would you have some concerns 
about how high a priority prosecution of hate crimes, crimes 
against the LGBT community would be under Jeff Sessions as 
Attorney General?
    Ms. Swadhin. Absolutely, Senator Hirono. I think it is 
worth saying that the Violence Against Women Act is one of the 
pieces of legislation in this country that has always enjoyed 
strong bipartisan support. In fact, Senator Leahy was the 
sponsor of the 2013 version. But Senator Crapo on the 
Republican side co-authored the bill, and there were only 22 
Senators who voted against it.
    Senator Sessions was one of those, so he broke with the 
majority of the Republican Party to vote against that 2013 
version. He argued yesterday that the reason he voted against 
that 2013 Violence Against Women Act was because he had 
concerns about fiscal mismanagement and wanted harsher 
penalties, but the fact is that the bill that passed did 
include provisions to include fiscal and reporting accounting 
to address the rape kit backlog, to strengthen the prosecution 
of sex crimes. The big difference between the bill that passed 
and the so-called alternative bill that he was trying to argue 
was, you know, the thing that he voted for, was the non-
discrimination clause for LGBT survivors.
    That--those discrimination--non-discrimination provisions 
were put into the bill that Senators Leahy and Crapo co-
authored because national networks of victims' service 
advocates were hearing from people on the ground, domestic 
violence shelters, rape crisis centers, counselors, that LGBT 
survivors were being discriminated against.
    So for Senator Sessions to go out on a limb, break with the 
majority of the Republican Party and vote against that 
legislation, to me, shows he has a strong bias against the LGBT 
community, which is also shown in his voting record against the 
Federal Hate Crimes Act that did also pass with a lot of 
bipartisan support, the Shepard-Byrd bill, and he of course 
also voted for a constitutional ban on same-sex marriage.
    Senator Hirono. Thank you.
    Mr. Vazquez, thank you for coming and testifying. As an 
immigrant myself, I certainly share your concerns about what 
would happen to the 800,000 DREAMers who have come out of the 
shadows if DACA is rescinded.
    Now, the Department of Defense has a program whereby they 
will accept DREAMers, if they have come out to participate in 
DACA, to enlist. And, clearly, if DACA is rescinded, then the 
Department of Defense program will also end. So as someone who 
is serving in the military, what do you say to people who 
question DREAMers who want to put on a uniform, serve our 
country, defend our country?
    Sergeant Vazquez. Thank you, Senator Hirono. I would say 
that having deployed and having seen combat, I care more than 
the person that was right next to me was willing to commit the 
same sacrifices that I was. And to question the reason why a 
lot of--why I would join the military, being that this country 
raised me since I was a young child, I would--I would say that 
they definitely need to get to know one of us because that is 
not necessarily a fair statement, as to the reasons why we join 
the military. And I think that the mere fact that students 
are--young people that are benefited by DACA are willing to put 
their lives on the line to make that statement is something 
powerful to--to show.
    Senator Hirono. Thank you. I am running out of time, but I 
had a very short question for, again, Dr. Brooks regarding 
consent decrees with police departments. How important are 
these consent decrees, that they remain in place?
    Mr. Brooks. Critically important, when you cross the--
criss-cross the country from Baltimore, to Ferguson, to 
Cleveland. The consent decrees provide a kind of bridge of 
accountability between police departments and the community 
that are enforceable. And bear in mind, this is not something 
that is imposed, but the parties agree to. And so they have 
legitimacy; they are an effective tool for the Department of 
Justice, and in a moment in which we have 2,100 Americans who 
lose their lives at the hands of the police over the course of 
the last 2 years, when a young Black man is 21 times more 
likely to lose his life at the hands of the police, and where 
you have predatory policing and these viralized videos of 
police-involved killings, consent decrees offer a measure of 
reassurance that someone is paying attention, a department is 
being held accountable, and that the community has a role to 
play that will be recognized by the courts. So, they are 
critically important.
    Senator Hirono. And I want to note that the vast majority 
of police departments, 18,000 or so, they are doing the right 
thing. There are about 20 consent decrees that we are talking 
about.
    Thank you very much, Mr. Chairman.
    Chairman Grassley. Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Mr. Chairman.
    I thought I would start with a kind of a different topic 
with you, Mr. Cole. It is about the Freedom of the Press. My 
dad is--was a long-time reporter with a Minneapolis paper, and 
it has been something that has been important to me my entire 
life. I actually asked Senator Sessions about this because he 
did not support the Free Flow of Information Act that we 
considered in this Committee.
    And then I specifically asked about how, in 2015, the 
Attorney General had revised the Justice Department rules for 
when Federal prosecutors can subpoena journalists or their 
records, and also Attorney General Holder had committed to 
releasing an annual report on any subpoena issued or charges 
made against journalists and committed to not to put reporters 
in jail for doing their jobs.
    I was not really able to get a straight answer. Senator 
Sessions said he would look back at the rules, and I will ask 
him on the record about it, so I do not have a concrete answer. 
But I just wondered if you could comment on the importance of 
the Freedom of the Press and some of these issues I raised in 
trying to keep these rules in place.
    Mr. Cole. Well, thank you, Senator Klobuchar. The Freedom 
of the Press is one of the critical aspects of our 
constitutional order. It is--it serves a critically important 
checking function on government overreach and it performs that 
function, especially critically, in times when one party 
controls all the branches of the Federal Government.
    So the Freedom of the Press is absolutely critical. You 
look back and you look at the role that the press played in 
Watergate, and you look forward and you imagine what kinds of 
investigations might need to be undertaken in light of some of 
the allegations we have heard recently about Russia and the 
Trump campaign. I think it becomes very clear that our 
country's democracy depends upon protection of the Freedom of 
the Press.
    Senator Klobuchar. Thank you very much.
    Mr. Canterbury, thank you for being here. You have a number 
of members in our State and I enjoy working with them. I know 
we have worked together on a number of things.
    I was not able to ask Senator Sessions yesterday, with our 
time limits, about the COPS program. As you know, in the House 
it has tended to be more bipartisan. I lead the bill in the 
Senate and I did get Senator Murkowski, the Republican of 
Alaska, who is doing it with me. But could you comment on the 
importance of that program, and maybe you will work with me in 
working with the Attorney General to get his support for this 
program.
    Mr. Canterbury. It is a very important program. I think 
that with the sharp decrease in the staffing levels around the 
United States, that that bill is very important, especially in 
the major cities that have a rising crime rate. We will be glad 
to work with the Attorney General, and obviously with this 
Committee, to do anything to help move that program forward. We 
have a real problem with recruitment and retention of police 
officers.
    Senator Klobuchar. Very good. I know that is an issue and 
we want to recruit police officers, get more diversity into our 
police, more women, and just in general, recruit more police 
officers. So, I appreciate that, as well as work on training 
issues. That is something I hope we will focus on in this 
Committee. So, thank you.
    Mr. Brooks, I asked yesterday--my lead questions were about 
the Voting Rights Act. I know a lot of my colleagues have 
focused on those issues as well today, but I just wanted to go 
back--I came in--I had another hearing in the Commerce 
Committee for Elaine Chao. I heard Senator Graham, my friend 
who I just traveled with for a week in Ukraine and other 
places, talking about the voter fraud issues.
    I used to prosecute these cases because I was the 
prosecutor for our biggest county in Minnesota, over a million 
people, and I know we would studiously, with an investigator, 
go through every report. In almost everything that was reported 
as a potential fraud, it was a father and son with the same 
name and it was not fraud at all. I think we had one guy that 
said to our investigator on the phone, over 5 years, that yes, 
he had voted twice because he felt he could not get his views 
expressed, and then of course we charged him with a crime.
    Then we had another person--and this is over 8 years in the 
office--a husband and wife, where a school district line had 
split down the middle of their house and they decided that 
should allow them to vote twice. But these were the cases of 
fraud that we encountered. In fact, this is backed up by the 
numbers.
    One study found just 31 cases of voter fraud out of 1 
billion votes cast. I just think it is really important for 
people to understand how rare this is. And I know you know 
this, and why it is so important to look at the other side of 
the ledger, which is doing everything to make it easy for 
people to vote.
    My State had the highest voter turnout in the Nation in the 
last election. Iowa was close. It does not necessarily mean you 
have a Democrat or Republican in office, as we know from our 
two States. Wisconsin is another State with high voter turnout. 
I just think it should be such a priority to get more people 
out to vote, and if you could talk about that.
    Mr. Brooks. Certainly. The NAACP as an organization, we 
believe that the right to vote is a civic sacrament. We honor 
it. We literally have members of our organization who have laid 
down their lives for the franchise. We dedicate tremendous 
resources to ensure that people vote.
    In 2012, we led the Nation in terms of voter mobilization. 
These are grassroots volunteers. But when we talk about voter 
fraud, it suggests somehow that there are so many people who 
want to vote, they are willing to commit a crime to vote. That 
is not the case. We need more people to vote. The NAACP has 
focused on removing the barriers from voting, the obstacles to 
vote. We do so in a bipartisan--or I should say, excuse me, in 
a nonpartisan way--all across the country.
    Senator Klobuchar. Thank you so much, Mr. Brooks. I 
appreciate that.
    I had one last question of you, Mr. Mukasey. We worked well 
together when you were the Attorney General, and I know that 
another Senator had asked you about the importance of an 
independent Attorney General, but I wanted to just ask you a 
question about the U.S. Attorneys. I know when you came in, you 
made some changes across the country with some of the U.S. 
Attorneys and you came in, in part, because there were issues 
of political influence with regard to some of the U.S. 
Attorneys' Offices across the country. We certainly do not want 
to go back to that again. So could you talk about the 
importance of independent U.S. Attorneys and that they are 
insulated from politics?
    Mr. Mukasey. The fact is that U.S. Attorneys, as you know, 
are political appointees. They are appointed by the President.
    Senator Klobuchar. Right. Yes.
    Mr. Mukasey. That said, once they are appointed, their 
charge is then to do essentially what the Attorney General's 
charge is to do, which is to enforce the law. And they have to 
recognize, and do recognize, that as soon as they take the 
oath, that is their charge. And they have to be supported in 
that by the Department, which is to say, the Department has to 
back them up when they are conducting investigations that have 
merit and not yield to political pressure, if there is any. It 
is a rarity, too, that you find somebody trying to lean on an 
investigation, but there has to be resistance to that and it 
has to be backed up by the Department. I think if there is that 
kind of relationship between the Department and the U.S. 
Attorneys, then there will be justified public faith in law 
enforcement. If there is not, there will not, and that is very 
damaging.
    Senator Klobuchar. Thank you very much. I appreciate it. 
Thank you all.
    Chairman Grassley. I thank all of you for your testimony. 
It has been very beneficial for both those opposed to and those 
in favor of Senator Sessions for Attorney General.
    The hearing will stand in recess until 1 o'clock.
    [Whereupon, at 12:36 p.m. the Committee was recessed.]
    [Whereupon, at 1:12 p.m., the Committee reconvened.]
    Chairman Grassley. Welcome to this panel. I have just got 
three or four sentences I want to read and then I will 
introduce the panel.
    We have come back this afternoon for our third and final 
panel. We have done this--we have not done this when we have 
held hearings for the past several Attorneys General, but 
Ranking Member Feinstein called me last week and made a special 
request for this panel and I am doing my best to conduct this 
proceeding fairly.
    We will hear from each witness for 5 minutes. We have 
agreed that we will not ask any questions of the witness, and 
we will adjourn when we have heard the last witness.
    Now I would like to introduce the witnesses.
    Mr. Leahy. I have about a 30-second----
    Chairman Grassley. Go ahead right now then.
    Mr. Leahy. Okay. Mr. Chairman, we know that the Attorney 
General is responsible for protecting the civil and human 
rights of Americans, and that is why many are worried, as you 
see in these hearings.
    Senator Booker, Congressman Lewis, and Congressman Richmond 
bring to the discussion an important perspective about the 
basic rights enshrined in the Constitution that we try to form 
a more perfect union. That continues with every generation. 
Congressman Lewis has been a friend of mine for decades, we 
served together, and he nearly gave his life for that effort.
    I invited Congressman Lewis to this Committee before for 
important conversations about marriage equality and voting 
rights, and the stakes are just as high. I am sorry we have 
broken with Committee tradition and made these Members in 
Congress wait till the very end of the hearing to speak. That 
is not the way I, as Chairman, would do, and other Chairmen 
have. But it is what we have.
    But I commend Senator Booker and Representative Lewis and 
Representative Richmond for their courage. I am proud to serve 
with them. I thank them for being here.
    Chairman Grassley. Thank you, Senator Leahy.
    My colleague, Senator Booker, is from New Jersey. I know 
him well. We all know him and we appreciate your coming over to 
testify.
    We will hear from Mr. Willie Huntley. Mr. Huntley is a 
former Assistant U.S. Attorney in the Southern District of 
Alabama who worked under Senator Sessions when he served as 
U.S. Attorney there, and he has known Senator Sessions for 
nearly 30 years.
    Then we will hear from a well-known civil rights leader, 
Representative John Lewis, who represents Georgia's 5th 
District. Welcome back to the Committee, Congressman Lewis. It 
is always good to have you here.
    After Representative Lewis, we will hear from the Honorable 
Jesse Seroyer, who served as U.S. Marshal for the Middle 
District of Alabama 2002 to 2011. He first got to know Senator 
Sessions in 1995 when he worked for him in the Alabama Attorney 
General's Office.
    Next, we will hear from Representative Cedric Richmond, who 
serves the people of Louisiana's 2nd Congressional District, 
and is Chair of the Congressional Black Caucus. Welcome to the 
Committee, Congressman Richmond.
    Finally, we will hear from Mr. William Smith. Mr. Smith 
worked for Senator Sessions as the first African-American 
General Counsel on the Senate Judiciary Committee. He has known 
Senator Sessions for 20 years, and we know him because of that 
service as a staff person here as well.
    Welcome to all of you. We will start with Senator Booker.

               STATEMENT OF HON. CORY A. BOOKER,
          A U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Booker. Thank you, Chairman Grassley. I want to 
thank Senator Leahy as well, as well as the distinguished 
Members of this Committee. I know it is exceptional for a 
Senator to testify against another Senator nominated for a 
Cabinet position, and I appreciate the opportunity you have 
given me today.
    I work closely with many of you on this panel on both sides 
of the dais on matters related to criminal justice reform, and 
you know just how deeply motivated I am by the many issues our 
next Attorney General will heavily influence, especially the 
crisis of mass incarceration.
    I know that some of my many colleagues are unhappy that I 
am breaking with Senate tradition to testify on the nomination 
of one of my colleagues, but I believe, like perhaps all of my 
colleagues in the Senate, that in the choice between standing 
with Senate norms or standing up for what my conscience tells 
me is best for our country, I will always choose conscience and 
country.
    While Senator Sessions and I have consistently disagreed on 
the issues, he and I have always exercised a collegiality and a 
mutual respect between us. Perhaps the best example of this is 
the legislation we co-sponsored to award the Congressional Gold 
Medal to those foot soldiers who marched at Selma. One of the 
foot soldiers is sitting next to me now.
    This was a blessing and an honor to me because in 2015, a 
retired judge, who was White, told me that it was those brave 
marchers on the Edmund Pettus Bridge who inspired him as a 
young lawyer in the 1960s to seek justice for all in New Jersey 
and begin representing Black families looking to integrate in 
White neighborhoods, Black families who were turned away and 
denied housing.
    One of those families was mine. I am literally sitting here 
because of people, marchers in Alabama and volunteer lawyers in 
New Jersey, who saw it as their affirmative duty to pursue 
justice, to fight discrimination, to stand up for those who are 
marginalized. But the march for justice in our country still 
continues, it is still urgent.
    I know also, though, of the urgency for law and order. I 
imagine that no sitting Senator has lived in the last 20 years 
in higher crime neighborhoods than I have. I have seen 
unimaginable violence on American streets. I know the 
tremendous courage of law enforcement officers who put their 
lives on the line every single day to fight crime in America.
    I want an Attorney General who is committed to supporting 
law enforcement and securing law and order, but that is not 
enough. America was founded, heralding not law and order, but 
justice for all. Critical to that is equal justice under the 
law. Law and order without justice is unobtainable. They are 
inextricably tied together. If there is no justice, there is no 
peace. The Alabama State troopers on the Edmund Pettus Bridge 
were seeking law and order. The marchers were seeking justice, 
and ultimately a greater peace.
    One of the victories of the modern civil rights movement 
was the 1957 Civil Rights Act, which in effect made the 
Attorney General not only the chief law enforcement officer of 
the United States, but also vested in that office the 
responsibility to pursue civil rights and equal protection for 
all of America.
    Senator Sessions has not demonstrated a commitment to a 
central requisite of the job: to aggressively pursue the 
congressional mandate of civil rights, equal rights, and 
justice for all of our citizens. In fact, at numerous times in 
his career he has demonstrated a hostility toward these 
convictions and has worked to frustrate attempts to advance 
these ideals.
    If confirmed, Senator Sessions will be required to pursue 
justice for women, but his record indicates that he will not. 
He will be expected to defend the equal rights of gay and 
lesbian and transgender Americans, but his record indicates 
that he will not. He will be expected to defend voting rights, 
but his record indicates that he will not. He will be expected 
to defend the rights of immigrants and affirm their human 
dignity, but the record indicates that he will not.
    His record indicates that as Attorney General he would 
object to the growing national bipartisan movement toward 
criminal justice reform. His record indicates that we cannot 
count on him to support State and national efforts toward 
bringing justice to the justice system, and people on both 
sides of the aisle who readily admit that the justice system as 
it stands now is biased against the poor, against drug 
addicted, against mentally ill, and against people of color.
    His record indicates that at a time that even the FBI 
director is speaking out against implicit racial bias and 
policing and the urgent need to address it, at a time when the 
last two Attorney Generals have taken steps to fix our broken 
criminal justice system, at a time when the Justice Department 
he would lead has uncovered systemic abuses in police 
departments all over the United States, including Ferguson, 
including Newark, Senator Sessions would not continue to lead 
this urgently needed change.
    The next Attorney General must bring hope and healing to 
the country, and this demands a more courageous empathy than 
Senator Sessions' record demonstrates. It demands an 
understanding that patriotism is love of country, and love of 
country demands that we love all of our citizens, even the most 
marginalized, the most disadvantaged, the most degraded, and 
the most unfortunate.
    Challenges of race in America cannot be addressed if we 
refuse to confront them. Persistent biases cannot be defended 
unless we combat them. The arc of the moral universe does not 
just naturally curve toward justice, we must bend it.
    If one is to be Attorney General, they must be willing to 
continue the hallowed tradition in our country of fighting for 
justice for all, for equal justice, for civil rights. America 
needs an Attorney General who is resolute and determined to 
bend the arc. Senator Sessions' record does not speak to that 
desire, intention, or will. With all that is at stake in our 
Nation now, with the urgent need for healing and for love, I 
pray that my colleagues will join me in opposing his 
nomination.
    Mr. Chairman, my time is over. I would like to submit the 
rest of my testimony to the record. I would like to again thank 
you for your opportunity to testify. Finally, I would like to 
acknowledge, which was not done, that sitting behind me are 
proud Members of the U.S. Congress and the Congressional Black 
Caucus.
    Thank you, sir.
    [The prepared statement of Senator Booker appears as a 
submission for the record.]
    Chairman Grassley. And you should not have had to recognize 
them, I should have done that. I am sorry.
    Senator Booker. Thank you, sir.
    Chairman Grassley. Because I knew they were here.
    Mr. Huntley.

  STATEMENT OF WILLIE J. HUNTLEY, JR., FORMER ASSISTANT U.S. 
    ATTORNEY, SOUTHERN DISTRICT OF ALABAMA, MOBILE, ALABAMA

    Mr. Huntley. Good afternoon. My name is Willie Huntley, and 
I am an attorney located in Mobile, Alabama. I am a solo 
practitioner and I have been practicing law for over 30 years.
    I am a graduate of Auburn University, where I attended 
college on a football scholarship. I graduated from Auburn in 
1980 and I attended Cumberland Law School after that. I 
finished Cumberland Law School in 1984. After I finished law 
school, I started a Federal clerkship with a Federal judge in 
Montgomery, Alabama.
    After I completed that process, I began a tour with the--as 
an Assistant District Attorney in Macon County, Alabama. I was 
there from 1985 to 1987. Then my life changed. I got a phone 
call one day, and my secretary comes in the office and she says 
Jeff Sessions is on the phone. And I am sitting there 
wondering, why is Jeff Sessions calling me? I was well aware of 
the allegations that had happened in his bid to become a 
Federal judge, which made me wonder why he was calling me. I 
answered the phone and then I find out that Jeff Sessions wants 
me to become an Assistant U.S. Attorney in the Southern 
District of Alabama.
    This presented an ideal situation, so I decided to take 
advantage of that. The first time I actually met him was at a 
dinner in Montgomery. That dinner was supposed to last probably 
an hour, hour and a half. We ended up meeting for about 3 
hours. During that time period, we discussed a number of 
topics: football, religion, politics, family. We talked about 
all those things.
    During the course of that meeting with him, I got the 
feeling more and more and more that the allegations that had 
been spread through the press were not true. I also was 
contemplating whether I should make this move because I 
thought, if I go to Mobile, I do not know anybody there, I have 
no family there, and what if this man turns out to be exactly 
how he has been portrayed?
    Fortunately, it did not turn out like that. I was at the 
U.S. Attorney's Office from 1987 to 1991. He assigned me the 
general criminal trial cases. He also assigned me to civil 
rights cases, and I would supervise all the civil rights cases 
that came through the office. During this time period, I can 
recall where we successfully prosecuted a police officer that 
was charged with excessive use of force.
    Unfortunately, I made a decision to leave the U.S. 
Attorney's Office in 1991. That decision was not based on 
anything that had happened to me during my time period in the 
U.S. Attorney's Office. During that time period, Jeff gave me 
advice, counsel. He provided a great deal of support in 
everything that I did. One thing in particular that he did, was 
my second child was born and there was a knock on the door that 
morning, and through the door walks Jeff Sessions.
    After I left the U.S. Attorney's Office, Jeff became the 
Attorney General of Alabama. He asked me to join his staff at 
that time, but I declined to join his staff. However, he made 
me a Special Assistant Attorney General and he put me in charge 
of handling defense cases for the State of Alabama.
    Also during this time period, Jeff became charged with 
violating the State of Alabama Ethics Act. It involved a 
company by the name of TIECO. Jeff Sessions could have hired 
any lawyer he wanted to to represent him in that matter. Jeff 
decided to hire me in that particular case. We had that case 
and during the course of it, it was probably the longest 
hearing that had ever been held before the State Ethics 
Commission. At that point, Jeff was fully exonerated of all the 
charges involving the State Ethics Act.
    One of the things that I can say about Jeff, is that he has 
always been the same person that I have known. He has always 
been available for me and always been there when I needed him. 
At no point in the time that I have known Jeff has he 
demonstrated any racial insensitivity. I see my time is rapidly 
winding down.
    I would just like to say that in my opinion, Jeff Sessions 
will enforce and follow the laws of the United States 
evenhandedly, equally, and with justice for all. Jeff Sessions 
will adhere to the Justice Department motto, ``qui pro domina 
justitia sequitur.'' It means, ``for the Lady Justice.'' Jeff 
will protect and defend the rights of all people.
    Thank you so much for this opportunity.
    [The prepared statement of Mr. Huntley appears as a 
submission for the record.]
    Chairman Grassley. Thank you.
    Now we will hear from Congressman John Lewis.

         STATEMENT OF HON. JOHN LEWIS, A REPRESENTATIVE
             IN CONGRESS FROM THE STATE OF GEORGIA

    Representative Lewis. Chairman Grassley, Senator Leahy, and 
Members of the Committee, thank you for inviting me to testify 
today.
    Millions of Americans are encouraged by our country's 
efforts to create a more inclusive democracy, during the last 
50 years of what some of us call the beloved community, a 
community at peace with itself. They are not a minority. A 
clear majority of Americans say they want this to be a fair, 
just, and open Nation.
    They are afraid that this country is headed in the wrong 
direction. They are concerned that some leaders reject decades 
of progress and want to return to the dark past when the power 
of law was used to deny the freedoms protected by the 
Constitution. The Bill of Rights and its Amendments--these are 
the voices I represent today.
    We can pretend that the law is blind. We can pretend that 
it is evenhanded. But if we are honest with ourselves, we know 
that we are called upon daily by the people we represent to 
help them deal with unfairness in how the law is written and 
enforced.
    Those who are committed to equal justice in our society 
wonder whether Senator Sessions calls for law and order, if it 
means today what it meant in Alabama when I was coming up back 
then. The rule of law was used to violate the human and civil 
rights of the poor, the dispossessed, people of color. I was 
born in rural Alabama, not very far from where Senator Sessions 
was raised.
    There was no way to escape or deny the chokehold of 
discrimination and racial hate that surrounded us. I saw the 
signs that said ``White Waiting,'' ``Colored Waiting.'' I saw 
the signs that said ``White Men,'' ``Colored Men,'' ``White 
Women,'' ``Colored Women.'' I tasted the bitter fruits--the 
bitter fruits of segregation and racial discrimination.
    Segregation was the law of the land, the order of society 
in the deep South. Any Black person who did not cross the 
street when a White person was walking down the same sidewalk, 
who did not move to the back of the bus, who drank from a 
``White'' water fountain, who looked a White person directly in 
their eyes, could be arrested and taken to jail.
    The forces of law and order in Alabama were so strong, that 
to take a stand against this injustice we had to be willing to 
sacrifice our lives for our cause. Often, the only way we could 
demonstrate that a law on the books violated a higher law was 
by challenging that law, by putting our bodies on the line and 
showing the world the unholy price we had to pay for dignity 
and respect.
    It took massive, well-organized, non-violent dissent for 
the Voting Rights Act to become law. It required criticism of 
this great Nation and its laws to move toward a greater sense 
of equality in America. We had to sit in, we had to stand in, 
we had to march.
    That is why, more than 50 years ago, a group of unarmed 
citizens, Black and White, gathered on March 7, 1965, in an 
orderly, peaceful, non-violent fashion to walk from Selma to 
Montgomery, Alabama, to dramatize to the Nation and to the 
world that we wanted to register to vote, wanted to become 
participants in a democratic process.
    We were beaten, tear-gassed, left bloody, some of us 
unconscious, some of us had concussions, some of us almost died 
on that bridge. But the Congress responded. President Lyndon 
Johnson responded and the Congress passed the Voting Rights Act 
and it was signed into law on August 6, 1965. We have come a 
distance, we have made progress, but we are not there yet. 
There are forces that want to take us back to another place. We 
do not want to go back, we want to go forward.
    As the late A. Philip Randolph, the dean of the March on 
Washington in 1963, often said, ``Maybe our forefathers and our 
foremothers all came to this great land in different ships, but 
we're all in the same boat now.'' It does not matter how 
Senator Sessions may smile, how friendly he may be, how he may 
speak to you.
    But we need someone who can stand up, speak up, and speak 
out for the people that need help, for people who have been 
discriminated against. It does not matter whether they are 
Black or White, Latino, Asian American, or Native American, 
whether they are straight or gay, Muslim, Christian, Jews; we 
all live in the same house, the American house. We need someone 
as Attorney General who is going to look out for all of us and 
not just for some of us.
    I ran out of time. Thank you for giving me a chance to 
testify.
    [The prepared statement of Representative Lewis appears as 
a submission for the record.]
    Chairman Grassley. Thank you, Congressman Lewis.
    Now I go to Mr. Seroyer.

       STATEMENT OF HON. JESSE SEROYER, JR., FORMER U.S.
    MARSHAL, MIDDLE DISTRICT OF ALABAMA, MONTGOMERY, ALABAMA

    Mr. Seroyer. Mr. Chairman and Members of the Committee, it 
is an honor for me to be here and I thank you for your time.
    My name is Jesse Seroyer, Jr. I have been in law 
enforcement since 1976 to 2016. I have served in local police 
departments for 11 years, served in the United States Marshal 
Service for 8\1/2\ years, served in the Attorney General's 
Office for 20\1/2\ years. I first met Jeff Sessions when he was 
U.S. Attorney in the Middle District of Alabama--in the 
Southern District, I am sorry.
    Jeff was prosecuting at that time a Klansman by the name of 
Henry Hayes. Jeff prosecuted that person for the abduction and 
murder of a Black teenager. Following Jeff's election as 
Attorney General, I had the privilege to serve with him in his 
administration as his chief investigator.
    The beginning of Jeff's tenure as Attorney General 
presented Senator Sessions with challenges that included a 
budget crisis and a one-third reduction of staff. The things 
that Jeff did when we came to the budget crisis and the 
reduction of staff--there were several people in the office 
that had to seek other jobs elsewhere. There was a Black 
investigator in the office that came and had less than a year 
left before he was eligible to retire. Jeff Sessions allowed 
that to take place. He did not have to do that. He did not have 
to do that at all because of the situation that we were in.
    Jeff Sessions retained me. He did not have to do that, but 
he did. Following the election, you know, we were charged with 
the responsibilities of a lot of crimes, and the expectations 
of the Attorney General was charged with the responsibilities 
of working various cases, which included white-collar crimes, 
public corruption, voter fraud, and criminal investigations.
    As I reflect on our work, there was never a time when any 
of these cases was investigated with any political agenda or 
motive. The utmost respect and integrity was exercised for all 
individuals involved. Jeff Sessions' service and decisions as 
Attorney General earned him a reputation and respect among his 
colleagues in appreciation for his willingness to do what was 
right.
    When Jeff Sessions got to the U.S. Senate, as Attorney 
General he had argued to uphold a conviction and sentence of 
Klansman Henry Hayes for the murder of Michael Donald. When 
Jeff Sessions became a U.S. Senator, he helped me be appointed 
for the U.S. State Marshal for the Middle District of Alabama. 
He did not have to do that, but he did.
    I have known Jeff Sessions for 20 years. He is a good and 
decent man. He believes in law and order for all the people--
all the people in Alabama, because of his colleagues and all 
that surrounded him, the things that he has done for the law 
enforcement community and the citizens of Alabama, it is great. 
It is without any question as to whether or not he would be fit 
to serve this country as the U.S. Attorney General.
    Now, I did not learn these things from a political press 
conference, any website where I read about him. I know Jeff 
Sessions as the man. The man that I know is a decent and honest 
and respectful man that will put all of his life into public 
service. He has done that.
    When we talk about the criminal justice system, we enforce 
the laws and we do it because we have a love for the laws. Jeff 
Sessions loved the people that do the enforcement side of it. 
He respects the citizens, who deserve a good and honest person 
that is going to give all he has to make sure that everyone is 
treated equally and fairly under the law.
    But his decency as a man and his honesty as a man speak for 
itself. He is the type of individual that I support for the 
United States Attorney General's Office because of my 
reputation and his history with me as a person and the things 
that I have seen over the years in Jeff Sessions. It is hard 
being a public servant.
    I was in law--been in law enforcement for 40 years. It is a 
tough job. We do not violate the laws, we do not get out there 
and do things that would cause ourselves to be brought into the 
system. And I am not saying everybody is the same, but I 
believe that he will take hold of the justice system, the 
Justice Department, and he will be fair, he will be honest, and 
he will do the same thing for every person, with honesty and 
respect for all of us.
    My time is up. Thank you for listening.
    [The prepared statement of Mr. Seroyer appears as a 
submission for the record.]
    Chairman Grassley. Thank you, Mr. Seroyer.
    Now, Congressman Richmond.
    [Disruption in the audience.]
    Chairman Grassley. Wait just a minute, Congressman.

   STATEMENT OF HON. CEDRIC L. RICHMOND, A REPRESENTATIVE IN 
CONGRESS FROM THE STATE OF LOUISIANA, AND CHAIR, CONGRESSIONAL 
                          BLACK CAUCUS

    Representative Richmond. Let me thank the Chairman and 
Ranking Member for allowing me to testify.
    [Disruption in the audience.]
    Chairman Grassley. I would ask you to hold. You will not 
lose any time.
    Proceed, Congressman.
    Representative Richmond. Let me thank the Chairman and 
Ranking Member for allowing me to testify. The Senate's duty to 
provide advice and consent to Presidential nominees is a 
fundamental component of American democracy. I know that you do 
not take this responsibility lightly.
    Before I jump into my substantive testimony, I want to 
address two timely issues. First, I want to express my concerns 
about being made to testify at the very end of the witness 
panels. To have a Senator, a House Member, and a living civil 
rights legend testify at the end of all of this is the 
equivalent of being made to go to the back of the bus. It is a 
petty strategy and the record should reflect my consternation 
at the unprecedented process that brought us here.
    My record on equality speaks for itself, and I do not mind 
being last. But to have a living legend like John Lewis handled 
in such a fashion is beyond the pale, and the message sent by 
this process is duly noted by me and the 49 Members of the 
Congressional Black Caucus and the 78 million Americans we 
represent, and the over 17 million African Americans that we 
represent.
    Further, on the issue of Senator Sessions' record of 
prosecuting the Marion Three, stemming from a complaint filed 
by African Americans, I say the following: History is replete 
with efforts by those in power to legitimize their acts of 
suppression and intimidation of Black voters by recruiting 
other Blacks to assist in bringing trumped up charges against 
law-abiding citizens who are engaged in perfectly legitimate 
voter education and empowerment activities.
    Those tactics were effectively used against former 
Congressman Robert Smalls and hundreds, if not thousands, of 
Black office holders and land holders in our post-
Reconstruction era. They were used several years ago against 
Mr. and Mrs. Alfred Turner, who were discussed by this 
Committee yesterday.
    The Declaration of Independence set forth the idea of 
universal equality that rests at the heart of our democracy, 
but it is the 14th Amendment to our Constitution and its Equal 
Protection Clause that has helped bring us closer to fulfilling 
that foundational principle and bringing us closer to a more 
perfect union.
    All Cabinet officials have a responsibility to protect the 
interests of all of the American people, but there is no office 
for which the duty to apply the law equally is greater than 
that of the Attorney General. In my capacity as Chairman of the 
Congressional Black Caucus, I urge you to reject Senator 
Sessions' nomination.
    Throughout our Nation's history, Attorney Generals have 
used the resources of the Federal Government to vindicate the 
right of the most vulnerable in society. After the Civil War, 
the first Attorney General to lead the DOJ, Amos Akerman, 
prosecuted the KKK for its widespread use of violence aimed at 
suppressing the Black vote. This facilitated massive Black 
voting turnout in 1872. For the first time in our Nation's 
history, former slaves were afforded the opportunity to 
participate in the democratic process.
    Simply put, Senator Sessions has advanced an agenda that 
will do great harm to African-American citizens and 
communities. For this reason, the CBC believes Senator Sessions 
should be disqualified. He has demonstrated a total disregard 
for the equal application of justice and protection of the law 
as it applies to African Americans, and falls short on so many 
issues.
    Jeff Sessions supports a system of mass incarceration that 
has disproportionately targeted African-American citizens and 
devastated African-American communities. He opposed common-
sense, bipartisan criminal justice reform, and Jeff Sessions 
cannot be relied upon to enforce the Voting Rights Act. In his 
decades-long career and public life, Senator Sessions has 
proven himself unfit to serve in the role as Attorney General.
    I would not have the opportunity to testify today were it 
not for men like John Lewis, who was beaten within an inch of 
his life in his pursuit for the right to vote for African 
Americans. It is a shame that he must sit here and re-litigate 
this 50 years later.
    We sit here as the progeny of men and women who were 
bought, sold, enslaved, raped, tortured, beaten, and lynched. 
Black people were bought as chattel and considered three-fifths 
of a human being. However, we have been able to endure and 
largely overcome that history, thanks in part to brave men and 
women, both Democrat and Republican, who sat where you sit and 
cast often difficult votes for freedom and equality. These 
Senators fought public opinion and even their own party to do 
what was right. I come before you today asking you to do the 
same.
    Now, you all must face a choice: Be courageous or be 
complicit. If you vote to confirm Senator Sessions, you take 
ownership of everything he may do or not do in office. He has 
no track record of fighting for justice for minorities, despite 
the characterizations that you have heard from others today.
    He and his supporters have told you that he is a champion 
for civil rights and equality. Characterization and revisionist 
histories are not the same things as facts. He is on the record 
on numerous issues; I have provided just a few examples today.
    Let us think about this logically. If he were in fact the 
champion for civil rights, would not the civil rights community 
support his nomination instead of speaking with one voice in 
near-unanimous opposition?
    In closing, each and every Senator who casts a vote to 
confirm Senator Sessions will be permanently marked as a co-
conspirator in an effort to move this country backward, toward 
a darker period in our shared history.
    So I ask you all, where do you stand? It is clear from 
Senator Sessions' record where he stands. Will you stand with 
him and allow history to judge you for doing so? I implore you 
all to weigh these questions properly as you prepare to cast 
what will be one of the most consequential votes in your time 
as a United States Senator. ``Res ipsa loquitur'' is a legal 
term which means, ``the thing speaks for itself.'' Senator 
Sessions' record speaks for itself, and I would urge you not to 
confirm Senator Sessions as Attorney General of the United 
States.
    Thank you, Mr. Chairman, for allowing me to go over.
    [The prepared statement of Representative Richmond appears 
as a submission for the record.]
    Chairman Grassley. Thank you, Congressman Richmond.
    Now I call on Mr. Smith.

       STATEMENT OF WILLIAM SMITH, FORMER CHIEF COUNSEL, 
 ADMINISTRATIVE OVERSIGHT AND THE COURTS SUBCOMMITTEE, SENATE 
           COMMITTEE ON THE JUDICIARY, WASHINGTON, DC

    Mr. Smith. Chairman Grassley, Members of the Committee, I 
ask that my written statement be made a part of the record.
    Chairman Grassley. It will be. And that is true of Senator 
Booker and anybody else that did not get their entire statement 
put in the record. It will be in the record, yes.
    [The prepared statement of Mr. Smith appears as a 
submission for the record.]
    Mr. Smith. It is an honor for me to be here today to 
support Senator Sessions to be the next Attorney General of the 
United States of America. He will do an outstanding job. The 
American people had an opportunity to witness yesterday, 
through his testimony, a brilliant legal mind, a man of the 
highest character and great integrity.
    Let me briefly address this legal mind. As a staffer, your 
job is to always be more prepared than the Member. Senator 
Sessions made this difficult. I remember one hearing where I 
was passing Senator Sessions note after note to make sure he 
was prepared. When he did not speak on the topic I handed him, 
I would hand him another note on another topic. Finally, he 
decided to speak. He did--as he did in his testimony yesterday, 
he crushed it.
    Senator Sessions was not ignoring my notes, he was 
systematically thinking about how to put all the notes together 
in one speech. A number of my colleagues were amazed by his 
speech. They asked me afterwards, what did you say to him in 
those notes? I told them, I handed Senator Sessions a blank 
sheet of paper and told him to make me look good, and that is 
what he did.
    Senator Sessions spent yesterday proving to the American 
people that he understands the law, will disperse it equally, 
and he made a bunch of staffers look good.
    A lot has been said about Senator Sessions' character. We 
have seen people who have never met Senator Sessions claim to 
know him, know his heart. We have seen Members of this body and 
Members of the House of Representatives just now who have 
worked with Senator Sessions and praised him for his work, and 
now turn to attack him. This should not be.
    The reason we did not see a lot of this yesterday during 
the hearing is because the Members of this Committee know 
Senator Sessions. You know he is a strong conservative, but you 
also know he is fair and honest. If you disagree with Senator 
Sessions because of his political views, let us have a 
conversation about that but let us do it on the facts, not on 
30 years of old innuendos and allegations that have been 
disproven.
    There is something very consistent about praising Senator 
Sessions for aiding African-American communities and working on 
crack and powder cocaine legislation, and then criticizing him 
because he takes a different political view on another matter 
like immigration.
    Enforcing immigration laws is not out of the mainstream.
    On the panel that testified before this one, there were 
personal attack, after personal attack, after personal attack. 
I doubt any one of those individuals attacking Senator 
Sessions, outside of yesterday, has spent 30 minutes in the 
same room with him. That is 30 minutes in the same room, not 30 
minutes talking to him. I doubt any of them have spent 30 
minutes, or 10 minutes, talking to Senator Sessions.
    This process should not be about--this process should be 
about facts, not about political aspirations. Every allegation 
and witness from 30 years ago has been discredited. Members and 
the media should move on. Senator Sessions testified yesterday 
that he would enforce the laws whether he agreed with them or 
not.
    That is the role of the Attorney General, not to embrace 
every point of view in the shifting political winds. If you 
come before Jeff Sessions you will get equal justice and you 
will respect the outcome, even if you lose.
    How do I know this? I know it because I know Jeff Sessions. 
I am not testifying as someone who just met him yesterday. I 
know his family, I have dined at his house. We have eaten 
Johnny Rockets burgers together. I have traveled across the 
State of Alabama with Jeff Sessions. I have watched him order a 
Heath Blizzard at Dairy Queen, quote, ``heavy on the Heath.''
    I have watched him prepare for hearings. I have debated him 
on legislative matters. I have written speeches for him. I have 
made speeches on his behalf. I have been in every political 
situation with him. Senator Sessions is unquestionably 
qualified for the job for which he has been nominated. He is a 
good Christian man and a good family man.
    He is a man who has dedicated his life to public service, 
and in the course of that he has actually fought for the 
disenfranchised. He fought for citizen reform, and not only did 
he fight for it, he accomplished it. He fought for civil 
rights. He prosecuted members of the Ku Klux Klan and, most 
importantly, he has fought for the liberty of all Americans, 
regardless of the color of their skin or their personal 
beliefs. This is the way it should be. After 20 years of 
knowing Senator Sessions, I have not seen the slightest 
evidence of racism because it does not exist. I know a racist 
when I see one, and I have seen more than one, but Jeff 
Sessions is not one.
    Senator Sessions has served with distinction throughout his 
career as a U.S. Attorney, as Attorney General for Alabama, and 
as a Member of this body. The legal profession is better for 
his service, this body is better for his service, and this 
country, at the end of his term, will be better for his 
service.
    In every season, Jeff Sessions has been measured, 
courteous, and kind. He has treated me and everyone 
respectfully and fairly, not showing favoritism at any point. 
This is the kind of Attorney General that our Nation needs. I 
applaud his selection. I look forward to his swift 
confirmation. Thank you and War Eagle.
    Chairman Grassley. The record will stay open until Tuesday. 
I thank all of you for your testimony.
    The hearing is adjourned.
    [Whereupon, at 1:55 p.m., the Committee was adjourned.]
    [Additional material submitted for the record for Day 1 and 
for Day 2 follows.]

                            A P P E N D I X

              Additional Material Submitted for the Record

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
